<html>
<title> - CROSS BORDER TRUCK AND BUS OPERATIONS</title>
<body><pre>[Senate Hearing 107-983]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 107-983
 
                 CROSS BORDER TRUCK AND BUS OPERATIONS

=======================================================================

                                HEARING

                               before the

                         COMMITTEE ON COMMERCE,
                      SCIENCE, AND TRANSPORTATION
                          UNITED STATES SENATE

                      ONE HUNDRED SEVENTH CONGRESS

                             FIRST SESSION

                               __________

                             JULY 18, 2001

                               __________

    Printed for the use of the Committee on Commerce, Science, and 
                             Transportation







                   U.S. GOVERNMENT PRINTING OFFICE
89-350                       WASHINGTON : 2004
_______________________________________________________________________
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800, 
DC area (202) 512-1800 Fax: (202) 512-2250 Mail: stop SSOP, Washington, 
DC 20402-0001





       SENATE COMMITTEE ON COMMERCE, SCIENCE, AND TRANSPORTATION

                      ONE HUNDRED SEVENTH CONGRESS

                             FIRST SESSION

              ERNEST F. HOLLINGS, South Carolina, Chairman
DANIEL K. INOUYE, Hawaii             JOHN McCAIN, Arizona
JOHN D. ROCKEFELLER IV, West         TED STEVENS, Alaska
    Virginia                         CONRAD BURNS, Montana
JOHN F. KERRY, Massachusetts         TRENT LOTT, Mississippi
JOHN B. BREAUX, Louisiana            KAY BAILEY HUTCHISON, Texas
BYRON L. DORGAN, North Dakota        OLYMPIA J. SNOWE, Maine
RON WYDEN, Oregon                    SAM BROWNBACK, Kansas
MAX CLELAND, Georgia                 GORDON SMITH, Oregon
BARBARA BOXER, California            PETER G. FITZGERALD, Illinois
JOHN EDWARDS, North Carolina         JOHN ENSIGN, Nevada
JEAN CARNAHAN, Missouri              GEORGE ALLEN, Virginia
BILL NELSON, Florida
               Kevin D. Kayes, Democratic Staff Director
                  Moses Boyd, Democratic Chief Counsel
                  Mark Buse, Republican Staff Director
               Jeanne Bumpus, Republican General Counsel





                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on July 18, 2001....................................     1
Statement of Senator Allen.......................................     7
Statement of Senator Boxer.......................................     6
    Prepared statement...........................................     6
Statement of Senator Breaux......................................   141
Statement of Senator Dorgan......................................     5
Statement of Senator Ensign......................................    14
Statement of Senator Fitzgerald..................................    48
Statement of Senator Hollings....................................     1
    Prepared statement...........................................     2
Statement of Senator Kerry.......................................     9
    Prepared statement...........................................    10
Statement of Senator McCain......................................     3
Statement of Senator Nelson......................................    50
Statement of Senator Stevens.....................................    45

                               Witnesses

Acklie, Duane W., Chairman, American Trucking Associations.......   132
    Prepared statement...........................................   135
Claybrook, Joan, President, Public Citizen.......................    76
    Prepared statement...........................................    78
Emmett, Edward M., President, The National Industrial 
  Transportation League..........................................    65
    Prepared statement...........................................    66
Hoffa, James P., General President, International Brotherhood of 
  Teamsters......................................................    68
    Prepared statement...........................................    70
Mead, Hon. Kenneth M., Inspector General, Department of 
  Transportation.................................................    22
    Prepared statement...........................................    25
Mineta, Hon. Norman Y., Secretary, U.S. Department of 
  Transportation.................................................    14
    Prepared statement...........................................    17
Pantuso, Peter J., President and CEO, American Bus Association...   128
    Prepared statement...........................................   129
Vaughn, Captain Steve, President, Commercial Vehicle Safety 
  Alliance.......................................................    55
    Prepared statement...........................................    57

                                Appendix

Donohue, Thomas J., President and CEO, U.S. Chamber of Commerce, 
  prepared statement.............................................   151
Giermanski, Dr. James R., Professor and Director, International 
  Business Studies, Belmont Abbey College, prepared statement....   154
Gillan, Jacqueline S., Vice President, Advocates for Highway and 
  Auto Safety, prepared statement................................   157
Johnston, Jim, President, Owner-Operator Independent Drivers 
  Association, Inc., prepared statement..........................   162
La Sala, James, International President, Amalgamated Transit 
  Union, AFL-CIO, prepared statement.............................   165
Pikrallidas, Susan G., Vice President, Public Affairs, AAA, 
  prepared statement.............................................   153
Wytkind, Edward, Executive Director, Transportation Trades 
  Department, AFL-CIO, prepared statement........................   168


                 CROSS BORDER TRUCK AND BUS OPERATIONS

                              ----------                              


                        WEDNESDAY, JULY 18, 2001

                                       U.S. Senate,
        Committee on Commerce, Science, and Transportation,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 9:35 a.m. in room 
SR-253, Russell Senate Office Building, Hon. Ernest F. 
Hollings, Chairman of the Committee, presiding.

          OPENING STATEMENT OF HON. ERNEST HOLLINGS, 
                U.S. SENATOR FROM SOUTH CAROLINA

    The Chairman. Good morning. The Committee will come to 
order. This morning we have a hearing on Mexican trucking and 
it would probably be in order to say that this is not a hearing 
to repeal NAFTA, as somebody would think my holding the 
hearings due to my opposition to NAFTA at the time, this would 
be my first chance to repeal it.
    The truth of the matter is that I have the highest regard 
for this new President, President Fox, and the opportunity, I 
think we really do have a chance with Mexico and I am going to 
do my dead level best to make NAFTA work. In that light, when I 
see the headlines this morning, United States files scrutiny of 
trucks, of tougher policy for Mexican carriers. Not tougher at 
all in what we require of our own trucks and truck drivers.
    I hear that that is the irony of what we are going to use 
is use this to block Mexican trucking. On the contrary, we are 
not doing anything to discriminate against Mexican trucks. We 
have to make sure our trucks and trucking is not discriminated 
against. And it is a two-way street. We have got some catch up 
ball to practice in the sense that two years ago, almost, well, 
a year and a half, we created the Federal Motor Carrier Safety 
Administration, and the Clinton Administration appointed Clyde 
Hart the acting administrator, who helped us write it, and 
since January, this new administration hasn't even appointed 
one, so all of us politicians are running around flailing about 
safety, safety, safety, and we hadn't even appointed a safety 
administrator.
    The 27 checkpoints coming in from Mexico to the United 
States, and 22 of them have inspection facilities, so we have 
got to get some inspection facilities there. We have got to 
beef up our own work. I want to commend Senator Murray of 
Washington, the chairman of the Appropriations Subcommittee on 
Transportation because she has fashioned the right requirements 
on the appropriations bill that was marked up yesterday in the 
full--day before, last week, I guess it was, the transportation 
appropriation measure that will be debated probably tomorrow.
    Those provisions in there are objective and necessary and 
the ones that would be required of us, and, Mr. Secretary, I 
see there is some plans on course that the administration has, 
but we are going to have to get into that, because, for 
example, we found that the administration was opposing the fact 
of making a safety check at the site so that we could see the 
facilities and everything else down in Mexico, and the 
administration was saying no, all that was unnecessary, was 
just to send the paperwork up and we would audit the paperwork.
    That is not a safety check. Those are the kind of things 
that we want to be fair to our own trucking, and we want to be 
fair to Mexican trucking. With that, I put my full statement in 
the record and yield to our distinguished ranking member.
    [The prepared statement of Senator Hollings follows:]

              Prepared Statement of Hon. Ernest Hollings, 
                    U.S. Senator from South Carolina
    I would like to welcome all of the witnesses here today, including 
Secretary Mineta, to discuss this very important issue.
    If the Administration wants to open the border, we need to address 
safety concerns and make sure Mexican drivers and companies are playing 
by the same set of rules that our companies and drivers are held to.
    The language in the Senate Appropriations bill increases the amount 
of funding for border safety activities to $103 million--$15 million 
more than the Administration's request.
    The DOT IG asserts that more inspectors and improved inspection 
facilities are needed to ensure that unsafe Mexican trucks and drivers 
do not come into the United States and endanger American lives. We 
don't have these safeguards today.
    We should not ignore all of the safety and worker regulations that 
United States companies are required to comply with in the name of free 
trade. This debate demonstrates the problems associated with treaties 
like NAFTA. Because these trucks will be operating on our highways and 
in our towns we are finally looking at the difference between operating 
a business in the United States and operating a business in Mexico.
    We already have an important trade relationship with Mexico. United 
States Customs data show that there were over 4.5 million commercial 
motor vehicles crossings at the United States-Mexico border in 1999 
into the commercial zones. No one is proposing that we stop that 
existing traffic. We will however, require safety improvements before 
the DOT can grant authority for Mexican trucks to travel beyond those 
commercial zones.
    It is one thing to allow Mexican trucks to operate in defined 
border zones, but it is an entirely different proposition when they 
will be operating in your town or my home town.
    This language is not discriminatory, but requires that there be 
adequate funding for inspectors and facilities, and to ensure that we 
have the needed access to information about Mexican trucks and drivers 
and access to Mexican trucking companies to perform safety audits. 
These measures will allow us to open the border safely.
    Yes, the panel ruling required the United States to lift the 
blanket moratorium on Mexican trucks. But the panel ruling very clearly 
stated that the ``United States may not be required to treat 
applications from Mexican trucking firms in exactly the same manner as 
applications from United States or Canadian firms, as long as they are 
reviewed on a case-by-case basis''. It seems to me that safety ought to 
be a higher priority than increasing our truck traffic across the 
border.
    If you want to talk about free trade and our obligations under 
NAFTA, that is fine. But we have an obligation to the American public, 
to our citizens--it is our responsibility to ensure the safe operation 
of trucks within U.S. territory, whether ownership is United States, 
Canadian or Mexican--we should prioritize our obligations and put 
safety at the top of the list.
    Questions have been raised about the effectiveness of the Mexican 
drug and alcohol testing program for commercial drivers. About 10 years 
ago, I pushed through an amendment to make sure that we required drug 
and alcohol testing because it would save lives--this same standard 
should apply to all truck drivers on United States highways, regardless 
of where the truck is registered.
    We know that Mexico allows heavier trucks on their highways. We 
also know that one fully loaded 18-wheeler does the same amount of 
damage to the highway as 9,600 cars. The safety issues and costs of 
heavier Mexican trucks on United States roads must be addressed before 
we open the border.

                STATEMENT OF HON. JOHN McCAIN, 
                   U.S. SENATOR FROM ARIZONA

    Senator McCain. I thank you, Mr. Chairman, for holding this 
morning's hearing. It is particularly appropriate in light of 
an appropriations bill, which included provisions concerning 
the cross-border implementation of NAFTA, that may be on the 
floor as early as today or certainly very soon. I think it is a 
very important hearing. Some will be approaching today's 
hearing from a trade perspective, others will be taking a truck 
safety perspective. I will be approaching it from both.
    I firmly believe that we must abide by all of our 
obligations under NAFTA. I believe we must implement the cross 
border provisions and can do so while carrying out a strong and 
balanced safety enforcement agenda. While Chairman Hollings and 
I may hold differing views on NAFTA as it relates to trade, we 
have worked closely over the years in an effort to promote 
safety, which has been one of this Committee's top priorities.
    Senator Hollings and I worked on a bipartisan basis to help 
craft the safety provisions included in TEA-21. We also joined 
together in sponsoring legislation to create the Federal Motor 
Carrier Safety Administration, working to ensure the critical 
issue of motor carrier safety was not overlooked within the 
Department. Ken Mead and his staff were critical to this 
legislative initiative, designed to improve truck and bus 
safety and to make our highways safer. And the continued work 
by the IG in monitoring work with the new safety agency remains 
key to our Committee's oversight efforts.
    In my judgment, we must continue to address motor carrier 
safety across the board and on a nondiscriminatory basis. I 
will remain a strong advocate of highway safety, and will do so 
as an equally enthusiastic advocate of free trade.
    Let me say from the outset I strongly support the 
President's plan to implement the cross border provisions under 
NAFTA. Since the Clinton Administration's last-minute 
announcement to prevent cross border operations in the four 
border states in December 1995, I have consistently and 
repeatedly prodded the Administration to let us know what was 
needed from the Congress, what resources were necessary in 
order for us to comply with our legal obligations under the 
trade agreement--I emphasize our legal obligations--to address 
any legitimate safety issues and safety concerns, to address 
the Administration's publicly stated rationale for the delay. 
Of course, these efforts landed largely on deaf ears because 
the former Administration simply did not intend to open the 
border. Its goal was simply to appease special interests. 
Period.
    On February 6th, the former Administration's blanket 
refusal to implement the cross border provisions was determined 
by a dispute panel to be in violation of the North American 
Free Trade Agreement. In response to that finding, President 
Bush announced the United States would open the border and do 
so by the end of year.
    I applaud the President for understanding the necessity of 
abiding by our trade agreement and also for proposing 
additional resources to ensure safety resources to carry it out 
at the same time. If we do not comply with NAFTA, the Mexican 
government holds full authority to impose harsh sanctions on 
our exports into their country.
    The Mexican government could impose sanctions immediately 
but has demonstrated the willingness to allow the United States 
additional time in order to finalize rules that will ensure 
compliance with our federal laws and regulations and to ensure 
safety of Mexican trucks that will be operating in the U.S.
    Unfortunately, the other body has taken action as part of 
the fiscal year 2002 DOT Appropriations bill to prevent the 
President from abiding by NAFTA. It adopted an amendment to 
prohibit the federal approval of any Mexican carriers to 
operate in this country. This is wrong. It is in direct 
violation of NAFTA. It is discriminatory. And, it must not 
prevail.
    Last week, the Senate Appropriations Committee approved its 
version of the DOT Appropriations bill, which could be brought 
before the Senate any time. This appropriations bill provides 
significant funding to enable the Department of Transportation 
to hire more inspectors and build more inspection facilities at 
the southern border, and I commend the Committee for this 
action. I have concerns, however, over a number of requirements 
included in the bill that if enacted without modifications, 
could effectively prevent the opening of the border 
indefinitely.
    I strongly support balanced transportation safety 
initiatives, and stand ready to work with my colleagues to 
strengthen our safety enforcement regime uniformly. But I 
cannot support provisions that place unnecessary requirements 
on Mexican operators that are not required of Canadian or 
American operators. I am also concerned that while some of the 
provisions are well-intended, they could be improved upon to 
ensure the most efficient use of resources. Above all, I cannot 
support provisions designed to simply prevent the opening of 
the border and maintain delay under the guise of safety.
    Given the DOT Appropriations bill could be on the floor as 
soon as today, I will be very eager to hear Secretary Mineta's 
views regarding the pending bill's provision. I urge this 
Committee to consider the Secretary's views carefully as he is 
one of the most respected members of the Cabinet and a former 
colleague of ours. I am also very interested in hearing the 
views of the DOT Inspector General and the rest of the 
witnesses.
    I pledge to do all I can to ensure the scare tactics of the 
special interests do not prevail. I will fight to ensure that 
the border is opened by the end of this year and is done so in 
a safe and balanced manner. I thank you, Mr. Chairman.
    The Chairman. Very good. Senator Dorgan.

                STATEMENT OF HON. BYRON DORGAN, 
                 U.S. SENATOR FROM NORTH DAKOTA

    Senator Dorgan. Mr. Chairman, thank you very much. It is 
not a secret that I think NAFTA has been a failure both on the 
Mexican side and Canadian side for U.S. interests. This 
discussion is broader than just that, and let me just describe 
my concerns. We are trying to plug together two economies that 
in many ways are very difficult to connect. The Inspector 
General report of just May 8th of this year has the following 
information.
    Currently, the only permanent inspection facilities at the 
United States Mexican border are in Calexico and Otay Mesa, 
California. Two of them. At 20 crossings, of the other 25 
border crossings, FMCSA inspectors did not have dedicated 
telephone lines to access databases and validate commercial 
driver's licenses. At 19 crossings, inspectors had no space to 
inspect more than one or two trucks at a time. At 14 crossings 
inspectors had one or two spaces to park vehicles placed out of 
service.
    The Inspector General's report is 2 months old. Go to the 
San Francisco Chronicle, a reporter did a fascinating report, 
riding with a Mexican trucker. Rode 3 days, the trucker slept 7 
hours, 3 days, 7 hours. There are no minimum standards of 
service. There are no logbooks, there is a requirement but they 
do not keep logbooks, no drug testing. The fact is there isn't 
anything near the standards we impose on American truckers with 
respect to the Mexican truck industry and it seems to me we 
have every right in this country to want to make sure we have 
continued safety on America's highways.
    Mexican truckers are paid an average of about $7 a day. In 
most circumstances, they are driving trucks that when inspected 
at our borders show very significant serious safety violations. 
I won't go over that, but it is in the IG's report.
    Now, Mr. Chairman, the ultimate perversion of our trade 
policies it seems to me will be a future in which unsafe 
Mexican trucks haul unfairly subsidized Canadian wheat into 
U.S. cities. And you will pardon me for thinking that is just 
nuts. The fact is it is not radical to demand policies that 
require both fair trade and safe highways, and that is what 
this issue is about. There isn't anyone who in my judgment can 
tell us that there is a ghost of a chance in any near term to 
have a system with respect to the Mexican truck industry that 
anywhere nearly equates to what we do in this country to assure 
safety on America's highways, safety inspections, logbooks, 
minimum hours of service, drug testing and on and on down the 
line.
    That does not now exist with the Mexican trucking industry, 
and we ought not point to some trade agreement which 
incidentally I did not support in the first instance, but we 
ought not point to a trade agreement to suggest that requires 
us to allow that trucking industry to move those vehicles into 
this country.
    So, Mr. Chairman, this will be a fascinating hearing. I 
think it is very important. I do not know whether I will offer 
an amendment to adopt the House standards on the Senate floor, 
but I am considering that, and my feeling is at this point we 
simply ought to say no, you cannot do this until we have 
standards that assure safety on United States highways with 
respect to Mexican trucks.
    The Chairman. Very good. Senator Boxer.

               STATEMENT OF HON. BARBARA BOXER, 
                  U.S. SENATOR FROM CALIFORNIA

    Senator Boxer. Thank you very much, Mr. Chairman, for 
holding this hearing. I asked for it and you complied and I 
greatly appreciate it. It is a very important issue to my home 
state as Mr. Mineta knows. My state has about 23 percent of all 
the NAFTA truck traffic. If our nation's highways are 
completely open to these trucks, I am concerned that there will 
be many unsafe trucks or I should say I know there will be many 
unsafe trucks driving on our highways and our roads.
    In 1999, there were 4.5 million commercial motor vehicles 
crossing at the border. It is estimated that most of those 
crossings were made by 80,000 trucks. The opening of the border 
is expected to increase the number of NAFTA trucks. Currently, 
the DOT has 190 applications from companies wanting full 
access. Unless safety standards are improved and enforced, the 
result will be that Californians, whether driving to work or 
whether driving their kids to soccer games, Mr. Chairman, will 
be sharing the road with drivers who are sleep deprived and 
whose trucks are not safe.
    And I respect my colleagues who say that my opposition to 
this is a special interest, and I plead guilty. I have a 
special interest in ensuring that the people of my state who I 
represent are safe. That is my concern and that is my interest. 
I would ask unanimous consent that my statement be entered into 
the record.
    [The prepared statement of Senator Boxer follows:]

               Prepared Statement of Hon. Barbara Boxer, 
                      U.S. Senator from California
    Good morning. Mr. Chairman, I appreciate you holding a hearing on 
this important topic today.
    This is a key issue for the state of California. My state has about 
23 percent of all of the North American Free Trade Agreement (NAFTA) 
truck traffic. If our nation's highways are completely open to these 
trucks, I am concerned that there will be many unsafe trucks driving on 
our highways and roads.
    In 1999, there were 4.5 million commercial motor vehicles crossing 
at the border. It is estimated that most of these crossings were made 
by 80,000 trucks.
    The opening of the borders is expected to increase the number of 
NAFTA trucks. Currently, the Department of Transportation has 190 
applications from companies wanting full access. Unless safety 
standards are improved and enforced, the result will be that 
Californians-whether driving to work or to their children's soccer 
game-will be sharing the road with drivers who are sleep deprived and 
whose trucks are not safe.
    There are several issues that I hope will be addressed today.
    First, I am concerned about the safety standards of NAFTA drivers. 
If we compare U.S. standards to those in Mexico, we can see that 
Mexican workers are not protected. For example, U.S. drivers can drive 
up to ten hours consecutively and work up to 15 consecutive hours, with 
a mandatory eight hours of rest. Overall, U.S. truck drivers cannot 
drive more than 70 hours during each eight day period. Mexican drivers 
do not have such protections. They are forced into working long hours-
and tired drivers are not safe on our highways.
    For the protection of all drivers on the highways, U.S. drivers 
have random drug tests, medical condition disqualifications, and must 
be 21 to receive a commercial drivers' license. This is not true for 
cross-border truck drivers.
    Second, I am concerned about the condition of the trucks. Cross-
border trucks are not required to have as comprehensive standards as 
U.S. trucks in areas such as anti-lock brakes, underride guards, night 
visibility, and front brakes.
    Cross-border trucks have a higher weight limit of 135,000 pounds 
versus 80,000 in the U.S. Trucks that weigh more than the limit will 
cause highways and roads to deteriorate more quickly. Also, heavier 
trucks result in accidents because they cannot brake as quickly. For 
example, a 100,000 pound truck travels 25 percent further after the 
driver steps on the brakes than will an 80,000 pound truck.
    Third, I am concerned about lax standards in hazardous materials. 
If there is an accident and certain chemicals are not labeled, this can 
be a life-threatening situation for police and firefighters who arrive 
at the scene of the accident.
    Fourth, I am concerned about enforcement. Currently, one percent of 
all trucks crossing the border are inspected. The Inspector Generator 
has stated that more inspectors-at least 139-are crucial as a deterrent 
to unsafe trucks.
    Mr. Chairman, I look forward to discussing these issues with the 
witnesses, and I thank you again for holding this hearing.

    Senator Boxer. In about 1 minute I'd like to share with the 
Committee a chart that summarizes my concerns. It is kind of 
small, but I am going to read it. In the United States, the 
rules on hours of service, 10 hours of consecutive driving, up 
to 15 hours of consecutive duty, 8 hours consecutive rest, 
maximum of 70 hours of driving in the 8-day period.
    In Mexico, hours of service laws, zero. There are none. 
Random drug tests. In America, yes for all drivers. In Mexico, 
none. Medical condition disqualification, in the United States, 
yes, you can disqualify a driver because of a medical 
condition. In Mexico, no. Driver's age for interstate driving, 
21 in America. 18 in Mexico. Logbooks in Mexico, not required. 
Are they required in our country? Yes. Maximum weight, 80,000 
pounds in the United States, 135,000 pounds in Mexico. Roadside 
inspections, yes in the United States, no in Mexico. Vehicle 
safety standards, we have comprehensive standards for 
components such as anti-lock brakes, night visibility of 
vehicles and front brakes. In Mexico, less rigorous, for 
example, front brakes are not required. Hazardous material 
rules. We have district standards, training, licensure and 
inspection regime. In Mexico, it is lax, fewer identified 
chemicals and substances and fewer licensure requirements.
    [The information referred to follows:]



    Senator Boxer. So, Mr. Chairman, I don't think that you 
need a degree in truck safety to understand the differences 
here. As Senator Dorgan has said, you are talking about two 
very, very different regimes here, and the important thing is 
that we make sure that the trucks on our highways are safe and 
that the drivers in those trucks are rested.
    Anything less than that is putting our people at risk. 
Period. End of quote. I do not see how we could rationalize it 
any other way. I want to see this trade go forward, but I want 
to see it go forward in a manner which protects the people who 
are on the highways. And that is, that is the essence of my 
statement. And I again thank you so much for this hearing. I 
think it is timely and very important.
    The Chairman. Very good. Senator Allen.

                STATEMENT OF HON. GEORGE ALLEN, 
                   U.S. SENATOR FROM VIRGINIA

    Senator Allen. Thank you, Mr. Chairman. I am coming here, 
Mr. Chairman, to get more information because I know there may 
be a vote, however inappropriate it may to be have policy 
amendments on appropriations bills, this is probably the place 
these issues ought to be discussed--in the Committee that deals 
with transportation. I know that Senator McCain argues very 
strongly for proper discipline and protocol in legislating 
matters and process.
    As far as NAFTA, I do not think that this is so much an 
argument over whether NAFTA is good or bad. I generally think 
on balance NAFTA has been very good for our country, and 
respectfully disagree with Senator Dorgan on one aspect. It 
doesn't matter what they are hauling, whether it is wheat or 
avocados. The question is more like what I believe Senator 
Boxer said, and the question is really safety, the issue of 
safety and that is it and the fact that the United States has 
entered into the NAFTA agreement means that we have to comply 
with certain agreements.
    Well, I think we should keep our word, and again, I do 
think on balance, NAFTA is been very good for both countries. 
But on the issue of safety, the United States retains the right 
and jurisdiction to monitor safety and have safety standards on 
our roads. And we do want to have free trade, but the safety of 
our roads cannot be compromised. We have a right to set 
standards. And, if Mexico wants to have speed limits that are 
higher than ours, it may. I wish our speed limits were higher 
on our interstates personally, but regardless, that is set by 
the states in our country, and if Mexico wants to set higher 
ones, that is fine, on their roads. On the other hand, they 
have to abide by our laws when they are on our roads and that 
is simply a matter of our sovereignty and jurisdiction.
    Regarding the Mexican license procedures, they can have 
whatever they choose, but it seems to me that we ought to be 
assured that those drivers from Mexico or residents of Mexico 
who are driving on our roads do meet whatever our requirements 
are for our safety. Whether they have front and back brakes and 
so forth on trucks in Mexico is up to the people of Mexico, 
however, if a Mexican truck is going to drive on the roads of 
California, Virginia, Texas, or New Hampshire, they ought to 
have the same safety equipment that we require on our roads.
    And the fact that Mexico doesn't have hours of service 
rule, I almost wish you had your chart there, but regardless, 
the fact is they do not have many hours of driving restrictions 
or they have no requirements, and that is their business. The 
only thing that would matter to us on that issue would not be 
to make Mexico have the same rules as we do on their roads, but 
to have some assurance that when a driver is coming into the 
United States, find out how long have they been behind the 
wheel prior to coming to our border in those previous 24 hours. 
That is all that matters to us.
    So there are some parts of that that are probative and 
useful. There are other parts that I don't think are. But that 
is the only way that I think it matters to us is what have they 
been doing for the 24 hours previously. I think that our open 
policy is one that is fully consistent and dependent on the 
safety issues involving both trucks and the men and women who 
are behind the wheel and driving them.
    I personally do not have a great deal of confidence in the 
ability at this point of the Federal Government or the states 
to implement a plan to ensure the safety of our roads and 
further advance economic benefits of free trade for both the 
people of Mexico and the people of the United States. And I 
think it is very important, Secretary Mineta, Mr. Mead, to 
address these safety concerns and these inadequacies with our 
current system.
    No one should be blissfully saying everything is fine and 
we can handle it, and I think that the administration's efforts 
and specifically it is not just efforts, it is actual 
allocation of money, appropriations, to hopefully address these 
inadequacies to make sure there are those safety inspections of 
those trucks as well as our trucks, United States trucks, as 
well as making sure that the drivers are properly licensed and 
capable of handling these rigs on our roads is very important 
and I think that is going to be the most essential thing to me 
is convincing not just this Senator from Virginia, but other 
Senators that these appropriations and the increased staffing 
and the facilities that would be created for inspections 
generally at the border will adequately protect the safety of 
motorists on the roads of the United States. Thank you, Mr. 
Chairman.

    The Chairman. Senator Kerry.

                 STATEMENT OF HON. JOHN KERRY, 
                U.S. SENATOR FROM MASSACHUSETTS

    Senator Kerry. Mr. Chairman, thank you very much for having 
this hearing. I'd like to ask unanimous consent the full text 
of my statement be put in the record.
    The Chairman. Without objection.
    Senator Kerry. I sent a letter together with nine 
colleagues to the administration recently reflecting our 
concern, the concern that a number of us who have been pro-
trade about the question of, the Senator I just heard him 
talking about safety issues, and I am deeply concerned about 
the gap between what happens in the United States, what 
happens, we are all familiar with the issue here of the safety 
inspection itself, concerns about increased pollution on our 
roads, as there is no compliance in certain cases with 
inspections there, safety. The question of drivers who are 
fatigued, who come into the United States by a whole different 
standard in this country.
    Normally, in the trade relationship, Mr. Chairman, as you 
know better than anybody, we are talking about goods going from 
one country to another. Last year in Massachusetts, we exported 
over $1.1 billion worth of goods to Mexico. That was a 60 
percent increase over the prior year, but in this particular 
case, you are not just talking about the goods crossing the 
border, you are talking about a vehicle and an individual in 
the sense of job coming across that continues from what took 
place in another country here and our country.
    It is really a variance on the norm that has guided our 
thinking about these relationships, so I think it is 
appropriate for us to be thinking considerably differently 
about what is proper for us, even in the context of NAFTA and 
the agreements and the finding of the board recently about what 
our requirements are. There were some very clear imperatives 
that ought to guide us in this.
    I might add that I wrote the President last month to 
express the dissatisfaction a number of us had. I was joined by 
nine colleagues, all of whom have very strong free trade 
credentials. We have yet to have any kind of substantive 
response to those concerns that we have expressed, so I am glad 
you are having this hearing today as an opportunity to explore 
some of these concerns.
    [The prepared statement of Senator Kerry follows:]

                Prepared Statement of Hon. John Kerry, 
                    U.S. Senator from Massachusetts
    Mr. Chairman, thank you for holding this timely hearing.
    I'd like to make clear at the outset that I take very seriously the 
importance of honoring our international trade agreements. If we are to 
expect other nations to abide by international agreements, we must play 
by the rules as well. So I fully support the President's stated desire 
to open the border to Mexican-domiciled trucks so that we are in 
compliance with the February ruling of the NAFTA arbitration panel.
    Mexico is a valuable trading partner for my state and a strong ally 
for our nation. Last year, Massachusetts exported $1.1 billion million 
worth of goods to Mexico--a 60 percent increase over the previous year. 
Since NAFTA took effect in 1994, our state's exports to Mexico have 
more than doubled. Mexico is now Massachusetts' seventh-largest trading 
partner. Clearly, I do not want to see damage done to our relationship 
with this important trade partner.
    That being said, I believe that when it comes to allowing Mexican 
trucks on United States highways, highway safety and our international 
obligations need not be mutually exclusive.
    I think it's pretty clear that the Administration's rhetoric 
regarding highway safety did not match the rules that the Federal Motor 
Carrier Safety Administration promulgated this spring. Last month, I 
wrote to the President to express my dissatisfaction with these rules 
and I was joined by nine of my colleagues, all of whom have very strong 
free trade credentials. Unfortunately, we have yet to receive a 
substantive response.
    According to the rules proposed by the Administration, Mexican-
domiciled trucks will not be subject to thorough safety reviews until 
at least 18 months after receiving full access to American roads, and 
may not ever be subject to on-site safety reviews. I believe that this 
delay could seriously jeopardize highway safety, road conditions and 
environmental quality. The Mexican government does not have a domestic 
truck safety system that is equivalent to United States law--a fact 
acknowledged by the NAFTA panel. Mexico does not have hours-of-service 
laws and has only recently proposed the use of logbooks to record 
driving history. These facts raise the possibility that cross-border 
truckers could easily enter United States highways in fatigued 
condition. The Department of Transportation Inspector General has 
argued repeatedly that ``fatigue is a major factor in commercial 
vehicle crashes.''
    The lack of sufficient inspection resources at the border and the 
proposed 18-month delay between the approval of general cross-border 
trucking applications and actual safety enforcement means that trucks 
may easily enter the United States over federal weight and size limits, 
a condition both inherently more dangerous to travelers and more 
stressful to our roadways. The sheer size of these vehicles ensures 
that when trucks are involved in highway accidents, the damage is 
disproportionately greater than in non-truck crashes. Although large 
trucks were involved in only 4 percent of injury-only and property-only 
motor vehicle crashes in 1998, they were involved 9 percent of fatal 
crashes. Greater truck size or weight could easily lead to more serious 
accidents, resulting in more truck-related fatalities on our highways.
    I am pleased that Senator Murray--working with my good friend 
Senator Hutchison who is on this committee--has crafted language in the 
Transportation Appropriations bill that addresses many of these safety 
concerns.
    I would also like to see the bill address some of the environmental 
concerns raised. I'm afraid that without the ability to safeguard 
emissions standards on trucks entering the US, we may find a further 
dirtying of the air in cities not only around the border, but up to 
Dallas, Little Rock and other cities on major interstates that connect 
to border crossings. I may offer an amendment to address this problem 
by requiring a joint DOT and EPA study of the impact on US air quality 
of full implementation of NAFTA's cross-border trucking provisions as a 
precondition for a full border opening.
    Nevertheless, I know that Senator Murray and Senator Hutchison 
worked many hours to develop the language in the bill, and I am 
grateful, Senator Hutchison, for the leadership that you both have 
demonstrated and I thank Chairman Hollings for his leadership on this 
issue as well.

    The Chairman. Just a second now, Mr. Secretary. I am going 
to insert in the record what you will find in the Committee 
report on the transportation appropriation bill on the Senate 
side entitled on the one side the problem and the solution on 
the other. The Murray truck provisions that are included in 
that appropriations bill. You can see it outlined actually, I 
think, the administration had asked for 80 million and we 
increased it some 15 million dollars to see if we couldn't beef 
up these inspection points, otherwise there was that question, 
too, of the blanket refusal to permit Mexican trucks into the 
United States and it came before the NAFTA arbiter panel in the 
matter of cross border trucks and I will include that finding 
also in the record, but I quote just a couple of sentences.
    It is not disagreeing, that is, the finding is not 
disagreeing that the safety of trucking services is a 
legitimate regulatory objective, nor is the panel imposing a 
limitation on the application of safety standards properly 
established, and apply pursuant to the applicable obligations 
of the parties under NAFTA.
    United States authorities are responsible for the safe 
operation of trucks within United States territory, whether 
ownership is United States, Canadian or Mexican, so we are not 
in violation of NAFTA, and we welcome you to the Committee and 
are delighted to hear from you at this time.
    [The information referred to follows:]

The Problem
Absence of Border Inspectors
    At present, federal and state border inspectors are on duty 24 
hours-a-day at only 2 of 27 border crossings. Mexican trucks crossing 
the border during off hours are not subject to inspection.
The Solution as addressed in the Murray Truck Safety Provision
    The Murray provision prohibits the full opening of the border until 
the DOT Inspector General certifies that all border crossings 
accommodating Mexican trucks have inspector coverage when the border is 
open.

    [Note: ``Mexican trucks'' here, and hereafter in this document, 
refer to Mexico-domiciled commercial motor vehicles operating beyond 
the commercial zone]
The Problem
More Fully Trained Inspectors Needed
    At present, the level of inspector resources is not adequate to 
handle even the current level of limited traffic from Mexican trucks--
much less the influx of trucks expected once the border is fully 
opened. It takes anywhere from 6 months to a year to actually hire and 
fully train a new safety inspector.
The Solution as addressed in the Murray Truck Safety Provision
    The Appropriations bill fully funds the Administration's request 
for 80 additional border inspectors. The Murray provision prohibits the 
full opening of the border until the DOT Inspector General certifies 
that all of these inspectors are fully trained as safety specialists 
capable of conducting compliance review and that the Administration has 
not accomplished this goal by transferring experienced inspectors 
elsewhere in the country to the border so as to undermine the level of 
inspection coverage and safety elsewhere in the nation.
The Problem
Inspection Plans Are Inadequate
    The DOT plans to issue conditional operating certificates to 
Mexican trucking firms to enter the United States based largely on the 
answers from a questionnaire. The DOT will perform a full safety audit 
of these firms within 18 months of the operating certificate being 
granted. The firm can operate freely in the United States throughout 
this 18-month period.
The Solution as addressed in the Murray Truck Safety Provision
    The Murray provision requires the DOT to perform a full safety 
audit of each Mexican trucking firm before any conditional operating 
certificate is granted and then perform a full follow-up safety audit 
again within 18 months before a permanent operating certificate can be 
granted.
The Problem
Inspection Venue is Inadequate
    The DOT is planning to perform its safety audits of Mexican 
trucking firms at the border rather than at each firm's facilities. For 
both United States and Canadian trucking firms, the DOT conducts 
compliance reviews at each firm's facilities.
The Solution as addressed in the Murray Truck Safety Provision
    The Murray provision requires that all safety audits of Mexican 
trucking firms take place on-site at each firm's facilities.
The Problem
Mexican Trucks Have No Record Of Compliance with Hours-Of-Service
    Only in the last few months has Mexico established hours-of-service 
rules and the vast majority of Mexican truckers are exempt. As such, 
Mexican truckers will have no experience with compliance with such 
rules and United States inspectors will not know how long a trucker has 
already been driving when they arrive at the border.
The Solution as addressed in the Murray Truck Safety Provision
    The Murray provision prohibits the full opening of the border until 
the DOT Inspector General certifies that the Federal Motor Carrier 
Safety Administration has implemented a policy to ensure compliance on 
the part of Mexican truckers with pertinent hours-of-service rules. The 
DOT will be required to give a distinctive DOT number to all Mexican 
trucks operating beyond the commercial zone to assist state inspectors 
in enforcing hours-of-service regulations.
The Problem
Validity of Driver's Licenses, Vehicle Registration and Proof of 
        Insurance Are Not Verifiable And Are Not Routinely Checked
    Most border crossing inspection stations do not even have telephone 
lines much less computer linkages to confirm that licenses carried by 
Mexican truckers are valid. Many state inspectors do not routinely 
check the status and validity of the licenses, registration or 
insurance of Mexican drivers/vehicles that are inspected at the 
roadside. This is true even where the telephone or computer links do 
exist. The Mexican computer databases regarding licenses are terribly 
inadequate.
The Solution as addressed in the Murray Truck Safety Provision
    The Murray provision prohibits the full opening of the border until 
the DOT Inspector General certifies that the information infrastructure 
of the Mexican authorities is sufficiently accurate and accessible to 
verify licenses and that adequate telephonic and computer links exist 
at all border crossings and in all mobile enforcement units operating 
adjacent to the border to ensure the opportunity to verify licenses. 
The DOT will require all federal and state inspectors to electronically 
verify the status and validity of the license of every Mexican trucker 
crossing the border.
The Problem
Federally-Funded Inspectors Not Enforcing Federal Regulations
    Even though most state truck inspectors are compensated largely 
with federal tax dollars, many inspectors at the border do not enforce 
federal registration regulations when they differ from state 
requirements. For example, only California inspectors require Mexican 
trucks to show proof of operating authority. Moreover, state 
inspectors, when they find a deficiency that is a violation of federal 
but not state law, do not always refer the case to a federal inspector 
for enforcement.
The Solution as addressed in the Murray Truck Safety Provision
    The Murray provision prohibits the full opening of the border until 
the DOT requires that all state inspectors funded in part or in whole 
with federal funds will check for violations of federal regulations. 
All violations detected by state inspectors of federal law will be 
either enforced by state inspectors or forwarded to federal authorities 
for enforcement action.
The Problem
Inadequate Facilities for Truck Inspections
    At seventy percent of border crossings, motor carrier inspectors 
currently have space to only inspect 1 or 2 trucks at a time. At more 
than half of the border crossings, inspectors currently have only 1 or 
2 spaces to park vehicles placed out of service, undermining the 
ability of the inspectors to order unsafe trucks off the road.
The Solution as addressed in the Murray Truck Safety Provision
    The Murray provision prohibits the full opening of the border until 
the DOT Inspector General has certified that there is adequate capacity 
to conduct a sufficient number of meaningful truck inspections to 
maintain safety.
The Problem
Insurance Should be Valid, Easily Verified, and carry the same minimum 
        liability requirements applied to US and Canadian motor 
        carriers
    Public liability insurance is a basic requirement for motor 
carriers operating in the US. Different minimum levels exist for 
passenger, household goods, hazmat and cargo operations. In addition, 
US insurers have a working relationship with the DOT and notify them in 
situations where a motor carrier's insurance lapses, at which time the 
DOT will revoke operating authority.
The Solution as addressed in the Murray Truck Safety Provision
    The Murray provision would require that a motor carrier provide 
proof of valid insurance with an insurance company licensed and based 
in the United States. These same requirements currently apply to 
Canadian motor carriers operating in the United States.
The Problem
Inadequate Capacity To Check Compliance With United States Weight 
        Limitations
    Mexican trucks are currently permitted to operate in Mexico at axle 
and gross weights which are far higher than United States standards. 
Overweight trucks pose a greater safety risk to the driving public but 
there is little if any infrastructure to weigh trucks at the border.
The Solution as addressed in the Murray Truck Safety Provision
    The Murray provision prohibits the full opening of the border until 
the DOT has equipped all Mexican border crossings with Weigh-In-Motion 
(WIM) systems as well as fixed scales suitable for enforcement action. 
The DOT will be required to verify the weight of all commercial 
vehicles entering the United States
The Problem
Inadequate Data On Safety Record Of Mexican Trucking Firms and Drivers
    Unlike the United States, Mexico does not currently have a 
comprehensive mechanism to collect data on the safety record of Mexican 
trucking firms and drivers.
The Solution as addressed in the Murray Truck Safety Provision
    The Murray provision prohibits the full opening of the border until 
the DOT Inspector General certifies that there is an accessible 
database containing sufficiently comprehensive data to allow for safety 
performance monitoring of all Mexican firms applying for operating 
certificates and for all Mexican drivers that may enter the United 
States. Also, the DOT IG must certify that measures are in place 
similar to those in the United States to ensure that Mexican drivers 
who lose their licenses cannot obtain another one through surreptitious 
means.
The Problem
Critical Safety Rules Not In Place
    DOT has rushed to implement the rules to allow Mexican trucks to 
enter the United States. At the same time, several safety-related 
rulemakings which pertain to Mexican carriers and are required by law, 
have not been finalized.
The Solution as addressed in the Murray Truck Safety Provision
    The Murray provision prohibits the full opening of the border until 
the DOT publishes in final form the following overdue regulations:

  <bullet> rules establishing minimum requirements for motor carriers, 
        including foreign motor carriers, to ensure they are 
        knowledgeable about federal safety standards, including the 
        administration of a proficiency exam;

  <bullet> rules implementing measures to improve training and provide 
        for the certification of motor carrier safety auditors;

  <bullet> rules requiring the development of staffing standards to 
        determine the appropriate number of federal and state motor 
        carrier inspectors for the Mexican border;

  <bullet> rules prohibiting foreign motor carriers from leasing their 
        vehicles to another carrier to transport products to the United 
        States while the firm is subjected to a suspension, 
        restriction, or limitation on its right to operate in the 
        United States; and

  <bullet> rules disqualifying permanently from operating in the United 
        States any foreign motor carrier that is found to have operated 
        illegally in the United States.

    The Chairman. John, excuse me. I apologize.

                STATEMENT OF HON. JOHN ENSIGN, 
                    U.S. SENATOR FROM NEVADA

    Senator Ensign. Thank you, Mr. Chairman. I actually have to 
apologize. I have a Banking Committee markup and I have to be 
going to that, but I am pleased that you are having this 
hearing today because I think that this is a very important 
issue. As somebody living in the Southwest who has the CanaMex 
Highway coming right through our state, I think it is very 
important that we have absolute safety requirements met for the 
public, address environmental concerns, and all the various 
issues that the other Senators have been talking about this 
morning. I think having a hearing and discussing these issues 
this morning, making sure that we are able to enforce United 
States laws on United States highways, and making sure that the 
trucks, whether they are from Canada or Mexico or the United 
States, are meeting all of those safety and environmental 
concerns. I think it is very important so I applaud you for 
having this hearing. I apologize. I will be coming in and out. 
Hopefully the Banking Committee markup won't take too long. 
Thank you, Mr. Chairman.
    The Chairman. I understand. Secretary Mineta.

        STATEMENT OF HON. NORMAN Y. MINETA, SECRETARY, 
               U.S. DEPARTMENT OF TRANSPORTATION

    Secretary Mineta. Mr. Chairman and Senators of the 
Committee, it is a great pleasure for me to have this 
opportunity to appear before you and to have this chance to 
explain our plans for the safe admission of commercial trucks 
and buses into the United States from Mexico.
    Approved by Congress in 1993, the North American Free Trade 
Agreement was based on a single premise, that all of the 
countries in North America would be integrated into one free 
trade area. However, NAFTA's requirements that all countries in 
North America open their borders to commercial vehicle traffic 
still has not been implemented 8 years after ratification.
    Last February, a NAFTA arbitration panel determined that 
the United States had violated its legal obligations to Mexico. 
It authorized Mexico to impose significant economic sanctions. 
President Bush has assured President Fox that the United States 
would move in a timely manner to meet our NAFTA obligations.
    I acknowledge the significant concerns that everyone has 
expressed, including the public, about the NAFTA issues. Recent 
votes by the United States House of Representatives and the 
United States Senate Appropriations Committee on this matter 
have sent a very clear message. Congress will insist that the 
United States have a rigorous, effective safety program in 
place prior to implementing the truck and bus access provisions 
of the NAFTA.
    Now Mr. Chairman, as all of you know, I have been the 
Secretary of Transportation since the 25th of January of this 
year. You have my personal assurance that I also share the same 
commitment that all of you have expressed. The Bush 
Administration wants to work with Congress to reach consensus 
on a plan to meet our NAFTA obligations without sacrificing 
safety. I am disappointed, therefore, that the House voted to 
bar the use of any departmental funds in the next fiscal year 
to process applications for Mexican carriers that seek to 
operate outside United States commercial zones.
    As the Administration has formally stated, on at least one 
previous occasion, President Bush's senior advisors would 
recommend that he veto any bill containing provisions that 
foreclose the possibility of meeting our NAFTA obligations. 
While I am grateful to the Senate Appropriations Committee for 
providing funding for the inspectors and improvements described 
later in this testimony, I have serious concerns that the 
numerous conditions that the Committee at this point has 
placed, that the Committee has placed on actions to open the 
border. I believe that four core principles must guide our 
efforts to implement the NAFTA truck and bus access provisions.
    First, safety is the Department of Transportation's highest 
priority, and we will not sacrifice safety to implement NAFTA's 
trucking and bus provisions. And with the support of Congress, 
Mexico's government, federal and state enforcement officials, 
and the industry, I think we can implement an effective safety 
enforcement program and meet our NAFTA obligations by January 
1, 2002. The President's budget lays out requirements to do 
that. However, if our ongoing work should prove that we need 
more time, then we will take it. If we will need more 
resources, we will insist upon them. But in the end, we will do 
the job right.
    Second, every Mexican firm, vehicle, and driver that seeks 
to operate in the United States at the border or beyond must 
meet the identical safety and operating standards that apply to 
United States and Canadian carriers. Nothing less than this is 
acceptable.
    Third, the United States must fully comply with our NAFTA 
obligations. Not everyone on this Committee supported approval 
of NAFTA in 1993. As a Member of Congress, I did. But only 
after careful consideration of the possible impact on a wide 
range of issues, including safety. I concluded then and I 
continue to believe that the free and open trade fostered by 
NAFTA is the best, is in the best interests of the people of 
this nation and of our economic future. The Mexican government 
has assured the United States that it will allow United States 
trucks access to Mexico, and as Secretary of Transportation, 
now my task is to work with the Congress and decide how to meet 
our existing and very real international legal obligations.
    Fourth, Mr. Chairman, Mexican carriers lawfully operating 
in the United States must be guaranteed the same high standards 
of fairness and protection that we offer United States and 
Canadian carriers. There is a technical term in NAFTA that 
gives Canadian, Mexican and United States carriers operating in 
one of the other countries so-called national treatment, and 
that means that we must provide a level playing field for 
competition. Because Mexico's safety enforcement regime differs 
in significant ways from that of Canada and the United States, 
the arbitration panel granted us reasonable flexibility in 
choosing the best way to ensure a Mexican carrier's compliance 
with our safety regulations.
    There can be civil discussions about what constitutes 
reasonable flexibility. I must say, however, that I am 
concerned about the tenor of some of the debate. Some seem to 
argue that a Mexican carrier, precisely because it is from 
Mexico, cannot and will not comply with our laws. In 
implementing NAFTA, President Bush and I will insist on full 
compliance with our safety laws, but we will not accept 
enforcement requirements that create a de facto system that 
unfairly discriminates against Mexican drivers and carriers.
    As a result of decisions taken by the previous 
administration, the administration or the Department of 
Transportation did not on January 20th of this year have a 
program that would allow us to open our southern border to 
commercial vehicle traffic, nor did we have an adequate plan 
for developing one. Today, we are well on the way to having the 
effective safety enforcement program that will allow us to move 
forward with NAFTA by the year's end.
    In May, the Department of Transportation proposed several 
rules relating to the carrier application process that we need 
to implement for border opening. The public comment period on 
the draft rules closed 2 weeks ago, and we anticipate issuing 
final rules sometime in October. These rules represent only one 
part of the department's comprehensive safety implementation 
plan. The actual safety considerations in implementing our 
NAFTA obligations are in fact very different from the picture 
that has been painted by some opponents.
    Our plan places heightened requirements on Mexican carriers 
currently operating in the commercial zone along the border, 
more scrutiny than currently exercised, and it means a new 
stricter system outside the commercial zone. My written 
testimony provides details of our implementation plan, and the 
resources that the department needs to carry it out.
    Of course, none of us can guarantee that a Mexican truck, 
Canadian truck or for that matter a United States truck will 
never have a catastrophic accident somewhere in the United 
States. However, I can guarantee that the United States 
Department of Transportation directs and will continue to 
direct its full efforts on a daily basis to preventing that 
accident. Our NAFTA safety implementation plan will bring 
greater resources and a substantially enhanced focus on 
enforcement.
    Opening the border to Mexican trucks and buses by the 
beginning of next year will require considerable effort, but I 
am thoroughly convinced that we can fulfill our NAFTA 
obligations while putting in place an effective safety 
enforcement regimen. I will close, Mr. Chairman, by reiterating 
my personal commitment and that of the Bush Administration to 
work with the Congress to find an acceptable plan for NAFTA 
implementation, a plan that allows us to meet the four 
principles of safety and equity that I outlined today. Mr. 
Chairman, that is the end of my statement. I ask unanimous 
consent that my full statement be made a part of the record.
    [The prepared statement of Secretary Mineta follows:]

        Prepared Statement of Hon. Norman Y. Mineta, Secretary, 
                   U.S. Department of Transportation
    Mr. Chairman, Members of the Committee, it is a pleasure to appear 
before you today and to have the opportunity to explain our plans for 
the safe admission of commercial truck and bus traffic to the United 
States from Mexico.
Introduction
    Approved by Congress in 1993, the North American Free Trade 
Agreement was based on a simple premise--that all of the countries in 
North America would be integrated into one free trade area. Eight years 
later, one major portion of NAFTA has yet to be implemented--the 
requirement that all countries in North America be open to commercial 
vehicle traffic. This matter has generated vigorous dispute and 
considerable misunderstanding--on both sides of the border, in the 
public and private sectors.
    A NAFTA arbitration panel ruling in February of this year 
determined that the United States had violated its legal obligations to 
Mexico. President Bush has assured President Fox that the United States 
would move in a timely manner to meet our NAFTA obligations.
    In May, the Department of Transportation proposed several rules 
relating to the carrier application process, rules that will be needed 
to implement the border opening. These rules form only one part of the 
Department's comprehensive safety implementation plan. The rules 
themselves will not be final until October, and applications for 
operating permits cannot be requested by Mexican carriers until then. 
The public comment period on the draft rules closed 2 weeks ago.
    I want to acknowledge the significant concerns that some members of 
Congress and the public have expressed. Recent votes by the House of 
Representatives and the Senate Appropriations Committee on this matter 
have sent a clear message: Congress will insist that the United States 
have a rigorous, effective safety program in place prior to 
implementing the truck and bus access provisions of NAFTA.
    Mr. Chairman, you have my personal assurance that I share this very 
same commitment to implementing a truly effective NAFTA safety program.
    You will hear today that the Bush Administration is prepared to 
enhance and significantly expand our safety implementation plan. I want 
to work with Congress to try to reach consensus on a plan and the 
resources required to meet our NAFTA obligations without sacrificing 
safety.
    Today I will discuss the practical steps that the Administration is 
taking to meet that objective. My remarks focus on two topics: (1) the 
four principles that guide the Department's work to implement NAFTA; 
(2) the specifics of the Department's safety implementation plan 
regarding Mexico's truck and bus access.
Guiding Principles
    Four core principles guide our work to implement the NAFTA truck 
and bus access provisions.
    First, safety is the Department of Transportation's highest 
priority, and we will not sacrifice safety to implement NAFTA's 
trucking and bus provisions. With the support of Congress, Mexico's 
government, Federal and State enforcement officials, and the industry, 
I think we can implement an effective safety enforcement program and 
meet our NAFTA obligations by January 1, 2002. The President's budget 
lays out requirements to do that. However, if our ongoing work should 
prove that we need more time, we will take it; if we need more 
resources, we will insist upon them. We will do the job right.
    Second, every Mexican firm, vehicle and driver that seeks authority 
to operate in the United States--at the border or beyond--must meet the 
identical safety and operating standards that apply to United States 
and Canadian carriers. Nothing less than this is acceptable.
    Third, the United States must fully comply with our NAFTA 
obligations. Not everyone on this Committee supported approval of NAFTA 
in 1993. As a Member of Congress I did, but only after careful 
consideration of the possible impact on a wide range of issues, 
including safety. I concluded then, and I continue to believe, that the 
free and open trade fostered by NAFTA is in the best interest of the 
people of this Nation and our economic future. The Mexican government 
has assured the United States that it will allow United States trucks 
access to Mexico. As Secretary of Transportation, my task is to work 
with Congress to decide how to meet our existing and very real 
international legal obligations.
    Fourth, Mexican carriers lawfully operating in the United States 
must be guaranteed the same high standards of fairness and protection 
that we offer United States and Canadian carriers. There is a technical 
term of the NAFTA that gives Canadian, Mexican and United States 
carriers operating in one of the other countries so-called national 
treatment. That means we must provide a level playing field for 
competition. Because Mexico's safety enforcement regime differs in 
significant ways from that of Canada and the United States, the 
arbitration panel granted us reasonable flexibility in choosing the 
best way to ensure a Mexican carrier's compliance with our safety 
regulations. There can be civil discussion about what constitutes 
reasonable flexibility.
    I must say, however, that I am concerned about the tenor of some of 
the NAFTA implementation debate. Some seem to argue that a Mexican 
carrier--precisely because it is from Mexico--cannot or will not comply 
with our laws. President Bush and I will insist on full compliance with 
our safety laws. But we will not accept enforcement requirements that 
create a de facto system that unfairly discriminates against Mexican 
drivers and carriers.
    All four of these guiding principles must be met in implementing 
NAFTA's truck and bus access provisions. Let me now turn to a summary 
of the specifics regarding the Department's comprehensive safety 
implementation plan.
Implementation of the NAFTA Truck and Bus Access Provisions
    On January 20 of this year, the Department of Transportation did 
not have a program, nor an adequate plan, that would allow us to open 
the border. Today we are well on the way to having the effective safety 
enforcement program that will allow us to move forward with NAFTA by 
year's end.
    None of us can guarantee that a Mexican truck, a Canadian truck or, 
for that matter, a United States truck will never have a catastrophic 
accident somewhere in the United States. I can guarantee that the 
efforts of three DOT agencies--FMCSA, FHWA, and NHTSA--are directed, on 
a daily basis, to helping prevent that accident. Our NAFTA safety 
implementation plan will bring greater resources and a substantially 
enhanced focus on enforcement.
    I know that the actual safety considerations in implementing our 
NAFTA obligations are very different from the picture painted by some 
opponents. I would like to address a few of those points.
    I will begin with a discussion of the new resources requested by 
the Administration. I will then describe the comprehensive safety 
enforcement program we propose to carry out, which has five basic 
elements:

        (1) La safety review of truck and bus firms before the awarding 
        of operating authority;
        (2) LAn expanded vehicle inspection regime, including 
        significantly more safety compliance inspections for all 
        commercial vehicles and enough inspectors to staff all border 
        crossings during the times commercial vehicles are allowed to 
        cross;
        (3) Laudits of drivers to assure compliance with licensing, 
        hours of service regulations and all other driver requirements;
        (4) Lsignificant border infrastructure improvements; and
        (5) Lan extensive industry education program conducted on both 
        sides of the border.

    Full implementation will involve close coordination--already 
underway--with Federal and State officials in the United States, with 
the Mexican government, and with the truck and bus industries on both 
sides of the border. In short, the program focuses on firms, vehicles, 
drivers, infrastructure and education.
    Resources. The Administration's budget request for FY2002 seeks an 
unprecedented increase in funds to prepare us for the new cross-border 
traffic. These funds would provide the increased number of Federal and 
State inspectors and inspection facilities that both our Inspector 
General and a ``Blue Ribbon'' Commission, which I had the honor to 
chair, called for in 1999.
    To support comprehensive State and Federal safety enforcement 
activities at the southern border, the Department requested $88.2 
million in additional funds, which included $13.9 million to hire 80 
additional Federal inspectors to perform safety inspections and conduct 
safety audits of Mexican carriers. We plan to have all Federal 
enforcement personnel hired and trained by December 2001. In addition, 
we requested $18 million to support staffing of State inspection 
facilities, increasing significantly State motor carrier safety 
inspection activities at the border.
    The Department also requested $54 million to provide the Federal 
share of costs for construction and improvement of State commercial 
motor vehicle inspection facilities. The Department requested $2.3 
million for immediate construction of areas to park commercial vehicles 
that are placed out-of-service for safety violations. We anticipate 
working closely with our Federal and State colleagues to conduct 
inspections. Currently 23 border commercial crossings do not have 
permanent inspection facilities. We want to help the border States 
address this gap.
    Operating Authority for Mexican Truck and Bus Firms. On May 3, 
2001, the FMCSA published three Notices of Proposed Rulemaking to 
govern the application process for Mexico-domiciled carriers seeking 
United States operating authority. The purpose of the rulemakings was 
to specify a process whereby Mexican-domiciled carriers may be granted 
conditional United States operating authority, and later, if its safety 
compliance record justifies, permanent operating authority. Here is how 
the process would work:
    First, a carrier must specify whether it seeks authority to operate 
within the commercial zone or outside the commercial zone. Carriers 
with a currently valid authority to operate within the commercial zone 
will have a 1-year transition period to begin the process described 
below, leading to permanent commercial zone operating authority.
    Second, a carrier must undergo a mandatory safety review by FMCSA 
to obtain conditional operating authority. Mexican-domiciled carriers 
must provide detailed information on their operations, and make 
specific certifications regarding their ability to comply with United 
States safety regulations before they may obtain conditional operating 
authority.
    Such requirements include United States safety regulations, 
including hours-of-service requirements, drug and alcohol testing 
regulations, the carrier's safety monitoring program, and the 
obligation to maintain an accident register. Carriers would, for 
example, be obligated to supply the name of their insurance carrier and 
drug and alcohol testing service. The FMCSA will independently validate 
such coverage in each case prior to granting conditional authority. To 
perform these safety reviews, FMCSA will establish a consolidated 
safety review center. At FMCSA discretion, any such reviews may be 
conducted in person, at an appropriate Federal office at the border or 
at the carrier's place of business in Mexico.
    Third, upon successful completion of the safety review, a carrier 
would be granted a provisional operating permit valid for 18 months.
    Fourth, during the 18-month period, FMCSA will begin to collect 
safety and operational data on the carrier in the Motor Carrier 
Management Information System (MCMIS). The FMCSA will pull all 
available data from Mexican databases on carriers, vehicles, and 
drivers, but we will rely on our own information systems to continually 
monitor the safety of carriers operating in the United States. Data on 
authority, vehicles, drivers, violations, accidents, insurance, and 
other safety information will be tracked by United States safety 
information systems. State and Federal inspectors at the border and 
throughout the United States will have complete access to the safety 
data maintained on Mexican carriers.
    Investigators will review information in MCMIS collected on the 
carriers and documents required under Federal safety regulations. This 
includes records on driver medical qualifications, hours of service, 
drug and alcohol testing, and vehicle inspection, repair and 
maintenance. If safety problems are detected, FMCSA would take 
immediate action to help bring carriers into compliance or remove their 
provisional operating authority. To complement the new entrant regime, 
it will be necessary to modify existing regulations to provide 
appropriate penalties for any carrier that operates outside the 
commercial zone without valid operating authority. FMCSA will do so 
this Fall.
    Fifth, after sufficient observation data has been accumulated on a 
given carrier (after approximately 4-12 months), the carrier must 
submit to a mandatory safety audit. The safety audit requires a face-
to-face meeting with FMCSA inspectors and may, at FMCSA's discretion, 
take place at an appropriate Federal office at the border or at the 
carrier's place of business in Mexico. The safety audit incorporates 
review of all safety inspection and performance data gathered on the 
carrier, as well as an examination of the carrier's required records to 
prove compliance with United States carrier, vehicle and driver safety 
regulations.
    Finally, after successful completion of the safety audit, and prior 
to the end of the 18-month provisional operating authority, FMCSA will 
determine whether to award a permanent operating authority.
    Taken in sum, this process will provide considerable scrutiny of 
the motor carrier's ability to comply with United States safety 
standards. It should be noted that this new regime means heightened 
requirements for Mexican carriers currently operating in the commercial 
zone--more scrutiny than currently exercised--and it means a new, 
stricter system outside the commercial zone. These requirements go 
significantly beyond that imposed on United States and Canadian cross-
border operations, for which there are currently no such waiting period 
or other new entrant requirements. The Department considers this regime 
an appropriate level of scrutiny and consistent with the national 
treatment provisions of NAFTA.
    The Department expects most of the carriers now operating in 
commercial zones to apply to continue that type of operation. We do 
not, in other words, expect a large number of immediate applications 
for authority to operate beyond the commercial zones.
    Vehicle Compliance. All Mexican-domiciled vehicles seeking United 
States operating authority must comply with United States safety and 
performance standards for United States commercial vehicles. Based upon 
consultations with the industry, FMCSA believes that Mexican carriers 
that seek to operate outside the commercial zone will be equipped with 
the modern vehicles that compare favorably with the average over-the-
road vehicle in the United States.
    Over 50 percent of northbound trucks get inspected now. Based on 
United States Customs fees and license plate readings, there are at 
least 63,000 Mexican vehicles entering United States commercial zones. 
Our Inspector General has estimated the number may be as high as 
85,000. In FY 2000, more than 53,000 safety inspections were performed 
on these Mexican trucks. FMCSA estimates that this is roughly twice the 
rate of inspections performed on domestic commercial vehicles. While 
there are 4.5 million crossings of the border each year, most trucks 
are engaged in drayage operations, making multiple border crossings 
daily.
    The Department seeks to make routine Level 1 inspections--the most 
thorough type of vehicle and driver check--the rule for all Mexican-
domiciled vehicles operating in the United States. Interim facilities 
must be created for inspections and for parking vehicles placed out of 
service. During the 1-year transition period for NAFTA truck and bus 
access, the Department has planned to deploy teams of inspectors on 
both sides of the border to make Level 1 inspections available to 
carriers seeking United States operating authority.
    California has already invested in inspection stations and has 
successfully brought out-of-service rates for Mexican commercial 
vehicles down to a level comparable with United States-based trucks. In 
that State, a Level 1 inspection--actually getting under the vehicle--
is performed on each commercial vehicle that does not display a current 
Commercial Vehicle Safety Alliance (CVSA) decal indicating that an 
inspection has been performed within the last 3 months. In FY 2000, the 
out-of-service rate for Mexican trucks inspected in California is 27 
percent and the national average is 24 percent.
    With construction of additional permanent state inspection 
facilities and inspectors requested by the President, far more Level 1 
inspections can be conducted, and a screening system similar to that of 
California could be implemented all along the border. DOT will work 
with States to locate the new facilities where commercial vehicles 
cannot evade inspections and ensure that truck size and weight 
enforcement is performed at each location.
    Hiring of more Federal inspectors is underway. The FMCSA is now 
recruiting eighty new Federal inspectors. Combined with our current 
Federal inspection staff of 60, we would more than double our Federal 
safety presence at the border and exceed the level of Federal 
inspectors recommended by the DOT Inspector General in his December 
1998 report.
    As stated above, the Department also is seeking $18 million to 
double the number of State safety inspectors. With this increase, a 
combined State and Federal enforcement staff will total an impressive 
496 inspectors. To put that figure in better perspective, there were 
only seven Federal safety inspectors at the border in December 1995, 
and about 45 State inspectors. If our FY 2002 budget request is 
approved, it would provide a 10-fold increase in overall Federal and 
State inspectors since 1995. This should allow us to meet DOT's goal of 
having vehicle inspectors on duty during all hours when the commercial 
crossings are open for business.
    Driver Standards. The Level 1 CVSA inspections described above also 
include review of driver credentials. The expanded regime that includes 
vehicle inspections will thus also yield greater scrutiny of drivers. 
There will be no distinction between the requirements for drivers from 
Mexico, the United States or Canada. In the case of hours-of-service 
compliance, for example, the driver must produce logs that indicate 
authoritatively his or her driving time start and restart periods in 
Mexico for the runs that include a border crossing. The clock does not 
stop at the border, and we will not tolerate lapses.
    Infrastructure Improvements. Our infrastructure improvements apply 
not only to the physical safety inspection facilities covered by the 
President's infrastructure request. We continue to work with our 
Mexican colleagues on the information and safety networks linking the 
two nations. Our actions involve a major initiative to improve the 
safety information systems that are available to Federal and State 
enforcement officials in the United States. We will be able to verify 
certain carrier application information directly with Mexican 
transportation officials, automate the review of applications, provide 
real-time safety performance and other data to Federal and State 
inspectors and effectively monitor the safety performance of Mexican 
motor carriers operating in the United States. All inspectors will have 
access to available United States and Mexican driver license, carrier, 
and other safety databases by January 1, 2002.
    The Department of Transportation is working with Mexico to increase 
regulatory compatibility between our countries, establish cooperative 
agreements on the exchange of safety information, and provide technical 
assistance to build United States-compatible compliance and enforcement 
programs in Mexico. The objective is to bring Mexican safety 
requirements up to United States standards. The adoption and 
implementation of comparable programs in Mexico will provide greater 
assurance that vehicles entering the United States are already in 
compliance with United States safety standards.
    Implementation and Education. The Department is committed to being 
proactive in helping Mexican carriers understand applicable U.S law and 
regulations. The FMCSA, in concert with Mexico and the border States, 
will conduct a series of safety compliance seminars to educate Mexican 
carriers and drivers about compliance with Federal and State motor 
carrier safety regulations. The seminars will take place on both sides 
of the border this Fall. When rules are finalized, meetings such as 
this will thoroughly explain the new application requirements. The 
seminars will supplement ongoing efforts to translate and distribute 
educational materials to Mexican carriers and drivers.
    Also, with the Free Trade Alliance San Antonio, the Department is 
co-sponsoring a NAFTA Information Conference in that city on October 
21-24, 2001. The conference will include all Federal and State agencies 
that have border enforcement responsibilities. The Departments of 
Transportation, Labor, and Agriculture, the United States Customs 
Service, the Immigration and Naturalization Service, the Environmental 
Protection Agency, and State enforcement officials will conduct panels 
explaining the various requirements that motor carriers must meet when 
operating in the United States. The Governments of Mexico and Canada 
will make similar presentations about their requirements and all three 
countries will distribute bilingual reference books that summarize 
their operating
Conclusion
    Opening the border to Mexican trucks and buses by the beginning of 
next year will require considerable effort. But I am thoroughly 
convinced that we can fulfill our NAFTA obligations while putting in 
place an effective safety enforcement regime.
    I am disappointed, therefore, that the House voted to bar the use 
of any Department funds next fiscal year to process applications for 
Mexican carriers that seek to operate in the United States outside the 
commercial zone. As the Administration has formally stated, President 
Bush's senior advisors would recommend that he veto any bill containing 
provisions that foreclose the possibility of meeting our NAFTA 
obligations. While I am grateful to the Senate for providing funding 
for the inspectors and improvements described in this testimony, I have 
serious concerns about the numerous conditions the Senate has at this 
point placed on actions to open the border.
    I want to close by reiterating my personal commitment, and that of 
the Administration, to work with the Congress to try to find an 
acceptable plan for NAFTA implementation--a plan that allows us to meet 
the four principle s of safety and equity that I outlined at the 
beginning of this testimony. Mr. Chairman, I will be pleased to respond 
to any questions you or the Committee may have.

    The Chairman. It will be part of the record. Let us go 
first with Mr. Mead.

     STATEMENT OF HON. KENNETH M. MEAD, INSPECTOR GENERAL, 
                  DEPARTMENT OF TRANSPORTATION

    Mr. Mead. Thank you, Mr. Chairman. I will submit my 
prepared statement for the record. Our statement today is based 
on three reports, and it focuses on current conditions at the 
border, and actions that need to be taken to implement a solid 
safety strategy.
    I want you all to know, I am honored to be here with 
Secretary Mineta. He and his team are drawing very heavily, and 
most responsibly on our work. As the law began to focus on this 
issue, what we have seen from our work, including visits from 
my staff to all 27 of these border crossings, is that the 
United States has made some improvements in its inspection 
presence and controls, and Mexico, even, has made some 
progress, too.
    But it is very clear that substantial additional actions 
are needed to reasonably ensure the safety of trucks and 
qualified drivers at the southern border, especially if they 
wish to traverse into the interior of the United States. I 
would like to highlight the actions as we see them in the 
Inspector General's office, but before doing so, I do want to 
point out that the focus on Mexican trucks ought not to obscure 
the need to continue improving the safety of United States 
trucks and drivers.
    Last year, more than 5,300 people died in United States 
truck crashes, and that is equivalent to a major airline crash 
every 2 weeks. Over 9,000 United States motor carriers 
currently have unsatisfactory safety fitness ratings. I believe 
safety oversight has been strengthened at the Department since 
passage of the 1999 Act, and I think it is important that this 
level of emphasis be sustained, if not indeed increased.
    As for a Mexican truck driver and truck safety, until 
Mexico fully implements safety requirements and has a tight 
oversight program, the fact is that we will need to have 
sufficient controls in place in the United States to ensure 
safety. We found a direct correlation between the condition of 
Mexican trucks entering the United States, the number of 
inspections, and the level of inspection resources at the 
border.
    The chart being displayed shows that, and this chart is in 
my prepared statement. This purple line is the out-of-service 
rate. When the safety violations are so serious that you cannot 
let a truck go on the road any longer, it is placed out of 
service. The out-of-service rate for Mexican trucks decreased 
from 44 percent in fiscal year 1997 to 37 percent in fiscal 
year 2000.
    That improvement correlates with the increase in the number 
of inspections, which is shown by the dark line, from about 
17,000 inspections in fiscal year 1997 to 56,000 in fiscal year 
2001. The out-of-service rate for United States trucks 
nationwide is about 24 percent.
    Mr. Chairman, California has an inspection presence during 
all operating hours at its major Otay Mesa facility, and it 
inspects each truck that does not have a current inspection 
decal.
    The out-of-service rate for Mexican trucks crossing at the 
Otay Mesa border crossing is 24 percent, substantially better 
than the Mexican trucks entering through other crossings with a 
lesser inspection presence. In fact, the rate runs as high as 
50 percent out-of-service at one border crossing in Texas. Many 
of the safety program elements that we endorse and we 
understand DOT plans to adopt, are based on that California 
model. I want to highlight six critical elements of a safety 
strategy that should be in place when the border is open.
    First, is staffing, placing inspectors at all commercial 
border crossings during all operating hours. Currently, 
inspectors are not on duty at all border crossings during all 
hours of operations. For example, my staff was at the Laredo 
facility in Texas, that is one of the major crossings, on a 
weekend day, and the trucks went right on through. No inspector 
was there, and that needs to be corrected.
    In 1998, we estimated 139 inspectors were needed to provide 
coverage at all border crossings during all operating hours. 
The Department increased the authorized number of inspectors at 
the southern border from 13 in 1998 to about 60 in fiscal year 
2001. The President's budget for 2002 includes about $14 
million to hire 80 additional enforcement people. These funds 
are really needed. I think that chart illustrates why, and it 
is important that these 80 people be deployed at the border. 
Over time, that can change. If the States build permanent 
inspection facilities and increase the staffing, maybe these 
inspectors can be deployed into other locations. But we think 
it is important that you have inspection coverage at the border 
crossings now.
    Second, is safety reviews and inspections. We feel that 
performing safety reviews before granting Mexican carriers 
authority to operate in the United States, and inspecting the 
long haul vehicles and drivers before they enter and operate in 
the United States, would be a good move.
    At least initially, DOT will have to decide on a case-by-
case basis whether safety reviews need to be performed on-site 
in Mexico at the carrier's location. That decision is going to 
depend on a number of factors, such as the availability and 
quality of the applicant safety performance data. And I think 
the Department will need some discretion to decide where it is 
going to do these reviews. Because long-haul carriers will be 
new entrants, their vehicles ought to be inspected as they 
enter the United States unless the vehicle passed a United 
States inspection within the preceding 3 months. The vehicle 
will carry a decal just like those at the Otay Mesa facility in 
California. Vehicles come through there, and every 3 months, 
they get inspected and get a new sticker.
    Long haul drivers ought to be inspected at the border to 
make sure they have a valid license and a logbook, and that 
they are in compliance with hours of service rules. This should 
apply to passenger buses and their drivers as well, which could 
well be the subject of a separate hearing some day. So 
inspectors can readily distinguish between these Mexican long-
haul trucks and the Mexican trucks that are only going to the 
commercial zone adjacent to the border, Mexican long-haul 
trucks ought to have identification numbers that distinguish 
them from vehicles authorized to operate only in the commercial 
zones.
    Mr. Chairman, the 1999 Motor Carrier Act specifies that new 
entrant requirements, including safety reviews, will apply to 
domestic and foreign carriers. DOT has not implemented this 
provision yet for United States carriers. It is important that 
this be done for safety reasons, as well as to provide 
evenhanded treatment to United States carriers and Mexican 
carriers.
    Third, is enforcement--taking strong prompt enforcement 
action against carriers that do not comply with safety 
regulations, and authorizing states to place vehicles out of 
service for operating illegally in the United States. In 1999, 
we reported that 52 Mexican domiciled carriers were operating 
illegally in 20 states outside the four Southern border States, 
and the border had not even been opened.
    We found this problem continues. In 2000, inspections 
throughout the United States show that 56 Mexican carriers 
operated illegally in 25 states outside the four Southern 
border States. The 1999 Act that you enacted provided stiff 
fines and disqualification sanctions for carriers exhibiting 
this type of behavior. That provision of law is due to expire 
when the border opens, and we think it makes sense that that 
provision of law be carried over so you can take action against 
carriers operating illegally and evading the safety net that 
the Department puts in place.
    Another point I think needs to be tended to is that DOT has 
not yet issued an order that gives the States the authority to 
place these vehicles out of service if they are found to be 
operating without authority. I understand DOT will do this.
    Fourth is facilities--providing adequate facilities and 
space to conduct inspections and to place unsafe vehicles out 
of service. Currently, as you pointed out in your opening 
remarks, the only permanent facilities at the U.S.-Mexico 
border are the State facilities in California. Construction is 
under way at two others crossings, in New Mexico and Arizona.
    I can give you some interesting statistics here. At the 25 
crossings without permanent facilities, the inspectors use 
space provided by the U.S. Customs Service. At eight of those, 
DOT has small, portable buildings, and I mean small. At 19 
crossings, inspectors only have space to inspect one or two 
trucks at a time. At 14, and this is important, they only have 
one or two spaces to park trucks that they place out of 
service. If you have an out-of-service rate of even 25 percent, 
that is one in every four trucks, and if you only have spaces 
to park two trucks, you are going to have some trouble.
    This problem is going to require time to be fully resolved, 
but we think there are a number of near-term actions that the 
Department can undertake with the help of some other agencies. 
We contacted the General Services Administration and found that 
land is available on and adjacent to 16 of these crossings. It 
is true that the other Federal agencies have long-term plans 
for using that land. But many of their plans aren't yet funded 
so the Department may be able to obtain agreements to use some 
of it in the near term, such as for paving a parking lot.
    The fifth and sixth elements of the strategy are 
rulemakings and education outreach. To establish the elements 
of the safety strategy as legal requirements, obviously 
rulemakings will be required. The rulemakings that are 
currently out in draft will need to be revised to reflect the 
elements of the safety strategy that is outlined in the 
Secretary's statement. I think education and outreach are 
necessary for the obvious reason, familiarizing the drivers and 
carriers in Mexico on what the safety requirements are. Thank 
you, Mr. Chairman.
    [The prepared statement of Mr. Mead follows:]

    Prepared Statement of Hon. Kenneth M. Mead, Inspector General, 
                      Department of Transportation
    Mr. Chairman and Members of the Committee:
    We appreciate the opportunity to testify on motor carrier safety at 
the U.S.-Mexico border. Since 1998 we have issued three reports dealing 
with the Department of Transportation's efforts to improve safety at 
the border. Our statement today is based on those reports and our 
ongoing work, and focuses on the (1) current safety conditions at the 
southern border, and (2) actions the Department needs to take to 
implement a comprehensive safety strategy for the southern border.
    What we have seen from our work--that includes visits to all 27 
commercial border crossings--is a need to strengthen safety controls at 
the southern border. (Exhibit A, for a map and listing of the border 
crossings). During fiscal year (FY) 2000, 37 percent of the Mexican 
trucks inspected were placed out of service because they had serious 
safety violations. (Exhibit B, for a listing of out-of-service rates by 
crossing)
    The United States has made improvements in its inspection presence 
and controls, and Mexico has made progress in establishing safety 
oversight requirements. However, it is clear, that additional actions 
are needed to reasonably ensure the safety of commercial vehicles and 
drivers as they enter at the southern border, operate within the 
commercial zones, and traverse the United States.
    Specific actions that need to be taken include:

  <bullet> Placing inspectors at all commercial border crossings during 
        all operating hours. There is a direct correlation between the 
        condition of Mexican trucks entering the United States and the 
        level of inspection resources at the border.

  <bullet> Performing (1) safety reviews before  granting Mexican-
        domiciled carriers conditional authority to go into the 
        interior of the United States, and (2) inspecting all long-haul 
        vehicles and drivers before  they enter and operate in the 
        United States. (Long-haul vehicles are those authorized to 
        travel beyond the U.S. commercial zones.)

  <bullet> Taking firm enforcement actions against carriers that do not 
        comply with U.S. safety regulations, and authorizing States to 
        place vehicles out of service for operating beyond authority or 
        without authority.

  <bullet> Providing adequate facilities to conduct inspections and 
        place unsafe vehicles out of service.

  <bullet> Revising the recently issued proposed rulemakings on 
        application procedures and a monitoring system to require 
        safety reviews and physical inspections of trucks and drivers 
        before they operate in the United States, and issuing the final 
        rules.

  <bullet> Conducting workshops and outreach sessions to provide 
        information to potential applicants on U.S. procedures and 
        safety regulations.

    In the course of developing the Department's plans for implementing 
the North American Free Trade Agreement's (NAFTA) provisions, the 
Office of the Secretary, Federal Motor Carrier Safety Administration 
(FMCSA), and Office of Inspector General have held extensive 
discussions about our work and the elements of a comprehensive safety 
strategy. We understand the Department is committed to incorporating 
substantially all of the actions discussed above into its safety 
strategy. This would include placing inspectors at all border crossings 
during all operating hours, safety reviews, and physical inspection of 
trucks and drivers desiring to operate in the United States beyond the 
commercial zones. We endorse this approach and believe, when 
implemented, it will provide a more solid predicate for ensuring the 
safety of Mexican trucks and drivers operating in the United States.
    The key to the effectiveness of the safety strategy will then be in 
implementation of the details, including deploying sufficient 
inspectors, performing thorough safety reviews and inspections, and 
taking firm enforcement action against carriers that do not comply with 
U.S. safety regulations. We will continue to audit and monitor the 
Department's progress in developing and implementing its safety 
strategy.
    The actions needed to support the Department's safety strategy will 
also require funding. The Administration requested $88.2 million in 
additional funding for FY 2002 to facilitate implementation of NAFTA 
cross-border trucking provisions. The FY 2002 Transportation Bill 
approved by the House of Representatives does not provide additional 
funds for this purpose, while the Bill approved by the Senate 
Appropriations Committee provides $103 million in additional funding.
    It is important to note that we should not let the current focus on 
Mexican commercial vehicles obscure the need to continue to improve the 
safety of U.S. trucks and drivers. In 2000, more than 5,300 people died 
in truck crashes in the United States. This equates to a major airline 
crash with 200 fatalities every 2 weeks. Also, in the United States, 
one out of every four trucks inspected at a roadside stop is placed out 
of service for safety violations. In FY 2000, 9,900 (2 percent) of the 
560,000 interstate motor carriers operating in the United States had an 
unsatisfactory safety rating. Moreover, 426,000 (76 percent) of the 
interstate motor carriers had not been subjected to a compliance review 
by FMCSA and were operating without a safety rating.
    The Motor Carrier Safety Improvement Act of 1999 established FMCSA 
and set safety  as its highest priority. FMCSA has made progress in 
increasing the number of compliance reviews, increasing civil penalties 
for noncompliance, and shutting down unsafe carriers. It is important 
that this level of emphasis be sustained domestically.
Current Safety Conditions at the Border
    The out-of-service rate for Mexican trucks is declining. We 
determined that 37 percent of the Mexican trucks inspected in FY 2000 
were removed from service because of serious safety violations. This 
represents an improvement from FY 1997 when 44 percent of the Mexican 
trucks inspected were removed from service. The out-of-service rate for 
U.S. trucks inspected nationwide in FY 2000 was 24 percent.
    Available data also show that Mexican drivers were placed out of 
service at the same rate--8 percent--as U.S. drivers nationwide during 
FY 2000. However, these data may not be comparable because U.S. 
inspectors at the border crossings did not have the capability to 
verify that Mexican Commercial Drivers Licenses (CDLs) were current and 
authentic during FY 2000. That capability is now available so data 
obtained in FY 2001 should provide a comparable basis for driver out-
of-service rates.
    NAFTA countries agreed to use standards established by the 
Commercial Vehicle Safety Alliance (CVSA) that include minimum safety 
requirements and criteria for placing trucks and drivers out of service 
for noncompliance. In the United States, Federal and State safety 
inspectors perform vehicle inspections using CVSA criteria. A vehicle 
receives a CVSA decal when it passes a Level 1 inspection--the most 
rigorous involving a physical inspection of the truck's compliance with 
all safety requirements. The decal is valid for 3 months.
    Trucks are put out of service for a variety of serious safety 
violations, including inoperative and defective brakes, defective 
frames and steering systems, and bad tires. Truck drivers are placed 
out of service because they do not have valid CDLs, are not in 
compliance with hours-of-service rules, or do not have logbooks to 
document the number of hours they were on duty.
    There is a direct correlation between the condition of Mexican 
trucks entering the United States and the level of inspection, 
resources at the border. That is, the more likely the chance of 
inspection the better the condition of the vehicle. As the following 
chart illustrates, out-of-service rates at the border have declined as 
the number of inspections performed increased.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    California has an inspection presence during all operating hours at 
its two major crossings and inspects each commercial truck that does 
not have a current CVSA inspection decal. Consequently, the condition 
of the Mexican trucks entering at the Mexico-California border is much 
better than those trucks entering through all other border States that 
do not have an inspection presence during all operating hours.
    For example, during FY 2000, the out-of-service rate for Mexican 
trucks inspected in California was 27 percent. This compares to out-of-
service rates of 40, 34, and 41 percent in Arizona, New Mexico, and 
Texas, respectively. During this same timeframe, the range of the out-
of-service rates varied significantly among the border crossings, from 
24 percent in Otay Mesa, California, to 50 percent at the Bridge of the 
Americas in El Paso, Texas.
    Exhibit B shows the out-of-service rates for the last 2 fiscal 
years at each of the southern border crossings.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Until Mexico fully implements safety requirements and an oversight 
program, the United States will need to have sufficient controls in 
place to ensure the safety of Mexican trucks and drivers entering and 
operating in the United States. At this time, there are some 
outstanding questions about the workload this will generate. These 
questions include how many Mexican carriers will apply for long-haul 
authority, where the carriers are located, and which and how many 
trucks they will operate in the United States.
    It is a matter of speculation as to how many carriers will want to 
operate long-haul vehicles in the interior of the United States beyond 
the commercial zones. This decision will be affected by a number of 
factors, including economic conditions and the need to comply with U.S. 
safety regulations. While all carriers are not likely to apply, 
available information shows that the number of carriers that could seek 
to operate in the interior could vary significantly. For example:

  <bullet> 10,000 Mexican carriers currently have authority to operate 
        in the United States.

  <bullet> 4,750 Mexican carriers had vehicles inspected at the 
        southern border in FY 2000.

  <bullet> 1,500 of the 4,750 Mexican carriers with vehicles inspected 
        at the border came from States south of Mexico's border States, 
        primarily from the Mexico City area.

  <bullet> Over 70,000 Mexican carriers are domiciled in Mexican States 
        away from the border States.

    Regarding the number of trucks, a September 20, 2000 FMCSA report 
estimated that about 80,000 trucks were operating at the U.S.-Mexico 
border and that 63,000 trucks were from Mexico. One analysis used to 
make the 63,000 estimate relied on 1998 data for the total number of 
trucks registered in Mexico. However, in 1999, the number of registered 
Mexican trucks grew by 18 percent, and indications are that this trend 
is continuing. This would mean that the number of Mexican trucks 
operating at the border could range from 63,000 to 89,000 trucks. Our 
analysis showed that 26,600 Mexican trucks were inspected at least one 
time at the border during FY 2000.
Actions the Department Needs to Take to Implement a Safety Strategy for 
        the Southern Border
    Our work points to the need to strengthen controls at the southern 
border in order to provide reasonable assurance of the safety of 
Mexican trucks and drivers operating in the United States. The 
Department recognizes the need to strengthen controls and is developing 
a safety strategy. In the near term, developing an inspection 
capability that includes providing inspectors and inspection facilities 
at the border crossings, and using that capability to enforce 
compliance with U.S. safety regulations are key to ensuring the safety 
of Mexican trucks and drivers.
    In this regard, there are six areas  that will need to be addressed 
in the near term as part of the safety strategy. They are: Staffing, 
Safety Reviews and Inspections, Enforcement, Facilities, Rulemakings, 
and Outreach. We believe these are strong elements that would enhance 
the Department's safety strategy, facilitate the implementation of 
NAFTA's provisions, and ensure the safety of Mexican trucks and drivers 
operating in the United States.

        1. LStaffing. Deploying additional onsite inspectors during all 
        operating hours at all southern border crossings.

    Currently, inspectors are not on duty at all border crossings 
during all hours of operation. In 1998, we estimated that 139 
inspectors were needed to provide sufficient coverage at all crossings 
during operating hours. FMCSA increased the authorized number of 
inspectors at the southern border from 13 in FY 1998 to 60 in FY 2001. 
Currently, 58 of the 60 authorized positions are filled. The following 
chart shows, by border State, the number of Federal inspectors onsite 
and the number we estimated was needed.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    The Administration's budget request for FY 2002 includes $13.9 
million to hire 80 additional enforcement personnel for the southern 
border. Deploying the additional 80 enforcement personnel at the border 
would bring the total number of authorized Federal inspectors there to 
140, and be responsive to our 1998 recommendation. However, over time 
the requirement for Federal inspectors to be physically located at the 
border crossings is likely to change if the States establish permanent 
inspection facilities and increase their inspection staffs.
    The Department is developing a deployment plan for these 80 
enforcement personnel as part of its safety strategy. If the 80 
enforcement personnel are not deployed onsite at the border in the near 
term, sufficient inspectors will not be in place at all border 
crossings during hours of commercial vehicle operations except for two 
of California's crossings. We will be monitoring the development of the 
Department's deployment plan for the 80 enforcement personnel as well 
as the actions taken by the States.

        2. LSafety Reviews and Inspections. Performing safety reviews 
        before granting conditional authority to operate in the United 
        States, and inspecting all long-haul vehicles and drivers 
        before or as they enter the United States.

    Safety reviews should be performed and successfully completed 
before conditional authority is granted to new entrant carriers. At 
least initially, the Department will need to decide on a case-by-case 
basis whether safety reviews should be performed onsite at the 
applicant carrier's location to: verify the accuracy of safety 
performance data and required safety management programs (including 
drug and alcohol testing, driver qualifications, and driver's hours-of-
service), inspect vehicles, and ensure applicants are knowledgeable of 
U.S. safety regulations. The decision on where safety reviews should be 
performed will depend on the availability and quality of the 
applicant's safety performance data. Also, inspecting vehicles onsite 
during a safety review would reduce the impact on traffic congestion of 
performing vehicle safety inspections at the border.
    Because the long-haul carriers are new entrants, their vehicles 
should be inspected as they enter the United States unless they have a 
current CVSA inspection decal indicating that the vehicle has passed a 
U.S. inspection within the preceding 3 months. Long-haul drivers should 
be inspected at the border to verify they have a valid CDL, a logbook, 
and that they are in compliance with hours-of-service rules. For 
inspectors to readily identify long-haul vehicles, vehicles should be 
assigned identification numbers that distinguish them from vehicles 
authorized to operate only in commercial zones.
    The Motor Carrier Safety Improvement Act of 1999, Section 210, 
specifies that new entrant requirements shall apply to all motor 
carriers, domestic and foreign. The new entrant requirements call for 
safety reviews to ensure applicant carriers are knowledgeable about 
Federal Motor Carrier Safety Regulations. FMCSA has not yet implemented 
Section 210 of the Act for U.S. carriers. It is important that this be 
done for safety reasons and to provide evenhanded treatment for U.S. 
and Mexican carriers.
    Passenger buses also receive access to the United States under 
NAFTA. During FY 2000, there were only 100 passenger buses inspected at 
southern border crossings. However, the U.S. Customs Service reports 
that about 300,000 bus crossings occurred at the border during FY 2000, 
and 80 percent of those were at 3 ports of entry: San Diego, 
California, and Laredo and Hildalgo, Texas. Inspections of buses and 
drivers should also be part of the Department's safety strategy.

        3. LEnforcement. Implementing procedures for monitoring the 
        safety performance of new entrants with conditional authority 
        and taking firm action against those carriers that do not 
        comply with safety regulations and those that evade the safety 
        net and enter the United States without authority.

    Effectively enforcing safety regulations requires a system that 
tracks a carrier's safety performance and triggers action for 
noncompliance with U.S. safety regulations. These triggers should 
initiate the issuance of deficiency letters and suspension notices of 
U.S. operating authority. This will be particularly important during 
the 18-month period when new entrants are operating under conditional 
authority. FMCSA's proposed rulemaking defines the 18-month conditional 
period as a time of enhanced safety oversight for new entrants. At the 
end of the 18-month period, the conditional authority would become 
permanent if a carrier's most recent safety review is satisfactory.
    A key element of FMCSA's ability to take firm enforcement action is 
a system that provides good safety performance data and allows 
inspectors immediate access to those data. To accomplish this, FMCSA is 
developing a single access system that will provide inspectors 
information from FMCSA and Mexican databases on carrier safety 
performance. FMCSA needs to ensure the system is completed and deployed 
by the end of 2001 as currently scheduled.
    Strong enforcement will be needed for the minority of carriers that 
are egregious offenders and a risk to public safety. The Motor Carrier 
Safety Improvement Act of 1999, Section 219, provided fines and 
disqualification sanctions for Mexican carriers operating without 
authority or beyond their authority in the United States. The fines 
range from $10,000 to $25,000. However, the Act's provision has not 
been implemented, and this provision will expire when NAFTA cross-
border trucking provisions are implemented. A comparable provision will 
have to be carried over to deal with carriers operating beyond or 
without authority in the United States.
    In 1999, we reported that 52 Mexico domiciled motor carriers were 
operating improperly in 20 States outside the 4 southern border States, 
and 202 motor carriers were operating improperly beyond the commercial 
zones within the border States. These carriers were operating beyond 
authority or without authority. Our ongoing work shows this problem 
continues. Data on FY 2000 roadside inspections throughout the United 
States show that 56 Mexican carriers operated improperly in 25 states 
outside the 4 border States.
    Also, FMCSA has not issued an order on enforcement of registration 
requirements provided in Section 205 of the Motor Carrier Safety 
Improvement Act of 1999. This order would give the States the authority 
to place vehicles out of service if found operating without authority 
or beyond the scope of authority granted.
    FMCSA needs to take swift action to give States the authority to 
enforce the operating authority requirements.

        4. Facilities. Obtaining available land at southern border 
        crossings to provide inspectors space and facilities needed to 
        safely perform inspections and park vehicles placed out of 
        service.

    Currently, the only permanent inspection facilities at the U.S.-
Mexico border are the State facilities in Calexico and Otay Mesa, 
California. Construction is underway for two permanent State inspection 
facilities in Santa Teresa, New Mexico, and Nogales, Arizona. Both of 
these facilities will be adjacent to the U.S. Customs Service port of 
entry lots.
    At the 25 border crossings where permanent facilities are not 
available, Federal and State inspectors work within the U.S. Customs 
Service's port of entry lots. FMCSA has provided portable buildings at 
eight of these crossings. At 19 of the 25 crossings, FMCSA inspectors 
have space to inspect only 1 or 2 trucks at a time, and at 14 crossings 
have only 1 or 2 spaces to park vehicles placed out of service. It 
takes at least 2 years to get permanent inspections facilities built. 
In the near term, FMCSA must secure additional space at the border 
crossings to safely perform inspections and place vehicles out of 
service.
    Not all of the space requirements can be easily addressed because 
land is not readily available at all border crossings. However, we 
contacted the General Services Administration (GSA) and found that land 
is available on or adjacent to the U.S. Customs Service port of entry 
lots at 16 border crossings. Although other Federal agencies have long-
term plans for using most of this available land, many of the plans are 
not yet funded. For example, at the Pharr border crossing, with about 
370,000 truck crossings in FY 2000, there are 14 acres in GSA's 
inventory for which there are no currently funded plans.
    FMCSA may be able to obtain agreements to use available land in the 
near term without impacting other Agencies' long-term plans for the 
space. Resolving the space issue will likely require high-level 
attention because it will involve extensive coordination with other 
Federal agencies, tenants, and lessors.

        5. Rulemakings. Revising the recently issued proposed 
        rulemakings on application procedures and a monitoring system 
        to require safety reviews and physical inspections of trucks 
        and drivers before they operate in the United States, and 
        issuing the final rules.

    Two proposed FMCSA rulemakings establish new application procedures 
for Mexican carriers seeking new operating authority beyond and within 
the commercial zones, and require carriers to provide detailed 
information about their safety practices and to self-certify compliance 
with U.S. safety regulations. A third rulemaking proposes implementing 
a safety monitoring system to determine whether Mexican carriers 
operating in the United States comply with safety regulations.
    FMCSA issued the three Notices of Proposed Rulemaking on May 3, 
2001. The period for public comment on the proposed rules closed on 
July 2, 2001, and FMCSA plans to finalize the rules by the end of 
October 2001. However, the rulemakings will need to be revised to 
incorporate changes that are made as the Department develops its safety 
strategy. For example, the existing proposed rules do not include 
requirements that a safety review be completed before conditional 
operating authority is granted, or that long-haul vehicles and drivers 
be inspected before they enter and operate in the United States.
    One of FMCSA's proposed rulemakings requires carriers currently 
operating within the commercial zones to reapply for operating 
authority under the ``new entrant'' program. Under the Motor Carrier 
Safety Improvement Act, the ``new entrant'' provision applies to 
carriers seeking ``new'' authority, not those with existing authority. 
In the near term, FMCSA may be able to reduce its workload by focusing 
its efforts on carriers that are truly new entrants in that they do not 
have authority to operate in the United States at all.

        6. Outreach. Conducting workshops and outreach sessions to 
        provide potential applicants with guidance on how to complete 
        applications, which should result in more complete and accurate 
        applications and facilitateqtimely processing.

    FMCSA's strategy includes provisions to sponsor eight 1-day 
workshops that provide an overview of the Federal safety rules and the 
border States' rules. This would also help provide the target audience 
for the workshop and show motor carriers how to apply for operating 
authority. These workshops should provide excellent opportunities for 
the Mexican carriers and FMCSA to benefit from an exchange of 
information. The limitation we see at this time is the plan to conduct 
these workshops before finalizing the rulemakings covering the 
application processes and the monitoring system.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    The Chairman. General Mead, your testimony is good, but 
when we learned that there are only two checkpoints of the 27, 
in other words, trucks can come over at 25 other points without 
inspection, you couldn't be happy about that, can you?
    Mr. Mead. No, sir.
    The Chairman. The fact of the matter that we haven't even 
appointed a Federal Motor Carrier Safety Administrator, we have 
had six, going on 7 months, and they have not even sent one to 
us, you cannot be happy about that?
    Mr. Mead. No. This has been a problem for almost a year and 
a half.
    The Chairman. NHTSA itself, you only set up the 
administrator, that took 7 months, just last week. But at the 
end of the year last year on the Firestone tire hearing before 
this Committee, we learned that of 99 million recalls, motor 
vehicle recalls in a 5-year period, that NHTSA, National 
Highway Safety Transportation Administration, had yet to order 
one of the 99 million. That was Secretary Slater's testimony at 
that time.
    The only reason they are being recalled I guess is on 
account of the trial lawyers. It was only on account of the 
trial lawyers that we learned about Firestone, 200 deaths. Then 
it finally came--in other words, we got, I got confidence in 
you, but we got a lot of work to do on the safety side. I mean, 
we sound strong and pretty in our plan and this point, point 
five, point nine and everything else, but we are seeing darn 
little safety when they do not even set up an administrator and 
they do not even make a recall and 99 million recalls and when 
the distinguished chairman on the House side said the tires 
were being replaced with faulty tires, the administration said 
it would take us months to find out about the replacement 
tires. We do not know whether they are safe or not.
    So let us gear it up. You are in charge. You are the 
inspector general. Secretary Mineta, with respect to the time 
it is going to take, now, we say we are going to open the 
border, but we got less than 6 months. Do you think we can do 
all of these things you have attested to and General Mead has 
attested to by January 1st?
    Secretary Mineta. Yes, sir, I do. First of all, there are, 
our request was for $88.2 million.
    The Chairman. Right.
    Secretary Mineta. Roughly $56 million of it was for 
facilities. $54 million to the states for facilities, and some 
$2.6 million as I recall for Federal, for Federal facilities. 
And then $18 million is in there for additional inspectors. The 
recommended number by the attorney general, I mean by the 
Inspector General is the number that we are following, and so--
--
    The Chairman. We got enough money because we have given you 
on the Senate side, we plan to give you at least 15 million 
more.
    Secretary Mineta. The House knocked out all the money and 
then also prohibited us from processing any motor carrier 
applications. But if we have the financial resources and get 
the inspectors in place, I am still hoping to be able to comply 
with that, hopefully in the January timeframe.
    The Chairman. General Mead just testified, attested to, 
what about that, are you going to replace those at all of the 
27 checkpoints and everything? California is good, but can we 
get a California check at the other 26?
    Secretary Mineta. Well, what we are hoping is that we will 
have that CVSA decal procedure being followed as part of the 
procedure on inspections. And the--the part about California is 
that all of the states get motor carrier safety money. 
California receives roughly $8 million in MCSAP money. But they 
have on top of that implemented it with about $30 to $35 
million of their own California money in order to do the 
inspection program at Calexico and Otay Mesa.
    None of the other states--I take it back. Arizona and New 
Mexico have some money of their own into it, in addition to the 
MCSAP money. But the other states, the states have not put in 
as much money as the state of California.
    The Chairman. What about land? We released the land that 
you need now down there or what?
    Secretary Mineta. Land is something that we do need. As the 
Inspector General mentioned, we need the land to perform the 
truck inspections and to park out of service vehicles. And we 
are working on those agreements right now at the locations. To 
me, land is not going to be a problem.
    The Chairman. My time is going to be up, Mr. Secretary. 
With respect to conditions, you said in your opening statement 
you had serious concerns about the conditions that the 
Appropriations Committee in its transportation appropriations 
bill enunciated. What are those things that you have serious 
concerns about?
    Secretary Mineta. There were a number of things, I am 
trying to recall some of them. Requirements, for instance, of 
weigh motion devices and scales at crossings. I have no problem 
if we want to do both. I am not sure why we would want to put 
in both weigh-in-motion devices as well as scales at the border 
crossings.
    There are a number of issues in terms of certification that 
are being placed on me in terms of the safety of the trucks, in 
terms of, and I have, as I say, no problem with the inspection 
portion of it, but there are a number of the requirements in 
the Murray amendment that were troublesome to me, and raised 
some concerns.
    The Chairman. Can you itemize those for the Committee and 
give it to us because we will be debating the transportation 
appropriation bills. Senator McCain.
    Senator McCain. Thank you, Mr. Chairman. Mr. Chairman, we 
are all frustrated at the slow pace of the nominating process, 
but I think it is important and, in light of your previous 
statement, to point out that the office of truck safety 
administrator was created in January 1 of the year 2000. The 
previous administration never sent over a nominee to fill that 
job.
    The Chairman. Clyde Hart was enacted.
    Senator McCain. There was never a nomination sent over. To 
accuse this administration----
    The Chairman. I am trying to get the post filled. We cannot 
fill it unless they send one over. They did not have to send 
one over under the Clinton Administration. They just put the 
fellow there and he administered.
    Senator McCain. That is curious logic.
    The Chairman. That is not curious logic. It is fact.
    Secretary Mineta. Hopefully at the 1 o'clock briefing that 
Mr. Fleisher has every day, he will be announcing the 
President's nomination for the Administrator of the Federal 
Motor Carrier Safety Administration.
    Senator McCain. Something that hasn't happened since 
January 1st of the year 2000. I thank you, Mr. Mineta. First of 
all, Mr. Mead, do you have any disagreement with Secretary 
Mineta's statements, not only principles, but specifics as to 
how the Department of Transportation would implement the NAFTA 
trucking and bus access provisions? Do you have any additions 
to that, or deletions?
    Mr. Mead. I think we are in substantial agreement. One 
point needing closure, I believe, is whether the Department 
establishes a rule or a policy that before Mexican trucks can 
come into the interior States, the trucks will be inspected and 
pass the inspection, and the drivers will be inspected as well. 
Either that, or the vehicle has a current decal indicating that 
that type of inspection has occurred in the preceding 3 months.
    I know the Administration has committed to increasing very 
substantially the number of those inspections, but I think the 
details of exactly how that would be implemented will need to 
be worked out.
    Senator McCain. In other words, the model that is now 
pretty much in place in California?
    Mr. Mead. Yes. Even more robust than California. A 
difference in California, sir, is when trucks come across the 
border, the truck gets inspected, but California does not 
inspect the carrier per se to make sure, for example, that all 
of its drivers are qualified. The Department's plan will have 
to go into checking the carrier itself, as well as the 
individual trucks and drivers.
    Senator McCain. Thank you. Secretary Mineta, You have 
stated a couple of times now that you have reservations or 
objections to the language which was put into the DOT 
Appropriations bill that will be up on the floor shortly. How 
serious are those concerns? Are you prepared at this time to 
say whether those concerns are strong enough to prompt the 
threat of a Presidential veto and finally, do you believe that 
those provisions cause the United States to be in violation of 
NAFTA?
    Secretary Mineta. First of all, in my statement, Senator, I 
did indicate that there are senior advisors to the President 
who have indicated they would recommend a veto if the present 
language stays in the bill and does come to the President for 
signature.
    Senator McCain. The Senate version.
    Secretary Mineta. The Senate version. Yes, sir. And also, 
as to whether or not those provisions are in violation of 
NAFTA, they would indicate that it is.
    Senator McCain. Well, I know that there will be further 
discussions and an examination of this issue with the 
Administration. Though there are many people involved in the 
deliberations, we need to have a very definitive position from 
the Administration on this issue since I think it would affect 
the level and tenor of the debate. It would be helpful to know 
the President's position not only as to whether it will provoke 
a veto if the Senate Appropriations bill language were allowed 
to stand, but also whether those provisions would, upon review 
of the Administration, be in violation of the North American 
Free Trade Agreement.
    Secretary Mineta. We are in the throes of preparing that 
comparison in terms of the conditions of the Murray amendment, 
but let me just give some general observations, that the terms 
of the amendment are overly rigid and burdensome, and that 
thought about whether or not we could be doing many of the 
things through administrative regulations rather than having it 
in the statute.
    The cumulative effect of the 22 separate requirements, 
standing alone, many of the requirements would be acceptable, 
but taken in the aggregate, they could result in a violation of 
our commitments under NAFTA.
    The additional cost that would be above what we had 
submitted originally, we, as I said submitted an $88.2 million 
request. The Senate did add, based on I believe it was Senator 
Hutchinson's amendment, $15 million, but in order to fully 
implement all of the requirements, it would cost an additional 
$77.3 million above the funds that had been requested by the 
President.
    Senator McCain. Thank you very much. Mr. Mineta, should all 
Canadian trucks be inspected? Mr. Mead? Yes? No?
    Mr. Mead. I don't think the same circumstance applies to 
the condition of Canadian trucks.
    Senator McCain. Thank you, Mr. Chairman. My time has 
expired.
    The Chairman. Thank you. Senator Dorgan.
    Senator Dorgan. Mr. Chairman. Let me ask you, Secretary 
Mineta, more specifically on the Murray provisions which in my 
opinion are not as effective as the Sabo amendment in the 
House. Which of the Murray provisions could not be complied 
with? I mean, it seems to me that if you oppose the Murray 
provisions, it is perhaps because you cannot comply with some 
or all of the provisions. Which of the provisions do you 
believe you are not able to comply with?
    Secretary Mineta. Subsection 1-A of Section 343, that the 
Department of Transportation must conduct two full compliance 
reviews with satisfactory or better results of Mexican carriers 
who wish to go operate outside a commercial zone, and one of 
those would be a review prior to granting conditional authority 
and a second would be prior to granting permanent authority. 
Again, in terms of making sure that our inspection services are 
not any different from United States to Mexican, to Canadian 
carriers, that is not required of United States or Canadian 
carriers.
    In terms of----
    Senator Dorgan. Mr. Mineta. Mr. Secretary--just on that 
point, we do not require reciprocal requirements. For example, 
inspect meat from Canada. Right now today there is going to be 
a truckload of fresh meat coming to North Dakota from Canada. 
We do not accept that--we accept that. We have well-established 
that in Canada they have a rigid inspection process for meat 
which we accept. So it's not reciprocal treatment all around.
    As we begin this process of certifying whether Mexican 
trucks are safe, this provision, Part A, talks about a full 
safety compliance review consistent with and you are saying 
that that is unnecessary or that you cannot comply with it?
    Secretary Mineta. I am saying that when that truck comes 
into the United States, that truck will have to observe all the 
rules, regulations and laws of the United States.
    Senator Dorgan. But are you not able to comply with that 
Section A or you just disagree with it?
    Secretary Mineta. No. In terms of conducting two full 
compliance reviews, to me would be very, very costly, very 
difficult to do.
    Senator Dorgan. You think unnecessary?
    Secretary Mineta. Compliance reviews, including going to 
Mexico to the terminals that they operate, and to deal with the 
inspection of the records at their site.
    Senator Dorgan. So you believe it is unnecessary. Let me go 
on. Other than that one, are there other----
    Secretary Mineta. I am not saying it is unnecessary. I am 
saying that under these two requirements of two full compliance 
reviews that that is, I think, more than what we really have to 
do.
    Senator Dorgan. That is unnecessary. Mr. Secretary----
    Secretary Mineta. We will be doing compliance reviews.
    Senator Dorgan. Mr. Secretary, if you think it is 
unnecessary, fine, just say that. If you think it is too costly 
or unnecessary. I understand. Are there other portions of the 
Murray amendment that you believe you cannot comply with or 
that you think are unnecessary?
    Let me come back to that just for a moment. I want to ask a 
question about numbers. Mr. Mead, you and Secretary Mineta 
talked about 80 new inspectors at the border. Now, my 
understanding is that in the budget submission to the Congress, 
40 of those are in fact inspectors, and 40 of those are 
investigators. Is it your understanding that the investigators, 
which will be doing I think what is anticipated in Part A that 
the Secretary just described, they are not going to be out 
there on the line inspecting trucks so if you only have 40 
rather than 80 as both you and the Secretary testified to, that 
comes up to a substantial number short of what you indicated in 
your testimony is necessary to have full coverage at the 
border. Can you describe that problem?
    Mr. Mead. Yes, it would. We have had some discussions in 
the Department about this. You should know that the 140 
inspectors figure is one that we calculated in the Inspector 
General's office in 1998, made a recommendation on, and this 
Administration accepted. It was calculated on the assumption 
that you have inspectors at the border crossing during all 
hours of operation for each one of the crossings. There was 
some discussion earlier that maybe we do not need to deploy all 
of these inspectors at the border, but I think that issue has 
been resolved in the affirmative: they will be placed at the 
border and they will be inspectors.
    Senator Dorgan. Mr. Mead, do you agree that we are short of 
that. The Secretary is testifying there are 80 new positions. 
Is it not the fact that 40 of those will not be inspecting 
trucks at the border?
    Mr. Mead. I believe that the Department is now committed. 
The Secretary will speak to this. We specifically had this 
discussion, and I think that they are all going to be 
inspectors and they are all going to be at the border.
    Senator Dorgan. General Mead, they are either going to be 
inspectors and inspecting trucks or they are going to be 
conducting investigations. My point is that the Secretary's 
testimony says that we have 80 new inspectors. The submission 
to the Congress for appropriations talks about 40 inspectors 
and 40 investigators. Those are very difference functions. Now, 
which of those functions will not be done in your judgment?
    Mr. Mead. Well, I understood that it was 80 inspectors. 
That is what I understood.
    Senator Dorgan. So then where is the resources? Where will 
the resources for the investigations come from? My 
understanding from the appropriations submission is that you 
are talking about 40 inspectors and 40 investigators, and part 
of this discussion we just had about the Murray amendment is 
the requirement for safety compliance reviews. That is all 
investigated.
    You are investigating the circumstances of that truck line, 
that industry. That is as opposed to full-time inspectors being 
available when a truck is presented at the border, and I just 
think someplace here we are short 40 people in terms of what is 
being represented in the Committee.
    Mr. Mead. I see your point. The staffing for the Motor 
Carrier Administration has been increasing sharply since the 
law was passed. And for 2002, they have asked for 850 people, 
compared to 714 in 2001. So some of those people would have to 
do the investigations.
    Senator Dorgan. Let me just for the record, let me indicate 
that the Office of Inspector General report, interim report on 
the status of implementation, you say FMCSA has not released 
its plan for where these additional personnel will be 
stationed, however 40 will be inspectors and 40 will be 
investigators. Normally inspectors inspect commercial vehicles, 
drivers and--normally inspectors inspect commercial vehicles 
and drivers and investigators conduct compliance reviews of 
motor carriers.
    My point is that the 80 number that has been given us today 
to try to assure us that you have got plenty of inspectors is 
not an 80 number that complies with what is in your report and 
in my judgment, doesn't correspond with what Mr. Mineta is 
saying the 80 would be used for. So we are missing--something 
is not being represented here.
    Secretary Mineta. May I respond?
    Senator Dorgan. Sure.
    Secretary Mineta. The amount of money that we have 
requested is something like $50 million for facilities and then 
we have requested some $18 million for inspectors. You are 
correct. Some of those people are investigators, but they are 
also interchangeable. There is also an additional $18 million 
that will be going for state inspectors at the border. So it is 
not just the 80 additional that we are adding to the 60 we 
already have.
    We are also implementing through the MCSAP program to the 
states additional inspectors at the crossing. Now, you were 
just asking a little while ago, are you going to be conducting 
compliance reviews? Yes, we are. But as you say, those are done 
by investigators, but these are interchangeable in terms of 
inspectors and investigators. And they can sit there and wear 
one hat 1 day and change it and do their inspections. They are 
not just clothed as investigators, or clothed as inspectors. 
They can take their hat off and go from a border crossing 
inspector to do compliance review at a terminal site in 
Guadalajara, Cancun, Chihuahua, or whatever and do inspections 
at the border. If we don't have that kind of flexibility to do 
this, then we will have to have more than what we have already 
requested in terms of money for the people we need to do the 
job.
    The Chairman. Senator Allen.
    Senator Allen. Thank you, Mr. Chairman. I have been reading 
through all this. Senator Dorgan, whatever his bill is, 
actually lists several perspectives or principles that I think 
make a great deal of sense. They meet United States 
requirements. That there is full-time enforcement program with 
respect to compliance requirements, that you implement the 
Inspector General's recommendations, there is an ongoing 
program of monitoring, an evaluation in place.
    I think a lot of that is very probative and helpful to me 
in this. One thing you could do is probably translate all this 
money that we are talking about in here into how many more 
full-time employees. How many more personnel will there be with 
this? Have you done any calculations on how this amount of 
money will calculate into the number of people actually 
inspecting and ensuring safety compliance?
    Secretary Mineta. Our request, original request was based 
on our----
    Senator Allen. Let us just assume you are adding another 
$15 million at least.
    Secretary Mineta. We are adding $18 million in order to, 
when the Inspector General talked about needing 80 additional 
inspectors. That was what our $18 million request was based on 
to come up with the 80 additional bodies on top of the 60 that 
were already there. And then the balance, there is another $18 
million that will go for state inspectors.
    Senator Allen. How many will that translate to?
    Secretary Mineta. 180 in terms of state inspectors.
    Senator Allen. All right. Now, you are talking about 
needing land. If these trucks are defective, you park them. 
Generally, in the United States if they are parked, it is 
because they simply are not going to move them until they fix 
them. And maybe this is a common sense approach. Why don't we 
just require those trucks to turn around and go back to Mexico 
and let Mexico figure out where to park them while putting on 
some markings on it so that they do not just change the 
tractor.
    Say the trailer was the problem, as opposed to the actual 
tractor. Why not just turn around and let Mexico worry about 
where the heck they are going to park them as opposed to us 
worrying about getting more land. Whoever is carrying the 
freight is pretty upset they have to bring another shipment 
vehicle.
    Mr. Mead. They often do send them back. It is just that 
logistically, you have all these trucks coming across and the 
chance of getting one that is fatally defective from a safety 
standpoint is fairly high right now. They have to have 
somewhere to put them, even temporarily while they write out 
the paperwork, before they can turn them around and send them 
home. The point here is that when you only have room for a 
couple of trucks, that is not sufficient, and we ought to take 
advantage of whatever land we can use, even temporarily, that 
is on the site to park these out-of-service trucks.
    Senator Allen. You were explaining this as if these trucks 
are just sitting there for a long while until some mechanic 
comes--or whatever they are going to do with them--or bring 
that tractor and send the other back.
    Mr. Mead. Sometimes that happens. I saw one of these 
inspections where you wouldn't want to turn the truck around--
it did not have any brakes.
    Senator Allen. In a roundabout way it might make the 
compliance people in Mexico be more concerned, as we would be, 
if that truck had gotten through. You mentioned on the analysis 
of those vehicles that had decals and you found the various 
compliance rates or defect rates of 24 percent in California, 
50 percent in El Paso or somewhere in New Mexico.
    Have you done any analysis of the truck that did have the 
decals to verify the credibility of those inspections and 
whether those--even in this country, there are folks who get 
their vehicles inspected and they wonder why some vehicles are 
passing inspection that shouldn't be passing it. Do you have 
any verification of the accuracy or credibility of those with 
decals?
    Mr. Mead. I have not done a quantitative analysis, Senator 
Allen, but I have spoken directly to the people at the Otay 
Mesa facility and asked that question. They said yes, they do 
see a difference--the fact is that the recurring 3-month 
inspection does have an effect. It is true sometimes you get a 
truck in there with the decal on it and it has a safety 
problem, but it tends not to be as grave as some of the others 
you might find, such as no brakes.
    Senator Allen. Mr. Secretary, I think you ought to be 
quantifying success in whether you are doing things right in 
the ongoing aspects of this, and how are you going to quantify 
the safety compliance of these tractors and trailers and the 
capabilities of the drivers as this goes forward.
    I think this is a very ambitious program to get this all 
done by the end of this year. But regardless of all of that, 
how are you going to quantify it? What matrix are you going to 
use to give us assurance other than there is a Mexican truck 
that has gotten in a wreck and that is less per mile than it is 
for United States trucks, and that sort of thing, as opposed to 
waiting until there is a wreck and comparing that collision 
record versus United States or Canadian vehicles. How are you 
going to determine that?
    Secretary Mineta. Let me take first the driver's side. 
There is a commercial driver license requirement in Mexico. 
Mexico is building its database so that when that driver comes 
to the border, we are going to be able to have direct online 
capability into the data on that driver, through the commercial 
driver's license database, and be able to check it out that 
way.
    We will also require as they are at the border, a physical 
inspection of the driver in terms of the license requirement, 
so that both in terms of what Mexico is developing in its 
database and improving upon it, building that database, and our 
ability to get into it, I feel that we are working toward 
making sure that we have driver's safety requirements built in.
    Second, as it relates to the truck site, again, when you 
look at the amount of traffic at the border, most of it is 
drayage. Some 4.5 million trips back and forth. That 4.5 
million is across the border, just back and forth. Pick up a 
trailer, bring a trailer over, tractor goes back, picks up 
another trailer. It is back and forth. Those opeations are 
conducted by about roughly 80,000 trucks, I believe, is the 
number generally.
    Now, of the 80,000 trucks, roughly, I think about 63,000, 
as I recall, 65,000 were Mexican trucks. And of the Mexican 
trucks, I believe, something like 47,000 were inspected. So of 
the trucks that are back and forth, of the Mexican trucks that 
are going back and forth, we have a relatively high number 
being inspected right now. That will be intensifying in terms 
of what we are attempting to implement through our 
appropriations request.
    So that we have both on the driver's side, as well as on 
the truck side, the ability to do the kind of inspections that 
the arbitration panel said, ``United States, you are in 
violation of the NAFTA treaty, but also United States, you can 
impose your rules, regulations and laws against the Mexican 
carriers coming in.'' And that is all we are trying to do is to 
use those safety regulations, no more, no less, and to apply it 
against those trucks coming in.
    Now, I do not believe we are prepared to be able to deal 
with the whole truck, whether it is coming in just across the 
commercial zone back and forth, or the truck that decides to 
come through that is destined for Cleveland or Chicago or New 
York. Because under the NAFTA agreement, again, I don't recall 
the exact dates, but I believe it said that by 1995, trucks 
would be allowed to go beyond the commercial zone to within the 
border of the four border states.
    And then in the year 2000, January 1, 2000, I believe it 
was, they would be able to go anywhere in the United States. 
Since the 1995 and 2000 deadlines were not met, we are going to 
be collapsing both of those to allow both commercial zone 
traffic, as well as beyond commercial zone traffic to be 
implemented on January 1, 2002. And we will have again the kind 
of rigorous inspection of the driver and the trucks of those 
long haul operators.
    On the other hand, my observation has been the long haul 
operators in Mexico are as good truck operators as United 
States truck companies. And so my concern is really more with 
the drayage type operation. We will have equal focus on the 
long haul carriers. But I have found them to be very good truck 
operators.
    Senator Allen. Mr. Chairman, let me just----
    The Chairman. It is about a 10-minute answer and Senator 
Boxer has been waiting.
    Senator Allen. No. 1, if you would provide us a specific 
bill of analysis, legal analysis as to why you think that the 
Murray amendment or any of these somehow are in legal violation 
of NAFTA.
    Finally, gentlemen, I think to get sufficient confidence-at 
least in the Senate-to support what you are trying to do as far 
as the safety compliance, you in the administration are going 
to have to perform more duties than you may think are necessary 
to get enough votes for this, so I----
    Secretary Mineta. I am willing to step up to that if I am 
given the resources to meet those requirements.
    The Chairman. Senator Boxer.
    Senator Boxer. Thanks, Mr. Chairman. I have to say I cannot 
overstate my concern, and sometimes at hearings you feel 
better, you know, after a while. You come in with a concern. 
You feel better. I am feeling worse. Mr. Mead, I say to you, 
you have a lovely smile, but you have got some situation to 
monitor here, and we are going to be counting on to you monitor 
it in the most straightforward way.
    When we talk about Senator Dorgan's question about 40 
inspectors and 40 investigators and Mr. Mineta says well, they 
are interchangeable. If I had an accident and I go to an 
insurance company and someone investigates that accident, I do 
not want that guy fixing my car. It is a very different set of 
skills. So let us be careful and precise.
    Now, my understanding is we are currently inspecting, 
Federal Government, 1 percent of the trucks, and out of that 1 
percent, and you can fudge it any way, you can come up with any 
number you want, and I will show you where I got that, 36 
percent of those failed that inspection and Mr. Mead talks 
about a truck, he couldn't bring it back over the border 
because it had no brakes. Well imagine, we are only inspecting 
1 percent.
    And then I look at my state that is putting tens of 
millions of dollars of its state money, and we talk about 
unfunded mandates. This was one of the issues with NAFTA that 
was raised by many of us. You know, what happens when the state 
now has to fund some of the problems?
    Mr. Mead, where would you be if California said today, this 
is a Federal Government responsibility, we did not sign on to 
NAFTA, we are out of the inspection business. Where would you 
be?
    Mr. Mead. I am glad you raised that. Do you know for years 
on this NAFTA issue, there has been a dispute between the 
Federal Government and the States?
    Senator Boxer. I do not want you to get into that. I am 
asking you where would you be if the state----
    Mr. Mead. If California were to stop inspecting, you would 
be in real trouble; there is no doubt about it. You have nice 
facilities there, and we need to replicate them all along the 
Southern border.
    Senator Boxer. We have a situation where we are responsible 
for NAFTA and we have a huge unfunded mandate on the states and 
some of the states aren't stepping up to the plate. Maybe they 
do not have the resources. They have other problems, 
priorities. I am in no position to be critical. But this is 
very discouraging to me.
    Now, Secretary Mineta, you say that you recommend to the 
President that he veto the bill if the Murray language goes 
through. I want to read to you the description of what Murray 
is, and by the way it is Murray-Shelby, Mr. Chairman. This is 
bipartisan.
    Language prohibits the DOT from granting operating 
authority until a number of safety and compliance measures are 
put in place. These measures include adequate border staffing, 
inspection facilities, the ability to check the validity of 
Mexican driver's licenses, vehicle registration, and to verify 
insurance.
    Now, I do not think this is a radical trade busting 
amendment here, and I say this, if the President vetoes this 
legislation, the transportation appropriation because of this, 
I think he is going to be subjected to a lot of criticism and I 
think it will be well-placed. We have to ensure that our people 
are safe.
    Even with our own truck drivers, we have problems today. A 
lot of us are worried that they are working too long. My 
goodness. I was at a press conference a year ago with victims, 
and I say this to my colleagues, because we all do these, we 
all meet the families of victims. And look in their eyes and 
trucks where the drivers were tired and so on and so forth. I 
have shown you the difference in the laws here. They do not 
have random drug testing there. They get paid 7 bucks a day. We 
have a different situation than we have in countries where we 
have very similar laws. So I would hope there would be no veto 
threat, but rather that we roll up our sleeves and get the work 
done.
    Mr. Mineta, I want to ask you this. You threatened to veto 
if the Murray-Shelby language goes through. Do you threaten to 
veto if the House action goes through? You did not mention 
that.
    Secretary Mineta. Senator Boxer, let me recap what I said, 
and I apologize.
    Senator Boxer. I have so little time. Can you just answer 
the question.
    Secretary Mineta. First of all, I misspoke. The--first of 
all, it is not my recommendation about a veto. That came from 
senior advisors to the President. If I said Murray amendment, I 
apologize. I really meant the House language, the House-passed 
bill.
    Senator Boxer. Okay.
    Secretary Mineta. I apologize if I said----
    Senator Boxer. So in other words, the senior staffers to 
the President are not recommending a veto if the Murray-Shelby 
language stays. They are if the Don Young----
    Secretary Mineta. I am talking about the difficulty in some 
of the requirements in Murray, but the veto was regarding the 
House-passed bill.
    Senator Boxer. That is important. I am glad that you 
clarified that because I look at the Murray amendment, I can't 
imagine why anybody would veto over something I think is pretty 
mild. I have a number of questions and my time is running out 
so let me just before it runs out say the areas I am concerned 
about.
    The proposed rules for Mexican trucks require carriers to 
maintain copies of their proof of insurance in all trucks 
crossing the border. Do Federal inspectors check for the proof 
of insurance at this time? Mr. Mead?
    Mr. Mead. Yes, they do, but the carriers often just buy 1 
day insurance when they are coming across.
    Senator Boxer. That is very interesting.
    Mr. Mead. What we would like to see, based on our work, is 
an inspection of the carrier itself and their certificate of 
insurance. The insurance information would be entered into an 
automated database, and when a truck tries to get clearance to 
come into the United States, an inspector would enter the 
firm's identifying information and access the database showing 
evidence that the firm has insurance.
    Senator Boxer. My time is up but this has made me even more 
nervous. A 1-day insurance and then by the way, only 1 percent 
of the trucks are inspected. Imagine how many trucks are going 
back and forth with no insurance, and wait until, God forbid, 
something happens to someone we care about in our states. This 
is a nightmare. We are not ready for this. We will be some day. 
We are not ready for this. I am increasingly concerned. Thank 
you, Mr. Chairman.
    The Chairman. Thank you. Senator Stevens.

                STATEMENT OF HON. TED STEVENS, 
                    U.S. SENATOR FROM ALASKA

    Senator Stevens. Mr. Secretary, I want to make sure about 
this because I have a substantial disagreement over the current 
version of our transportation bill from the Senator from 
Arizona. Am I to understand that your statement about the veto 
reference was that it applied to the House bill, but not to the 
Murray-Shelby amendment?
    Secretary Mineta. That is correct. I misspoke on that in 
terms of the veto. The veto message, so to speak, that it 
applied to the House bill.
    Senator Stevens. I thank you for that and I hope that 
Senator McCain's assistants will convey that to him because it 
is going to be substantial scrutiny and it changes a statement 
I was going to make, Mr. Secretary, because our Appropriations 
Committee voted unanimously to accept the amendment that is in 
the bill on the basis of the representation that was made to us 
that the administration preferred that substantially as opposed 
to the House version of the bill, that there was still some 
items they wished to negotiate, but they did support that 
amendment to go to conference.
    Now, I think it is very important for us to do that, to 
have that understanding of where the administration stands as 
we go to the floor. But one thing that bothers me, Mr. Mead, is 
as I understand it, there is a series of these areas, crossings 
and I should say parenthetically as chairman of the 
Appropriations Committee, I took portions of the Committee down 
to the border 2 years ago and was appalled at some of the 
things we saw down there in terms of lack of inspection and the 
way trucks were just coming through. How many of the border 
crossings--we do not have full inspection staffs. What is that 
figure? There are 27 crossings, right?
    Mr. Mead. 25. The example I gave about Laredo, that is 
probably the busiest crossing. They do not have sufficient 
coverage there for all operating hours even during the 
weekdays. And on the weekends, they had none at all. So that 
needs to change.
    Senator Stevens. I apologize for coming in late. I had 
another meeting, and I have got to leave in a few minutes for 
another. But we will not get the full shot of these testimonies 
today. Did any of you talk about the number of these trucks 
that have been involved in accidents in our country? Do we have 
that accident rate?
    Mr. Mead. No. And we do not know.
    Senator Stevens. You estimate that the number of Mexican 
trucks operating across the border can range from 63,000 to 
89,000 and that 26,000 of them were inspected at least one time 
during fiscal year 2000, right?
    Mr. Mead. Yes, sir.
    Senator Stevens. If we have the funds that are in this bill 
we were talking about, particularly the Senate version, can you 
give us an estimate how much the inspections will increase? If 
we approve the money that was asked for plus the additional $15 
million that we have provided in the Senate version bill, do 
you know how many inspections there will be, how that would 
increase inspections and how many border crossings we will 
cover?
    Mr. Mead. We will have every border crossing covered during 
all operating hours. However, the analysis has not been done to 
determine how many inspections that will translate into, and it 
probably ought to be done. There is also the point Senator 
Dorgan raised about the number of investigators that would be 
needed to perform safety reviews, which would be different from 
actually inspecting the trucks at the border. I apologize for 
that Senator Dorgan, I did not quite grasp the question.
    Senator Stevens. My memory was when we discussed NAFTA, 
that there was an understanding that these trucks that were not 
inspected would not go beyond 25 miles from the border. Is that 
25-mile limitation still in place?
    Mr. Mead. Yes. What you are referring to is a commercial 
zone, which is usually 20 miles, and in some cases, I think it 
is even less than that. Mexican trucks can go in there now, but 
they need operating authority to do so.
    Senator Stevens. Operating authority in terms of inspection 
of the system that they run, right, rather than individual 
trucks?
    Mr. Mead. Sir, now only individual trucks are inspected.
    Senator Stevens. It is. I thought there was inspection of a 
system of the organization and that they ran the trucks.
    Mr. Mead. A review of a Mexican carrier is not yet in 
place. That is part of the Department's proposal, and it needs 
to be put in place. Right now they just inspect trucks and 
drivers.
    Senator Stevens. I am interested in Senator Dorgan's 
comparison of the Canadian border to the Mexican border. I am 
sure we have great friends on both sides of the border, but the 
Canadian side is based on an understanding of the totality of 
inspections on their side, as compared to the totality of 
inspections on our side. We have sort of a mirror. What they 
do, we do, as I understand it. Do we have that arrangement with 
the Mexicans? Do they perform inspections on their side of our 
trucks?
    Mr. Mead. We have not seen evidence of that.
    The Chairman. Evidence of it.
    Senator Stevens. Are our trucks allowed into Mexico as 
freely as their trucks are allowed into our country?
    Mr. Mead. It is the same restriction. Our trucks do not go 
into the interior of Mexico, they go down to the commercial 
zone.
    Senator Stevens. I am interested now in these 25 states 
where they have showed up. How do we get those statistics 
where, we found these trucks in 25 other states?
    Mr. Mead. Because a policeman inspected them, Senator 
Stevens. A policeman stopped the truck and it turned out to be 
a Mexican truck operating illegally without any authority at 
all outside the border states.
    Senator Stevens. Did you have any of your investigations 
talk about violation of immigration laws on those trucks? I 
heard about some. I am wondering if you sent them up?
    Mr. Mead. No, sir, I'm not familiar with that.
    Senator Dorgan. Mr. Chairman, would the Senator from Alaska 
yield?
    Senator Stevens. I do not have any time left, I do have to 
leave. I would say this to my friend, we are committed to this 
amendment, Mr. Secretary, because we voted unanimously for it. 
When we get to the floor, if you have some suggestions to make, 
I hope you deliver them to us and I hope we do not find 
opposition to something we approved on the basis of 
representation that is something that the administration 
favored as opposed to the House bill.
    The Chairman. That's exactly why I asked that you list 
those serious concerns or the conditions, and I would say in 
the Committee bill. Go ahead.
    Senator Dorgan. The Senator from Alaska indicated he felt 
from some discussions that the administration perhaps supported 
the Murray amendment coming out of the Committee. From the 
testimony here, it wasn't clear to me whether they simply do 
not oppose it or I guess the testimony is they would veto the 
Sabo amendment.
    Senator Stevens. They indicated they preferred it to the 
House version of the bill.
    Senator Dorgan. The reason I ask the question, does that 
mean they support the Murray amendment?
    Senator Stevens. That was our understanding. They weren't 
overjoyed with it, but they preferred it to the House bill, and 
we were told there would be some discussion about some of the 
provisions that we have not had yet.
    The Chairman. Mr. Secretary, on behalf of the Committee, do 
you favor the Senate bill?
    Secretary Mineta. No, sir. I do not.
    The Chairman. Why not?
    Secretary Mineta. Because of the requirements it places on 
me in terms of some of the certification requirements, even in 
terms of as I look at weigh-in-motion devices and scales at the 
same place. I do not know why we would want to do that. Why 
would we want to put weigh-in-motion devices at an inspection 
station? Weigh-in-motion devices cost maybe three quarters of a 
million dollars.
    Senator Stevens. May I suggest, Mr. Secretary, that you get 
together with the chairman and ranking member of that 
Subcommittee. This bill is going to come up early next week, 
and it is currently scheduled to have 1 day. It sounds to me 
like it could take more than a day to explore this amendment 
unless we resolve some of your objections before it gets there, 
and I think we could.
    Secretary Mineta. We will do that. Senator, in response to 
your request about accident rates for Mexican trucks within 
commercial zones, the accident rate is .07. Now, as far as I 
know, there have only been 56 trucks that have gone beyond the 
commercial zone into other states, and, but that is, that 
determines the accident rate is .07.
    The Chairman. Senator Nelson?
    Senator Nelson. I will wait until the next round.
    The Chairman. Senator Fitzgerald?

              STATEMENT OF HON. PETER FITZGERALD, 
                   U.S. SENATOR FROM ILLINOIS

    Senator Fitzgerald. Thank you, Mr. Chairman. I want to 
welcome the Secretary and the Inspector General to the 
Committee. I want to compliment the Secretary. I think he has 
been doing a wonderful job as the head of the Department of 
Transportation and I think your experience is showing. You have 
vast knowledge in a wide range of areas.
    I think I just want to reiterate what Senator Stevens said. 
If we could get some clarification as to the DOT's position 
with respect to the Murray-Shelby amendment, maybe different 
than the White House's opinion, in any respect, we ought to 
iron those differences out and get some clear guidance before 
we have that bill on the floor.
    This past Sunday, Vincente Fox, the President of Mexico, 
was in Chicago, and Senator Durbin and I had the opportunity to 
talk to him about this very issue. And I do know that this is a 
very important issue, and our solving it will go a long way 
toward enhancing our friendship with our neighbors to the 
south. I do hope that our country can comply with NAFTA, and I 
think that if we can put a man on the moon or even have a 
successful test of our missile defense system, we should be 
able to find a way to comply with NAFTA while at the same time 
having proper oversight over the safety of our trucks in this 
country.
    But I do not think that the safety issue should be 
minimized. It is a legitimate issue. As you know, in my state 
of Illinois, we had a situation where there were bribes for 
commercial driver's licenses, schemes which resulted in some 
trucking firms paying bribes to have inspectors from the 
Secretary of State's office issue driver's licenses to people 
who are not qualified--commercial driver's licenses--and we had 
some serious injuries, even fatalities.
    In one case, an unqualified truck driver was driving a 
truck just south of our northern Illinois border with 
Wisconsin, a piece fell off the truck, it hit the car behind 
them, there were seven children in that car who died in the 
fiery accident, and the parents survived. They lost seven kids. 
So there are serious consequences that have real-life 
implications if we do not ensure the safety of our trucks.
    I guess I would want to ask, Mr. Mead, do you believe that 
if you received the additional funding that you requested, and 
that you did the things you were going to do, that that would 
reasonably guarantee that the safety of Mexican trucks would be 
comparable to that of United States and Canadian trucks?
    Mr. Mead. Well, as you know, the Inspector General makes 
recommendations. We do not administer the programs, but we made 
some recommendations. I believe from the Secretary's statement 
that the Department is saying that it is prepared in 
substantial part to adopt them. I think this is very ambitious. 
I think the administration's budget request of $88 million 
extra was very much needed, and I am sure that the plus up that 
the Senate provided, although it wasn't in the President's 
budget request, could probably be put to good use at the 
border.
    Senator Fitzgerald. My understanding is that right now 
Mexican long haul trucks that are headed for Canada are able to 
travel through the United States, and maybe I am not informed 
properly on that, but if their destination is in Canada, as 
opposed to in the United States, are they able to pass through?
    Mr. Mead. Technically yes.
    Senator Fitzgerald. They are?
    Mr. Mead. I think so.
    Senator Fitzgerald. And are they doing that now?
    Mr. Mead. Yes.
    Senator Fitzgerald. Is there any evidence that those 
Mexican trucks which are passing through the United States on 
the way to Canada are less safe than our United States trucks, 
or do we have any information on that?
    Mr. Mead. No. No evidence.
    Senator Fitzgerald. But they are driving through on their 
way to Canada right now without restriction?
    Mr. Mead. That is my understanding. I can't quantify that. 
I don't know how much, but it is technically legal.
    Senator Fitzgerald. So that is kind of a--that is a little 
bit of a glitch here then. Also, my understanding is a United 
States firm that owns a Mexican trucking company is able to 
have its subsidiary company from Mexico drive on our highways. 
Is that correct?
    Mr. Mead. Yes. That carrier is considered a Mexican 
domiciled carrier, with U.S. ownership. The trucks we are 
speaking of today are primarily Mexican domiciled carriers, 
with Mexican ownership.
    Senator Fitzgerald. The bottom line, if you have the United 
States firms that own Mexican trucking companies and you have 
Mexican trucking companies whose destination is Canada, there 
are a lot of Mexican trucks coming through the United States 
right now as we hold this hearing, without restriction.
    Mr. Mead. I wouldn't go so far as to quantify it. I can't 
support the quantification that you just did.
    Senator Fitzgerald. There would be some?
    Mr. Mead. There would be some. Yes, sir.
    Senator Fitzgerald. Okay. One final question, in that 
accident that we had in Illinois, there was evidence that the 
driver was unable to read English. And that clearly can be a 
problem if you cannot read our road signs here in the United 
States. Has there been any discussion about some kind of 
requirement that the drivers from Mexico be able to understand 
our road signs?
    Mr. Mead. Yes. They are supposed to be able to do so.
    Senator Fitzgerald. Okay, and that is current law now? 
Current requirements?
    Mr. Mead. Yes.
    Senator Fitzgerald. Okay. With that, Mr. Chairman, thank 
you very much.
    The Chairman. Back to you, Senator Nelson.

                STATEMENT OF HON. BILL NELSON, 
                   U.S. SENATOR FROM FLORIDA

    Senator Nelson. Mr. Chairman, thank you. I want to refer to 
Senator Boxer's chart here and ask the two panelists if that is 
an accurate comparison in your understanding of the difference 
between the Mexican standards and the United States standards?
    Secretary Mineta. Senator Nelson, the--those are United 
States requirements, and it is true that Mexico does not have 
those laws. But by the same token, once their driver or their 
truck comes into the border, then they are required to comply 
with United States laws, rules and regulations. And that is 
what we are attempting to, since I have been there since the 
25th of January, my whole effort has been to make sure that 
trucks and drivers that are coming in are safe.
    We could have all the laws that we might have, whether it 
is on trucking or on other things, but they do not necessarily 
apply in a foreign country, and so yes, that is correct. Those 
are United States laws. That is the state of Mexican law, but 
our laws do not apply in Mexico, but our laws do apply to their 
trucks and drivers when they come in.
    Mr. Mead. There have been a couple of developments in the 
past year that put an asterisk on that. The logbooks, where 
drivers record where they are going and how long they have been 
driving, are now required of Mexican drivers, and that is an 
important step because before March of 2000, Mexico did not 
require them except for hauling hazardous material.
    The next step would be hours of service, but at least 
logbooks are required to record the time that they are driving. 
We understand that they recently adopted vehicle inspection 
standards. I think it is also fair to say they have made some 
progress in establishing databases that record carrier 
information and which drivers have commercial licenses.
    Senator Nelson. Well, I think from this comparison, Mr. 
Mineta, the Secretary, would understand, as well as any of us 
up here having been a very distinguished member of the House, 
and representing a constituency, that the American people, if 
they know this and know that trucks from Mexico operating under 
these standards, they are simply not going to tolerate this. 
The American people, if they knew this, that Mexican trucks 
were operating on United States highways with these kind of lax 
or lessened conditions, you know, are going to absolutely 
insist of their elected representatives that we not allow this 
to occur.
    Now, let me ask you, if in fact that the Congress did not 
provide the adequate funding for the inspections, what would 
the administration respond? Would you continue the current 
implementation schedule?
    Secretary Mineta. I am not sure what you mean, because we 
wouldn't be able to implement anything. We do not have any, 
based on the House bill, they have knocked out all the $88.2 
million funding that we requested, and they adopted the Sabo 
amendment which prohibits us from processing any motor carrier 
applications. So based on the House bill, we have nothing to 
do.
    Senator Nelson. So if at the end of the day in 
appropriations, it was not provided for all of the additional 
inspections and so forth, would those Mexican trucks still be 
allowed to enter the United States and operate on the American 
highways?
    Secretary Mineta. Within the commercial zone, they would 
still, I believe be able to operate.
    Senator Nelson. And I am sorry that I wasn't here earlier 
to hear you define the commercial zone.
    Secretary Mineta. 20 miles within the border.
    Senator Nelson. Mr. Chairman, thank you very much.
    The Chairman. Thank you, Senator Dorgan has one point of 
clarification.
    Senator Dorgan. Mr. Chairman, I want to go back to this 
issue of inspectors because while I disagree with the 
Secretary, I have great respect for the Secretary and I am 
pleased that he has come today to answer questions.
    The success or failure of what the administration and the 
Secretary want to do depends directly on a couple of things, 
one of which is having adequate resources to do the 
inspections, and I made the point that the Inspector General 
indicates that they have previously estimated they would need 
139 inspectors to provide sufficient coverage at all crossings 
during operating hours. And that there are now 58 inspectors in 
place, 60 authorized, 58 in place, and that there are, 
according to the Secretary's testimony, 80 additional Federal 
inspectors to perform safety inspections.
    But my question was, is it not the case that 40 of those 80 
are investigators to do the compliance reviews and so on, if 
so, if that is the case, if they are only 40 additional 
inspectors, it seems to me you are short of doing the 
inspections that you say are necessary in order to ensure 
safety on America's roads. Mr. Mead wanted to speak to that and 
I want on to another question. Mr. Mead, am I correct here in 
the way that I look at these numbers?
    Mr. Mead. Yes. There is money in the budget for the state 
inspectors. What happened here was we did our calculation of 
how many Federal inspectors you would need, inspectors, not 
investigators, and the number was about 139. We made that 
recommendation in 1998 based on our calculation. As you know, 
we make recommendations, people are free to accept or reject 
them.
    The Federal Motor Carrier Safety Administration thought, 
yes, we can see the point for 140, but of the 80, which is what 
you are referring to, we need 40 of those as investigators, 
people that would do things like safety and compliance reviews, 
and the other 40 we will put right at the border. When we 
learned of that, and we reflected this in our report to you, we 
said, ``no'', our calculation was that we needed 139 Federal 
Inspectors at the crossings to provide coverage. Now, if the 
Department needs additional Federal people to do compliance 
reviews or safety reviews, then they would have to provide you 
an estimate of what the plus up would be to do those or which 
current resources they would use to perform these reviews.
    Secretary Mineta. Mr. Chairman, the--in terms of the 
combination of state and Federal enforcement people, these are 
inspectors, the total will be 496. Now, to put that figure in 
perspective, in December 1995, there were seven Federal safety 
inspectors at the border and about 45 state inspectors. So we 
have gone from roughly 52 now to 496 if we get our request 
approved. And I am not sure really where this division of 40 
comes.
    Senator Dorgan. Mr. Secretary, while you are getting that, 
I mean it comes from what I had read previously to you. The--
let me also just mention that the map that the Inspector 
General provided in his IG report shows that we have had 
Mexican trucks in North Dakota, and yet you seem to suggest 
that it is just sort of a minimum problem of having these 
trucks violate the 20-mile limit. I do not know.
    Secretary Mineta. I have been told there are 56 trucks in 
that situation. 56 carriers.
    Senator Dorgan. 56 carriers. That is a big difference. But 
how on earth would we know how many trucks have come in if the 
Inspector General was telling us the states in which they have 
been apprehended and my point is they have been moving up in 
North Dakota. I do not know at this point what's been happening 
except I do not--look, Mr. Chairman, I don't think there is a 
ghost of a chance of accomplishing what you want to accomplish 
at the end of this year, and I just think that there is a lot 
of fuzzy math being used in all of these numbers about 
inspectors and compliance and so on. I am only interested in 
the issues of trucker safety and I do not think there is a 
ghost of a chance of accomplishing what you want to accomplish 
at the end of this year.
    Secretary Mineta. Well, Senator, I am trying my best to try 
to put an effective program together. That is my 
responsibility. So given the resources we have in terms of 
money and people, and to try to--where very little had been 
done in the past, I am trying to get the resources and the 
people to make sure that safety, because that is our paramount 
interest, that safety is adhered to, and so again, I am trying 
to make sure that in terms of inspections at the border, 
whenever those border crossings are open, that we in fact will 
have inspectors there. To me, that is an obligation that I want 
to follow really closely.
    The Chairman. Very good.
    Senator Nelson. Mr. Chairman? May I just ask one followup?
    The Chairman. We have two other panels here.
    Senator Nelson. I understand. Just a very quick followup, 
Mr. Chairman, if I may. I just want to make sure that I did not 
misunderstand the Secretary. Senator Murray is ready to come to 
the floor, I think tonight with her transportation 
appropriations bill. And in there, she is going to have either 
an amendment offered or it is already going to be in the bill, 
I know not which.
    The Chairman. It is in the bill.
    Senator Nelson. Prohibiting DOT from granting operating 
authority until a number of safety and compliance measures are 
put in place. And those, Senator Boxer has already articulated, 
such as adequate border staffing, inspection facilities, the 
ability to check the validity of the Mexican driver's licenses, 
vehicle registration and verifying insurance.
    Now, is it the administration's position that you do not 
support that provision in the transportation bill?
    Secretary Mineta. You mentioned the insurance provision, 
Mr. Chairman, may I respond on that?
    The Chairman. Yes.
    Secretary Mineta. In the Murray language, as I recall, it 
says that the insurance must be provided by an American 
insurance company. There are no other laws that require that 
United States companies be the insurer of a foreign entity 
doing business here. And some questions have been raised as to 
whether or not that is a WTO violation. I have not gotten to 
the end of the story to see whether or not that in fact is 
true.
    But there are a number of those kinds of requirements in 
the Murray--I can implement or certify to I think in terms of 
driver licenses, we have the ability to get on-line with their 
information system. Their system may not be as robust or as 
good as ours, but I think given the time that they have had to 
try to implement it, I think they have made very strong efforts 
at trying to get their commercial driver's license requirements 
up.
    Senator Nelson. So your answer is there are parts that you 
support. There are parts that you do not support, but when 
confronted with how we will be voting, the administration is 
opposed to the provision included within the transportation 
appropriation, is that correct?
    Secretary Mineta. Because of the certification requirement 
on me. You know, I----
    Senator Nelson. Okay. I do not want to take the time of the 
chairman.
    The Chairman. We have got to move on. Senator Boxer.
    Senator Nelson. I just want to add that I think, Mr. 
Secretary, you are one of the people in government that I 
admire most and I think that policy as articulated by the 
administration is clearly out of step with the American people.
    The Chairman. Senator Boxer.
    Senator Boxer. Mr. Chairman, I will be very fast here. 
Under the administration's proposed rules, Mr. Mineta, for 
allowing NAFTA trucks access, offenses committed by NAFTA motor 
carriers call for letters to be sent to the company that they 
work for, but for the same violations, United States drivers 
are subjected to fines, suspension of operating authority, and 
even criminal penalties.
    Now, how is this a level playing field for United States 
drivers which you say that you support? How is it a United 
States, how are United States drivers in a level playing field 
situation when if they have an offense, they are subject to all 
kinds of fines and revocations and all you need to do is send a 
letter to the company?
    How could you stand behind that? I don't understand.
    Secretary Mineta. Well, they will be, first of all, subject 
to the same fines and violations. When you added operating 
authority, I am not sure how we impact on the operating 
authority of the carrier through a driver violation. On that, I 
would have to take a look at it. But in terms of fines, 
penalties, those are, would be meted out.
    Senator Boxer. Where is the paper on that because the paper 
we saw is quite different. Do you have paper where you made 
this recommendation? Is it equal to the truck drivers in 
America, exactly equal, the same kind of penalties, because we 
have not seen that information.
    Secretary Mineta. Let me get it for you, but as far as I 
know----
    Senator Boxer. Where is it? Where would I find that 
information?
    Secretary Mineta. In May, we proposed rules. They were in 
the Register. The comment period has now closed on those rules, 
but in that proposed rulemaking, that was in there.
    Senator Boxer. So you are saying there will be equal 
penalties for the Mexican driver as there are for the American 
driver, and I have yet to see that, so I look forward to 
reading that rule and I will do that during the next panel.
    Secretary Mineta. We will get that to you.
    The Chairman. Secretary Mineta, you can tell by the 
question, what we did in the Appropriations Committee, we have 
worked very closely with your Department of Transportation and 
our staff here at the authorizing Committee and for example, 
with respect to insurance, a requirement that they be based in-
country, in the United States, licensed in the United States is 
required by Canada of us and us from Canada, and you got that 
information that there had to be a United States company 
license to cover that Mexican carrier.
    We got that from your department, so let us get together 
this afternoon here and with your department and outline the 
various points in the Shelby-Murray amendment because we will 
be debating it and the whole intent that was passed out 
unanimously from our Appropriations Committee is to present a 
bill that the President would sign. We are not trying to be 
confrontational. It is very interesting and amusing in a sense. 
Our differences this morning is not with Mexico. It is with us. 
Thank you very, very much.
    Secretary Mineta. I think I want to thank you as well, Mr. 
Chairman. But no, it's----
    The Chairman. You all both have been very helpful to the 
Committee.
    Secretary Mineta. It is always been my pleasure to be 
before this Committee and to be with my colleagues from the 
House, as well. I never had the opportunity to serve with you, 
Senator, but you know, in terms of the chairmanship of this 
Committee, your stewardship has been great and so I appreciate 
your leadership.
    The Chairman. You have been admired by all of us on the 
Senate side for years. So thank you very, very much. Will the 
next panel come forward, please, the next two panels. We have 
Captain Steve Vaughn, the president of the Commercial Vehicle 
Safety Alliance, James P. Hoffa, the general president of the 
International Brotherhood of Teamsters, Duane Acklie, the 
chairman of the American Trucking Associations, Edward Emmett, 
president of the National Industrial Transportation League, Ms. 
Joan Claybrook, the president of Public Citizen, and Mr. Peter 
J. Pantuso, president and CEO of the American Bus Association.
    Let us try and do it as orderly and as quickly as we can. 
The reason I am combining the two panels is so that we will get 
their full statements in before the Committee before we have 
this roll call.
    We welcome you all and we really appreciate your patience 
and understanding of the situation we have got here this 
morning. All of the full statements will be included in the 
record and we will ask five or six, at least a half hour there, 
to try to summarize within 5 minutes your particular 
presentation. We will start here on the left with Captain 
Vaughn.
    Captain Vaughn. Thank you.
    The Chairman. Move the microphone so you can be heard, 
Captain.

   STATEMENT OF CAPTAIN STEVE VAUGHN, PRESIDENT, COMMERCIAL 
                    VEHICLE SAFETY ALLIANCE

    Captain Vaughn. Thank you very much, Mr. Chairman. My name 
is Steve Vaughn and I currently serve as the president of the 
Commercial Vehicle Safety Alliance. Thank you for allowing me 
to testify on behalf of CVSA.
    CVSA represents law enforcement agencies in all 50 states, 
Canadian provinces, and Mexico. If I may, Mr. Chairman, I would 
like to submit a written statement for the record that 
supersedes the statement by CVSA on Monday, July 16th, 2001. 
Technical changes were made to Section 4 of our previous 
submission, and I will give that to the Committee.
    Chairman Hollings. Move that microphone a little bit 
closer, please.
    Captain Vaughn. How is that?
    Chairman Hollings. Go ahead. That is much better.
    Captain Vaughn. I will offer you today both through the 
testimony today and through our written statement CVSA's 
perspective on the most recent border plan for consideration 
that has been addressed in a very comprehensive manner last 
week by the Senate Appropriations Committee. Also I believe 
that our written statement addresses the questions and concerns 
that were discussed here earlier by this Committee in the 
earlier testimony.
    Furthermore, I will discuss the approach the Commercial 
Vehicle Safety Alliance has recommended since the issue has 
become a high priority this year. And last, I will touch upon 
the rulemaking recently proposed by the Department of 
Transportation.
    CVSA offers its support and assistance in the directive of 
the Appropriations Committee that a full safety compliance 
review of Mexican carriers be conducted before entering the 
United States However as a practical matter, we suggest that a 
different approach also be considered.
    As I will shortly point out in more detail, conducting case 
studies is one of the initiatives CVSA recommends in our plan. 
We think this will better serve the intended results of this 
specific directive as well as many of the other provisions. We 
have studied these provisions of the Appropriations Committee 
specifying a determination of the appropriate level of 
inspectors at the border and their on-duty requirements, as 
well as the level of other infrastructure facilities. We urge 
that serious consideration be given to limiting the number of 
openings at the border crossings designated by each state as a 
commercial motor vehicle crossing.
    Almost 96 percent of all commercial vehicle traffic occurs 
at 10 of the 27 southern border crossings. By phasing in the 
opening of the border and limiting commercial traffic to the 10 
crossings, a more realistic determination of the need for full-
time staffing and other infrastructure requirements can be 
made. Just as important in the short term, it will be easier 
for both the United States DOT and border state enforcement 
agencies to better allocate and concentrate resources where 
they are most needed.
    As I already indicated earlier this year, when the NAFTA 
issue rose to the forefront, CVSA developed a plan to address 
this issue. It is designed to gather information on and educate 
those carriers that seek authority to do business throughout 
the United States. In all of the NAFTA discussions in recent 
years, there has been little, if any, data collected on these 
carriers.
    This lack of information with respect to Mexican carriers 
is largely due to the fact that one, until recently there have 
been very few safety regulatory requirements on Mexican 
carriers which would be comparable to those placed on carriers 
in the United States and Canada. Two, there are a limited 
number of personnel trained and continually performing 
oversight functions in Mexico. And three, the current motor 
carrier safety information infrastructure has not been in place 
long enough to capture and record the results of the oversight 
being performed by the Mexican Government.
    The key elements of our plan are to, in conjunction with 
Mexico, prepare an analysis of the Mexican government's current 
and planned safety regulations, policies, procedures and 
penalty structures as related to the oversight of the 
commercial vehicle industry.
    In-depth, 1-day case studies on the Mexican motor carriers 
seeking cross-border authority. These onsite visits in Mexico 
will include the evaluation of company safety management 
practices, review of crash records, knowledge and compliance 
with United States regulations, vehicle inspections, driver 
selection and training, dispatch operations, maintenance 
programs, drug and alcohol testing programs and overall company 
management--many of the elements that are contained in 
compliance reviews that were addressed earlier.
    Most importantly, this will be done jointly with the 
Mexican government officials and this can serve as a training 
for them as well, as they have sought our assistance.
    Conduct CVSA Inspection Familiarization Seminars or similar 
seminars at strategic locations across Mexico, and to be 
coordinated with the government and industry associations.
    Develop educational kits for the motor carriers and drivers 
which can be provided during case studies, inspection seminars 
and roadside inspections.
    Develop options for technology implementation. In addition, 
to the tools available, which were mentioned by Mr. Mead, we 
can use the CVSA decal which we apply in California as a means 
to award vehicles that are inspected and found not to have any 
critical safety defects.
    Create a database for recording and managing the 
information from the above activities. This information can be 
fed into the Motor Carrier Management Informational System 
known as MCMIS so that both Federal and state enforcement 
officials in both Mexico and the United States have access to 
the data.
    Mr. Chairman, it is important to recognize that this 
approach, which CVSA is presenting, will allow the existing 
institutional and technology infrastructure to be used to 
facilitate operations without having to make major changes to 
policy, procedures, legislation, or expend a large amount of 
resources. Equally important is that these activities are 
front-loaded so that we can have information to make more 
informed decisions on what to do and what not to do.
    This is extremely critical since our member agencies are 
implementing commercial vehicle safety programs based on 
carrier performance. CVSA is uniquely qualified to be a lead 
partner in carrying out this plan with our mission and goal to 
foster uniform international commercial vehicle safety 
standards.
    We appreciate the efforts made by the Federal Motor Carrier 
Safety Administration in issuing its rulemaking. However we 
have serious reservations about this approach and confining 
NAFTA planning to rulemaking alone. It precludes the necessary 
cooperation and partnership with the states and with groups 
such as CVSA that can be of great assistance in this effort.
    We also have concerns about DOT's proposal. It places 
almost the entire emphasis on state enforcement activity along 
the border and thus a greater burden on state inspectors 
throughout the United States and Canada. Our detailed analysis 
and concerns about the proposed rules have been filed in the 
docket.
    We hope that Secretary Mineta will stress to FMCSA the 
importance of a cooperative, true partnership approach on the 
NAFTA issue. We believe that provided with the proper direction 
and authority, by working in a cooperative fashion, we can keep 
our commitment to Mexico, provide the appropriate safety 
assurances to the traveling public, and limit the operational 
impacts. Thank you, Mr. Chairman, for the opportunity to speak 
before this Committee and I will answer any questions you might 
have.
    [The prepared statement of Captain Vaughn follows:]

        Prepared Statement of Captain Steve Vaughn, President, 
                   Commercial Vehicle Safety Alliance
I. Introduction
    My name is Steve Vaughn, and I currently serve as the President of 
the Commercial Vehicle Safety Alliance (CVSA). I am also a Captain with 
the California Highway Patrol presently serving as the Commander of the 
Motor Transport Section Thank you for holding this hearing and for 
inviting me to testify on behalf of CVSA and the State of California.
    CVSA is an organization of commercial vehicle enforcement agencies 
and industry representatives in the U.S., Canada, and Mexico. It's 
mission is to achieve uniformity, compatibility and reciprocity of 
commercial vehicle inspections and enforcement activities throughout 
North American through effective motor carrier, driver, vehicle, cargo 
safety standards, compliance, education, and enforcement.
    To briefly highlight some of our accomplishments since we were 
organized in 1980, we point to the development of the North American 
Uniform Inspection Standard; our internationally recognized inspection 
sticker that is awarded to commercial vehicles that are found to be 
defect free which serves as an effective roadside screening process; 
our uniform Out-of-Service Criteria; a complete training course and 
certification program for over 7,500 inspection officers in North 
America as well as standards for maintaining certification; uniform 
inspection procedures for vehicles transporting spent fuel and high 
level radioactive and transuranic waste; uniform cargo tank inspection 
procedures, and uniform bus inspection procedures.
    While the Motor Carrier Safety Assistance Program (MCSAP) through 
its grant program to the states serves as the underpinning of a 
national commercial vehicle safety program, CVSA is the organization 
responsible for the uniform practices and procedures of this both 
national and international inspection and enforcement program. Without 
CVSA, the MCSAP program would not be the success that it is today.
    Mr. Chairman, there are a wide range of issues with respect to 
NAFTA that I know you and other Members of the Committee want to 
discuss today. To assist with today's hearing, we have divided our 
comments into three parts which we believe should be considered. First, 
we will comment on the provisions of the very comprehensive NAFTA plan 
of the Senate Transportation Appropriations bill passed by the 
Appropriations Committee last week. Secondly, we will describe the 
approach to the NAFTA issue that CVSA as an organization has 
recommended since this issue rose to the forefront at the beginning of 
this year. Thirdly, I will describe in some detail how California has 
been handling the NAFTA issue since the early 1990's. As you know, my 
home state has been anticipating the opening of the border for some 
time and has committed significant state resources to the NAFTA effort.
    We certainly appreciate the fact that the members of this 
Committee, the Senate Appropriations Committee, and indeed, all members 
of Congress want to be sure that the Mexican trucks that cross the 
border to do business throughout this country are safe and meet U.S. 
standards. We view the current process of debate and discussion on how 
to deal with this important issue as a constructive process. We are 
confident that in the end a final border plan will be produced that 
satisfies everyone's concerns and that will be fair to the United 
States and Mexico. As the leading safety enforcement association in 
North America, we pledge our cooperation and support to make this 
happen.
II. Senate Appropriations Committee Plan
    Our review of the key provisions in the Appropriations bill dealing 
with NAFTA is as follows.
A. Safety Audits
    With respect to the requirement of a full safety compliance review 
of a Mexican carrier on site before entering the U.S., we would suggest 
that FMCSA's effort should begin with the current drayage operations 
(those carriers who are now conducting drayage operations and are 
applying for the additional authority to go beyond the commercial 
zones) because they are carriers that have already agreed to comply the 
Federal Motor Carrier Safety Regulations. Thus, they should be expected 
to already know U.S. safety requirements and have the supporting 
documentation and evidence with respect to drug testing procedures, 
maintenance programs, driver selection and training and all other major 
items that are checked when a compliance review is done on a carrier in 
the U.S. We offer our assistance in conducting these reviews.
    The information and data gathered from these audits should be very 
helpful in determining an overall border enforcement plan both in the 
short and long term.
    With respect to this provision, we offer one technical correction. 
There are only three U.S. carrier rating levels: satisfactory, 
conditional, and unsatisfactory.
B. Driver License Verification
    With respect to the requirement that Federal and State inspectors 
verify electronically the status and validity of the license for each 
driver of a Mexican motor carrier commercial vehicle, we believe this 
would be too burdensome on inspectors, result in excessive and 
unnecessary bottlenecking at the border, and would not sufficiently 
accomplish the intended affect. We recommend that the license check be 
done as a part of the complete vehicle and driver inspection process, 
rather than as a separate action. The purpose of this license check 
should be to determine the validity of the Mexican driver's license.
C. Distinctive DOT Transportation Number for Mexican Carriers
    We suggest that the purpose of assigning such identification number 
would be to enforce all Federal Motor Carrier Safety Regulations, not 
just the U.S. hours-of-service regulations.
D. Requirement That State MCSAP Funded Inspectors Check Violations of 
        All U.S. Federal Regulations
    We recommend that this provision be clarified to specify that these 
inspectors only check for violations of Federal Motor Carrier Safety 
Regulations (FMCSR) or those adopted by their home state that are 
compatible to the FMCSR. Enforcement of other federal regulations is 
the responsibility of the appropriate federal agency.
E. Use of Weigh-in-motion (WIM) Systems at All Border Crossings
    As much as we can appreciate the intent and purpose of this 
provision, after careful consideration, we would propose limiting such 
requirement to those crossings which have been designated by the state 
as commercial motor vehicle border crossings.
F. Proficiency Examination Requirement for Foreign Motor Carriers as 
        Well as New Carriers in the U.S.
    The term ``proficiency'' should be clearly defined.
G. New Regulations for Training and Certification of Motor Carrier 
        Safety Auditors
    We actively supported inclusion of this provision in the Motor 
Carrier Safety Act of 1999 and support going ahead with a rulemaking 
process as soon as possible as required in the Senate appropriations 
bill.
H. Establishment of Standards for Determining the Appropriate Number of 
        Federal and State Inspectors at the Border and the On-duty 
        Requirements for These Inspectors
    We understand the intent of Congress with respect to these issues 
and after careful deliberation with our border state members, we 
suggest that very serious consideration be given to limiting the 
opening of the border to Mexican carriers, at least in the first phase, 
to those crossings which have been designated by the state as 
commercial motor vehicle border crossings (2 in California, 1 in 
Arizona, 1 in New Mexico, and 9 in Texas). We think this is a way to 
more realistically both determine and fulfill the need for full time 
staffing as well as all other adequate infrastructure requirements at 
the border. Furthermore, we believe the individual border states should 
be permitted flexibility in determining their staffing needs.
I. Inspector General Certification
    Finally, we support DOT Inspector General certification of all 
important safety measures as identified in the appropriations bill 
relative to the opening of the border.
III. What CVSA's Approach to NAFTA Has Been
A. NAFTA Border Issue Requires Information and Education First
    A fundamental approach when attempting to address the issue of 
transportation safety, regardless of mode, or whether national or 
international traffic, is to gather enough information so an accurate 
assessment of the necessary actions can be determined . This couldn't 
be more true than when faced with the challenge of assuring that 
Mexican trucks and buses that cross the border to do business 
throughout the United States are safe. Yet even though NAFTA has been a 
major topic of discussion over the last several years, there has been 
little, if any, information on the safety fitness of such carriers. The 
safety fitness of the Mexican operators currently doing business and 
being inspected along the borders today in the commercial zones may, or 
may not, be indicative of operators that may engage in long haul travel 
into the U.S. once the border is opened. We believe it is necessary to 
try and obtain the facts with respect to these carriers before the 
border is opened through a plan I will shortly describe.
    This lack of information with respect to Mexican carriers is 
largely due to the fact that: 1) there have been few safety regulatory 
requirements placed on the Mexican industry which would be comparable 
to those placed on carriers in the United State and Canada until 
recently; 2) there are a limited number of personnel trained and 
continually performing oversight functions in Mexico; and 3) the 
current motor carrier safety information infrastructure has not been in 
place long enough to capture and record the data resulting from the 
oversight being performed by the Mexican government.
    In addition to obtaining this needed information, we must at the 
same time lend our hand to help educate the Mexican carriers. 
Therefore, our strategy can be summed up as ``gather information, plan, 
and educate''. This strategy has been the hallmark of CVSA's approach 
to all safety challenges since it was created more than 20 years ago. 
It has been the key ingredient in the success we have had in getting 
not only all of the state jurisdictions in this country, but also, all 
of the Canadian provinces to agree to uniform and reciprocal North 
American enforcement standards and procedures. We have every reason to 
believe that this approach will succeed with Mexico as well.
    Earlier this year CVSA developed a plan to specifically implement 
this overall strategy. It's key elements are as follows:

  <bullet> In conjunction with Mexico, prepare an analysis of the 
        Mexican government's current and planned safety regulations, 
        policies, procedures and penalty structures as related to the 
        oversight of the commercial vehicle industry.

  <bullet> Conduct 1-day ``Case Studies'' (audits) on the Mexican motor 
        carriers seeking cross border authority. These on site-visits 
        in Mexico will include the evaluation of company safety 
        management practices, knowledge and compliance with U.S. 
        regulations, vehicles inspections, driver selection and 
        training, dispatch operations, maintenance programs, and 
        overall company management. These ``Case Studies'' would be 
        conducted on at least a representative number of those carriers 
        (currently believed to number approximately 200 in total) that 
        have applied for authority to operate in the U.S. beyond the 
        commercial zones. Most importantly they would be conducted 
        jointly with Mexican government officials.

  <bullet> Conduct CVSA ``Inspection Familiarization Seminars'' at 
        strategic locations across Mexico, to be coordinated with the 
        Mexican government and CANACAR, CANAPAT, CONATRAM, and ANTP.

  <bullet> Develop educational kits for motor carriers and drivers 
        which could be provided during the case studies, inspection 
        seminars and roadside inspections.

  <bullet> Develop options for technology implementation that will 
        facilitate freight and passenger movements across the borders 
        and provide incentives for deployment.

  <bullet> Create a database for recording and managing the information 
        from the above activities. This information can be fed into the 
        Motor Carrier Management Information System (MCMIS) so that 
        both federal and state enforcement officials in both Mexico and 
        the U.S. have access to the data. This will provide the basis 
        for determining what the nature of high-risk Mexican motor 
        carriers may be and to develop whatever appropriate roadside 
        enforcement practices may be necessary at the border as well as 
        in this country.

    A more detailed description of the CVSA plan is attached at the end 
of this statement.
    CVSA believes this plan can be implemented on a timely basis. It is 
possible for case studies to be done on a significant number of Mexican 
carriers in 60 to 90 days.
    We feel that as an organization CVSA is uniquely qualified to be 
the lead partner in carrying out this plan. We are an international 
organization with members in Mexico and know how to approach matters 
from an international perspective Mexican government officials are 
familiar with and have participated in CVSA activities and programs. 
The case studies would be performed by a team of at least four people: 
2 U.S. CVSA state inspectors, 1 FMCSA inspector, and a minimum of one 
representative of the Mexican government. We believe the CVSA plan will 
be more acceptable to the Mexicans than if it were to be solely 
presented to them as a plan of the U.S. Department of Transportation 
alone.
B. The NAFTA Border Plan Cannot Just Be Confined to Rulemaking Alone
    As you are aware, the U.S. DOT has issued three recent notices of 
proposed rulemaking on NAFTA border issues. We have reservations about 
having so rigidly confined this process to rulemaking alone because 
this approach does not allow for the constructive and open dialogue 
necessary to address all of the safety concerns that are being 
expressed at today's hearing. To the best of our knowledge, the U.S. 
DOT did not consult or meet with key groups and organizations in this 
country, including CVSA a major safety enforcement partner, to obtain 
input on dealing with the NAFTA issue before assuring the current 
rulemaking. Certainly a rulemaking is not necessary to implement the 
key elements of the CVSA plan I have just described. To advance the 
cause of safety and to promote free and safe trade with our friends to 
the south, CVSA strongly believes that it will take cooperation from 
U.S., Canadian and Mexican federal government agencies, as well as 
state and provincial government agencies and industry. Safety is the 
responsibility of each of these groups and information sharing is 
critical to advancing the cause and ensuring the utmost contribution by 
each group.
C. An Analysis of the Current DOT Proposed NAFTA Rules
    While CVSA recommends taking a proactive approach and identifying 
potential issues before the border opens, DOT suggests conducting 
similar activities after the border opens and places a greater burden 
on state inspectors. We believe that by conducting the research before 
the border opens, and by limiting border crossings, either by carrier 
or border locations, we can enhance safety on our highways.
    To subject the Mexican carriers to a cursory paperwork review 
process at the border as the DOT proposes to be followed by intensive 
roadside monitoring through the inspection process after they commence 
operations throughout the United States does not reflect proper 
priority in assuring safety, nor does it adequately address the issue 
of safety compliance.
    In addition, the DOT proposal prescribes ``expedited action'' to be 
taken against Mexican carriers operating in this country who do not 
meet seven criteria established in this rulemaking. The expectation by 
DOT is that the seven items will be identified by enforcement personnel 
during roadside inspections. In all seven cases, these items cannot 
currently be established at the roadside. Most of these criteria are 
violations that are discovered only during traditional Compliance 
Reviews done face to face with carrier management and at the carrier's 
place of business, not during roadside inspections. Drug testing is an 
excellent example. Review of detailed information at the carriers place 
of business establishes that the carrier has met, or did not meet, 
federal requirements. In addition, the ASPEN software and other systems 
such as the Inspection Selection System used by roadside enforcement do 
not provide the inspector with the necessary information to assure 
compliance to the established criteria.
D. Current State of Readiness at the Border
    Much of the discussion about NAFTA to date has been about adequacy 
of resources at the border including both inspectors and the 
infrastructure to support inspection activities. Progress is being 
made. My own state of California has certainly made a special effort in 
this regard which has been ongoing for many years and I will speak in 
more detail about California's efforts shortly. California's plan 
through the use of the CVSA inspection sticker ensures that every 
vehicle that crosses the border is inspected, at a minimum, once per 
quarter. The other border states are certainly making every effort to 
strengthen their resources. At this point, I will again put an option 
on the table we suggested in our comments on the Senate appropriations 
plan, and that is to initially open the border at only those crossings 
which have been designated by the state as commercial motor vehicle 
crossings.
    Although the DOT and CVSA plans differ in timing and detail, the 
common element is a higher level of enforcement oversight at least in 
the short term. No matter what plan this Committee and the Congress may 
finally decide is appropriate, we must realize this is a one-time plan 
to deal with a very special set of circumstances. At some point in time 
after the border is open, it is certainly our goal and belief that 
operations between Mexico and the U.S. will be no different than our 
current operations with Canada. In the short term, we believe an 
approach that best ensures safety in this country, but one that is fair 
to the Mexican carriers, and provides support to the effort of the 
Mexican government officials can best benefit all involved parties. 
That is why our emphasis on education and outreach to them is such an 
important part of our plan and must go hand in hand with the on-site 
carrier reviews we recommend, or the safety audits recommended in the 
Senate Appropriations plan.
IV. California Commercial Motor Vehicle Safety Program NAFTA 
        Preparation Overview
    Since enactment of the NAFTA treaty, the Governor, and the 
Business, Transportation and Housing Agency (BT&H) of California, have 
continually supported the CHP's commercial vehicle inspection program. 
Recognizing that additional facilities, personnel, and equipment would 
be necessary to prepare for additional Mexican commercial motor 
vehicles crossing the border, the Administration approved and funded 
the addition of these resources.
    BT&H, in anticipation of the implementation of NAFTA, directed the 
California Highway Patrol to begin the construction of the Calexico and 
Otay Mesa Inspection Facilities at a combined cost of approximately 
$32.5 million. The Otay Mesa Inspection Facility opened in May 1996 and 
the Calexico Inspection Facility opened in December 1996. Their hours 
of operation mirror the hours of operation at the US Customs commercial 
port of entry. These facilities provide a means for commercial vehicle 
inspection personnel to immediately identify and correct problems with 
drivers and commercial vehicles as they cross the border into 
California.
    The CHP maintains a compliment of nine commercial officers and 15 
commercial vehicle inspection specialists at the Otay Mesa Inspection 
Facility. Five commercial officers and 9 commercial vehicle inspection 
specialist have also been assigned to the Calexico Inspection Facility. 
In addition, the Governor has allocated funding to allow the CHP's 
Rainbow Inspection Facility (seven officers and 12 CVIS) and San Onofre 
Inspection Facility (11 officers and 20 CVIS) to expand their hours of 
operation and to enforce the NAFTA provisions of the Commercial Zone. 
Furthermore, six Mobile Road Enforcement officers are assigned north of 
the Commercial Zone (San Diego, Orange, and Imperial Counties) to 
enforce these regulations.
    The California Highway Patrol offers Mexican Inspectors, Motor 
Carrier Specialists and trucking industry representatives with the 
opportunity to observe our inspection techniques. With the approval of 
the Administration, the CHP continues to provide Level 1 commercial 
vehicle inspection training to Mexican enforcement personnel at the 
Calexico and Otay Mesa Inspection Facilities, the Winterhaven Platform 
Scale, and at Tijuana and Mexicali.
    The California Highway Patrol has continued to provide support to 
the Mexican trucking industry by both providing and participating in 
training seminars and industry events. Furthermore, industry support 
has been provided by maintaining an effective liaison with Mexican 
commercial vehicle enforcement representatives.
    With the support of BT&H, the California Highway Patrol continues 
to confer with governmental agencies of the United States and Mexico in 
an attempt to link their computerized Commercial Driver License and 
Commercial Vehicle Registration databases, while retaining the security 
of each country's databases.
    Thanks in large part to the Administration's redirection of state 
funds, the CHP's commercial vehicle safety program has helped bring 
about an improved safety compliance rate of Mexican commercial vehicles 
operating in California. In fact, their out-of-service rate is 
comparable to US commercial vehicles entering California through the 
Otay Mesa and Calexico Inspection Facilities. Since 1999, the out-of-
service rates for both country's commercial vehicles have remained 
consistently lower than the other border states. Mexican motor carriers 
want to comply with federal and state safety standards and try to 
maintain their vehicles to avoid paying higher US wages for towing and 
vehicle repair. However, some Mexican motor carriers understandably are 
experiencing difficulty interpreting the intricacies of federal and 
state regulations.
    In 1996, the CHP developed a conversational Spanish training course 
with emphasis on commercial vehicle nomenclature. The class was 
provided to all field commercial enforcement officers and commercial 
vehicle inspection specialists. Departmental personnel also provided 
train-the-trainer training to law enforcement officers from Arizona, 
New Mexico and Texas
Enforcement Program
    In 1991 Assembly Bill (AB) 1355 was enacted in California which 
prohibits foreign based MCs from operating in California beyond 
specified commercial (border) zones without a Certificate of 
Registration (CR) issued by the ICC. The provisions of AB 1355 enacted 
California Vehicle Code (VC) Sections 34517 (Commercial Zones: Vehicles 
from other Countries) and 22651.4 (Foreign Commercial Vehicles: 
Impoundment).
    The CHP conducts on-and off-highway commercial vehicle and driver 
inspection throughout the state. The CHP's commercial program currently 
consists of nearly 1,000 personnel involved in full-time enforcement of 
commercial vehicles. Approximately 240 officers and 280 non-uniformed 
Commercial Vehicle Inspection Specialists (CVIS) are dedicated to 19 
Inspection Facilities and 34 platform scales statewide. An additional 
250 non-uniformed Motor Carrier Specialist (MCS) are dedicated to the 
off-highway inspection of both truck and bus terminals. Finally, 
approximately 150 officers are funded each year by the Governor and are 
deployed as Mobile Road Enforcement officers throughout the state.
    Through the efforts of these dedicated individuals, California 
commercial enforcement personnel continue to conduct nearly 22 percent 
of all roadside inspections. Governor Davis, BT&H Secretary Maria 
Contreras-Sweet, and Commissioner Dwight Helmick of the CHP have vowed 
their continued support for improving the safety on California highways 
and assuring that California is ready for the opening of the border 
with Mexico once the NAFTA issue is resolved.
    Thank you for the opportunity to present this testimony today.
Statistics
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    The Chairman. Thank you very, very much, Captain Vaughn. 
Mr. Emmett.

    STATEMENT OF EDWARD M. EMMETT, PRESIDENT, THE NATIONAL 
                INDUSTRIAL TRANSPORTATION LEAGUE

    Mr. Emmett. Thank you Mr. Chairman and Senators. I am Ed 
Emmett. I appear this morning as president of the National 
Industrial Transportation League. The League is an organization 
that dates back to 1907 which represents the shippers of 
freight of all kinds using all modes of transportation, both 
domestic and international.
    In other words, League members are the customers of the 
trucking industry. And even though all modes of transportation 
are used, there is no question that the vast majority of 
shippers and receivers view trucking as the key to successful 
operations. Quite simply, trucking is the life line of our 
economy.
    In recent years, there have been some major changes in the 
world of shippers and receivers in the way they do business, 
and I think that comes into play today, certainly seeing some 
of the confusion that came out of the earlier panel. We have in 
place what are called just-in-time delivery systems, where 
shippers and receivers, retailers and manufacturers of all 
types, rely on timely delivery of products from source to 
destination. Along with that, we now have a globalization of 
commerce, much more international commerce, and of course NAFTA 
is a part of that.
    The combination of those two makes it absolutely critical 
that we have trucking capacity from the United States to Mexico 
and vice versa. Safe, efficient trucks going to and from Mexico 
need to be part of the equation of the United States economy. I 
must say at this point, and I believe it was Senator Allen who 
raised the issue earlier, as far as shippers and receivers in 
the United States are concerned, the only efficient truck is a 
safe truck. The absolute worst thing that could happen to a 
shipper or receiver would be to have their shipment sitting out 
of service on a truck somewhere rather than getting there just 
in time as the delivery system requires.
    So, we are absolutely committed to having safe, efficient 
operations. Having said that, we look forward to working with 
the Congress and the Administration and any of the other groups 
here to be sure that that system gets put in place. However, we 
believe strongly that simply banning all Mexican trucks is the 
wrong way to go.
    We much prefer rigorous enforcement. Senator Boxer's chart, 
or table, does point out the difference between what occurs in 
Mexico and what occurs in the United States, but it is our 
clear understanding that any Mexican truck and Mexican driver 
operating in the United States will have to comply with U.S. 
laws, will be subject to the same penalties as U.S. drivers and 
so we take that as a given and if that needs to be clarified, 
then we certainly want to work with you to clarify that.
    The reason a simple ban, we believe, would be 
inappropriate, is that safety is better addressed directly 
rather than through economic means. It is better to have the 
inspectors in place, make sure the inspections occur, and deal 
with it that way. The second reason is that a total ban 
produces the maximum economic harm for our members, because it 
says there will be no trucks available to do that just-in-time 
delivery between the United States and Mexico. So, we would 
much prefer a system that allows at least the good operators in 
Mexico into the country.
    Third, and this follows on the second, to make a blanket 
judgment against all Mexican truckers, is I know it may sound a 
little harsh, but it really borders on racial profiling of a 
whole nation. Because there are some bad apples, no matter what 
that number is, I do not think it is fair to tell a Mexican 
truck owner, the owner of a company who may run an absolutely 
perfect operation, maybe even one of those operators who is 
going to Canada that was mentioned earlier, it is absolutely 
unfair to tell them that even if they are willing to meet all 
the criteria you put before them that just because they are 
Mexican, they are not allowed to operate in the United States. 
That just doesn't strike us as right.
    And fourth, as has been mentioned, and I certainly am not 
an international lawyer so I do not want to get into this too 
far, but to continue the ban does seem to violate NAFTA. We 
believe that the measures of NAFTA need to be fulfilled fully.
    With that in mind, Mr. Chairman, I know you have a long day 
and I keep hearing about votes and further meetings. I am 
actually going to give you back a little bit of your time and I 
will be happy to answer any questions, but the League stands 
ready to work with you and the Administration in any way 
possible. And I was particularly pleased to hear you, Mr. 
Chairman, at the beginning, talk about Senator Murray's 
approach as being preferable, I believe in what you said, and 
that is what we wanted to come say, even though some of the 
specifics might need to still be worked out.
    [The prepared statement of Mr. Emmett follows:]

    Prepared statement of Edward M. Emmett, President, The National 
                    Industrial Transportation League
    Good morning, Mr. Chairman and members of the Committee. I am Ed 
Emmett, president of The National Industrial Transportation League.
    The League is a voluntary organization of shippers conducting 
industrial and commercial enterprises in all States of the Union and 
all over the world. Formed 94 years ago, the League is the nationwide 
organization representing shippers and receivers of all types of 
commodities, using all modes of transportation, including trucks, to 
move their goods in intrastate, interstate, and international commerce.
    The League representatives of member companies are transportation 
and logistics professionals, the people who design the distribution 
systems for their products, arrange for their transportation, and pay 
the transportation bills. Some of our member companies also own and 
operate their own truck fleets. Therefore, the League is vitally 
interested in this important issue.
    The League has a long history of supporting highway safety for the 
general public as well as for commercial traffic. As customers of 
trucking companies, League members rely on freight being delivered in a 
safe manner. The League is also aware of the need for efficient 
transportation if the U.S. economy is to realize its potential. Make no 
mistake, though, transportation safety and efficiency are not counter 
forces. Unsafe transportation is the ultimate inefficiency.
    Given that background, the League is very concerned with provisions 
in the fiscal year 2002 Department of Transportation Appropriations 
Bill, recently passed by the House, that could delay or prohibit the 
full implementation of the North American Free Trade Agreement (NAFTA) 
with respect to trucking.
    On July 6, the League sent a letter to the Senate Appropriations 
Committee, strongly urging the Committee to delete the House language 
that prohibits Mexican trucks from being granted operating authority 
and to restore the funding needed to ensure effective inspections for 
U.S.-Mexico cross-border trucks. Our goal was to address the issue of 
truck safety directly, rather than through protectionist measures 
masquerading as safety. Over the years, special interests trying to 
protect their market share have used ``safety'' arguments to keep 
competitors away. Such arguments have proven false in the past, and, I 
believe, will be proven false in this instance.
    Please keep in mind that each truck entering the U.S. from Mexico 
must comply with every U.S. safety regulation, both those relating to 
the truck and those relating to the driver. Full implementation of 
NAFTA will not change that. The League will be the first to argue for 
strong truck safety provisions. However, the House provision is not 
about safety. It is protectionism.
    If Congress really wants to address international truck safety, 
then we would support DOT having the additional funding it has 
requested to inspect trucks and drivers at the U.S.-Mexican border. 
That is the way to protect the American driver from unsafe trucks and 
drivers, not by refusing to let trucks into the country, whether or not 
they are safe. DOT-funded safety inspectors are the first and best line 
of defense against those that are unsafe, whether they be Mexican, 
Canadian, or U.S. The more inspectors there are and the better tools 
they are given, the more trucks and drivers they can inspect and decide 
whether to put out of service.
    I have stated that the proposed ban on Mexican trucks is 
protectionism. That is true, but I fear it could be worse than that. 
None of these arguments were raised about Canadian trucks. Why not? 
Even if there is a higher percentage of Mexican trucks that are deemed 
unsafe under U.S. laws, why choose to punish all Mexican truckers? 
Those who have supported this all-encompassing approach would never 
support enforcing traffic laws against one race of people differently 
than against others. That would be considered ``racial profiling.'' If 
a ban on Mexican truckers is put into effect, will that not be viewed 
as ``racial profiling'' on a national level?
    It is also important to remember that NAFTA is about partnerships 
between the United States, Canada, and Mexico. Clearly, the U.S. is 
treating its partners differently and, in fact, has been found in 
violation of the treaty.* The previous Administration refused to fully 
implement NAFTA, yet they took no steps to address the perceived 
problems with Mexican trucks. Mexico deserves fair treatment under the 
terms of NAFTA.
    1. A five-member NAFTA Arbitration Panel unanimously determined 
``that the U.S. blanket refusal to review and consider for approval any 
Mexican-owned carrier applications for authority to provide cross-
border trucking services was and remains a breach of the U.S. 
obligations under Annex I (reservations for existing measures and 
liberalization commitments), Article 1202 (national treatment for cross 
border services), and Article 1203 (most-favored-nation treatment for 
cross border services) of NAFTA.''
    In addition to the safety and fairness considerations, there are, 
obviously, economic considerations. The ``giant sucking sound'' that 
NAFTA opponents warned of before NAFTA was signed, and which referred 
to U.S. jobs that would be lost, actually turned out to be the sound of 
economic benefits accruing to both countries. NAFTA has directly led to 
a three-fold increase in the value of trade between the U.S. and 
Mexico.
    However, the full benefits of NAFTA are not being realized. 
Shippers and carriers find that the way cross-border trucking 
operations are conducted today is very inefficient, since costly extra 
handling via ``border shuttle'' carriers is required. They want the 
increased efficiency and flexibility from running trucks straight 
through to their ultimate destination, without the extra cost of 
shuttle operations. Giving them this flexibility and reducing those 
costs helps them to compete.
    If the U.S. border is not opened to its trucks, Mexico has 
announced its intention to retaliate by raising customs and import fees 
on U.S. goods, and has raised the possibility of banning the 
importation of certain commodities. U.S. businesses and manufacturers 
are the ones that will have to pay these higher fees, and U.S. workers 
and consumers will be the ultimate losers. Given global competition and 
the economic situation, it would only take a slight increase to price 
those U.S. goods targeted for retaliation out of the market completely. 
Ultimately, these increased costs will be passed on to the U.S. 
consumer in the form of higher prices, and to U.S. workers in possible 
layoffs of manufacturing jobs.
    Mr. Chairman and Senators, the continued banning of all Mexican 
trucks from U.S. highways is simply the wrong way to go. It is the 
wrong way to make our highways safer. It is the wrong way to provide 
for economic growth. And, it is the wrong way to treat a neighboring 
nation, a partner, and a group of people.

    The Chairman. The Murray-Shelby amendments, on to the 
transportation appropriations bill reported out of the floor to 
the United States Senate was unanimous and bipartisan. Mr. 
Hoffa.

 STATEMENT OF JAMES P. HOFFA, GENERAL PRESIDENT, INTERNATIONAL 
                    BROTHERHOOD OF TEAMSTERS

    Mr. Hoffa. Mr. Chairman and Members of the Committee. My 
name is James P. Hoffa, I am president of the International 
Brotherhood of Teamsters. I want to thank you for the 
invitation to testify here today regarding the cross border 
trucking impact on highway safety. The Teamsters Union has 
submitted extensive comments for the record. I will summarize 
my testimony in what I am going to be saying regarding cross 
border trucking.
    I recently had the opportunity to meet with the President 
of Mexico, Vincente Fox, last Monday and we had a frank and 
open discussion in the meeting in the half-hour that we had 
together, and I raised the issue of highway safety with him, 
and he indicated an acknowledgment that it is his objective not 
only to raise the standard of living of the people in his 
country, but also I believe he acknowledges that they have a 
long way to go with regard to highway safety and with regard to 
the equipment they use and driver training.
    I give that you comment because it is a recent interview 
that I had with him and met with him. I was impressed with his 
candor with regard to the issue.
    First, let me dispel a few myths about why the Teamsters 
Union is so concerned about this issue. About 625,000 of our 
1.4 million members turn a key on a truck to start their 
workday. Their workplace is our nation's highways and city 
streets. And these drivers deserve as safe a workplace as any 
person working in a factory. Since 1994, the Teamsters Union 
has been on the record telling Congress and the administration 
that neither the United States nor Mexico had the necessary 
safeguards in place to assure the safety on our highways.
    After Congress and many other groups, including the 
Teamsters, raised safety concerns, the Clinton Administration 
wisely chose to institute the current moratorium. Now, for 
those who would believe that the border remain closed as a 
political favor to the Teamsters, they need only read the words 
of the latest Inspector General's report. As they should review 
the administration's own submission, they can also review the 
administration's own submission to the NAFTA resolution dispute 
resolution panel. I will get to those in a minute. But first I 
want to address another issue.
    Some claim that the only reason the Teamsters care about 
Mexican trucks is the fear that lower wage Mexican drivers will 
take our jobs away. While there is a concern that unscrupulous 
drivers will entice and exploit Mexican drivers to violate our 
laws and to make deliveries from point to point in the United 
States when delivering international loads. However, we welcome 
an opportunity to talk to our Mexican brothers and sisters 
about working conditions in that country, and we also hope that 
some day, we will have the right to go down there and organize.
    Ultimately, if there is parity in wages and benefits, as 
there is with Canadian drivers, then there is no incentive for 
employers to violate our labor laws. Returning to the safety 
question, there is real evidence that trucks from Mexico cannot 
meet all the United States safety standards. Let us look at the 
facts.
    The Inspector General's latest report indicates that still 
only 1 percent of Mexican trucks crossing into commercial zones 
are inspected. Of these inspected more than one of three is 
placed out of service for serious safety violations. In Texas 
and Arizona, for more than 75 percent of the Mexican trucks 
crossing, the out-of-service is over 40 percent. There are 
those that argue that drayage trucks are not representative of 
the fleet of long haul trucks that will be utilized once the 
boarder is open but listen to what the United States itself 
said in its submission to the NAFTA panel. I am going to quote 
it. This is what our people said.
    In terms of safety, the service provided with the drayage 
trucks, those that run with a 25-mile limit, is no different 
from that provided by the long haul trucks. Furthermore, there 
is no evidence that the Mexican long haul carriers are safer 
than Mexican drayage carriers. They haul goods on the same 
roads, through the same cities and towns through which long 
haul trucks operate.
    Indeed, many of the Mexican trucks that are now inspected 
at the border have traveled considerable distances from the 
interior of Mexico just to get to the border and thus are in 
fact, long haul trucks just getting to our border. Plus, there 
is no guarantee that drayage truck operators would not seek to 
operate the trucks beyond the commercial zone which we have 
already talked about. And that is the problem we have been 
talking about. We talked earlier about 65 trucks that have been 
impounded or found to be operating as far as North Dakota. That 
was last year's statistic and those are the only ones that are 
caught, so what has changed? Why is it that the administration 
is now in such a rush?
    In fact, the administration's announcement of its intent to 
open the border by the 1st of the year was a major tactical 
error. They gave away any leverage they had to compel the 
Mexican government to continue to improve its safety program. 
Frankly, the United States is under no legal obligation to 
implement the findings of the NAFTA panel. Under the terms of 
the NAFTA, the United States is entitled to disregard the 
panel's recommendation and simply allow Mexico to take 
equivalent reciprocal measures. Or it could negotiate 
compensation for a new grant of trade benefits to Mexico.
    Now, let us dispel another myth that under NAFTA the United 
States cannot initiate safeguards to protect its own highways. 
If you have not already done so, I encourage each member of 
this panel to read the NAFTA dispute panel's report. It made a 
point of stating that ``the parties to NAFTA may set the level 
of protection that they consider appropriate in pursuit of 
legitimate regulatory objectives. In fact, one of the 
recommendations of the NAFTA panel states that given the 
different enforcement mechanisms currently in place in Mexico 
and the United States, it may not be unreasonable for the DOT 
to address legitimate safety concerns by declining to rely 
largely on self-certification by Mexican carriers seeking 
authority to operate in the United States.'' That ends the 
quote.
    This leads to the one final point I'd like to discuss, the 
proper action for Congress to take to address the safety 
concerns of the Mexican carriers. It is clear from the NAFTA 
panel report that the United States is within its rights to not 
rely on a stack of paperwork to determine the safety of 
carriers coming out of Mexico. Unfortunately, representative 
Sabo's common sense amendment to require a safety review before 
the DOT would grant conditional operating authority was not 
given a chance to be voted on by the House. But the vote on his 
more restricted amendments, barring funds from review and 
processing of any Mexican carrier was passed by an overwhelming 
vote of 285-143.
    I think that vote was indicative of the frustration that 
many Members of Congress feel about the administration's 
failure to recognize a serious safety concerns of unsafe trucks 
on our highways. The vote should be a wake-up call to everyone 
who is ignoring the potential danger of this wrong-headed 
policy.
    DOT needs to put a process in place that ensures the safety 
of our highways and that should include one, more properly 
trained safety inspectors at the border crossings to maintain 
surveillance 24 hours a day 7 days a week.
    Two, permanent inspection facilities with enough space to 
take care of out of service trucks so we can put them in a 
place where they cannot be on our highways.
    Three, equipment to weigh the commercial vehicles entering 
the United States.
    Four, an adequate enforcement program to assure that 
Mexican truckers will comply with hours of service regulations.
    And five, a safety audit of Mexican carriers before the DOT 
grants conditional operating authority. These are just a few of 
the criteria that should be met before the cross border 
trucking provisions of NAFTA are implemented. These and other 
necessary provisions are included in House Resolution 152 that 
we support. They are also included in the Senate transportation 
appropriations bill.
    The Teamsters Union strongly supports these legislative 
measures that ensure the safety of American highways. That is 
what the 285 Members of Congress wanted when they voted for the 
Sabo amendment. That is what the American public wants and that 
is what the Teamsters want and their families, and we deserve 
no less. I will be willing to answer questions if you have any.
    [The prepared statement of Mr. Hoffa follows:]

       Prepared Statement of James P. Hoffa, General President, 
                 International Brotherhood of Teamsters
    Chairman Hollings, Senator McCain and Members of the Committee:
    My name is Jim Hoffa, and I am General President of the 
International Brotherhood of Teamsters. I am pleased to appear today 
before this Committee on behalf the 1.4 million members of the 
Teamsters Union and the hundreds of thousands of our members who 
literally make their living on our nation's highways.
    The Teamsters Union has taken a serious interest in the work that 
Congress and, in particular, this Committee has undertaken to ensure 
safety on our nation's highways. It was just 2 years ago that most of 
the people on this panel and on the following panel were testifying 
before you on the need to strengthen motor carrier safety here in the 
United States.
    And now, as this Committee moves forward with hearings concerning 
the issue of whether Mexican-domiciled motor carriers should be allowed 
to operate throughout the United States, we are pleased to have the 
opportunity to share our views on this important safety issue.
    In general, the Teamsters Union believes that the United States is 
not prepared to begin approving Mexican carrier applications to operate 
throughout the United States because the safety of Mexican carriers 
cannot be assured. But before I delve into this issue, I think it's 
important that we first review how the United States got to this point.
    When the North American Free Trade Agreement (NAFTA) was enacted in 
1993, the existing moratorium on the registration of Mexican motor 
carriers was initially left in place; however, operating authority for 
Mexican carriers was planned to be phased-in over an eight-year period. 
The first phase was to have occurred in 1995, when Mexican trucks were 
to be allowed to operate beyond the commercial border zones into the 
four border states (California, Arizona, New Mexico, and Texas). In 
2000, Mexican carriers were scheduled to operate throughout the United 
States. To alleviate safety concerns, the agreement also provided for 
the establishment of a Land Transportation Standards Subcommittee whose 
function was to implement a work program to harmonize the truck and bus 
safety standards of the United States and Mexico.
    In 1995, however, when the first phase was scheduled to occur, and 
again in 2000, it was apparent that Mexico had not yet made the kinds 
of safety improvements that were required when the schedule was agreed 
upon. Although the Clinton Administration initially planned to 
implement the first phase of the schedule, when Congress and numerous 
groups including the Teamsters Union made it aware of the serious 
safety concerns it acted responsibly and kept the moratorium in place. 
These concerns were outlined in four separate Congressional letters to 
the President: One in 1997, which was signed by 236 House Members on 
both sides of the aisle; another in June of 1999, which was signed by 
258 House Members; another in November 1999, which was signed by 48 
Senators, many of which serve on the Senate Commerce Committee; and 
another sent just 2 months ago to President Bush by Senator John Kerry 
(D-MA) and 9 other Senators who supported NAFTA but are concerned about 
the safety implications of cross-border trucking. The Teamsters Union 
wishes to submit all of these letters for the record.
    In response to the moratorium, Mexico sought consultations under 
NAFTA's Article 20 dispute resolution mechanism. And from 1995 through 
January 2000 various consultations and meetings took place, but the 
parties could not resolve the serious safety issues at hand. An 
arbitration panel was then formed on February 2, 2000. During the year-
long panel proceedings, the United States vigorously opposed the entry 
of Mexican carriers into the United States because of serious safety 
concerns and the United States' inability to adequately ensure the 
safety of the traveling public if Mexican carriers were to enter the 
United States prior to Mexico's establishment of a comprehensive safety 
regime. The United States explained the problem as follows:

        LMexico's existing truck and operator safety rules are not yet 
        compatible with those in the United States and large and 
        important gaps remain. Mexico does not impose key record-
        keeping requirements. It has no roadside inspection program and 
        thus does not generate reliable nationwide statistics on 
        vehicle out-of-service rates. Mexico has only recently begun a 
        limited program of on-site inspections and audits, and Mexican 
        enforcement resources remain quite limited. Mexico and the 
        United States do not yet have a functioning data exchange 
        arrangement.

        LAll this means that when Mexican trucks cross into the United 
        States, there is no assurance that, based on the regulatory 
        regime in place in Mexico, those trucks already meet U.S. 
        highway safety standards.

    In the Matter of Cross-Border Trucking Services, Secretariat File 
No. USA-MEX-98-2008-01, Counter-Submission of the United States at 48 
(Feb. 23, 2000), the United States further explained that these safety 
problems could not be adequately addressed through border inspections:

        L[T]he effectiveness of any [border inspection] program is 
        limited given the huge number of trucks that cross the southern 
        border each day, the time and resources required to conduct 
        even a small number of rigorous inspections, and the commercial 
        disruptions that would accompany any system other than 
        occasional spot-checks. As a practical matter, the deterrent 
        effect of any reasonably practicable system of border safety 
        inspections is limited since the likelihood of inspection on 
        any given cross-border transit is small.

        LSince a border inspection system alone cannot sufficiently 
        assure safety compliance, the United States is in a position in 
        which it must rely on Mexico, much as it relies on Canada, to 
        ensure that the great preponderance of its trucks already meet 
        U.S. standards by the time they arrive at the border.

    On February 6, 2001, the NAFTA panel issued a report which 
determined that ``the inadequacies of the Mexican regulatory system 
provide an insufficient legal basis for the United States to maintain a 
moratorium on the consideration of applications for U.S. operating 
authority from Mexican-owned and/or domiciled trucking service 
providers.'' It also held that the United States was and remains in 
breach of its obligations under Annex I (reservations for existing 
measures and liberalization commitments), Article 1102 (national 
treatment), and Article 1103 (most-favored-nation treatment) to permit 
Mexican nationals to invest in enterprises in the United States that 
provide transportation of international cargo within the United States.
    It is important, however, to note what the Panel did not determine. 
According to its Findings, Determinations And Recommendations, 
Secretariat File No. USA-MEX-98-2008-01, the panel ``is not making a 
determination that the Parties of NAFTA may not set the level of 
protection that they consider appropriate in pursuit of legitimate 
regulatory objectives. It is not disagreeing that the safety of 
trucking services is a legitimate regulatory objective. Nor is the 
Panel imposing a limitation of the application of safety standards 
properly established and applied pursuant to the applicable obligations 
of the Parties under NAFTA.''
    In fact, in its report, the Panel even provided U.S. authorities 
permission to establish inspection and licensing requirements that are 
not ``like'' those in place for U.S. carriers, so long as their 
expectations are the result of legitimate safety concerns.

        LWith regard to the inspection and licensing requirements of 
        Mexican trucks and drivers operating in the United States, the 
        circumstances may well not be ``like,'' even though those 
        trucks and drivers are fully subject to the U.S. regulatory 
        regime. For example, given the different enforcement mechanisms 
        currently in place in Mexico and in the United States as of the 
        date of this Report, it may not be reasonable for the 
        Department of Transportation to address legitimate U.S. safety 
        concerns by declining to rely largely on self-certification by 
        Mexican trucking firms seeking authority to operate in the 
        United States.

        LIf the United States implements differing specific 
        requirements for Mexican carriers from those imposed on U.S. 
        and Canadian carriers, in order to meet legitimate U.S. safety 
        concerns, it must do so in good faith and those requirements 
        must conform with the requirements of Chapter Nine and other 
        relevant NAFTA provisions. [Secretariat File No. USA-MEX-98-
        2008-01 Findings, Determinations, and Recommendations]

    Such legitimate objectives are addressed in Article 904.2 of NAFTA: 
``Notwithstanding any other provision of this Chapter, each party may 
in pursuing its legitimate objectives of safety or the protection of 
human, animal or plant life or health, the environment or consumers, 
establish the level of protection that it considers appropriate.''
    Therefore, the United States has two choices: (1) it can establish 
a program, which requires Mexican trucks to meet more stringent 
standards than is the case under current U.S. law. The Teamsters Union 
believes the United States would be acting responsibly in fulfilling 
its safety obligations to the American public by establishing such a 
program and that such action would not be in conflict with NAFTA. Or 
(2) it can refuse to implement the findings of the NAFTA Panel because 
it is under no legal obligation to do so. Let me repeat that: The 
United States is under no legal obligation to implement the findings of 
the NAFTA panel.
    Under U.S. law, the health, safety and welfare of U.S. citizens is 
paramount, and to the extent NAFTA conflicts with any U.S. law dealing 
with health, environment, and motor carrier/worker safety, U.S. law 
prevails. 19 U.S.C. Sec. 3312(a). Even under the terms of NAFTA, the 
U.S. is entitled to disregard the panel's recommendation, and simply 
allow Mexico to take equivalent reciprocal measures or negotiate 
compensation or a new grant of some trade benefits to Mexico. Indeed, 
the United States has not traditionally allowed foreign countries or 
international bureaucracies to dictate its domestic policy, 
particularly where the health and safety of U.S. citizens is concerned.
    Despite these options, the Bush Administration has indicated that 
it plans to begin processing Mexican carrier applications at the behest 
of the NAFTA panel, and has set a target date of January 2002 for doing 
so. It is in accordance with this decision that the Department of 
Transportation (DOT) has proposed three rules, which, unfortunately, 
achieve the opposite of what is permitted under the NAFTA Panel ruling. 
In order to save time, I'd like to dispense with the details of our 
specific concerns with the proposed rules and instead submit our 
comments to the docket for the record.
    What I would like to emphasize, however, is that the DOT's 
proposals actually allow greater latitude in several key areas for 
Mexican-domiciled carriers and drivers than currently apply to U.S. and 
Canadian companies and drivers under U.S. law. In fact, the 
Department's proposed 18- month safety review process for Mexican 
carriers is more lenient and far less comprehensive than inspections of 
U.S. carriers since, among other things, those done for Mexican 
carriers would be off-site. Affectively, the DOT proposal creates a 
safe harbor for Mexican-domiciled entrants to the market and a 
competitive disadvantage for U.S. interests.
    Moreover, the rules appear--although surely the DOT is not--to be 
almost entirely uninformed about the real risks that these dangerous 
provisions pose to the U.S. public.
    We believe that the U.S. is acting far too quickly, with far too 
little attention to the actual and potential costs, and at the risk of 
causing hazardous material spills, horrific truck crashes and other 
unnecessary suffering and death on U.S. highways. After all, the 
serious safety concerns expressed by the United States before the NAFTA 
panel have not yet been resolved.
    Now I want to take a moment and highlight some of the United 
States' own submissions to the NAFTA Panel because I think it is 
crucial that when this Committee considers whether to act on this issue 
that all of the Members take a close look at and compare what the 
United States Government, under the direction of the DOT and the United 
States Trade Representative (USTR), submitted to the NAFTA Panel and 
what the two agencies are asserting now--two entirely different things.

        LTrucking firms operate in Mexico under a far less 
        comprehensive and less stringent safety regime than that in 
        place in either Canada or the United States. The Mexico safety 
        regime lacks core components, such as comprehensive truck 
        equipment standards and fully functioning roadside inspection 
        or on-site review systems. In light of these important 
        differences in circumstances, and given the experience to-date 
        with the safety compliance record of Mexican trucks operating 
        in the U.S. border zone, the United States decision to delay 
        processing Mexican carriers' applications for operating 
        authority until further progress is made on cooperative safety 
        efforts is both prudent and consistent with U.S. obligations 
        under NAFTA. (Secretariat File No. USA-MEX-98-2008-01, June 8, 
        2000)

        LThe safety of Mexican carriers cannot be ensured on a case-by-
        case basis. Rather, as the United States has explained, highway 
        safety can only be assured through a comprehensive, integrated 
        safety regime. (Secretariat File No. USA-MEX-98-2008-01, June 
        8, 2000)

        LU.S. safety inspectors may easily audit, inspect, and enforce 
        compliance vis-a-vis firms based in the United States, and can 
        rely on Canadian inspectors to enforce Canadian rules and 
        regulations in a similar manner, but this is not the case for 
        companies based in Mexico. In light of these important 
        differences, and given the experience to-date with the safety 
        compliance record of Mexican trucks operating in the U.S. 
        border zone, the United States is within its rights to insist 
        that the necessary regulatory and enforcement framework be in 
        place--and working--prior to authorizing Mexican trucking firms 
        to operate across the U.S. roadway system. And, given the high 
        volume of cross-border truck traffic, and the fact that truck 
        safety regulation requires a comprehensive, integrated 
        regulatory regime, border inspections alone are not sufficient. 
        (Secretariat File No. USA-MEX-98-2008-01, April 24, 2000)

        LRoadside inspections alone, without on-site inspections, 
        accident and carrier information, and other elements of a 
        safety regime, are not sufficient to identify problem carriers. 
        Thus, a Mexican carrier's safety performance cannot be assured 
        simply because, for example, it uses only new trucks in its 
        U.S. operations that are more likely to pass roadside 
        inspections. (Secretariat File No. USA-MEX-98-2008-01, June 9, 
        2000)

        LThe Government of Mexico cannot identify its carriers and 
        drivers so that unsafe conduct can be properly assigned and 
        reviewed. While we understand that the Government of Mexico is 
        engaged in an effort to register all of its motor carriers and 
        place them in a database that would facilitate the assignment 
        of safety data, that database does not contain any safety data. 
        Therefore, Mexico cannot track the safety fitness of its 
        carriers and drivers. (Secretariat File No. USA-MEX-98-2008-01, 
        June 9, 2000)

        LIt is the position of the United States that Mexico must 
        develop and implement a safety oversight program that ensures 
        that Mexican carriers planning to engage in cross-border 
        transportation meet minimum safety standards, and which allow 
        the Mexican and U.S. Governments to share relevant and complete 
        motor carrier noncompliance data. Without such carrier safety 
        performance history, the United States cannot conduct a 
        meaningful safety fitness review of Mexican carriers at the 
        application stage. In light of this . . . the Mexican case-by-
        case approval scenario would be unworkable. (Secretariat File 
        No. USA-MEX-98-2008-01, June 9, 2000)

        LNo review of a Mexican carrier based solely on an unverifiable 
        application for operating authority can give the United States 
        a sufficient level of confidence regarding the safety of that 
        carrier's vehicles, no matter how detailed an application is 
        required. (Secretariat File No. USA-MEX-98-2008-01, June 9, 
        2000)

        LMexico has not yet completed the process of establishing 
        safety enforcement mechanisms with respect to a number of 
        important areas of truck safety. (Secretariat File No. USA-MEX-
        98-2008-01, June 9, 2000)

        LMexico has neither promulgated final safety standards for 
        motor carrier inspections nor implemented a safety oversight 
        and enforcement program for carriers seeking U.S. operating 
        authority. (Secretariat File No. USA-MEX-98-2008-01, June 9, 
        2000)

        LWhen Mexican trucks cross into the United States, there is no 
        assurance that, based on the regulatory regime in place in 
        Mexico, those trucks already meet U.S. highway safety 
        standards. (Secretariat File No. USA-MEX-98-2008-01, June 9, 
        2000)

    These admissions become even more disturbing when you read the DOT 
Inspector General's (IG) interim report, which was issued shortly after 
the DOT published its proposed rules. The report, entitled Status of 
Implementing the North American Free Trade Agreement's Cross-Border 
Trucking Provisions (Report No. MH-2001-059, May 8, 2001) found that 
while some improvements have been made since the IG last investigated 
the safety of Mexican trucks in 1998, Mexican trucks are still not as 
safe as U.S. and Canadian trucks, and U.S. border inspection facilities 
are still inadequate to evaluate and monitor the safety of Mexican 
trucks as they cross the border.
    According to the IG, there are only two permanent inspection 
facilities, both of which are state facilities in California. Of the 25 
remaining border crossings, a vast majority lack dedicated phone lines 
to access safety databases and therefore cannot perform as simple a 
safety check as validating a commercial driver's license. Further, 
almost all of these inspection facilities lack adequate space to 
inspect vehicles and/or place dangerous vehicles out of service. In 
addition, there are not currently enough inspectors to adequately staff 
border operations. The IG indicates that DOT has requested increased 
funding to hire additional personnel, and if all such funding is 
approved, DOT will be able to hire and train an additional 80 
inspectors. However, this is not enough to implement all three proposed 
rules. Although the number of inspectors would meet the minimum 
recommended by the IG in its 1998 report if all 80 are designated to 
border operations, only 40 have been designated by the DOT as 
inspectors. The remainder are designated as investigators who will 
conduct compliance reviews. As such, the number of inspectors still 
falls far short of the 1998 goal. Indeed, the IG indicates that its 
1998 recommendation was conservative and that even more inspectors are 
actually needed. Thus, there is no basis to believe the situation will 
be improved by the time the DOT begins processing Mexican carrier 
applications to operate throughout the United States, and in each of 
your congressional districts, by January 2002.
    The IG also reported that over 4.5 million trucks entered the U.S. 
at the southern border in FY2000. Of those, 46,114 inspections were 
performed--less than one percent. Now, some will claim that this number 
is skewed: That the 4.5 million trucks that entered the U.S. was the 
result of 80,000 trucks crossing the border more than once in FY2000. 
The Committee Members should not be fooled by this assertion because 
assuming for a moment that this figure is correct--and it may very well 
be correct--then the situation is even worse than we thought. In fact, 
this means that on average each of those 80,000 trucks traveled across 
the border about 56 times in FY2000. Taking past inspection rates into 
consideration (less than 1 percent inspected), this would mean that 
about 800 of those trucks were inspected. The Committee should then 
question how so many trucks that crossed the border 56 times in one 
year went un-inspected. If the rather low 80,000 figure is accurate, 
then it is the Teamsters' position that every truck should have been 
inspected, and Mexico's out-of-service rate should be equal to if not 
better than the United States.
    But the fact is that, of those trucks that were inspected in 
FY2000, 36 percent of them were placed out-of-service as a result of 
being in an unsafe condition. While that rate has improved from the 
1997 out-of-service rate of 44 percent, it is still 50 percent high 
than the U.S. out-of-service rate and even higher than the Canadian 
out-of-service rate of 17 percent. The Teamsters Union needs not to 
remind this Committee that it was not too long ago that we were all 
concerned about the United States' own high out-of-service rate of 24 
percent. A higher out-of-service rate for foreign motor carriers that 
are not going to be directly monitored by the DOT should be an even 
greater concern.
    The average out-of-service rate for Mexican carriers, however, may 
not accurately reflect the entire picture. But not because of what our 
opponents have been claiming: That the high out-of-service rates for 
Mexican carriers are due to the fact that most of the trucks taken out 
of service are drayage trucks that provide a different service than 
that provided by long haul trucks. Even the DOT disagrees with that in 
each of the U.S. submissions to the NAFTA Panel:

        LIn terms of safety, the service provided by drayage trucks is 
        no different from that provided by long-haul trucks--they haul 
        goods on the same roads, through the same cities and towns 
        through which long-haul trucks operate. Furthermore, the 
        Government of Mexico has presented no evidence that Mexican 
        long-haul carriers are safer than Mexican drayage carriers. 
        Indeed, many of the Mexican trucks that are inspected at the 
        border have traveled considerable distances from the interior 
        of Mexico to the border and thus are, in fact, long-haul 
        trucks. Plus, there is no guarantee that drayage truck 
        operators would not seek to operate their trucks beyond the 
        commercial zone once the moratorium is lifted. [Secretariat 
        File No. USA-MEX-98-2008-01]

        LIn order to truly evaluate the accuracy of the average out-of-
        service rate for Mexican carriers, the Committee must look at 
        the rates for each of the four border states, individually. At 
        the state funded, permanent inspection facility in Otay Mesa, 
        California, the out-of-service rate for FY 2000 was 23 percent, 
        comparable to U.S. rates. The total out-of-service rate for 
        California was 26 percent. This is because California has a 
        comprehensive state funded inspection program. California, 
        however, only receives 23 percent of the commercial cross-
        border traffic. By comparison the out-of-service rate for 
        Texas, which receives 69 percent of all commercial cross-border 
        traffic, was 40 percent. At the El Paso, Texas, border crossing 
        alone, the out-of-service rate for FY 2000 was an alarming 50 
        percent. Meanwhile, the out-of-service rates for New Mexico and 
        Arizona are 32 and 40 percent, respectively. Combined, these 
        out-of-service rates make up the 36 percent average out-of-
        service rate. Taken separately, these rates are a recipe for 
        disaster, particularly in Texas.

    Equally troubling is the fact that Mexico still has not harmonized 
its safety standards with the United States and Canada, as NAFTA 
requires. The IG confirmed that Mexico still hasn't established an 
effective drug and alcohol-testing program. Mexico still has no hours 
of service regulations and has only recently proposed in its Diario 
Official logbook requirements to record hours of service. And to this 
day, no database exists for our two nations to exchange information on 
past violations of Mexican drivers and carriers.
    Despite these serious concerns, the IG found that the DOT does not 
yet have an implementation plan to ensure safe opening of the U.S.-
Mexico border to commercial vehicles, according to the Inspector 
General. In this regard, the IG recommended that the DOT take the 
following actions:

        Finalize and execute a comprehensive plan that identifies 
        specific actions and completion dates for the implementation of 
        NAFTA's cross-border provisions (including staffing and 
        facilities), and that reasonably ensures safety at the southern 
        border and as the commercial vehicles traverse the United 
        States.

        Increase the number of Federal safety inspectors at the U.S.-
        Mexico border to at least 139 (our 1998 estimate of 126 plus 
        the 13 authorized in 1998) to enforce Federal registration and 
        safety requirements during all port operating hours, and 
        provide the requisite inspection facilities.

    Unfortunately, none of these actions have been taken. It is 
therefore incomprehensible to understand how the DOT will be prepared 
to begin processing applications from Mexican carriers by the end of 
this year. We are clearly nowhere near ready to implement NAFTA's 
cross-border trucking provisions. And it is impossible for the Bush 
Administration to do in one year what the Clinton Administration could 
not do in eight.
    For these reasons, the Teamsters Union supports House Resolution 
152. We also support the provisions that were included in both the 
House and Senate Transportation Appropriations bills. In fact, many of 
the provisions in the Senate bill came out of the House Resolution.
    It is important to stress that we still believe that the ban on 
cross-border trucking should be continued--the U.S. has that option 
under NAFTA, as explained earlier in this testimony. But if Congress 
chooses against going in that direction, then it must at least ensure 
that the many safety issues highlighted in the IG report are resolved 
before the DOT begins processing Mexican carrier applications--not 
after. Safety should never be an afterthought.
    Now I understand that our opponents will claim that such actions 
discriminate against Mexico and Mexican-citizens. Nothing could be 
farther from the truth. The Teamsters Union has the largest Latino 
membership amongst all the unions in the AFL-CIO, and our members know 
that this issue has nothing to do with discrimination. In fact, we'd 
like to submit for the record a letter to both the House and Senate 
from the President of the Teamsters' Hispanic Caucus, Bob Morales. In 
it, President Morales, writes what this issue is really about: 
corporate greed.

        LThe Administration does not want the border to be opened for 
        the benefit of the poor Mexican driver desperate to reach for a 
        better life. Rather, it will be opened for monetary gain to a 
        trucking industry reaching for better and higher profits 
        through unrestricted motor carrier access to the United States, 
        and, of course, for political gain with Mexican President 
        Vicente Fox.

        LThe impoverished Mexican may drive the truck, but he will 
        never see the profit. That will belong to the industry, which 
        will pay him a meager wage, and use him to hide behind the 
        official NAFTA policy that exploits the poor in Mexico, while 
        endangering both Mexican and Mexican-American U.S. Citizens 
        with unsafe and largely unregulated trucks.

        LThus, Mexican drivers are offered at best four things: first, 
        the spur of poverty; second, the incentive of a wage slightly 
        higher than the meager wages that consign most of their 
        countrymen to a kind of economic involuntary servitude; third, 
        unsafe vehicles, and no rest; fourth, a requirement that they 
        drive across the border, into and across the United States, and 
        deliver their cargo on time and in good condition. And this is 
        what Latinos, on both sides of the border, are supposed to 
        think is a good deal. [Letter to Congress from Teamsters 
        Hispanic Caucus President, July 11, 2001]

    The fact is that for Latinos on both sides of the border--the 
drivers coming across from Mexico and the Mexican-American families 
that are living here in the in the United States--this is a potentially 
dangerous deal. And without a much-needed re-evaluation of the NAFTA 
cross-border trucking provisions, there will inevitably be a tragic 
crash, a loss of life, and a devastated family, on one or both sides of 
the border.
    Mr. Chairman, the Teamsters Union urges you and the members of this 
Committee to turn this policy around and to get the DOT off the fast 
track and on the right track before it's too late.
    Thank you again for providing me the opportunity to testify. I'm 
happy to answer any questions that you might have.

    The Chairman. Thank you very much. Ms. Claybrook.

     STATEMENT OF JOAN CLAYBROOK, PRESIDENT, PUBLIC CITIZEN

    Ms. Claybrook. Thank you, Mr. Chairman, Members of the 
Committee. I am pleased to be here to testify on behalf of 
Public Citizen, a national public interest organization that 
has 150,000 members around the United States on the issue of 
Mexican trucks. Let me be clear, we endorse what the Senate 
Appropriations Committee has put together. We think it is 
absolutely essential. And with all due respect to my colleague 
on this panel, we are not calling for a permanent ban. That is 
a red herring and our proposals are not racist and I would like 
to make that completely clear for this record.
    We are concerned about safety. In short, our belief is that 
the administration's now revised proposals are totally 
inadequate and it is going to take action by the Congress to 
correct this problem. We believe that the NAFTA ruling when you 
read it clearly allows for the United States Government to set 
strong safety standards. Not only do the Mexican trucks have to 
meet our standards, but we can set tougher requirements under 
the NAFTA ruling than even for the United States itself.
    There is a fatal flaw in NAFTA. It sets a deadline for 
opening the border, but it doesn't set a deadline for the 
Mexican trucks to meet our standards, and that delinking of 
those two particular requirements means that we are now in this 
very difficult situation because the Mexican government has not 
taken the initiatives it should have to issue strong safety 
standards. In fact, the standards that they have proposed are 
extremely weak, much weaker than ours. They are voluntary for 
the first year and their enforcement--what they would enforce 
is a paper penalty yet the Administration would still allow 
these trucks to operate in the United States.
    In the United States, these trucks would be put out of 
service, and they wouldn't be allowed to operate, so there is 
not comparability between Mexican and United States 
requirements. That puts tremendous pressure on the United 
States government and on the border facilities.
    We believe what the administration has proposed is 
disgraceful. It is totally inadequate. It is a paper audit and 
it is not an onsite audit. The only way that we are going to be 
able to deal with these issues is an onsite audit. The other 
issue that is very important to remember is that when there is 
a dispute under trade agreements, there is a process of 
negotiation and bargaining if you would, horse trading, between 
countries that does allow some leeway so that there is time to 
meet the government standards in the United States, and the 
U.S. government has not done that.
    They are setting a very short deadline of next January for 
the opening of the border and we think that that is not 
possible to meet and totally beyond the capacity of the Mexican 
government and our border facilities. Among other things, 
Mexico has no functioning database, so even when Mexican trucks 
come across the border, there is no ability to really check 
whether or not these trucks that are coming across the border 
have had any problems in Mexico. There is no database on the 
drivers and there is no working database on the companies, as 
there is in Canada, and as there is in the United States.
    Mexican trucks are allowed to be heavier than ours. There 
must be a continuous weigh station so that when these trucks 
come across we can catch those that are heavily overweight. Not 
only are they much more dangerous, and many documented studies 
have shown that much heavier trucks are much more dangerous, 
but they also ruin our highways. We have enough trouble with 
our infrastructure as it is without having more. We cannot rely 
alone on the border facilities, and they must be beefed up, as 
they are totally adequate on this point. There is no permanent 
facility in any of the border areas, except for California, and 
66 percent of the traffic that crosses comes across in Texas.
    So we have submitted extensive comments to the docket 
justifying our views, the docket of the Department of 
Transportation submitted as an attachment to my full testimony 
requiring why we think that there has to be onsite audits for 
these Mexican companies.
    The other thing I would like to mention is as to 
California. Although California is cited as a model because 
there is a label that is put on the truck and that is 
considered a very efficient and effective way, I would like to 
point out three deficiencies in the California model.
    One is that California inspectors cannot verify the 
validity of the truck's operating authority. The decal may be 
there, but they have no ability to verify the validity of the 
operating authority. Second, the California inspectors have 
themselves said that there is evidence of the decals being used 
on more than one truck, that is, blue doors on brown trucks and 
brown doors on white trucks. They take that door with the decal 
on it and they just switch it to another truck, and that truck 
in fact hasn't been inspected and there is no operating 
authority for it. And then third, California has not, so far 
checked the driver's hours of service or driver's licenses. 
Hours of service are basically nonexistent in Mexico and these 
drivers could be very tired and I think the Committee knows 
there is a tremendous correlation between fatigue and accidents 
and crashes. With these heavy trucks, that fatigue means that 
people are going to be killed, or they are going to be 
desperately injured. It is going to mean that traffic is 
stopped for hours.
    So we believe that we have to take the initiative here. We 
urge the Congress to do this. We urge the Congress to act on 
this authority and perhaps the fastest way to do it initially 
is in the appropriations bill. We are urging the Commerce 
Committee to do this on an authorization basis so that there is 
no getting around these kinds of requirements, which we think 
are absolutely essential. Thank you very much, Mr. Chairman, 
for the opportunity to testify.
    [The prepared statement of Ms. Claybrook follows:]

                 Prepared Statement of Joan Claybrook, 
                       President, Public Citizen
    Mr. Chairman and Members of the Committee:
    I am pleased to offer this testimony on the United States' and 
Mexico's lack of preparedness for the opening of the southern border of 
the U.S. to commercial carrier traffic, under the short-sighted 
timetable set out in the North American Free Trade Agreement (NAFTA). I 
am President of Public Citizen, a national public interest organization 
with 150,000 members nationwide that represents consumer interests 
through lobbying, litigation, regulatory oversight, research and public 
education. My comments today will focus on the inadequacy of the Bush 
Administration's proposed rules for the admission of Mexican carriers 
and the dire need for further steps by Congress to assure the safety of 
American motorists, before the border is opened to nationwide 
commercial traffic.
    The Committee is addressing a critical safety issue. Under the 
current system in the U.S., 5,000 people are killed and 101,000 injured 
every year in crashes involving large trucks. Large truck crashes also 
cause disasters on the highway, including hazardous materials spills 
and costly traffic delays. The Congress, government and safety 
advocates have worked for many years to improve this record, enhancing 
U.S. safety regulations and establishing enforcement mechanisms with 
teeth. Now we may see these accomplishments, and the areas where 
additional work is needed, imperiled by an influx of dangerous large 
trucks. I urge this Committee to look closely at our recommendations 
and at the recent actions taken by the Senate Appropriations Committee 
and to delay opening the border until safety is assured.
NAFTA Failed to Provide Safety Incentives With Teeth, Creating a False 
        Double Bind
    I will first address the reason that a trade agreement has put us 
in a false double bind, in which it appears that we must choose between 
domestic safety and the imperatives of trade. In short, the problem is 
that NAFTA was drafted with a fatal flaw. NAFTA required the United 
States to open its border to Mexican trucks in phases beginning in 
1995. While the agreement also required Mexico to draft and implement 
trucking safety regulations commensurate to those in the United States 
and Canada, the agreement failed to link these required Mexican 
domestic safety improvements to the timetable for the U.S. to open the 
border to Mexican commercial trucks.
    Without acting at all on its domestic obligations, almost 3 years 
ago the Mexican government brought a dispute before a NAFTA arbitration 
panel to open the southern U.S. border to nationwide commercial 
traffic. Last summer, the Mexican government finally issued a fledgling 
set of very basic rules for commercial carrier safety. Public Citizen's 
analysis of the rules shows that they are deficient in many ways and do 
not compare favorably to U.S. law.
    These new Mexican commercial carrier inspection standards are far 
weaker than those of the U.S. Among other flaws, the new laws require 
roadside inspections to be done within an unreasonably short time 
period. For hazardous materials carriers, inspections must be completed 
within a mere 20 minutes. They also merely require a fine and warning 
letter for a number of violations that would cause a truck to be placed 
out of service in the U.S. In addition, the rules, which were just 
issued last summer, are voluntary for the first year, and are to be 
phased in over 2 years.
    Other difficulties show the still-considerable gaps between 
Mexico's new rules and the absence of any practical consequences for 
infractions. While Mexico has agreed to implement a drug and alcohol 
testing program, it has no laboratories that are U.S.-certified for 
drug testing. In addition, while Mexico has enacted a law requiring 
driver logbooks, U.S. border officials admitted that they have yet to 
see a single Mexican logbook.
    Most importantly, despite a promise to establish comprehensive 
domestic safety systems, Mexico has not limited its drivers' hours of 
service. Mexican officials claim that the general labor laws applying 
to every workplace provide for an 8-hour workday, but there is no 
evidence that any general limitation on working hours is enforced as to 
commercial drivers, and anecdotal evidence in news stories suggests 
that working hours are very long indeed. Fatigue is a significant cause 
of often-catastrophic truck crashes. Although Mexican drivers crossing 
the border will ostensibly be bound by U.S. hours-of-service limits, it 
will be impossible to enforce U.S. laws without both meaningful 
enforcement of Mexico's new logbook requirements and enactment of 
hours-of-service laws in Mexico.
    In short, little has changed since the Clinton Administration, 
prompted by safety concerns, refused to take steps to open the border 
in 1995. Mexico has not yet put in place a regulatory system comparable 
to that of the U.S. and Canada. The out-of-service rate for Mexico-
domiciled trucks that cross the border is a significantly higher rate - 
36 percent - than the out-of-service rate for trucks in the U.S., which 
is 24 percent. Border areas are still woefully short on federal 
inspectors, who numbered a mere 50 in March 2001, and lack the 
resources to ensure that unsafe trucks are not admitted.
    Despite this well-demonstrated lack of progress on safety standards 
for commercial carriers in Mexico, the NAFTA panel ruled on February 6, 
2001 in Mexico's favor and found that the U.S. was in violation of its 
treaty obligations under NAFTA. While this has been depicted in the 
press as meaning that the U.S. must either open the border or face 
trade sanctions, the panel's ruling was actually far more solicitous of 
Clinton Administration's demonstrated concern for safety than has been 
explained.
    The NAFTA arbitration panel found that the United States may 
implement different admission procedures for Mexican carriers than 
apply to U.S. or Canadian carriers, in order to ensure that Mexican 
carriers will be able to comply with U.S. regulations. Furthermore, the 
U.S. may impose requirements on Mexican carriers that differ from those 
imposed on domestic or Canadian carriers, so long as the decision to 
impose such requirements is made in good faith and with respect to a 
legitimate safety concern. Therefore, although the panel ruled that the 
U.S. could not maintain its ban on all Mexican carriers, under the 
ruling the U.S. can evaluate Mexico-domiciled carriers on a case-by 
case basis and can refuse to issue them operating authority if a 
particular carrier will not be compliance with U.S. safety regulations.
    In the aftermath of this ruling, the Bush Administration has 
adopted the course of action that is least likely to protect public 
safety, and is the most subservient to the over-arching goal of free 
trade. Despite 5 years of U.S. government documentation of major safety 
problems by such neutral parties as the General Accounting Office and 
the Department of Transportation's Office of Inspector General, the 
Bush Administration has rushed to propose a set of three totally 
inadequate regulations for monitoring and oversight of Mexican carriers 
and the processing of applications for operating authority in the 
border zones and beyond. The Administration's new proposals fail to 
hold Mexican carriers even to the same standards U.S. carriers must 
meet.
    This course of action by the U.S. DOT is particularly disgraceful 
given that there are other options available that are far more likely 
to protect public safety. These include both trade mechanisms and 
opportunities contained in the implementation of the panel decision. I 
will address the trade options first.
    When governments involved in a trade dispute are truly concerned 
about the disagreement underlying the dispute, and seek to maintain 
their own laws in the face of a hostile ruling, the countries 
frequently engage in a process of negotiation called compensation. In 
this process, countries will trade off concessions to satisfy 
outstanding trade rulings. Thus, the United States could exchange its 
victory in the World Trade Organization case against Mexico on high 
fructose corn syrup to maintain U.S. domestic highway safety rules. 
Comparable amounts of revenue can also be exchanged as compensation to 
balance accounts between countries. Alternatively, the United States 
could simply award Mexico additional trade benefits to compensate for 
maintaining our safety rules and restrictions upon U.S. access for 
Mexican trucks.
    Instead, as I will explain, the Bush Administration's proposed 
rules fail even to require that Mexican carriers fully comply with 
existing U.S. law. Because the NAFTA panel ruling expressly provided 
permission for U.S. authorities to establish case-by-case review of 
applications for operating authority as well as inspection and 
licensing requirements that are not ``like'' those already in place for 
U.S. or Canadian carriers, the U.S. could establish a program which 
requires Mexican trucks to meet more stringent standards than is the 
case under for U.S. and Canadian carriers under current U.S. law. This 
type of accommodation by the panel is highly unusual in a trade ruling, 
and is an open invitation for the U.S. to act responsibly to fulfill 
its safety obligations to the American public.
    Despite such considerations by the panel, FMCSA has proposed rules 
which achieve the opposite of what is permitted under the ruling. The 
agency's proposals actually allow greater latitude in several key areas 
for Mexican-domiciled carriers and drivers than apply to U.S. and 
Canadian trucking companies and drivers. The Administration's proposed 
rules create an 18-month ``safe harbor'' for Mexican carriers by 
limiting their penalties for infractions, undercutting any incentive 
for Mexican carriers to follow U.S. law and misleading new Mexican 
entrants as to the seriousness of their infractions.
    For example, under the proposed rules, the agency's 18-month safety 
review of newly admitted Mexican carriers need not be performed on-
site. Compliance reviews for U.S. carriers, however, must occur on-
site. In addition, during a Mexican carriers' 18-month ``safe harbor,'' 
for the following offenses carriers will be sanctioned only by a 
deficiency letter or an expedited safety review--a review which they 
presumably would have received within 18 months regardless of the 
offense:

  <bullet> using a driver without a valid Commercial Driver's license 
        or its equivalent;

  <bullet> operating without insurance,

  <bullet> using drivers who have tested positive for drugs and 
        alcohol; and

  <bullet> using a vehicle that has been placed out of service without 
        correcting the violation incurring the penalty.

    For U.S. carriers, these violations would incur fines for the 
driver or the carrier, and could even trigger criminal penalties, 
including jail time.
Comparisons Between Mexico and Canada on Commercial Carriers Are 
        Inappropriate and Misleading
    Some commentators have misleadingly compared the U.S.-Mexico 
relationship regarding commercial carrier access to that of the United 
States and Canada. But this is comparing apples and oranges, because 
Canadian domestic safety standards are very similar to those in the 
U.S. and unlike Mexico, Canada maintains up-to-date databases on 
Canadian trucking companies and drivers that are accessible to U.S. 
authorities. Canadian databases, like those in the U.S. and unlike 
Mexico's, include driver conviction records and carrier out-of-service 
records. As proof of Canadian success in these areas, the out-of-
service rate for Canadian trucks traveling in the U.S. is even lower 
than the out-of-service rate for U.S. trucks. In sum, the United States 
can rely on Canada to enforce its own, comprehensive safety regulations 
with respect to Canadian carriers. The United States does not have such 
a relationship with Mexico.
The Administration's Proposed Rules Are A Safety Scandal
    In its latest series of three proposed rules, the Federal Motor 
Carrier Safety Administration (FMCSA) contemplates granting operating 
authority to Mexican carriers without creating a process that will 
assure the safety of American drivers. Despite the clear lack of 
preparedness, the agency's proposed rules are scheduled to be 
implemented before the end of the year--in less than 6 months. To 
evaluate the safety fitness of Mexican carriers, the agency intends to 
rely heavily on an unpopulated--that is, an empty--database that 
currently lacks the basic information necessary to process Mexican 
applications or to perform a safety review.
    The agency also allows 18 months to pass before a safety audit is 
completed, while carriers are permitted to cross the border and roam 
throughout the United States. Eighteen months is far too long to wait 
for verification of a company's compliance and safety record. In 
addition, it is likely that FMCSA will not perform the audits in an 
expeditious fashion. The proposed rules provide that the agency's 
``safety oversight program'' will continue indefinitely after the 18-
month period has expired if the agency fails to conduct a safety review 
within the allotted time. During this time unaudited Mexican carriers 
can continue to operate throughout the U.S.
How the Proposed Rules Fail to Assure Safety
    In the paper-based universe created by the proposed new DOT rules, 
operating authority is granted by U.S. officials if the application 
from a carrier is complete. This approach falls far short of the 
assurances that are needed for safety. For example, the application 
asks carriers to certify their knowledge of, and intention to follow, 
U.S. regulations by checking boxes indicating the answer is ``yes,'' 
yet fails to provide a box to check ``no''! Although applicants must 
describe their plans to monitor employee logbooks and implement an 
accident monitoring system, the FMCSA has no process in place to verify 
this or any other information provided the application. The Department 
of Transportation has never implemented a verification process for 
Mexican truck registration information, and as a result, according to 
DOT's own Inspector General, much of the information that the DOT 
currently has in its databases regarding Mexican-domiciled carriers is 
outdated or unverified.
    Indeed, the instructions on the proposed applications contained in 
the rule suggest that applicants' business information cannot be 
compared or cross-checked, because the application forms instruct 
applicants to enter the name of the carrier exactly the same way each 
time a name is required, or, the form implies, the department's data 
system may list two slightly different names as two different 
companies. This instruction suggests that the DOT has no way to cross-
check the owners, addresses, and other information of a company to 
ensure that a company is not counted twice. A simple typographical 
error in the name of a carrier for an entry of inspection or crash data 
into the database, then, could prevent the agency from matching 
negative safety data with that carrier. In addition, carriers with a 
poor safety record could re-register under a new name to get a second 
``chance'' in the DOT database.
    According to the proposed rules, for the agency's 18-month Mexican 
carrier safety review, FMCSA will examine ``performance-based safety 
information'' in its Motor Carrier Management Information System 
(MCMIS), as well as the documents that must be maintained by motor 
carriers under the rules. FMCSA officials have stated that the purpose 
of the 18-month interval is to allow U.S. officials to compile 
inspection and truck crash information on a carrier during its 
operation in the United States. At the same time, it is undisputed that 
the Mexican carriers will face a ``learning curve'' similar to that of 
other new entrant carriers--indicating that these new carriers will 
necessarily be more dangerous in the beginning of their operations. 
Using the public highways as a testing ground for the safety of 
inexperienced foreign carriers is outrageous and completely 
unnecessary.
    Mexico is supposed to maintain its own database of inspections and 
crash information. If Mexico were conducting regular roadside 
inspections and compiling crash data consistently and reliably, this 
database would be useful in evaluating the safety fitness of Mexican 
carriers before they are granted operating authority in the U.S. 
Unfortunately, members of the Land Transportation Standards 
Subcommittee, a group assembled under NAFTA to achieve comparable 
safety standards among the treaty's countries, admitted that this 
database is not yet populated with any meaningful data, such as 
inspection and crash data. There is no evidence of the level of access 
that Mexican authorities on the road have to the database, nor do we 
know whether the information being added has any assurance of 
reliability. And even if the information is being added, it may not be 
representative of a Mexican carrier's safety fitness on U.S. roads 
because Mexican inspection standards are considerably weaker than those 
in the U.S.
    According to FMCSA's proposed rules, the required 18-month safety 
review may be conducted within the United States or at the carrier's 
place of business in Mexico. This proposal is inadequate on its face. 
Any meaningful audit system should, without doubt, require an on-site 
evaluation and inspection of the carrier's place of business.
    The integrity of the application and review process is critical 
because the high out-of-service rates and anecdotal evidence regarding 
the status of the Mexican trucking fleet show that tremendous 
improvement would be necessary to meet U.S. safety standards. This 
situation is nothing short of critical, given that U.S. border 
inspection facilities lack the resources and large number of new 
inspectors that will be needed to pick up the slack created by weak 
Mexican regulations and enforcement.
Our Stretched Border Resources Will Not Protect the Public
    The already inadequate inspection force at the border will be 
completely unprepared for the influx of newly admitted carriers. The 
number of federal inspectors at the border is less than half of the 
number that was estimated to be necessary in 1998, and that number did 
not include the investigators that will be necessary for the agency to 
conduct its 18-month safety reviews. Hiring and training a new FMCSA 
inspector requires at least 6 months--additional inspectors, even were 
they authorized today, would not be in place before the end of the 
year.
    Most states, including the border states, are completely unprepared 
to deal with the increased traffic that will result from opening the 
border. Texas, which has the most border crossings and the highest 
traffic volume of Mexico-domiciled carriers, does not have permanent 
inspection facilities at any crossing point. The Texas legislature 
recently passed a resolution asking Congress to recognize the impact 
that further opening the border to Mexican trucks will have on Texas 
and its resources. The Texas legislature also asked Congress for 
increased funding, amounting to an amazing $11 billion, to offset the 
costs of greater infrastructure needs for border crossings and trade 
corridors within its state.
    In fact, most of the border crossings are sorely in need of 
infrastructure improvements. Most border states do not have full-time 
state inspectors at the border during all hours of operations. While 
plans for building projects have been made, no permanent inspection 
facilities have been built since 1998, and no permanent facilities 
exist outside the California border areas. A recent study documented 
that border crossings lack Internet connections, inspection space, and 
space to park out-of-service vehicles. In preparing a May 2001 DOT 
Inspector General report, investigators visited all 27 border crossings 
and found that at 20 crossings, FMCSA inspectors did not have dedicated 
phone lines to access databases, such as those for validating a 
driver's license; at 19 crossings, FMCSA inspectors had space to 
inspect only 1 or 2 trucks at a time; and at 14 crossings, FMCSA 
inspectors had only 1 or 2 spaces to park vehicles placed out of 
service. In addition, the sites' out-of-service space was shared with 
inspection space at a majority of the crossings. FMCSA must address 
these serious shortcomings before the volume of cross-border traffic 
increases or trucks crossing the border are operating throughout the 
United States.
    Our research has also shown that once a truck gets beyond the 
border, it is not likely to face inspection or verification of 
operating authority, called registration, by either state or federal 
officials. This is truly a tragic impediment to enforcement, because 
the primary means of enforcing U.S. standards for Mexican carriers 
during the 18-month safety oversight program is for U.S. officials to 
suspend or revoke a carrier's registration. However, trucks crossing 
the border are only checked for registration when they are inspected, 
and only 1 percent of trucks crossing the border are inspected at all. 
Even at the border, it is unlikely that illegal trucks will ever get 
caught, because only federal inspectors and California's state 
inspectors routinely check for certificates of registration. U.S. 
customs officials and other state inspectors do not routinely check for 
valid registration.
Mexican Drivers Will Escape New Penalties for Dangerous U.S. Commercial 
        Drivers
    Another proposed rulemaking by FMCSA would disqualify the 
commercial drivers licenses of drivers who are convicted of serious 
driving violations, such as drunk driving, leaving the scene of an 
accident, violating railroad-highway grade crossing signs, excessive 
speed, and reckless driving, regardless of whether the offense was 
committed while driving a personal vehicle or a commercial vehicle. 
This new rule, a significant step toward insuring the safety of 
commercial vehicle traffic, cannot presently be enforced with respect 
to Mexican drivers, due to the lack of data in the shared Mexico-U.S. 
database about the personal driving records of Mexican truck drivers. 
Therefore, it appears that FMCSA will not be able to enforce this law 
for Mexican commercial drivers due to practical constraints, 
demonstrating once again that safety steps applicable to U.S. and 
Canadian commercial drivers will far less frequently be applied to 
Mexican drivers, and that the penalties for infractions committed by 
Mexican carriers and drivers will, for technical reasons, in practice 
be far less severe.
Recommendations
    We support the well-tailored proposals passed last week by the 
Senate Appropriations Committee. A plan for strengthening border 
oversight and crafting a reliable system for the admission of safe 
Mexican commercial carriers cannot be rushed or addressed in a 
piecemeal fashion. Only a comprehensive plan that addresses all of 
these safety concerns will insure the safety of U.S. highways and the 
public. Our recommendations are the minimum that should be required and 
are as follows:

  <bullet> As the Senate Committee required, FMCSA must require on-site 
        safety reviews of Mexican carriers prior to granting operating 
        authority. FMCSA must not test the safety of Mexican carriers 
        on U.S. motorists. On-site safety reviews can evaluate factors 
        indicating the ability of a carrier to comply with U.S. laws, 
        while review of a paper application cannot. Safety compliance 
        reviews, conducted at a carrier's place of business with 
        independent federal verification of drivers' license validity, 
        equipment safety, inspection and repair facilities, safety 
        management controls, and interviews with on-site company 
        officials, among other elements of a complete safety compliance 
        effort, should be the primary basis for evaluating the safety 
        of Mexico-domiciled carriers and should be a predicate of 
        operating authority, as they are in the United States.

  <bullet> As recommended by the Senate Committee, FMCSA should require 
        Mexican carriers to complete a proficiency test to demonstrate 
        their knowledge of U.S. laws and safety regulations. The Motor 
        Carrier Safety Improvement Act of 1999 directs the Secretary of 
        DOT to establish minimum requirements for applicant motor 
        carriers to ensure that they are knowledgeable about federal 
        motor carrier safety standards; it also directs the Secretary 
        to consider the establishment of a safety proficiency 
        examination for these applicants to test their knowledge of 
        safety requirements. This requirement is supported by law and 
        is reasonable prior to a grant of operating authority.

  <bullet> As indicated by the Committee, FMCSA must increase the 
        number of full-time federal inspectors at the border and help 
        states to supply state inspectors so that inspectors are 
        present at all border crossings during all hours of operation. 
        According to the General Accounting Office, each of the 161 
        state and federal inspectors who were on the job in March 2000 
        would have to inspect an incredible 24,800 Mexican trucks 
        annually to inspect those then crossing the border. The DOT 
        Inspector General should be required to certify, as the 
        Committee indicates, that an adequate number of inspectors have 
        been hired and trained to perform meaningful border and on-site 
        safety inspections. FMCSA must provide for the hiring and 
        training of additional inspectors to conduct the on-site safety 
        reviews. As the Committee required, DOT should require that 
        trucks be permitted to cross the border only at times when 
        inspectors are on duty.

  <bullet> FMCSA must require that the licenses, certificates of 
        registration, and proof of insurance of all drivers and trucks 
        crossing the border are checked and verified, and that a far 
        more substantial proportion of trucks crossing the border are 
        inspected. In addition, the border should not be opened until 
        DOT has assured Congress that Mexico's information 
        infrastructure is established, accurate, functional and 
        informative, as the Committee specified.

  <bullet> As the Committee required, FMCSA must ensure that all border 
        crossings have permanent inspection facilities that include 
        weigh stations (Weigh-In-Motion systems), dedicated phone lines 
        for accessing databases, and ample space to conduct inspections 
        as well as parking places for out-of-service vehicles. Until 
        all 27 border areas are upgraded, and until the Inspector 
        General certifies that telephone connections and computer links 
        exist at all border crossings and mobile enforcement units, 
        commercial carriers should be limited to crossing where there 
        are adequate inspection facilities. As the Committee required, 
        DOT should be required to electronically verify the license of 
        carriers crossing the border. In addition, DOT should be 
        required to electronically verify the registration information 
        of carriers.

  <bullet> As the Committee provided, the border should remain closed 
        until DOT Inspector General certifies that FMCSA has put in 
        place a plan to ensure compliance with U.S. hours-of-service 
        rules. To assist with enforcement, the Inspector General should 
        also certify that DOT has assigned Mexican trucks an operating 
        number to allow state inspectors to track the carrier's 
        movements.

  <bullet> As the Committee required, state inspectors who receive 
        federal funds should be made to check for violations of federal 
        law, including the validity of registration and drivers' 
        licenses. DOT should also implement, as the Committee required, 
        a system similar to that for U.S. drivers that prevents Mexican 
        drivers from being able to acquire a new license if their 
        license has been lost as a penalty for legal infractions.

  <bullet> As the Committee provided, prior to opening the border, DOT 
        must issue rules regarding: (1) proficiency examinations; (2) 
        improved training for domestic safety auditors; (3) staffing 
        standards for inspection sites at the U.S.-Mexico border; (4) 
        prohibitions on foreign motor carriers' leasing vehicles to 
        another carrier while suspended for rule infractions; (5) 
        disqualifications of carriers that have operated illegally in 
        the U.S.

    The border must not be opened until all of these conditions are 
met.
                                 ______
                                 
            In Mexico, Graft Infects Every Aspect of Society
                           By Laurie Goering
    About 10 times each day in Mexico City, the transit policeman pulls 
over a traffic offender. The encounter is nearly always the same.
    The driver offers a bribe of about $4, eager to avoid a drive to 
the nearest police delegation and a wait of an hour or more to be 
issued a formal $30 ticket. The officer accepts. On his salary of just 
$275 a month--too little for a home of his own or a car--the extra 
money is crucial to paying basic bills for his wife and two children, 
he insists.
    ``We have to accept. It's out of necessity,'' says the 10-year 
veteran of the force, leaning against his white squad car. ``Anyway, 
we're not the ones asking. Corruption comes from both sides.''
    Since ending 71 years of one-party rule in Mexico last year, 
President Vicente Fox has made battling Mexico's deeply entrenched 
corruption a top priority. But the scale of the job--excising a cancer 
that has metastasized into nearly every aspect of Mexican life--is 
enormous.
    In Mexico, anyone with a few dollars to spare pays for a driver's 
license, rather than taking the test and standing in line for most of a 
day. Businessmen seeking a license to open a new store are asked for a 
hefty ``voluntary donation'' to speed the process. Mexican newspapers 
run almost daily headlines about police involved in kidnapping rings, 
drug traffickers bribing their way out of prison or state companies 
firing whistle-blowers.
    In the most recent Transparency International ranking, Mexicans 
themselves put their country nearly in the top third of corrupt nations 
worldwide, closer to Nigeria, the most corrupt, than Finland, the 
least.
    A daunting task
    ``Corruption is almost a lifestyle here,'' says Guadalupe Loaeza, a 
Mexico City author of books on Mexican social conditions. ``It's part 
of our mentality and it's hard for us to fight against it.''
    The fight, however, has begun. In January, Mexico's first 
Commission for Transparency and Combating Corruption was installed, and 
it has moved quickly to begin identifying and combating corruption 
problems, particularly in the nation's executive and administrative 
branch.
    An initial study of corruption problems in 205 federal institutions 
found 5,328 separate kinds of corruption, said Hugo Gutierrez, the 
executive secretary of the commission.
    Staff in those offices came up with 7,118 ideas on how to stop 
corruption--but also 2,427 kinds of problems standing in the way of 
doing that, including everything from low salaries to reluctance to 
turn in corrupt colleagues.
    To find solutions, the commission is turning to foreign examples, 
from cash controls at Las Vegas casinos--``dealers don't even have 
pockets in their pants,'' Gutierrez notes--to transparency agreements 
that have worked to cut customs and industry corruption in nations like 
Panama.
    The commission has signed anti-corruption accords with the nation's 
major universities, labor groups, farm organizations and bankers and 
lawyers associations. Even the Institutional Revolutionary Party, or 
PRI, which ruled Mexico with a corruption-tainted iron grip for 70 
years, has signed on.
Coordinated attack needed
    What is clear, Gutierrez says, is that successfully cracking down 
on corruption will require a coordinated attack on many fronts, from 
training public workers in professionalism and ethics to ending 
impunity for violators. Complicated bureaucratic processes will have to 
be trimmed, sanctions revamped, workers trained to be more efficient, 
and society at large persuaded, through education and public-relations 
campaigns, not to pay la mordida--the bite.
    ``We have to strengthen the ethical infrastructure of our people,'' 
Gutierrez said.
    A new sign on his office wall sports an apple with a bite missing, 
and a bright red slash across it. ``Don't feed corruption,'' it says.
    The fight won't be an easy one. Members of the Mexican 
Congressional Commission and Public Security have begun introducing 
legislation considered key to the anti-corruption effort, including a 
rewrite of a national law of responsibilities for public workers and a 
measure to allow suspected ill-gotten gains of corruption to be frozen 
while a suspect is tried.
    Anti-corruption advocates also hope to pass a new law giving the 
public and the media access to basic government data, boost penalties 
for influence peddling and create a federal register of public workers 
to make it easier for government employers to check for past corruption 
violations.
    Fighting corruption ``is our highest priority,'' says Armando 
Salinas, the president of the congressional commission and a member of 
Fox's National Action Party, or PAN. ``Mexicans say they want no more 
of it.''
    Passing all the new reforms, however, will be a challenge. Miguel 
Barbosa, another member of the congressional committee, says he has 
already begun to see lobbying against the measures by powerful 
interests that have grown rich on corruption and have plenty of money 
to spread among friendly members of Congress.
    ``This isn't going to be easy,'' he said. ``Politics have changed 
in Mexico, but the interests have not.''
    Victor Gandarilla, a PRI member on the commission, agrees.
    ``People say this is another Mexico, but we're continuing with the 
same Mexicans,'' he said. In his view, the best way to turn Mexicans 
against corruption ``is for them to see it punished.''
    Punishing corruption is critical, analysts say, to the new 
government's efforts being taken seriously. But some corruption, 
especially that associated with drug trafficking, will be hard to 
prosecute, much less stop.
    Fernando Tenorio, the head of Secure Cities, a program through 
Mexico's National Institute of Penal Sciences, says an increasing 
percentage of Mexico's corruption is ``not just corruption but 
organized corruption'' that involves rings of criminals, from private 
security officers to prison guards.
    Unraveling those networks, which have based themselves on cartels, 
will be tough. Tenorio believes firings combined with 
professionalization programs--his program offers master's and doctorate 
programs for judges and public administrators--is the answer.
    ``It's unthinkable that we're going to eliminate corruption but it 
could be reduced to tolerable levels in 6 years,'' the length of Fox's 
term, he predicted.
    Among other keys to rooting out entrenched corruption in Mexico, 
national and international analysts say, is sending out undercover 
officers to offer bribes, then following up with suspensions, loss of 
government jobs, fines and arrests and convictions for those who take 
them. Anti-corruption officials say they plan just that.
PRI as watchdog
    Mexico's newly strengthened democracy also should play a key role 
in the effort. With the PRI now out of power and eager to return, it 
will act as a watchdog on spending in Fox's new PAN government, 
analysts say.
    Finally, the government will need to boost salaries for key 
underpaid workers, and remove what Alberto Aziz, a professor at the 
Center for Investigation and Advanced Study in Social Anthropology 
calls ``laws so absurd you have to violate them,'' from driver's exams 
asking what Violation 36 is, to bureaucratic licensing processes that 
take years unless bribes are paid to bypass the system.
    Perhaps the best sign that things really might change in Mexico is 
an increasingly evident shift of attitudes on the street. A foreign 
businessman who told Mexican colleagues recently about paying off a 
traffic cop was met not with knowing nods but with disdain.
    ``How is the country ever going to change if you keep doing that?'' 
they demanded angrily.
    Since Fox's election and the end of one-party rule in Mexico, 
``people are feeling more like citizens,'' Tenorio suggests. ``I think 
if the government puts forward a good example, people will follow it.
                                 ______
                                 
   Recent Mexican Trucking Rules Do Not Solve Serious Safety Hazards:
NAFTA Ruling Could Expose U.S. Public to Dangerous Cross-Border Trucks
<plus-minus>February 7, 2001
    A final ruling was handed down February 6, 2001 following a 
complaint filed by Mexico under the North American Free Trade Agreement 
(NAFTA), in which Mexico argued that its commercial trucks should be 
allowed unlimited access to U.S. highways. A NAFTA arbitration panel, 
after meeting for months in secret, found that the U.S. must allow 
Mexican commercial trucks to carry cargo throughout the U.S. or else 
pay trade sanctions for our refusal to comply, regardless of a well-
documented history of U.S. safety concerns.
    NAFTA outlined an arbitrary schedule that allowed Mexican carriers 
limited access to U.S. border states in 1995 and access to the entire 
U.S. by January 2000. NAFTA also created cross-border working groups on 
vehicle standards and safety, and Mexico agreed to improve safety at 
home. But the safety provisions of NAFTA, predictably, have no teeth, 
because the timelines for both partial and full commercial access were 
not linked to any progress in the safety of Mexico's trucking fleet.
    And the promised improvements have not been made. Due to the 
serious and unresolved concerns about the grave risk to U.S. motorists 
of crashes with dangerous, overloaded trucks, until the panel decision, 
Mexican trucks were limited to a small zone near the border. Last 
January, President Clinton explained that the Mexican highway 
inspections and monitoring system was inadequate to assure safety.
    Although Mexican trucks in theory have to comply with U.S. law 
before they can cross the border, in practice the U.S. needs Mexico to 
improve safety at home because U.S. border inspectors cannot possibly 
check every cross-border truck. In fact, studies by the Department of 
Transportation Inspector General and the General Accounting Office 
showed that even though less than one percent of cross-border Mexican 
trucks were inspected, 35 percent of those trucks had to be taken out 
of service because of serious safety violations. For all of these 
reasons, the Clinton Administration's policy was that Mexican trucks 
would not be allowed full access to the U.S. until considerable safety 
and oversight improvements were complete.
    Last July, the Mexican government finally established a set of 
fledgling ``standards'' for commercial trucks and the authority and 
guidelines for roadside inspections. But a majority of the new 
inspection standards for critical items such as tires, headlights and 
hazardous materials are merely voluntary in the first year. Even once 
they become mandatory, the new rules are far from comprehensive, and in 
many cases they could provide legal cover for very dangerous practices.
    The rules provide the basis for roadside inspections only on 
Mexico's federal highways--only 10 percent of Mexican roads-- without 
additional money for inspectors or inspection sites. Until a system of 
privately owned inspection areas is established, the rules say that 
inspection checks will be ``random'' and done by ``General Road 
Inspectors.'' There is no mention of special training programs or of 
any increase in the number of safety checks near border areas.
I. Summary of Flaws and Omissions in the Recently Enacted Mexican Rules
    When the final ruling was announced, the United States Trade 
Representative stated that President Bush supports allowing the Mexican 
trucking fleet unlimited access to the U.S. Public Citizen examined the 
new rules issued by Mexico to ascertain whether they are likely to 
reduce the risks posed by a fresh onslaught of Mexican trucks. Across 
every category, researchers found, the rules come up short.
A. General Problems:

        LIndustry Wrote the Rules: Industries that will profit from the 
        lack of adequate safety rules for cross-border trucks had a 
        heavy hand in crafting the regulations. The second and third 
        pages of the Mexican government's new rules identify the 
        participating groups as the National Association of Producers 
        of Buses, Trucks, and Tractor Trailers, the National Chamber of 
        Motor Transport Hauling, the National Chamber of Rubber 
        Industry, the National Chamber of Iron and Steel Industries, 
        and the National Association of the Chemical Industry, as well 
        as about twenty other companies and industry alliances.

        LVery Limited Application: Only a very small portion of the 
        roads in Mexico are part of a national set of highways and thus 
        under federal oversight. Over 90 percent of the surface mileage 
        in Mexico on which trucks operate are under provincial and 
        local jurisdiction. Trucks on these roads are not subject to 
        inspection under the new rules.

        LSevere Time Limits on Inspections: Although the new inspection 
        process requires 31 separate equipment checks, with more than 
        143 actions to test components of the truck, the rules state 
        that the maximum time for an inspection of a general cargo 
        carrier is 30 minutes, while an inspection of a hazardous 
        materials carrier is limited to an even less generous 20 
        minutes. In the U.S., there is no time limit for inspections, 
        and discovery of a serious infraction may trigger a 
        comprehensive safety inspection, which can take hours.

        LTotal Lack of Monitoring and Oversight: Although creation of a 
        joint U.S.-Mexico database is in progress, it is years from 
        completion. Company and driver safety records will be difficult 
        to track until much better systems (that include roadside 
        compliance data) are developed and fully implemented as an 
        enforcement and monitoring tool.

        LStill No Hours-of-Service Limitations: Hours-of-service 
        regulations limit the number of hours that commercial drivers 
        may spend behind the wheel of large, dangerous trucks and have 
        been a focus of safety efforts in the U.S. Mexico has no 
        limitations in this area whatsoever. In fact, Mexico's new rule 
        on logbook inspections states that ``The driver's hours of 
        service is designed by company, according to its needs.'' This 
        statement surely was enshrined in regulation by companies that 
        profit by maintaining control over their workers' hours and, in 
        context, evinces a near-total disregard for the safety of other 
        drivers on the highway.

        LTwo-Year Across-the-Board Exemptions for New Vehicles: New 
        vehicles are exempt from all standards and inspections for 2 
        full years from the date of manufacture.

        LSafety Problems Are Treated in Isolation: The rules do not 
        work cumulatively, so vehicles with multiple, but borderline, 
        safety problems will be able to stay on the road.

        LThe Deterrence Effect of Fines is Unclear: Although fines are 
        authorized, the rules do not state their amount or consider 
        their deterrent effects against industry profits.

II. Severe Safety Defects Are Systematically Overlooked by the New 
        Rules
    To fully convey the serious limitations of the newly-created 
Mexican inspection and certification regime, we compiled a list of the 
safety failures covered by the regulations. The violations listed below 
would result in a vehicle's automatic or very probable removal from 
U.S. highways (called an ``out-of-service order''). In Mexico these 
safety violations merely incur a fine and a promise to fix the problem 
within twenty days.
               Sections of the Recent Mexican Regulations
        That Allow Unsafe Mexican Vehicles to Remain on the Road
    For the following types of failures, an out-of-service order would 
be automatic under U.S. law, but in Mexico will merely incur a ticket 
and a promise to fix the problem within 20 days:
Transport of Hazardous Materials (Section 4.2)
        1. LIncompatible materials in the same shipment
        2. LBulk loads improperly blocked or secured
        3. LIdentifications and warnings do not match material being 
        transported
        4. LMore than 25 percent of anchoring components are missing
        5. LUse of tanks not designed or authorized for transported 
        products
        6. LEscaping, leaking or spilling material from a transport 
        tank
        7. LFailure to carry the appropriate Transport Emergency 
        information
Logbooks (Section 4.2)
        1. LNon-existent

    For the following types of failures, an out-of-service order would 
be extremely probable under U.S. law, but in Mexico will merely incur a 
ticket and a promise to fix the problem in 20 days:
Lighting Systems (Section 4.1)
        1. LElectrical system fuses missing and bridged instead with 
        wire, aluminum or other materials
        2. LWorn, exposed wires, missing insulation, wire twisted with 
        other cables
        3. LHeadlights missing or inoperable when needed for 
        climatological reasons or night travel
        4. LBrake lights missing or inoperable
Windshield Wipers (Section 4.3)
        1. LNo windshield wipers and spray jets
Windshield (Section 4.4)
        1. LShattered or missing windshield
Tires, Inner Tubes and Belts (Section 4.5)
        1. LTires: walls cut or damaged, structural material exposed, 
        not designed for highway use, tire tread separation, rubbing 
        against adjacent surfaces, exposed radial belts, tires 
        separating from wheels
Wheels and Rims (Section 4.6)
        1. LBent, broken or cracked wheel rims
Frames, Rails or Truck Chassis; Semi-Trailer/Trailer Frame (Sections 
        4.7 and 4.8)
        1. LCracked, loose, bent or broken frame rails, including those 
        permitting movement of the chassis, and twists, bends and 
        weaknesses due to cracks in the vehicle chassis
Fuel System (Section 4.9)
        1. LGas cap missing, filling pipe permits fuel spillage and 
        fuel lines leak
Vehicle Load Securing (Section 4.1)
        1. LCracked, broken, stretched, twisted, worn, ruptured and 
        knotted load securement chains, and cables and cut, burned or 
        punctured synthetic belts
        2. LSeparation of load containment side boards or stakes, or 
        the inadequate height of side walls which are unable to prevent 
        load from falling
Exhaust System (Section 4.11)
        1. L``Unsafe'' mounting of, or broken or damaged parts of 
        exhaust pipes for gases, smoke, and/or multiple collectors
Steering System (Section 4.12)
        1. LLoose steering wheel or detached joints, missing U-bolts or 
        securing bolts for steering column
        2. LSteering gear box detached from its mounting on the chassis 
        or a rupture in the gear box or its mounting brackets
Suspension System (Section 4.13)
        1. LNo springs on mechanical suspension
        2. LPneumatic suspension with cracked suspension frame or loose 
        U-bolts.
Pneumatic Brake System (Section 4.14)
        1. LCurled, obstructed or broken hoses or pipes
        2. LBrake drums with cracks on their sides
        3. LDetached or loosely mounted brake chambers
        4. LMore than 20 percent of the brake system's ``push rods'' 
        out of adjustment
Hydraulic Brake System (Section 4.15)
        1. LInoperative brake linings (non-moving) and/or oil 
        contamination of brake drums
        2. LMissing brake lining segments
Electric Brake System (Section 4.16)
        1. LMissing, non-existent, ruptured or defective brake on 
        vehicle wheel
Cabin (Truck Cab) (Section 4.18)
        1. LInoperative instruments and interior controls, including 
        inoperative air pressure gauge for air brakes, emergency 
        warning signal, emergency brake control, seatbelts, fire 
        extinguishers
        2. LNo seats
        3. LNo ``speed control device'' (throttle)
Although inapplicable to commercial trucks, the rules are also lax 
        about the safety of passenger buses:
Passenger Area in Buses (Section 4.19)
        1. LNo emergency equipment, no emergency exit, inoperative 
        emergency exit, holes in bus passenger area floor, seats not 
        secured to floor, no seatbelts, inoperative interior lights

    The translated text of the Mexican regulations is available on the 
Public Citizen Web site at www.citizen.org.
    A more comprehensive report on the serious safety hazards of the 
NAFTA panel decision and the options open to the Bush administration is 
available on the Public Citizen Web site at www.citizen.org/pctrade/
nafta/reports/truckstudy.htm
                                 ______
                                 
 Mexico's Trucks on Horizon Long-distance haulers are headed into U.S. 
                        once Bush opens borders
                 Robert Collier, Chronicle Staff Writer
    Altar Desert, Mexico--Editor's Note: This week, the Bush 
administration is required by NAFTA to announce that Mexican long-haul 
trucks will be allowed onto U.S. highways--where they have long been 
banned over concerns about safety--rather than stopping at the border. 
The Chronicle sent a team to get the inside story before the trucks 
start to roll.

    It was sometime way after midnight in the middle of nowhere, and a 
giddy Manuel Marquez was at the wheel of 20 tons of hurtling, U.S.-
bound merchandise.
    The lights of oncoming trucks flared into a blur as they whooshed 
past on the narrow, two-lane highway, mere inches from the left mirror 
of his truck. Also gone in a blur were Marquez's past 2 days, a nearly 
Olympic ordeal of driving with barely a few hours of sleep.
    ``Ayy, Mexico!'' Marquez exclaimed as he slammed on the brakes 
around a hilly curve, steering around another truck that had stopped in 
the middle of the lane, its hood up and its driver nonchalantly smoking 
a cigarette. ``We have so much talent to share with the Americans--and 
so much craziness.''
    Several hours ahead in the desert darkness was the border, the end 
of Marquez's 1,800-mile run. At Tijuana, he would deliver his cargo, 
wait for another load, then head back south.
    But soon, Marquez and other Mexican truckers will be able to cross 
the border instead of turning around. Their feats of long-distance 
stamina--and, critics fear, endangerment of public safety--are coming 
to a California freeway near you.
    Later this week, the Bush administration is expected to announce 
that it will open America's highways to Mexican long-haul trucks, thus 
ending a long fight by U.S. truckers and highway safety advocates to 
keep them out.
    Under limitations imposed by the United States since 1982, Mexican 
vehicles are allowed passage only within a narrow border commercial 
zone, where they must transfer their cargo to U.S.-based long-haul 
trucks and drivers.
    The lifting of the ban--ordered last month by an arbitration panel 
of the North American Free Trade Agreement--has been at the center of 
one of the most high-decibel issues in the U.S.-Mexico trade 
relationship.
    Will the end of the ban endanger American motorists by bringing 
thousands of potentially unsafe Mexican trucks to U.S. roads? Or will 
it reduce the costs of cross-border trade and end U.S. protectionism 
with no increase in accidents?
    Two weeks ago, as the controversy grew, Marquez's employer, 
Transportes Castores, allowed a Chronicle reporter and photographer to 
join him on a typical run from Mexico City to the border.
    The 3-day, 1,800-mile journey offered a window into a part of 
Mexico that few Americans ever see--the life of Mexican truckers, a 
resourceful, long-suffering breed who, from all indications, do not 
deserve their pariah status north of the border.
    But critics of the border opening would also find proof of their 
concerns about safety:
    --American inspectors at the border are badly undermanned and will 
be hard- pressed to inspect more than a fraction of the incoming 
Mexican trucks.
    California--which has a much more rigorous truck inspection program 
than Arizona, New Mexico or Texas, the other border states--gave full 
inspections to only 2 percent of the 920,000 short-haul trucks allowed 
to enter from Mexico last year.
    Critics say the four states will be overwhelmed by the influx of 
Mexican long-haul trucks, which are expected to nearly double the 
current volume of truck traffic at the border.
    --Most long-distance Mexican trucks are relatively modern, but 
maintenance is erratic.
    Marquez's truck, for example, was a sleek, 6-month-old, Mexican-
made Kenworth, equal to most trucks north of the border. But his 
windshield was cracked--a safety violation that would earn him a ticket 
in the United States but had been ignored by his company since it 
occurred 2 months ago.
    A recent report by the U.S. Transportation Department said 35 
percent of Mexican trucks that entered the United States last year were 
ordered off the road by inspectors for safety violations such as faulty 
brakes and lights.
    --Mexico's domestic truck-safety regulation is extremely lax. 
Mexico has no functioning truck weigh stations, and Marquez said 
federal police appear to have abandoned a program of random highway 
inspections that was inaugurated with much fanfare last fall.
    --Almost all Mexican long-haul drivers are forced to work 
dangerously long hours.
    Marquez was a skillful driver, with lightning reflexes honed by 
road conditions that would make U.S. highways seem like cruise-control 
paradise. But he was often steering through a thick fog of exhaustion.
    In Mexico, no logbooks--required in the United States to keep track 
of hours and itinerary--are kept. Marquez slept a total of only seven 
hours during his 3-day trip.
    ``We're just like American truckers, I'm sure,'' Marquez said with 
a grin. ``We're neither saints nor devils. But we're good drivers, 
that's for sure, or we'd all be dead.''
    Although no reliable statistics exist for the Bay Area's trade with 
Mexico, it is estimated that the region's exports and imports with 
Mexico total $6 billion annually. About 90 percent of that amount moves 
by truck, in tens of thousands of round trips to and from the border.
    Under the decades-old border restrictions, long-haul trucks from 
either side must transfer their loads to short-haul ``drayage'' 
truckers, who cross the border and transfer the cargo again to long-
haul domestic trucks. The complicated arrangement is costly and time-
consuming, making imported goods more expensive for U.S. consumers.
    Industry analysts say that after the ban is lifted, most of the two 
nations' trade will be done by Mexican drivers, who come much cheaper 
than American truckers because they earn only about one-third the 
salary and typically drive about 20 hours per day.
    Although Mexican truckers would have to obey the U.S. legal limit 
of 10 hours consecutive driving when in the United States, safety 
experts worry that northbound drivers will be so sleep-deprived by the 
time they cross the border that the American limit will be meaningless. 
Mexican drivers would not, however, be bound by U.S. labor laws, such 
as the minimum wage.
    ``Are you going to be able to stay awake?'' Marcos Munoz, vice 
president of Transportes Castores jokingly asked a Chronicle reporter 
before the trip. ``Do you want some pingas?''
    The word is slang for uppers, the stimulant pills that are commonly 
used by Mexican truckers. Marquez, however, needed only a few cups of 
coffee to stay awake through three straight 21-hour days at the wheel.
    Talking with his passengers, chatting on the CB radio with friends, 
and listening to tapes of 1950s and 1960s ranchera and bolero music, he 
showed few outward signs of fatigue.
    But the 46-year-old Marquez, who has been a trucker for 25 years, 
admitted that the burden occasionally is too much.
    ``Don't kid yourself,'' he said late the third night. ``Sometimes, 
you get so tired, so worn, your head just falls.''
    U.S. highway safety groups predict an increase in accidents after 
the border is opened.
    ``Even now, there aren't enough safety inspectors available for all 
crossing points,'' said David Golden, a top official of the National 
Association of Independent Insurers, the main insurance-industry lobby.
    ``So we need to make sure that when you're going down Interstate 5 
with an 80,000-pound Mexican truck in your rearview mirror and you have 
to jam on your brakes, that truck doesn't come through your window.''
    Golden said the Bush administration should delay the opening to 
Mexican trucks until border facilities are upgraded.
    California highway safety advocates concur, saying the California 
Highway Patrol--which carries out the state's truck inspections--needs 
to be given more inspectors and larger facilities to check incoming 
trucks' brakes, lights and other safety functions.
    Marquez's trip started at his company's freight yard in 
Tlalnepantla, an industrial suburb of Mexico City. There, his truck was 
loaded with a typical variety of cargo--electronic components and 
handicrafts bound for Los Angeles, and chemicals, printing equipment 
and industrial parts for Tijuana.
    At the compound's gateway was a shrine with statues of the Virgin 
Mary and Jesus. As he drove past, Marquez crossed himself, then crossed 
himself again before the small Virgin on his dashboard.
    ``Just in case, you know,'' he said. ``The devil is always on the 
loose on these roads.''
    In fact, Mexican truckers have to brave a wide variety of dangers.
    As he drove through the high plateaus of central Mexico, Marquez 
pointed out where he was hijacked a year ago--held up at gunpoint by 
robbers who pulled alongside him in another truck. His trailer full of 
canned tuna--easy to fence, he said--was stolen, along with all his 
personal belongings.
    What's worse, some thieves wear uniforms.
    On this trip, the truck had to pass 14 roadblocks, at which police 
and army soldiers searched the cargo for narcotics. Each time, Marquez 
stood on tiptoes to watch over their shoulders. He said, ``You have to 
have quick eyes, or they'll take things out of the packages.''
    Twice, police inspectors asked for bribes--``something for the 
coffee,'' they said. Each time, he refused and got away with it.
    ``You're good luck for me,'' he told a Chronicle reporter. ``They 
ask for money but then see an American and back off. Normally, I have 
to pay a lot.''
    Although the Mexican government has pushed hard to end the border 
restrictions, the Mexican trucking industry is far from united behind 
that position. Large trucking companies such as Transportes Castores 
back the border opening, while small and medium-size ones oppose it.
    ``We're ready for the United States, and we'll be driving to Los 
Angeles and San Francisco,'' said Munoz, the company's vice president.
    ``Our trucks are modern and can pass the U.S. inspections. Only 
about 10 companies here could meet the U.S. standards.''
    The border opening has been roundly opposed by CANACAR, the Mexican 
national trucking industry association, which says it will result in 
U.S. firms taking over Mexico's trucking industry.
    ``The opening will allow giant U.S. truck firms to buy large 
Mexican firms and crush smaller ones,'' said Miguel Quintanilla, 
CANACAR's president. ``We're at a disadvantage, and those who benefit 
will be the multinationals.''
    Quintanilla said U.S. firms will lower their current costs by 
replacing their American drivers with Mexicans, yet will use the huge 
American advantages--superior warehouse and inventory-tracking 
technology, superior access to financing and huge economies of scale--
to drive Mexican companies out of business.
    Already, some U.S. trucking giants such as M.S. Carriers, Yellow 
Corp. and Consolidated Freightways Corp. have invested heavily in 
Mexico.
    ``The opening of the border will bring about the consolidation of 
much of the trucking industry on both sides of the border,'' said the 
leading U.S. academic expert on NAFTA trucking issues, James 
Giermanski, a professor at Belmont Abbey College in Raleigh, N.C.
    The largest U.S. firms will pair with large Mexican firms and will 
dominate U.S.-Mexico traffic, he said.
    But Giermanski added that the increase in long-haul cross-border 
traffic will be slower than either critics or advocates expect, because 
of language difficulties, Mexico's inadequate insurance coverage and 
Mexico's time- consuming system of customs brokers.
    ``All the scare stories you've heard are just ridiculous,'' he 
said. ``The process will take a long time.''
    In California, many truckers fear for their jobs. However, 
Teamsters union officials say they are trying to persuade their members 
that Marquez and his comrades are not the enemy.
    ``There will be a very vehement reaction by our members if the 
border is opened,'' said Chuck Mack, president of Teamsters Joint 
Council 7, which has 55, 000 members in the Bay Area.
    ``But we're trying to diminish the animosity that by focusing on 
the overall problem--how (the opening) will help multinational 
corporations to exploit drivers on both sides of the border.''
    Mexican drivers, however, are likely to welcome the multinationals' 
increased efficiency, which will enable them to earn more by wasting 
less time waiting for loading and paperwork.
    For example, in Mexico City, Marquez had to wait more than 4 hours 
for stevedores to load his truck and for clerks to prepare the load's 
documents--a task that would take perhaps an hour for most U.S. 
trucking firms.
    For drivers, time is money. Marquez's firm pays drivers a 
percentage of gross freight charges, minus some expenses. His 3-day 
trip would net him about $300. His average monthly income is about 
$1,400--decent money in Mexico, but by no means middle class.
    Most Mexican truckers are represented by a union, but it is nearly 
always ineffectual--what Transportes Castores executives candidly 
described as a ``company union.'' A few days before this trip, 
Transportes Castores fired 20 drivers when they protested delays in 
reimbursement of fuel costs.
    But Marquez didn't much like talking about his problems. He 
preferred to discuss his only child, a 22-year-old daughter who is in 
her first year of undergraduate medical school in Mexico City.
    Along with paternal pride was sadness.
    ``Don't congratulate me,'' he said. ``My wife is the one who raised 
her. I'm gone most of the time. You have to have a very strong 
marriage, because this job is hell on a wife.
    ``The money is okay, and I really like being out on the open road, 
but the loneliness . . .'' He left the thought unfinished, and turned 
up the volume on his cassette deck.
    It was playing Pedro Infante, the famous bolero balladeer, and 
Marquez began to sing.
    ``The moon of my nights has hidden itself.
    ``Oh little heavenly virgin, I am your son.
    ``Give me your consolation,
    ``Today, when I'm suffering out in the world.''
    Despite the melancholy tone, Marquez soon became jovial and 
energetic. He smiled widely and encouraged his passengers to sing 
along. Forgoing his normal caution, he accelerated aggressively on the 
curves.
    His voice rose, filling the cabin, drowning out the hiss of the 
pavement below and the rush of the wind that was blowing him inexorably 
toward the border.
How NAFTA Ended the Ban On Mexico's Trucks
    The North American Free Trade Agreement, which went into effect in 
January 1994, stipulated that the longtime U.S. restrictions on Mexican 
trucks be lifted.
    Under NAFTA, by December 1995, Mexican trucks would be allowed to 
deliver loads all over the four U.S. border states--California, 
Arizona, New Mexico and Texas--and to pick up loads for their return 
trip to Mexico. U.S. trucking firms would get similar rights to travel 
in Mexico. And by January 2000, Mexican trucks would be allowed 
throughout the United States.
    However, bowing to pressure from the Teamsters union and the 
insurance industry, President Clinton blocked implementation of the 
NAFTA provisions. The Mexican government retaliated by imposing a 
similar ban on U.S. trucks.
    As a result, the longtime status quo continues: Trucks from either 
side must transfer their loads to short-haul ``drayage'' truckers, who 
cross the border and transfer the cargo again to long-haul domestic 
trucks.
    The complicated arrangement is time-consuming and expensive. Mexico 
estimates its losses at $2 billion annually; U.S. shippers say they 
have incurred similar costs.
    In 1998, Mexico filed a formal complaint under NAFTA, saying the 
U.S. ban violated the trade pact and was mere protectionism. The 
convoluted complaint process lasted nearly 6 years, until a three-
person arbitration panel finally ruled Feb. 6 that the United States 
must lift its ban by March 8 or allow Mexico to levy punitive tariffs 
on U.S. exports.
                                 ______
                                 
Comparing Trucking Regulations
    The planned border opening to Mexican trucks will pose a big 
challenge to U. S. inspectors, who will check to be sure that trucks 
from Mexico abide by stricter U.S. truck-safety regulations. Here are 
some of the differences:
Hours-of-service limits for drivers:
    In U.S.: Yes. Ten hours' consecutive driving, up to 15 consecutive 
hours on duty, 8 hours' consecutive rest, maximum of 70 hours' driving 
in 8-day period.
    In Mexico: No
    Driver's age
    In U.S.: 21 is minimum for interstate trucking
    In Mexico: 18
    Random drug test
    In U.S.: Yes, for all drivers
    In Mexico: No
    Automatic disqualification for certain medical conditions
    In U.S.: Yes
    In Mexico: No
Logbooks
    In U.S.: Yes. Standardized logbooks with date graphs are required 
and part of inspection criteria. In Mexico: A new law requiring 
logbooks is not enforced, and virtually no truckers use them.
    Maximum weight limit (in pounds)
    In U.S.: 80,000
    In Mexico: 135,000
    Roadside Inspections
    In U.S.: Yes
    In Mexico: An inspection program began last year but has been 
discontinued.
    Out-of-service rules for safety deficiencies
    In U.S.: Yes
    In Mexico: Not currently. Program to be phased in over 2 years.
    Hazardous materials regulations
    In U.S.: A strict standards, training, licensure and inspection 
regime.
    In Mexico: Much laxer program with far fewer identified chemicals 
and substances, and fewer licensure requirements.
    Vehicle safety Standards
    In U.S.: Comprehensive standards for components such as antilock 
brakes, underride guards, night visibility of vehicle.
    In Mexico: Newly enacted standards for vehicle inspections are 
voluntary for the first year and less rigorous than U.S. rules.
    Sources: Public Citizen, California Department of Transportation 
and Chronicle research
                                 ______
                                 
                        The Coming NAFTA Crash:
 The Deadly Impact of a Secret NAFTA Tribunal's Decision to Open U.S. 
                   Highways to Unsafe Mexican Trucks
New Evidence Suggests that a NAFTA Ruling Allowing Mexican Trucks 
        Access to U.S. Will Expose the Public to Significant Threats
Introduction
    A legal ruling by a North American Free Trade Agreement (NAFTA) 
tribunal will be released in February 2001. The NAFTA ruling--requiring 
the U.S. to permit access to U.S. highways by Mexican trucks--may not 
only put American motorists and communities at great risk, but could 
destroy NAFTA itself. Ironically, this NAFTA ruling--which could bring 
NAFTA's threat to public health and safety directly into communities 
nationwide--comes as President George W. Bush calls for the expansion 
of NAFTA. Already his plan for the expansion of NAFTA to all the 
Americas faces a decidedly negative U.S. public opinion as a result of 
NAFTA.
    The NAFTA dispute America faces about open-border trucking is 
indicative of the split in the U.S. over corporate managed trade: on 
one side are corporate pressures to use ``trade'' deals to further a 
broad agenda of deregulation regardless of the environmental, health or 
safety consequences; and on the other, the public pressures to demand 
that international commercial agreements do not undermine important 
social and environmental goals.

        L``Just one unfortunate accident between an overweight, unsafe 
        Mexican truck and a Texas school bus . . . could escalate into 
        an international incident.''--Former Texas Attorney General Dan 
        Morales, Los Angeles Times, 3/18/96.

    Imminently in early February, 2001, a final ruling will be issued 
in a simmering trade dispute between the U.S. and Mexico that pits 
commercial trucking interests against the public interest of safe 
highways. A preliminary ruling in the case rejected U.S. arguments 
regarding the lack of safety of Mexican trucks and ordered the U.S. to 
permit access by Mexican trucks to U.S. highways.
    The North American Free Trade Agreement went into effect in 1994 
with provisions allowing Mexican trucks increasing access to U.S. 
highways. These NAFTA provisions required the U.S. to open access to 
all U.S.-Mexico border states in 1995 and to permit Mexican trucks to 
travel throughout the entire U.S. as of January 1, 2000. Until these 
provisions are implemented, because of a pre-existing U.S.-Mexico 
agreement, Mexican trucks may operate in a border commercial zone 
ranging from 3 to 20 miles into the U.S. to drop off loads destined for 
U.S. interior states. There are no interior checkpoints to enforce the 
border zone, however, and Mexican trucks have been pulled over many 
times in the border states and beyond.
    Other provisions of NAFTA require the U.S., Mexico and Canada to 
negotiate unified standards for truck safety and commercial driver 
licensing. Proponents of open border trucking argued that this would 
allow Mexico to develop domestic standards at least as protective as 
those in the U.S. Yet the standardization process was not linked in 
NAFTA to the opening of the border and has not thus far led to the 
establishment of cross-border, uniform safety standards. In defending 
the administration's decision to keep the border closed, the U.S. 
Department of Transportation (DOT) has repeatedly documented the 
significant safety risks Mexican trucks would pose to U.S. highways.

        L``We are seeing some frightening violations: air brakes that 
        aren't responding; brake and tail lights that are not working 
        or missing entirely. It's scary stuff.''--Lawrence Weintrob, 
        Department of Transportation Assistant Inspector General on 
        condition of Mexican trucks, USA Today 1/11/99.

    Moreover, the standards that do exist for commercial trucks in the 
U.S. are hardly a model for safety. Some critical standards, such as 
restrictions on the number of hours that truckers may drive, date from 
the 1930s. A consensus has been growing on Capitol Hill that this and 
other safety measures need to be updated soon in order to protect the 
public highway. If U.S. standards are upgraded the U.S. and Mexico 
would have to go back to the drawing table on many issues, so that 
Mexican trucks and driving rules would not lag behind the new U.S. 
standards.
    Because of all these concerns, while in office President Clinton 
maintained the limited access to the border commercial zones and did 
not allow any greater access to the four U.S. states bordering Mexico 
or the rest of the U.S.
    In 1998, Mexico challenged Clinton's refusal to open the border 
before a NAFTA enforcement tribunal, demanding that the U.S. abide by 
its NAFTA commitments and open its highways.* On November 29, 2000, the 
NAFTA tribunal released its preliminary ruling on the case supporting 
Mexico's claim: the U.S. must open its highways to Mexican trucks or 
pay an as-yet-unnamed penalty to Mexico for refusing to comply with the 
NAFTA ruling. A final ruling is due to be made by February 5, 2001 and 
must be released to the public 15 days later.
---------------------------------------------------------------------------
    * Mexico's initial complaint was that the U.S. did not open the 
U.S. border states in December 1995 as agreed under NAFTA. However, the 
NAFTA tribunal did not issue a preliminary ruling until after the NAFTA 
transportation schedule also required the U.S. to open up the entire 
country to Mexican truck traffic. Public Citizen has been unable to 
determine whether during the course of the dispute Mexico amended its 
complaint to include the U.S. refusal to open its highways countrywide 
or not, despite repeated inquiries to the United States Trade 
Representative, the Mexican Embassy, the American Trucking Association, 
as well as consumer, highway safety and labor organizations concerned 
with the case.
---------------------------------------------------------------------------
    The final ruling was supposed to be released December 29, 2000 and 
released to the public by January 14, 2001, according to NAFTA's pre-
set tribunal time lines (final decision is supposed to be provided 30 
days after the preliminary ruling and released to the public 15 days 
later). The delay of the ruling at least until February 5, 2001 may 
suggest that the NAFTA tribunal sought to allow a transition in the 
U.S. government to be completed so that President Bush, whose election 
had only been certified days before the preliminary ruling, would be 
the decision maker.
    The preliminary ruling in the NAFTA truck case contained the legal 
sophistry which is becoming increasingly common in trade tribunal 
rulings as public oversight of this realm has increased. The panel 
ultimately ordered the U.S. to open its border, but did so using crafty 
language: the panel ruled that the U.S. can maintain its own truck 
safety standards as long as it also complies with NAFTA's provisions.
    In fact, there was never any question whether the U.S. could keep 
its domestic truck safety rules on the books. The issue was whether 
those safety standards could be enforced in the context of Mexican 
trucks.
    Owners of commercial fleets who wish to operate in the U.S. must 
apply for operating permits from the U.S. Department of Transportation. 
According to the NAFTA panel, the U.S. may require that Mexican 
trucking companies which apply to be able to cross the border will meet 
all U.S. safety and labor standards. While this sounds good in theory, 
in practice given the state of Mexican inspection and enforcement, the 
only way to monitor whether a company is upholding its obligations is 
to check every truck which crosses the border and maintain good records 
on the companies and trucks that fail inspection there or elsewhere in 
the U.S. Although our government has been working with Mexico to 
develop a common database to do just that since NAFTA was implemented, 
no system is currently in place, and we are years away from a workable 
monitoring process.
    Additionally, although the imminent NAFTA border opening deadline 
creates pressure on Mexico to develop a meaningful motor vehicle safety 
standard and oversight system little progress has occurred. Although 
some new Mexican laws are on the books, compliance is voluntary for the 
first year, and there is little evidence on the level of the Mexican 
government's commitment to enforce the new rules.
    What the preliminary panel ruling actually required was that the 
U.S. must comply with NAFTA and open its borders--regardless of our 
state of readiness to enforce critical American health and safety 
standards. If the U.S. also seeks to try to enforce U.S. safety 
requirements, it must do so on a truck-by-truck basis. The U.S. 
inspects approximately 40 percent of domestic trucks with inspections 
being merely one element of its multifaceted truck safety regulatory 
system.\1\ And the safety standards in Mexico will not do much to 
assure American safety once the trucks cross the border. As described 
in this report, Mexico has only a fledgling truck safety system. Our 
experience thus far has demonstrated the risks. While fewer than 1 
percent of Mexican trucks now entering the U.S. are inspected, fully 35 
percent of those trucks are forced out of service due to serious safety 
failures.
    To attempt to fully enforce U.S. truck safety standards in the 
context of Mexican trucks would require that every single Mexican truck 
be inspected on the border. When President Bush was governor of Texas, 
he signed a letter to the Clinton Administration criticizing the 
refusal to open the border.\2\ The new administration may argue that 
the U.S. can ensure safety by inspecting each Mexican truck. But the 
government and the U.S. trucking industry (which seeks to hire cheap 
Mexican drivers) know this is impossible.
    Currently, 2 million trucks are inspected in the U.S. annually. 
This includes the 1 percent of 4 million (or approximately 35,000) 
Mexican trucks now crossing that are checked. DOT estimates that an 
additional 3 million Mexican trucks would cross yearly if the border 
were open. Thus, to inspect all entering Mexican trucks, U.S. 
inspections per year must rise from 2 million to 9 million trucks. 
Currently, there are about 101 state commercial truck inspectors and 60 
federal inspectors at the border who are able to cover 1 percent of the 
current 4 million Mexican trucks.* Thus, to cover every Mexican truck 
if the border were opened with even a cursory inspection would require 
32,000 inspectors. It is unlikely that the administration will 
guarantee this enormous resource allocation or the necessary funding 
for the construction of the huge new inspection facilities that would 
be needed to avoid week-long border backups.
---------------------------------------------------------------------------
    * Through interviews with state regulators, Public Citizen 
discerned that the state of Texas provides 45 commercial truck 
inspectors at the border, Arizona has 31 and California provides 25. 
Public Citizen was not able to find out the current number of state 
inspectors in New Mexico, but there were none in 1998, according to a 
Department of Transportation Office of Inspector General Audit Report.
---------------------------------------------------------------------------
    Yet, even if the U.S. had the additional resources to try to 
enforce U.S. safety standards on a truck-by-truck basis, the 
preliminary NAFTA truck ruling also included a cryptic reference to a 
NAFTA provision that could require the U.S. to treat U.S. and Mexican 
trucks identically for inspection purposes. In typical trade 
doublespeak, the preliminary ruling contains language suggesting that 
the U.S. could treat Mexican trucks differently for inspection 
purposes. However, at the same time, the ruling requires that the U.S. 
comply with NAFTA's Technical Barriers to Trade Chapter, which 
explicitly forbids domestic and foreign players from being treated 
differently.
        L``We now have evidence that two-thirds of the trucks that come 
        across the border are not safe; they don't meet our standards. 
        And I intend to see the rules are followed before I follow the 
        rules on this.''--President Clinton on delaying the NAFTA truck 
        provisions, 10/99.

    Amid the presidential election chaos, the crucial story of the 
NAFTA truck ruling received little media coverage outside the ``trade 
press.'' Yet, the upcoming decision has enormous policy and political 
implications. President Bush has two basic options:

  <bullet> to reject the NAFTA tribunal's orders to open the border and 
        compensate Mexico for keeping the border closed until Mexican 
        trucks can meet U.S. safety requirements; or

  <bullet> to allow Mexican trucks to enter the U.S. and risk that 
        inevitable future crashes will lead to additional loss of life 
        and to a massive public backlash against NAFTA.

    The high price to be paid under either response scenario--either 
financially, to maintain safety, or personally and politically, with 
increasing fatalities and injuries if the border is opened to unsafe 
trucks--demonstrates that NAFTA is a severely flawed agreement.
    President Clinton noted three major problems that were unsolved 
when he kept the border closed in 1995:

  <bullet> major differences between U.S. and Mexican safety 
        regulations;

  <bullet> major differences in the application and enforcement of the 
        safeguards; and

  <bullet> the inability of states and federal regulators to 
        effectively enforce U.S. standards on Mexican trucks.\3\

    Those concerns are still valid--permitting greater access for 
Mexican trucks will endanger U.S. motorists, which is why U.S. consumer 
and highway safety groups urge President Bush to keep the border closed 
until the safety issues are addressed and to compensate Mexico as 
NAFTA's rules require.
    President Bush's response to this crisis will significantly impact 
American public opinion regarding trade and President Bush's public 
image. Many people in the corporate business lobby that financed Bush's 
campaign and inauguration are eager for him to open the border and 
allow underpaid Mexican drivers to transport the corporations' cheap-
labor Mexican-made goods to the U.S. for sale (long haul drivers in 
Mexico earn about 6 a mile compared to about 28 a mile for U.S. 
drivers).\4\ Most other Americans--especially in the border states of 
Texas, California, Arizona and New Mexico--are legitimately concerned 
that a flood of unsafe, basically unregulated freight trucks from 
Mexico would pose a significant threat to the quality of life and to 
highway safety. The safety threat is so significant that a California 
trucking industry association opposes opening the border, foreseeing a 
backlash against all trucking when the inevitable accident occurs.
    The current NAFTA truck crisis is one of the most dramatic examples 
of how ``trade agreements'' such as NAFTA reach far beyond appropriate 
commercial issues and can threaten vital domestic health and safety 
standards, even when these standards are applied equally to domestic 
and foreign commerce. If U.S. federal highway safety officials conclude 
that Mexican trucks do not meet U.S. safety standards, why should that 
well-substantiated safety policy be challengeable before a NAFTA 
dispute resolution tribunal as a trade barrier?
    Indeed, raising Mexican truck safety standards would have an 
enormous benefit for the safety of Mexican motorists and communities. 
Currently, Mexico has a highway fatality rate more than three times 
that of the U.S. or Canada. With the opening of the border according to 
an arbitrary timeline that is set and enforced under the NAFTA 
agreement without any connection to compelling safety considerations, 
safety advances in Mexico and the U.S. will lose critical leverage for 
improving standards.
    In short, the panel's decision will force the opening of the border 
to occur far too soon. The border should remain closed until there is a 
consensus that meaningful safety standards and oversight are in place.
    The continuing trend is that ``trade'' agreements will undermine 
safety, health and other domestic social policies. This ongoing 
diminishment of our hard-won health and safety safeguards fuels the 
backlash against NAFTA and the World Trade Organization (WTO).
Background
    Among its 900 pages of rules and regulations, NAFTA includes 
provisions requiring standardization of NAFTA countries' truck length, 
weight, safety and drivers'-licensing standards.\5\ NAFTA also required 
that by 1995, Mexican trucks be permitted to drive throughout U.S.-
Mexico border states and that by January 1, 2000, trucks from any NAFTA 
country could drive anywhere in all NAFTA countries.\6\ Absent these 
NAFTA border openings, Mexican trucks are permitted to travel in a 
border commercial zone up to 20 miles into the U.S. to unload and pick 
up freight to take back to Mexico.\7\
    However, the two sets of truck-related NAFTA commitments were not 
linked. Thus, even though U.S. and Mexican standards were not 
harmonized, the U.S. still faces NAFTA rules which required it to allow 
access to U.S. highways by Mexican trucks. Yet, before the initial 1995 
NAFTA-required opening of U.S. highways in the border states, the 
General Accounting Office found the same serious truck safety problems 
that were initially reported by border safety inspectors: of the few 
Mexican trucks that overwhelmed U.S. highway inspectors were able to 
examine, more than half had to be taken off the highway for serious 
safety violations.\8\ Indeed, fewer than 1 percent of Mexican trucks 
that cross the border are inspected by U.S. safety inspectors.\9\
    Given the data on serious safety problems, the U.S. announced that 
the initial 1995 border-state opening had to be delayed until Mexican 
truck safety was improved. Mid-1998, Mexico filed a formal challenge of 
that U.S. policy before a NAFTA dispute resolution tribunal.\10\ At the 
end of 1998, the U.S. DOT again reviewed the Mexican truck border 
inspection data to determine whether to recommend a border opening and 
concluded that the same serious failings existed.\11\ DOT thus 
maintained the status quo of only permitting the Mexican trucks in the 
limited commercial zone. It will be far from adequate to merely bulk up 
federal and state inspection resources at a few border checkpoints, 
because the most dangerous parts of the trucking fleet will inevitably 
be drawn to cross the border at the weakest inspection areas, where 
oversight is the most tenuous.
    The safety problems of the Mexican trucking industry are legion. 
The Mexican government provides little to no regulatory oversight to 
its trucking industry. Moreover, as documented in a 1996 Los Angeles 
Times expose, Mexican drivers work under notoriously poor conditions 
where extremely long hours and driver fatigue are often the 
requirements for keeping a job. Long-haul truck drivers in Mexico who 
bring freight to the shipping terminals at the U.S. border call their 
runs ``working on the blade of the knife'' because of the dangers of 
Mexican highways. This, in turn, contributes to excess preventable 
highway deaths in Mexico.\12\

        LAlthough Mexico does not keep track of highway fatalities by 
        type of vehicle, Mexico has an overall highway fatality rate 
        more than three times that of the U.S. or Canada.

    NAFTA has concentrated these underpaid, overworked drivers in the 
border areas. There, the lucrative temptations of transporting 
narcotics, undocumented migrants, and contraband, like weapons and 
stolen cars, contribute to a border area that is more like the Wild 
West than the modern West. Indeed, Mexican trucks are posing an 
increasing threat to motorists in Texas border counties. The percentage 
of Texas border county truck fatalities and incapacitating injuries 
from trucks registered in Mexico nearly doubled between 1997 and 1998.
    When NAFTA passed 7 years ago, Mexico promised to improve its 
national truck safety standards to meet U.S. safety requirements 
covering inspection and enforcement. However, Mexican law does not 
require many fundamentals of highway safety policy that are elements of 
the U.S. motor carrier oversight program. For example: \13\

  <bullet> There are no hours-of-service restrictions for drivers;

  <bullet> Although a new policy require use of logbooks will soon be 
        required in Mexico, U.S. inspectors have yet to see even one in 
        use at the border;

  <bullet> Roadside inspections are now voluntary and will be ``phased-
        in'' over the next 2 years, as will be vehicle out-of service 
        standards, however, it is unclear if these programs are funded;

  <bullet> Driver's licensing requirements are brand-new and permit 
        commercial drivers under the age of 21;

  <bullet> There is no safety rating system;

  <bullet> Truck weight limitations are significantly higher; and

  <bullet> Hazardous materials rules are significantly more lax.

    It is this comprehensive safety regulatory system in the U.S. which 
provides the measure of safety for American motorists. Trucking firms 
are required by law to implement and enforce safety programs 
established under federal guidelines for their drivers and vehicles to 
help ensure safety. Roadside and spot inspections provide an added 
level of safety both by deterring trucking companies from shirking the 
rules and by actually pulling the most dangerous trucks off the 
highway.
    Without such a system in place, evidence to date that Mexican 
trucks are significantly less safe than U.S. trucks and thus pose 
greater risks to motorists is not surprising. The latest analysis of 
safety data from September 2000 shows that substantially more Mexican 
trucking firms pose significant threats to drivers than U.S. firms. 
Additionally, more than 5 years of border and highway inspections have 
shown that Mexican trucks have had to be pulled off the highway for 
serious safety violations at alarmingly high rates and much higher than 
U.S. truck rates.
    ``There must be no trading of human lives for dollars in the zeal 
to facilitate truck commerce.''--Robert Dibble, Senior VP for 
government relations National Association for Independent Insurers, 
National Underwriter, 1/18/99.
    Lastly, even without the additional traffic, a border-opening would 
cause a critical shortage of U.S. safety inspectors to perform the 
rapidly growing task of monitoring Mexican trucks for safety concerns 
at the U.S. border. Currently, more than 99 percent of Mexican trucks 
cross the border without inspections because of short staffing, despite 
the acknowledged problems with safety on Mexican trucks.\14\ The 
majority of these inspections are of the most cursory type allowed, the 
so-called ``walk arounds.'' In addition to missing important safety 
problems, such inspections are also missing shipments of narcotics and 
stolen goods, such as automobiles and weapons, crossing the border. 
Meanwhile, the deluge of trucks across the Mexican border has been 
growing rapidly--now over 4 million a year--even without the opening of 
U.S. highway border beyond commercial zones, and it is predicted to 
skyrocket--perhaps by 3 million annually--if more access is permitted.

        L``You learn quickly, or you die young.''--34-year veteran 
        truck driver Vicente Sanchez on the highway safety dangers 
        facing Mexican truck drivers, Los Angeles Times, 3/18/96.

    Already, the increase in Mexican trucks within the limited border 
zone has had an adverse affect on safety in the U.S. The Texas border 
counties, within the commercial border zone, have seen a dramatic 
increase in highway fatalities and serious injuries from trucks with 
Mexican registrations. In one dramatic case in California, a Mexican 
truck was involved in a 10-car pileup that killed four California 
motorists north of San Diego--well north of the commercial zone. These 
fatal accidents are bound to increase if the border is opened and the 
number of trucks increases rapidly without Mexican safety systems in 
effect, given that U.S. inspectors are already overwhelmed.
    Highway safety groups felt it was imperative for the NAFTA tribunal 
hearing Mexico's truck challenge to consider these dangerous realities. 
Thus, while the NAFTA tribunal was hearing the case, American safety 
experts asked to present evidence to the tribunal on the negative 
health and safety impacts of allowing unlimited access for Mexican 
trucks onto U.S. highways. In an ominous premonition of the NAFTA 
tribunal's decision, the tribunal refused to take any oral or written 
testimony from highway safety experts regarding Mexican truck standards 
or truck safety compliance.
    On November 29, 2000, the preliminary report of the NAFTA truck 
panel was released. The panel ruled that the U.S. had violated NAFTA by 
prohibiting unsafe Mexican trucks from roaming freely (either within 
the U.S. border states or throughout the country, depending on whether 
Mexico amended its complaint). Under NAFTA dispute settlement rules, if 
the U.S. does not agree to open the border to Mexican trucks, it can 
offer to compensate Mexico with new trade benefits or cash payments. 
However, if Mexico refuses to negotiate terms of compensation, NAFTA 
permits Mexico to take compensation in the form of levying trade 
sanctions against the U.S.
    As noted above, the clever drafting of the panel opinion may force 
the U.S. into the position of choosing from only one of the above three 
options. However, assuming for the sake of argument that another option 
exists, it would be to open the border and then attempt to try to 
enforce U.S. safety standards truck-by-truck. Yet, even with granting 
additional truck access, the already swelling flood of trucks from 
Mexico since NAFTA's inception is putting a strain on federal and state 
truck safety inspectors.
    Currently, there are about 2 million roadside inspections of large 
trucks throughout the U.S. This number includes Mexican truck border 
crossings. The U.S. Department of Transportation's total budget for the 
Federal Motor Carrier Safety Administration, which is the federal 
agency responsible for such inspections, for fiscal year 2001 is $269 
million.\15\ In 1999, the most recent year for which data is available, 
4.1 million trucks crossed the Mexican border into the U.S., according 
to the U.S. Customs Service.\16\ Given the increase in Mexican truck 
traffic since NAFTA (about 2.5 million crossed in 1993), border 
inspectors are only able to inspect fewer than 1 percent of the Mexican 
trucks.\17\ With the borders wide open to Mexican truck traffic, 
Department of Transportation officials estimated at an October 1999 
field hearing in Los Angeles that as many 7 million trucks could cross 
the U.S. border annually.\18\ For U.S. truck safety inspectors to 
ensure that each of these Mexican trucks was inspected at the border, 
U.S. truck inspections would have to jump from 2 million annually to 9 
million. More than 5,000 Americans die each year in large truck 
crashes, almost entirely involving U.S. trucks which are lighter and 
relatively safer than Mexican trucks. Allowing a deluge of heavier, 
relatively less safe large trucks onto U.S. highways is likely to 
increase highway deaths attributable to large trucks.
I. Absence of Mexican Truck Safety Rules or Enforcement
    Large truck crashes already pose a considerable danger to U.S. 
motorists. In 1999, there were 5,362 fatalities in the U.S. caused by 
large truck crashes--up 20 percent from a low of 4,462 in 1992.\19\ 
This included 433 deaths in Texas, 363 in California, 108 in Arizona, 
and 66 in New Mexico in 1999. In comparison, in the same year there 
were 691 fatalities in all aviation accidents--a sum which totals just 
13 percent of the number of people killed in large truck accidents.\20\
    These fatalities occur even though the U.S. regulatory system 
provides some safeguards against the most dangerous trucks--limiting 
hours of service, implementing and enforcing vehicle safety standards, 
limiting total vehicle weights, requiring licensing and training for 
drivers, and operating a regulatory system to remove the most dangerous 
vehicles and ensure safety systems are in effect in U.S. trucking 
firms. But even the U.S. truck safety regulatory program has been 
harshly criticized and is under pressure to be upgraded. For just one 
example, the current pressure from non-union U.S. carriers to have 
drivers work outside of the hours of service rules is recognized as a 
significant threat to U.S. motorists.
    Although Mexico does not keep track of highway fatalities by type 
of vehicle, Mexico has an overall highway fatality rate more than three 
times that of the U.S. or Canada. Mexico has a death rate of 7.5 
fatalities for every 10,000 vehicles on the road compared with 2 per 
10,000 vehicles for the U.S. and Canada in 1996, the most recent year 
comparable data are available. \21\
    Allowing Mexican trucks onto U.S. highways will exacerbate the 
current problem significantly. The Mexican truck safety standards that 
exist are significantly less stringent than U.S. standards. Little 
training has historically been required of drivers and Mexican's 
licensing requirements are more lax. Below is a chart comparing U.S. 
and Mexican safety requirements:


------------------------------------------------------------------------
Safety Consideration           In U.S.                  In Mexico
------------------------------------------------------------------------
Hours-of Service      Yes. 10 hrs consecutive   No
 Limits for drivers    driving, up to 15
                       consecutive hours on
                       duty, 8 hours
                       consecutive rest,
                       maximum of 70 hours
                       driving in an 8-day
                       period
------------------------------------------------------------------------
Driver's Licensure
 \22\
Time period:          2 to 6 years              10 years
Age of driver:        21 years old min. for     18 years old
                       interstate
Skills test: \23\     Yes--for all drivers      New skills test for new
                                                 drivers
Medical card:         Yes--federal requirement  No--medical
                                                 qualification on
                                                 license
Automatic
 disqualification
 for certain medical
 conditions:
National monitoring   Yes                       No
 system:
Drug testing req'd    Yes to detect violations  Information system still
 for domestic and      Testing and               in infancy DOT
 international         documentation required    personnel indicate that
 drivers:                                        some drivers are found
                                                 w/o documentation.
------------------------------------------------------------------------
Logbooks              Yes, standardized         While a new law is on
                       logbooks with date        the books, to date no
                       graphs are required and   Mexican-style logbooks
                       part of inspection        have been seen by U.S.
                       criteria                  inspectors at the
                                                 border; new rules do
                                                 not standardize
                                                 logbooks in U.S. format
------------------------------------------------------------------------
Weight Limits         80,000 is the federal     As high as 135,560
(in pounds)            Gross
                      Vehicle Weight limit
Single Axle           20,000                    14,300
Tandem Axle           34,000                    42,990
Tridem Axle           34,000                    49,604
Five Axle             80,000                    97,000
Six Axle              80,000                    106,900
Turnpike Double       80,000                    135,560
------------------------------------------------------------------------
Roadside Inspections  Yes                       Not currently. New rule
                                                 is to be phased in over
                                                 2 years, but the
                                                 program is currently
                                                 voluntary.
------------------------------------------------------------------------
Out-of-Service Rules  Yes                       Vehicle out of service
 for Safety                                      rules will be phased in
 Deficiencies                                    over 2 years, and are
                                                 currently voluntary.
------------------------------------------------------------------------
Hazardous Materials   A strict standards,       Much laxer program with
 Regulations           training, licensure and   far fewer identified
                       inspection regime         chemicals and
                                                 substances, and fewer
                                                 licensure requirements
------------------------------------------------------------------------
Vehicle Safety        Comprehensive standards   Newly-enacted standards
 Standards             for components such as    for vehicle inspections
                       antilock brakes,          are voluntary for the
                       underride guards, night   first year and far from
                       visibility of vehicle     comprehensive
------------------------------------------------------------------------
Safety Rating System  Yes                       No
\23\ About half the
 states have
 grandfathered-in
 higher limits on
 the interstates and
 limits on state
 highways vary
 considerably.
------------------------------------------------------------------------


    Anecdotal evidence from news stories suggests that the long hours 
Mexican drivers are required to spend behind the wheel in order to keep 
their jobs significantly contribute to Mexico's highway fatalities. 
Long-haul truck drivers in Mexico who bring freight to the shipping 
terminals at the U.S. border call their runs ``working on the blade of 
the knife'' because of the dangers of long hours in unsafe trucks.\24\ 
On an average 14 hour run from central Mexico to the border a driver 
might pass hundreds or thousands of white crosses at the side of the 
road signifying fatal crashes.\25\
    Although the Mexican government committed to increase its truck 
safety standards and oversight in time for the NAFTA border openings, 
in practice few gains have been made. After NAFTA went into effect in 
1994, the three NAFTA countries established a Land Transportation 
Standards Subcommittee (LTSS) to address the differences in the 
countries' regulatory standards. However, to date this committee has 
accomplished little and certainly has not accomplished a leveling-up of 
Mexican highway safety standards.
    The latest LTSS draft report trumpets the committee's success at 
establishing new technical subgroups and creating side-by-side charts 
of rules and standards between the NAFTA countries. The committee 
report notes that it ``continues to work beyond the timeframes 
established'' by NAFTA to address ``reaching compatibility in some 
areas,'' which has been a ``difficult task.'' \26\ Until the standards 
and enforcement in Mexico are as protective as those in the U.S., it 
will remain a challenge for border authorities to be sure that Mexican 
trucks are in compliance with U.S. safety standards.
    Mexico currently does not have a mandatory inspection system for 
large trucks, nor does Mexican law provide authority to pull dangerous 
trucks off the highway. Mexico published new rules in July 2000 on 
truck inspection procedures and criteria to place trucks out-of-
service.\27\ However, these rules are only voluntary for the first 
year. Then they are to be ``phased in'' over 2 years according, to U.S. 
DOT officials.\28\ However, Mexico does not have a safety audit system 
in place or compliance review programs.\29\ In addition, there is no 
evidence of the level of funding or enforcement resources for even the 
newly-required measures.\30\
    Mexico has failed to establish a border truck safety inspection 
program. In 1995, Mexico stated to the U.S. its intention to start 
inspecting its trucks at the border and issuing inspection decals as 
part of Mexican preparation for NAFTA open-border trucking. However, it 
has not done so to date.\31\ With the pledge to initiate a truck 
inspection system, 285 Mexican personnel trained to be border truck 
inspectors since 1993. However, many of the officials and trained 
workers have left the program and there has been little enforcement 
activity to date.\32\
    ``Let's keep those Mexican trucks down south until we're sure they 
won't pose a major safety threat. I don't want to become roadkill in 
the name of free trade.''--Fort Worth Star Telegram editorial writer 
Jack Smith in 11/2/99 column, who was hit by a Mexican truck.
    While U.S. roadside inspections are an effective tool that 
increases motor vehicle safety, Mexico's lack of roadside inspections 
is a serious deficiency in its regulatory apparatus. A 1998 study by 
the U.S. Department of Transportation's Motor Carrier Safety Analysis, 
Facts and Evaluation department (in the Office of Motor Carriers) found 
that highway inspections successfully avoided 347 truck crashes. The 
report found that by both removing dangerous trucks from the highway 
and by providing deterrence to safety violations, truck inspection 
saved $47 million dollars in crash-related costs, about $135,000 per 
crash. The study also found that a carrier's out-of-service rate 
declined as the number of inspections increased. These findings 
indicate that the risks \33\ to people and communities in Mexico and 
the U.S. posed by Mexican trucks could be mitigated by an effective, 
comprehensive inspection program by Mexican authorities. Absent these 
programs in Mexico, drivers and communities are left without any 
protection. In the U.S., given the structural and budgetary 
impossibility of inspecting every Mexican truck if the border were to 
be opened, the number of people newly exposed to additional harm could 
be huge.
    Mexican trucks are heavier than is permitted under American 
standards and thus pose greater safety dangers. According to the most 
recent National Truck Crash Profile, 83 percent of the fatal truck 
crashes in the U.S. involved trucks with gross vehicle weight over 
26,000 pounds in 1998.\34\ The gross weight limit for U.S. trucks is 
80,000 pounds on federal highways, although many states have 
grandfathered-in exceptions. Mexican truck limits are substantially 
higher. The most common Mexican truck, the six-axle semi-trailer, which 
comprises 37 percent of the Mexican carrier fleet, is permitted a gross 
weight of 106,900 pounds. The second most common Mexican truck, the 
five axle semi-trailer which makes up 35 percent of the Mexican carrier 
fleet, has a gross weight limit of 97,000 pounds--33 percent and 21 
percent higher than the American standard respectively.\35\
    Mexican trucks also damage U.S. highways and bridges even more 
severely than U.S. trucks because of their heavier weights on both 
single and tandem axles. In addition, most Mexican trucks are designed 
with ``walking beam suspensions''--heavier duty suspensions for driving 
on the dirt roads that are still in widespread use in Mexico. This type 
of vehicle suspension transmits weight to the road in a much more 
damaging way. Damage to U.S. highways is both a financial and safety 
concern. There is already a huge backlog in the U.S. of highways and 
bridges in need of repair that is disproportionately subsidized by the 
gas taxes paid by passenger car drivers, because commercial carriers 
underpay their share. The damage would also create safety hazards and 
dangers when repairs are made.
    The Mexican hazardous materials control system is much more lax 
than the U.S. and presents a continuing danger to the public. Although 
Mexico has regulations on the transportation of hazardous materials, 
many substances which must be identified in the U.S. need not be marked 
with an official placard in Mexico. Unmarked materials would endanger 
highway safety personnel such as fire fighters and police officers, who 
would be unaware of the nature of the hazardous substance and its 
proper treatment. Because some hazardous materials are excluded from 
Mexico's regulations, Mexican drivers are not given the special 
licensing training and certification which is required to transport 
those substances in the U.S.\36\ According to a recent study by the 
Teamsters, ``[a]s many as 25 percent of trucks coming to the U.S. from 
Mexico contain toxic or hazardous materials . . . and only 1 out of 14 
of those trucks is properly marked to show the dangerous chemicals that 
are inside.'' \37\
    Mexico has no limitation on hours-of-service for drivers, meaning 
exhausted drivers put themselves and others at risk. Currently, Mexico 
does not set any limits to the length of time drivers can spend behind 
the wheel. U.S. sets limits, known as ``hours-of-service,'' which are 
monitored by a driver's log books. Mexico has recently published 
regulations requiring drivers to maintain logbooks, but U.S. border 
inspectors have yet to see a single logbook.\38\ Fatigue-related 
factors are one of the most significant causes of fatalities for U.S. 
large truck crashes. The National Transportation Safety Board found 
driver fatigue to be a factor in 30 percent of truck crashes.\39\ Truck 
companies in Mexico require unusually long hours for their drivers to 
maintain their jobs, leading to an increase in truck crashes due to 
fatigue. Even the best firms require as much as 16 hours a day behind 
the wheel and serious crashes on Mexican highways are common.\40\ 
Allowing truck drivers without hours-of-service limitations onto U.S. 
highways is likely to increase the number and percentage of fatal 
crashes.

    ``The evidence is that Mexican trucks aren't as safe as they should 
be.''--Former Chairman of House Transportation Committee, Rep. Bud 
Schuster, USA Today, 10/20/99.

    Working conditions for Mexican truck drivers are poor. Mexican 
drivers are notoriously overworked by U.S. standards. It is not unusual 
for drivers to work 7 days a week, making runs of about 1,400 miles 
from Mexico City to the U.S. border with only a few hours of sleep 
before the next haul. Some drivers report being required to drive 36 
hours straight with only a 6 hour break before returning to the road. 
Drivers are paid poorly for this hard work, as little as $400 a 
month.\41\ The risks are high, Mexican truck drivers have almost all 
been involved in fatality-causing accidents, according to anecdotal 
reports (Mexico does not keep highway fatality data by type of 
vehicle).\42\
    U.S. owners of Mexican carriers use NAFTA to skirt U.S. safety and 
labor standards. In 1998, 150 Mexico-based motor carriers with DOT 
identification numbers listed U.S. citizens as the majority owners. 
Two-thousand, two-hundred Mexican motor carriers were registered as 
having Mexican addresses in DOT's operating database, but U.S. 
addresses in the identification number database.\43\ Increasingly, 
American firms are buying up Mexican trucking companies, gaining access 
to lower wage drivers, lower regulatory safety regulations and lower 
worker safety requirements. These owners can use these cheaper trucks 
and drivers to compete against the safer trucks and higher wage drivers 
in the U.S. Opening the border without either ensuring a working 
Mexican regulatory process for truck safety or having the resources to 
inspect every truck creates a perverse incentive to gain financially by 
racing to the bottom in safety.
II. Recent Evidence Shows Mexican Motor Carriers are Substantially Less 
        Safe than Carriers in the U.S.
    In 1999, development of the Federal Motor Carrier Safety 
Administration as an independent truck and bus safety enforcement and 
monitoring executive agency within the U.S. Department of 
Transportation signified an increasing amount of U.S. public awareness 
to truck safety issues.
    Data collected and analyzed by the new agency under its ``Safety 
Status'' program on the relative safety of motor carriers (trucking and 
bus companies) provides increasingly detailed information about the 
safety and regulatory compliance of each trucking company and the 
trucks and buses that are operated by these carriers. The program is a 
new statistical safety database that provides a more comprehensive 
evaluation of the actual performance and safety of trucking firms from 
the U.S., Canada and Mexico than ever before available. The program 
included * data on safety programs, crashes, drivers' safety records 
and vehicles. Using the Safety Status tracking data, Public Citizen 
examined the relative safety of the carrier fleet in Mexico and the 
carrier fleet in the U.S. and found that Mexican carriers are 
substantially less safe than U.S. motor carriers.\44\
---------------------------------------------------------------------------
    * The Safety Status data examines all trucking companies licensed 
by the Department of Transportation. For U.S. firms, this includes all 
freight trucking firms. For Mexico, this includes all of the companies 
that are licensed to bring a truck into the commercial zones of the 
border-states. These Mexican trucks are required to have DOT 
registration numbers.
---------------------------------------------------------------------------
    Advocates of fully opening the border argue that the trucks now 
licensed to cross the U.S. border are Mexico's oldest, worst-maintained 
trucks and that this is why the inspection data is so negative. The 
thrust of this argument is that companies are using older trucks, 
called ``drayage'' trucks, to make the short runs from Maquiladora 
plants located in Mexico near the border. However, many of the Mexican 
trucks crossing the border actually come from Mexico's interior.\45\ In 
addition, opening the border would mean that the worst trucks would be 
permitted new access in addition to the hypothetically safe trucks 
presumed to exist in the interior--meaning a large number of extremely 
unsafe trucks would still have access to the U.S.
    Mexican motor carriers have much higher rates of deficient vehicle 
inspection indicators than U.S. carriers, regardless of years of 
operation experience. A Vehicle Inspection Indicator is determined by 
evaluating a trucking company's performance over the previous 30 months 
at roadside inspections, taking particular consideration of a company's 
out-of-service rates and the comprehensiveness of the inspection 
(whether it is a full inspection or the less stringent ``walkaround'' 
variety).\46\ Comparisons of the ``Safety Status'' vehicle safety 
indicators in 2000 found that nearly 60 percent of Mexican carriers had 
deficient Vehicle Inspection Indicators, regardless of how long the 
carrier had been operating. By comparison, 32.8 percent new U.S. 
carriers had deficient Vehicle Inspection Indicators and 27.0 percent 
of experienced U.S. carriers had deficient Vehicle Inspection 
Indicators. While American carriers have improved performance after 
operating 2 years, the majority of Mexican carriers continued to have 
vehicle inspection problems even after 2 years of operations.\47\ 
Because there are no roadside inspections in Mexico, the program 
analyzed the U.S. roadside and border inspection data of the Mexican 
trucks now licensed by the Department of Transportation to cross the 
U.S. border.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    The Mexican carrier fleet now licensed to operate in the permitted 
20-mile U.S. border zone has three times more ``at-risk'' carriers than 
the U.S. carriers, according to an analysis of 2000 data provided by 
the Federal Motor Carrier Safety Administration. The latest 
comprehensive examination of safety records found that 2.3 percent of 
Mexican carrier companies licensed to operate in the U.S. were 
considered ``at risk'' compared to 0.77 percent of U.S. carriers--a 
more than three-fold difference. ``At risk'' carriers are companies 
that rank in the worst 25 percent in at least two of the four safety 
measurements and have accident rates that are more than 200 percent of 
that of companies that are not rated ``at-risk.'' \48\
    Mexican truck carriers and Mexican trucks were more than three 
times as likely to have safety deficiencies than U.S. carriers in 2000. 
Mexican carriers are 3.5 times more likely to be identified with safety 
deficiencies than American carriers: 4.7 percent of Mexican carrier 
companies were identified to have some safety deficiencies, compared to 
1.3 percent of U.S. carriers. The percentage of Mexican trucks with 
safety deficiencies was more than three times higher than U.S. trucks--
13.7 percent of Mexican trucks had safety deficiencies compared to 4.2 
percent of U.S. trucks.\49\
    Mexican trucks are twice as likely to be deficient in one safety 
category as U.S. trucks. 12.8 percent of Mexican carriers were found to 
be deficient in at least one safety category, compared to 5.6 percent 
of U.S. motor carriers.
    Mexican trucks are three times as likely as U.S. trucks to be 
deficient in the vehicle safety evaluation category as U.S. carriers. 
10.5 percent of Mexican carriers were deficient in the ``accident 
safety'' category compared to 3.1 percent of U.S. carriers. The 
``accident safety'' category evaluates a carrier on vehicle safety 
elements such as safety standards compliance review and roadside 
inspection data.
III. Mexican Standards and Enforcement Must Improve Because Every 
        Mexican Truck Cannot Realistically be Inspected by U.S.
    Proponents of opening the border argue that the U.S. should take 
care of its safety concerns by simply increasing border truck 
inspection resources--for instance, by inspecting every Mexican truck. 
Trucking industry representatives have made similar arguments while 
trying to spin the initial NAFTA ruling as somehow being a ruling in 
favor of U.S. safety policies. Yet the reality is that the skyrocketing 
number of Mexican trucks already crossing the border has greatly 
outpaced the number of inspectors to monitor these trucks and pull 
dangerous vehicles off the road.
    Even without allowing access by Mexican trucks beyond the narrow 
border commercial zones, the number of Mexican trucks crossing the 
border have risen dramatically since NAFTA went into effect--by more 
than 300 percent in Texas and by nearly 50 percent in California, the 
two states where the majority of the crossings are made.\50\ The number 
of Mexican trucking firms with Department of Transportation licenses to 
operate in the commercial zones is rising faster than the number of 
both U.S. and Canadian firms with DOT registrations to operate in the 
U.S.\51\ If the U.S. commercial zone limitations were lifted, the 
number of Mexican trucks crossing into the U.S. is estimated to 
increase substantially. In 1999, 4.1 million trucks crossed the border 
from Mexico and some federal officials have indicated that an 
additional 3 million Mexican trucks will cross the border if the 
commercial zone limitations were ended--nearly a 75 percent 
increase.\52\

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    At the same time, the numbers of federal and state inspectors are 
grossly inadequate to monitor the number of trucks that are already 
crossing the border. For just one example, in 1998, the DOT's Office of 
the Inspector General recommended that at least 120 federal safety 
inspectors be posted at the border to meet the critical need to remove 
dangerous trucks from the road, but by 2001 only 60 inspectors were 
funded.
    At many crossings, only one safety inspector is detailed to examine 
the literally thousands of trucks that cross the border each day. If 
the border were fully opened, the inspectors who now are unable to 
handle the current traffic load could face millions more trucks. Yet 
all of these trucks would be authorized to travel throughout the 
border-states or even the entire country.
    If estimates of the impact of opening of the border are realistic, 
seven million Mexican truck crossings per year would require 
inspection. Thus, to inspect all entering Mexican trucks, U.S. 
inspections per year must rise from 2 million to 9 million trucks. 
Currently, there are about 101 state commercial truck inspectors and 60 
federal inspectors at the border who are able to cover 1 percent of the 
current 4 million Mexican trucks.\53\ Thus, to cover every Mexican 
truck if the border were opened with even a cursory inspection would 
require 32,000 inspectors. Given the fledgling nature of the domestic 
Mexican truck safety inspection system, every one of these trucks would 
need to be checked by U.S. inspectors and massive, new border 
inspections facilities would need to be constructed to avoid huge 
backups. Since this enormous new allocation of inspection funding and 
personnel training is entirely unrealistic, only Mexico's establishment 
of a comprehensive, enforceable and well funded safety system can 
ensure improvements. But such a system is years away from being ready.
    Border truck inspections are currently unable to meet the rising 
demand by increasing truck crossings. The General Accounting Office 
reported in March 2000 that despite efforts to increase collaboration 
of the federal and state inspectors at the border and some 
infrastructure investments, collective efforts have failed to keep up 
with the skyrocketing flood of trucks coming over the Mexican border 
even without further border opening.\54\ The 161 federal and state 
truck inspectors would each currently have to inspect more than 24,800 
Mexican trucks to inspect all the Mexican trucks now crossing the 
border.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    There is an appalling lack of border truck inspectors. The total 
number of U.S. federal truck inspectors in 2000 was 40, less than a 
third of the number requested by the 1998 Department of Transportation 
audit, and an additional 20 were scheduled to start in January 
2001.\55\ This figure of 60 is still less than half the recommended 126 
inspectors to have two inspectors for every border crossing and 
additional inspectors for high-volume border crossings. In 1997, 13 
federal and 97 state safety inspectors monitored the nearly 2000 mile 
U.S.-Mexico border when 3.5 million Mexican trucks entered the U.S.\56\ 
At Pharr, Texas, two federal inspectors monitored five border crossings 
that received nearly 8 percent of the total Mexico truck traffic. New 
Mexico provided no state inspectors and the 37 Texas state inspectors 
only spent one-quarter of their time inspecting cross border 
trucks.\57\ Requests to double the number of federal inspectors to 27 
by Federal Highway Administration Regional Directors responsible for 
the Mexican border regions was rejected by federal budget negotiators 
in January 1998.\58\ Similarly, the Texas Department of Public Safety's 
request for 127 inspectors was rejected. Instead only five new state 
inspectors were authorized: three in 1998 and two in 1999.\59\
    Truck Crossings from Mexico into Texas increased 324 percent since 
NAFTA. Three quarters of the Mexican truck freight traffic enters the 
U.S. through Texas. Between 1990 and 1993, the year before NAFTA was 
implemented, truck traffic from Mexico into Texas decreased 29.8 
percent to 509,477 crossings.\60\ By 1999, 2.29 million trucks entered 
Texas from Mexico.\61\ Based on the first 8 months of year 2000 
traffic, Public Citizen projects that truck crossings from Mexico to 
Texas will have surged to 2,798,839 by the end of 2000--a 324 percent 
increase over the pre-NAFTA traffic. In comparison, rail car crossing 
to Texas increased 173 percent between 1990 and 1994, but grew at a 
more modest 158 percent rate between 1994 and 2000.\62\
    Fewer than 1 percent of Mexican trucks are inspected at the border. 
Despite slight improvements in the number and percentage of Mexican 
trucks that are inspected at the border, very few Mexican trucks 
undergo safety inspections. Especially given the unusually high out-of-
service rates for the trucks that are inspected, the failure to inspect 
more than 99 percent of Mexican trucks crossing the border represents 
an almost-total failure to protect U.S. motorists and border 
communities. In 1999, 0.8 percent of the 4.1 million Mexican trucks 
that crossed the border were inspected.\63\ In 1998, 0.6 percent of the 
3.9 million trucks that crossed the border were inspected.\64\ In 
comparison, approximately 40 percent of the U.S. truck fleet was 
inspected in 1998.\65\
    Some border crossings have no inspectors for hours every day. A 
Department of Transportation audit found that at some border crossings 
there are no U.S. or state inspectors present on most weekdays.\66\ At 
other sites there were inspectors present during regular business 
hours, but no inspectors regularly assigned to evening or weekend 
hours.\67\ Thus, the drivers of trucks that may have inspection 
problems can plan to cross at un-staffed hours. The 3 full-time and 3 
quarter-time truck safety inspectors at the busy Laredo, Texas border 
crossing could average about 34 inspections a day.\68\ However, on 
weekdays, an average of 4,800 Mexican trucks cross the border at Laredo 
making for an 0.7 percent inspection rate.\69\
    The number of Mexican motor carrier firms registered with the U.S. 
has grown faster than either Canadian or U.S. registrations. Mexican 
companies with DOT licenses to operate within the commercial zone--and 
with the expectation that the border-states and the entire country will 
be open to Mexican haulers if the border is opened--have been growing 
more rapidly than the number of American or Canadian firms seeking DOT 
registrations. The number of active Mexican motor carrier companies 
registered with DOT grew by more than half between 1997 and 1999--54.9 
percent. Over the same period, the number of American carriers grew by 
21.1 percent and Canadian carriers grew by 27.2 percent.\70\
    Mexican truck traffic to California increased by nearly half 
between 1994 and 1999. Since NAFTA's passage, northbound truck 
crossings from Mexico to California increased 48 percent to 949,651 
trucks.\71\ Top Mexican truck imports to California have grown three 
times as fast as top California truck exports to Mexico between 1997 
and 2000. In the first quarter of 1997, California trucked $860 million 
worth of its top six goods to Mexico, and by the first quarter of 2000, 
the figure was $1.1 billion a 22 percent increase. In comparison, top 
Mexican truck exports to California grew 62 percent between the first 
quarter of 1997 and first quarter 2000, from $1.6 billion to $2.6 
billion.\72\
    Removing the limitations to operate only in the border state 
commercial zones will rapidly increase the number of Mexican trucks 
crossing the border. At a National Transportation Safety Board field 
hearing in Los Angeles in October of 1999, Department of Transportation 
officials predicted that an additional 3 million Mexican trucks will 
cross the border every year with the Mexican border commercial zone 
limitations eliminated.\73\
IV. Much Stricter Penalties and Enforcement Are Needed
    The DOT Inspector General's office and safety advocacy groups have 
complained about lacking enforcement, low fines and failure to pull 
operating authority for repeated violations in the U.S. for domestic 
trucking corporations. These same practices of inadequate penalties 
currently the practice for operator violations. These inadequacies must 
be addressed for both domestic and Mexican trucks.
    Both for Mexican trucks now allowed in the border zone and in the 
future, there must be greater U.S. penalties for Mexican operators 
violating their DOT permits. DOT must have a policy of rescinding 
permits to operate in the U.S. for Mexican trucking companies that 
routinely violate safety standards. Now, DOT uses minimal monetary 
penalties for the trucks it finds to be out of compliance. Given that 
99 percent of trucks are not inspected and the fines for those which 
are caught violating safety standards are minimal, there is, in effect, 
no deterrence of potential violations.
    Along the same lines, major fines must be levied for Mexican motor 
carriers found operating outside permitted areas without U.S. 
authorization. Of the 202 Mexican motor carriers found operating 
outside the existing commercial zones in 1998, only 3 enforcement 
actions were initiated. In 1999, only 2 actions * were initiated 
against carriers operating illegally outside the commercial zones, and 
none were taken against Mexican motor carriers operating outside the 
border states, despite being potentially thousands of miles from their 
permitted operating range.\74\ Federal law provides the authority to 
penalize Mexican drivers operating outside the border commercial zone, 
but it also allows discretion to hit violators with heftier fines than 
state law provides.\75\ Yet, these even this policy provides no minimum 
fines, only caps on how large a fine may be. Absent any punishment for 
violating the rules limiting Mexican drivers to the narrow commercial 
border zones, increasing numbers of trucks are likely to flaunt the 
law. This lack of sanctions creates incentives for dangerous conduct by 
companies who can profit by violating the law than improving the safety 
of their trucks.
---------------------------------------------------------------------------
    * According to the Department of Transportation Inspectors General 
Office, fines for Mexican motor carriers in violation of operating 
regulations are too low to spur compliance with U.S. law. Texas and New 
Mexico send a warning letter for the first violation of operating 
outside commercial zones, and a $1,000 fine for the second violation 
with an additional $1,000 increase for each subsequent violation. In 
Arizona and California, the fines are $500 for operating outside the 
commercial zones. The Department of Transportation Inspector General 
criticized these small fines because companies consider them to be ``a 
cost of doing business.'' Higher fines and loss of operating authority 
are needed to effectively deter infractions.
---------------------------------------------------------------------------
    ``We simply cannot jeopardize highway safety by opening the border 
to increased truck traffic.''--U.S. Trade Representative Charlene 
Barshefsky in letter to Rep. Jim Kolbe in 1996 on why the border wasn't 
opened in 1995.
V. Case Studies of Mexican Trucks Causing Fatalities on U.S. Highways
     Already, the increase in Mexican trucks within the limited border 
zone has had an adverse affect on safety in the U.S. The Texas border 
counties, within the commercial border zone, have seen a dramatic 
increase in highway fatalities and serious injuries from trucks with 
Mexican registrations. In one dramatic case in California, a Mexican 
truck was involved in a 10-car pileup that killed four California 
motorists north of San Diego--well north of the commercial zone. These 
fatal crashes are bound to increase if the border is opened, and the 
number of trucks increases rapidly without meaningful Mexican safety 
systems in effect.
    Mexican trucks are a significant and growing portion of Texas 
border counties truck accidents and fatalities. Mexican trucks are 
posing an increasing threat to motorists in Texas border counties. 
According to data from the Texas Department of Safety, trucks 
registered in Mexico accounted for 9.7 percent of the fatal commercial 
vehicle accidents in 1998--nearly doubling from 5 percent in 1997. 
Trucks registered in Mexico accounted for 13.5 percent of the 
incapacitating injuries in commercial vehicle crashes in 1999, up from 
7 percent in 1997, according to preliminary data from the Texas 
Department of Safety.\76\ If Texas' experience of increasing fatalities 
from Mexican trucks along the border were extrapolated to the entire 
state using the latest fatalities data, an additional 39 people would 
have died in crashes with Mexican trucks in Texas. If it were expanded 
to the entire country, an additional 530 people would have died in 
crashes with Mexican trucks.
    Mexican truck caused deadly 10 car pile-up north of California's 
commercial zone. A Mexican truck driver crashed into a construction 
slowdown at 60 miles an hour in March 1997, killing four adults and 
injuring 4 others, one critically.\77\ The driver fled the scene. The 
truck may have been overweight, but the towing company that removed it 
from the scene offloaded and sold some of its cargo of tomatoes, so 
investigators will never know.\78\ The crash occurred under dry road 
conditions and clear visibility, and a civil suit against the trucking 
company alleged that the driver ignored brake lights from the traffic 
congestion.\79\
    If Texas' experience of increasing fatalities from Mexican trucks 
along the border were expanded to the entire state using the latest 
fatalities data, an additional 39 people would have died in accidents 
with Mexican trucks in Texas. If it were expanded to the entire 
country, an additional 530 people would have died in crashes with 
Mexican trucks.

    Mexican truck caused a chemical spill in Brownsville, Texas. In 
January 2000, a short-haul Mexican truck headed south in the commercial 
zone was responsible for a chemical spill that killed millions of fish. 
The driver fled to Mexico before authorities discovered he was 
uninsured and the brakes on his truck were inoperable.\80\
VI. Border Community Conditions Declining at Truck Border Crossings
    Population growth near the U.S.-Mexico border has created a 
cauldron of declining social conditions. Long waits by trucks at the 
crossings fill Mexican border communities with unhealthy diesel 
exhaust. A surge in population has occurred on the Mexican side of the 
border without any of the requisite increases in infrastructure needs. 
Many Mexican border communities--called Colonias which are located near 
the export processing factories called Maquiladoras--lack even the most 
basic sanitation services or access to utilities like water or 
electricity. The border crossing areas attract smugglers and narcotics 
traffickers. The stranglehold the Mexican drug cartels have on border 
communities means the presence of additional crime, from money 
laundering to gun running. Competitive, violent gangs of drug 
traffickers make border communities especially vulnerable to high 
homicide rates and unsolved missing persons, cases known as 
``disappeareds.'' Added to this are the environmental and social 
problems caused by thousands trucks lining up daily for multiple-hour 
waits for crossing.

    The majority of narcotics entering the U.S. come through Mexico. 
Mexican drug cartels operating at the border are one of the main 
conduits for narcotics entering the U.S. U.S. officials estimate that 
60 percent of the cocaine entering the U.S. in 1998 passed through 
Mexico. Mexico is also a major source of marijuana and heroin--nearly 
all the 6 metric tons of heroin produced in Mexico in 1998 was destined 
for the U.S.\81\ Total narcotics seizures at the Mexican border 
increased 78 percent between 1996 and 1999 to more than 1 million 
pounds--accounting for 77 percent of all seizures nationally.\82\
    Border federal court districts are experiencing surging crime 
rates. Criminal cases in Texas' western district increased 182 percent 
since 1995 and grew in the southern district by 145 percent. The five 
federal court districts serving the U.S.-Mexico border region represent 
one-fourth of all federal court filings.\83\
    Drug money is laundered through legitimate transportation 
companies. The large volume of drug money generated by Mexican drug 
cartels is laundered through ordinary businesses to conceal the source 
of the profits. The cartels favor transportation companies, like the 
trucking industry, because they can both launder money and facilitate 
the smuggling of drugs, weapons and cash.\84\
    Low wages for Mexican drivers encourage the transport of 
contraband. Mexican truck drivers, who make as little as $400 a month, 
are often approached to transport drugs, money, weapons or undocumented 
migrants across the border. Low wages and the rising cost of living 
make these opportunities tempting for drivers trying to support their 
families. Indeed, Drug Enforcement Administration officials found that 
Mexican drug cartel leaders looked forward to the prospect of 
increasing the traffic of narcotics to the U.S. under NAFTA.\85\
    Access to border crossings increases concentration of crime. 
Illegal smugglers of people, products and narcotics gather at border 
crossing communities for easy access to the traffic of people and 
trucks to transship their illegal goods. The drug cartels in Juarez 
across the border from El Paso have been linked to 500 murders in the 
1990's and another 200 people have simply disappeared. Ciudad Juarez 
has become a haven for smugglers of cars, guns and drugs and has one of 
the highest homicide rates in Mexico, including the brutal rapes and 
murders of 238 women over several years in the late 1990's.\86\
    Drug Enforcement Administration officials found that Mexican drug 
cartel leaders looked forward to the prospect of increasing the traffic 
of narcotics to the U.S. under NAFTA.
    Increasing truck traffic exposes border community to dangerous 
levels of air pollution. Border crossings from Mexico to the U.S. are 
in use 24 hours a day, 7 days a week. During peak periods, the lines of 
idling trucks waiting to enter the U.S. can run several miles long, 
contributing to pollution and safety concerns.\87\ Diesel exhaust from 
Mexican truck traffic waiting to cross the border contributes to the 
high levels of air pollution on both sides of the border. Thirteen 
border cities exceeded or were expected to exceed ambient air quality 
standards in 1996--and traffic is the leading cause.\88\ The border 
communities show high levels of respiratory disease and high levels of 
lead in children.\89\
VII. Recommendations
    When should more access to U.S. roads be granted to Mexican trucks? 
The Mexican government must fulfill its promise to implement high 
safety standards and a regulatory framework necessary to enforce them. 
What is required is well known. A working regulatory system would need, 
at a minimum:

  <bullet> considerable funding by the Mexican government to implement 
        a Mexican truck safety program, including completion of the 
        monitoring database for domestic and international trucking 
        companies,

  <bullet> safety standards for every truck and significant truck 
        component--including tires, brakes, lighting, length, weight, 
        etc.,

  <bullet> enforcement of safety standards for motor carrier operators 
        that establish fleet-wide responsibility,

  <bullet> creation and enforcement of hours-of-service limits on 
        drivers,

  <bullet> enforcement of logbook requirements for drivers,

  <bullet> better training and effective levels of staffing of Mexican 
        safety inspectors,

  <bullet> regular spot and roadside inspections,

  <bullet> establishment of the legal authority of Mexican inspectors 
        to take dangerous trucks out-of-service; and

  <bullet> imposition of strong penalties to deter violations.

    Once a comprehensive Mexican truck safety system is in place, the 
U.S. would need to ensure that safety standards are being enforced by 
doing a statistically significant number of border safety checks. This 
would require an additional commitment of resources by Congress to 
increase inspection staffing and building border inspection facilities.
    Yet, even without any further border opening, U.S. resources 
devoted to border truck inspection are woefully inadequate. Significant 
improvements in border inspections need to be funded by the U.S. 
Congress simply to do a reasonable job inspecting the 4 million trucks 
that already enter the U.S. on an annual basis.
    In November 1999 the report of the DOT Inspector General stated 
that ``[a]dequate mechanisms are not in place to control access of 
Mexico-domiciled motor carriers into the U.S.'' \90\ The report 
described the monitoring systems that would be necessary on the 
American side of the border to assure safety.
    According to the Department of Transportation's Inspector General's 
report, U.S. controls and safeguards should, at a minimum, include:

  <bullet> the use of automated data and state safety inspectors to 
        monitor truck safety compliance;

  <bullet> systems for verification of registration information;

  <bullet> implementation of consistent enforcement policies for non-
        compliance;

  <bullet> increased fines;

  <bullet> and additional resources for the border program.

    This is by no means an exhaustive list: any future opening of the 
border would require a major effort over several years to develop, 
implement and test these systems for their adequacy in protecting the 
American public. While both U.S. and Mexican governments have been 
taking some steps toward achieving these goals, their efforts to date 
fall far short of what would be required to protect the public health 
and safety.
VIII. Conclusion
    The Mexican government has had 7 years to fulfill its commitments 
to enact and enforce a truck safety program that would ensure that the 
Mexican trucks seeking access to U.S. highways meet U.S. safety 
standards. Instead of fully complying with that requirement, the 
Mexican government has used NAFTA to attack U.S. truck safety 
enforcement.
    Depending on how the conflict is resolved, this case could create a 
concrete NAFTA threat--deadly trucks--in every U.S. community with dire 
implications for already negative U.S. public opinion about NAFTA and 
additional dire implications for public safety.
    Perhaps the most disappointing aspect of this NAFTA-based attack on 
highway safety is the fact that the data regarding public safety is so 
compelling. Instead of permitting additional access to Mexican trucks, 
the Bush Administration should focus on the scandal of the millions of 
dangerous Mexican trucks now rolling into the U.S. uninspected.
    Since NAFTA, the number of Mexican trucks crossing the border has 
skyrocketed to 4 million per year. Because there is now no meaningful 
domestic Mexican truck safety program, overwhelmed U.S. border 
inspectors are all that stands between people living and driving in the 
20-mile border zone in which Mexican trucks are permitted.
    Although U.S. officials are only able to inspect less than 1 
percent of the Mexican trucks currently crossing the border, safety 
inspectors have routinely found--and continue to find --that the severe 
safety problems that result in a truck being put ``out-of-service'' for 
Mexican trucks exceeds the out-of-service rates for U.S. trucks.
    Meanwhile, the U.S. Department of Transportation estimates that 
opening the border would add another 3 million trucks crossing into the 
U.S. bringing the annual total to 7 million. It is not feasible from a 
financial or infrastructure perspective for the U.S. to inspect every 
single Mexican truck that crosses the border. And, if the NAFTA 
tribunal ruling were implemented, it would no longer be a 20-mile strip 
of the border-states, but the entire country which would be exposed to 
the new threat.
    The U.S. must ensure domestic highway safety for motorists and 
communities. Given the current absence of any meaningful Mexican truck 
safety program, the high safety failure rates of Mexican trucks, and 
the impossibility of even inspecting all the Mexican trucks that would 
cross an open border, the only option to ensure safety is to continue 
to limit access to the narrow commercial zones and to significantly 
increase inspection to intercept more of the dangerous trucks already 
traveling in the border zone.
     In terms of NAFTA, this means that the Bush Administration must 
resolve the current case by agreeing to pay the NAFTA sanctions and 
continue to limit access until there is a meaningful Mexican truck 
safety system. Otherwise, the public will learn, painfully and first-
hand, the dangers that an anti-democratic and anti-safety decision by a 
secret international trade tribunal can bring to its front door.*
---------------------------------------------------------------------------
    * Public Citizen does not believe a price can be put on a human 
life, thus the cost of having to pay NAFTA sanctions to keep a basic 
safety measure should be viewed as yet more damage resulting from the 
flawed NAFTA. However, for those of the Chicago School ilk who would do 
a cost-benefit analysis of maintaining this safety measure: even a mere 
1,000 additional crashes from the 7 million cross-border trucks would 
cost more than $100 million, according to Department of Transportation 
calculations on truck crash costs, a figure which is more costly than 
even a high trade sanction would be.
---------------------------------------------------------------------------
ENDNOTES
    \1\ ``Mexico-Domiciled Motor Carriers,'' Department of 
Transportation, Office of Inspector General Audit Report, Nov. 4, 1999.
    1\2\ ``Mexican Truckers Face U.S. Obstacle Course,'' USA Today, 
Feb. 5, 2001.
    \3\ NAFTA Border Opening Remarks, Secretary of Transportation 
Federico Pena, Dec. 18, 1995; White House Press Briefing, Mike McCurry, 
Dec. 18, 1995.
    \4\ `` `Working on the Blade of A Knife,' '' Los Angeles Times, 
Mar. 18, 1996.
    \5\ NAFTA, Annex 913.5.a-1(2)(a)
    \6\ NAFTA, Annex I, Schedule of the United States.
    \7\ U.S. Mexico Border: Issues and Challenges Confronting the 
United States and Mexico, GAO, Jul. 1999.
    \8\ ``Commercial Trucking: Safety and Infrastructure Issues Under 
the North American Free Trade Agreement,'' General Accounting Office, 
GAO/RCED-96-61, Feb. 1996.
    \9\ ``FY 1999 Windows of Opportunity for Drug Smuggling (Southwest 
Border),'' U.S. Customs Service, Nov. 4, 1999; ``NAFTA Offers Freedom 
of the Road: U.S. May Have to Open its Borders to Neighbor's Trucks, 
Regardless of Safety Concerns,'' Financial Times, Nov. 28, 2000.
    \10\ ``Mexico Pursues the NAFTA Dispute Settlement Mechanism 
Regarding the Opening of Cross-Border,'' Embassy of Mexico press 
release, Jul. 24, 1998.
    \11\ ``Motor Carrier Safety Program for Commercial Trucks at U.S. 
Borders,'' Department of Transportation, Office of Inspector General 
Audit Report, Dec. 28, 1998.
    \12\ `` `Working on the Blade of a Knife,' '' Los Angeles Times, 
Mar. 18, 1996.
    \13\ ``Motor Carrier Safety Program for Commercial Trucks at U.S. 
Borders,'' Department of Transportation, Office of Inspector General 
Audit Report, Dec. 28, 1998.
    \14\ ``FY 1999 Windows of Opportunity for Drug Smuggling (Southwest 
Border),'' U.S. Customs Service, Nov. 4, 1999; ``NAFTA Offers Freedom 
of the Road: U.S. May Have to Open its Borders to Neighbor's Trucks, 
Regardless of Safety Concerns,'' Financial Times, Nov. 28, 2000.
    \15\ Department of Transportation and Related Agencies 
Appropriations Fiscal Year 2001, Conference Report, House Appropriation 
Committee Summary Table.
    \16\ ``FY 1999 Windows of Opportunity for Drug Smuggling (Southwest 
Border),'' U.S. Customs Service, Nov. 4, 1999.
    \17\ ``FY 1999 Windows of Opportunity for Drug Smuggling (Southwest 
Border),'' U.S. Customs Service, Nov. 4, 1999; ``NAFTA Offers Freedom 
of the Road: U.S. May Have to Open its Borders to Neighbor's Trucks, 
Regardless of Safety Concerns,'' Financial Times, Nov. 28, 2000; 
``Motor Carrier Safety Program for Commercial Trucks at U.S. Borders,'' 
Department of Transportation, Office of Inspector General Audit Report, 
Dec. 28, 1998.
    \18\ ``Foreign Trucking a Safety Concern; Inspectors Unprepared, a 
Federal Official Says,'' Ft. Worth Star-Telegram, Oct. 21, 1999; 
``Delay Urged in Loosening Truck Limits; Safety Concerns Have Some 
Officials Worried About Allowing Foreign Vehicles Free Movement in the 
U.S.,'' Ft. Worth Star-Telegram, Oct. 23, 1999.
    \19\ ``Fatalities in Crashes Involving Large Trucks by State 1990-
1999,'' Analysis Division, Federal Motor Carrier Safety Administration, 
Sep. 11, 2000.
    \20\ ``Administrator's Fact Book,'' Federal Aviation 
Administration, U.S. DOT, October 2000.
    \21\ ``Mexico's Traffic Death Rate Surpasses NAFTA Neighbors,'' 
Journal of Commerce, Jan. 6, 2000.
    \22\ A final rule issued by the Office of Motor Carriers on July 
16, 1992, see 57 FR 31454 et seq., declared that a Memorandum of 
Understanding had been signed by the U.S. and Mexican governments 
recognizing the ``equivalence'' of the U.S. Commercial Driver's License 
and the Mexican Licencia Federal de Conductor. Notwithstanding a 
declaration of functional equivalence between the licenses, however, 
real difference between the two countries' programs exist. Some of 
those differences are noted in the chart.
    \23\ Current U.S. regulations also require ``English proficiency'' 
for drivers in interstate commerce.
    \24\ `` `Working on the Blade of a Knife,' '' Los Angeles Times, 
Mar. 18, 1996.
    \25\ `` `Working on the Blade of a Knife,' '' Los Angeles Times, 
Mar. 18, 1996.
    \26\ ``Meeting of the NAFTA Land Transportation Standards 
Subcommittee, San Juan del Rio, Oct. 23-27, 2000,'' draft report.
    \27\ ``Meeting of the NAFTA Land Transportation Standards 
Subcommittee, San Juan del Rio, Oct. 23-27, 2000,'' draft report; 
briefing by the Transportation Consultative Group, Nov. 28, 2000.
    \28\ ``Meeting of the NAFTA Land Transportation Standards 
Subcommittee, San Juan del Rio, Oct. 23-27, 2000,'' draft report; 
briefing by the Transportation Consultative Group, Nov. 28, 2000.
    \29\ ``Background to New Entrant Safety Fitness Assurance 
Process,'' John A. Volpe Transportation Systems Center for Federal 
Motor Carrier Safety Administration, Mar. 2000.
    \30\ ``Meeting of the NAFTA Land Transportation Standards 
Subcommittee, San Juan del Rio, Oct. 23-27, 2000,'' draft report; 
briefing by the Transportation Consultative Group, Nov. 28, 2000.
    \31\ ``Background to New Entrant Safety Fitness Assurance 
Process,'' John A. Volpe Transportation Systems Center for Federal 
Motor Carrier Safety Administration, Mar. 2000.
    \32\ ``Background to New Entrant Safety Fitness Assurance 
Process,'' John A. Volpe Transportation Systems Center for Federal 
Motor Carrier Safety Administration, Mar. 2000.
    \33\ ``Roadside Inspection: Effectiveness and Assessment,'' Motor 
Carrier Safety Analysis, Facts and Evaluation Newsletter, vol. 3 no ii, 
Jan. 1998.
    \34\ ``Large Truck Crash Profile: The 1998 National Picture,'' 
Analysis Division Federal Motor Carrier Safety Administration, Jan. 
2000.
    \35\ ``Comparative Truck Size and Weight Study: Volume III Scenario 
Analysis,'' U.S. Dept. Of Transportation, Aug. 2000.
    \36\ Memorandum by Jerry Donaldson, Advocates for Highway and Auto 
Safety, June 20, 2000.
    \37\ See NAFTA and Trucking, http://www.teamster.org/
nafta_truck_safety.html.
    \38\ ``Meeting of the NAFTA Land Transportation Standards 
Subcommittee, San Juan del Rio, Oct. 23-27, 2000,'' draft report; 
briefing by the Transportation Consultative Group, Nov. 28, 2000.
    \39\ ``Staying Alive on Texas Roads; Increase Oversight of Big 
Rigs,'' Austin American Statesman, Jan. 22, 1999.
    \40\ `` `Working on the Blade of a Knife,' '' Los Angeles Times, 
Mar. 18, 1996.
    \41\ ``The NAFTA Trucker,'' The Teamster, Nov., 1999; `` `Working 
on the Blade of a Knife,' '' Los Angeles Times, Mar. 18, 1996.
    \42\ ``The NAFTA Trucker,'' The Teamster, Nov., 1999; `` `Working 
on the Blade of a Knife,' '' Los Angeles Times, Mar. 18, 1996.
    \43\ ``Mexico-Domiciled Motor Carriers,'' Department of 
Transportation, Office of Inspector General Audit Report, Nov. 4, 1999.
    \44\ SafeStat Analysis Report, Sep. 23, 2000 for Mexican carriers 
and U.S. carriers; SafeStat Motor Carrier Safety Status Measurement 
System, version 8.1, prepared for the Federal Motor Carrier Safety 
Administration by John A. Volpe National Transportation Systems Center, 
Mar. 25, 2000. The comprehensive, layered data approach of examining 
Federal Motor Carrier compliance reviews, inspection status, safety 
measures, event data (like accident reports) and carrier descriptive 
data provides ratings for four specific safety areas (accident, driver, 
vehicle and safety programs) and identifies which specific carriers are 
in the worst quartile in at least two of these categories to discern 
relative safety. Carriers found to be deficient in at least two safety 
categories were deemed ``at risk;'' At risk carriers were found to be 
more than twice as likely to be involved in accidents as carriers that 
had no identified safety deficiencies. Public Citizen examined the 
aggregated data from the Safety Status Measurement System from 
September 23, 2000 for carriers based in Mexico and the U.S. and found 
significantly worse relative safety records for Mexican carriers.
    \45\ `` `Working on the Blade of a Knife,' '' Los Angeles Times, 
Mar. 18, 1996; ``Mexico-Domiciled Motor Carriers,'' Department of 
Transportation, Office of Inspector General Audit Report, Nov. 4, 1999.
    \46\ SafeStat Analysis Report, Sep. 23, 2000 for Mexican carriers 
and U.S. carriers; SafeStat Motor Carrier Safety Status Measurement 
System, version 8.1, prepared for the Federal Motor Carrier Safety 
Administration by John A. Volpe National Transportation Systems Center, 
Mar. 25, 2000.
    \47\ ``Background to New Entrant Safety Fitness Assurance 
Process,'' John A. Volpe Transportation Systems Center for Federal 
Motor Carrier Safety Administration, Mar. 2000.
    \48\ SafeStat Analysis Report, Sep. 23, 2000 for Mexican carriers 
and U.S. carriers; SafeStat Motor Carrier Safety Status Measurement 
System, version 8.1, prepared for the Federal Motor Carrier Safety 
Administration by John A. Volpe National Transportation Systems Center, 
Mar. 25, 2000.
    \49\ SafeStat Analysis Report, Sep. 23, 2000 for Mexican carriers 
and U.S. carriers; SafeStat Motor Carrier Safety Status Measurement 
System, version 8.1, prepared for the Federal Motor Carrier Safety 
Administration by John A. Volpe National Transportation Systems Center, 
Mar. 25, 2000.
    \50\ Texas Center for Border Economic and Enterprise Development 
data, updated May 10, 2000, available on the internet at www.tamiu/edu/
cob/bti/trucks.; projection calculated by Public Citizen.
    \51\ ``Background to New Entrant Safety Fitness Assurance 
Process,'' John A. Volpe Transportation Systems Center for Federal 
Motor Carrier Safety Administration, Mar. 2000.
    \52\ ``Foreign Trucking a Safety Concern; Inspectors Unprepared, a 
Federal Official Says,'' Ft. Worth Star-Telegram, Oct. 21, 1999; 
``Delay Urged in Loosening Truck Limits; Safety Concerns Have Some 
Officials Worried About Allowing Foreign Vehicles Free Movement in the 
U.S.,'' Ft. Worth Star-Telegram, Oct. 23, 1999.
    \53\ Through interviews with state regulators, Public Citizen 
discerned that the state of Texas provides 45 commercial truck 
inspectors at the border, Arizona has 31 and California provides 25. 
Public Citizen was not able to find out the current number of state 
inspectors in New Mexico, but there were none in 1998 according to 
``Motor Carrier Safety Program for Commercial Trucks at U.S. Borders,'' 
Department of Transportation, Office of Inspector General Audit Report, 
Dec. 28, 1998.
    \54\ ``U.S.-Mexico Border: Better Planning, Coordination Needed to 
Handle Growing Commercial Traffic,'' General Accounting Office, March 
2000.
    \55\ ``Top Ten Management Issues,'' Department of Transportation 
Office of Inspector General Report No. PT-2001-017, Jan. 18, 2001.
    \56\ ``Motor Carrier Safety Program for Commercial Trucks at U.S. 
Borders,'' Department of Transportation, Office of Inspector General 
Audit Report, Dec. 28, 1998.
    \57\ ``Motor Carrier Safety Program for Commercial Trucks at U.S. 
Borders,'' Department of Transportation, Office of Inspector General 
Audit Report, Dec. 28, 1998.
    \58\ ``Motor Carrier Safety Program for Commercial Trucks at U.S. 
Borders,'' Department of Transportation, Office of Inspector General 
Audit Report, Dec. 28, 1998.
    \59\ ``Motor Carrier Safety Program for Commercial Trucks at U.S. 
Borders,'' Department of Transportation, Office of Inspector General 
Audit Report, Dec. 28, 1998.
    \60\ Texas Center for Border Economic and Enterprise Development 
data, updated May 10, 2000, available on the internet at www.tamiu/edu/
cob/bti/trucks.
    \61\ Texas Center for Border Economic and Enterprise Development 
data, updated May 10, 2000, available on the internet at www.tamiu/edu/
cob/bti/trucks.
    \62\ Truck Crossing into Texas from Mexico, 1990-1999; Truck 
Crossing into Texas from Mexico, 2000 YTD; Rail Car Crossing into Texas 
from Mexico, 1990-1999, all from Texas Center for Border Economic and 
Enterprise Development, May 10, 200 and Oct. 23, 2000; projection based 
on first 8 months of 2000 truck entries extrapolated to entire year.
    \63\ ``FY 1999 Windows of Opportunity for Drug Smuggling (Southwest 
Border),'' U.S. Customs Service, Nov. 4, 1999; ``NAFTA Offers Freedom 
of the Road: U.S. May Have to Open its Borders to Neighbor's Trucks, 
Regardless of Safety Concerns,'' Financial Times, Nov. 28, 2000.
    \64\ Opening Statement of Jim Hall, Chairman of the National 
Transportation Safety Board, Third NTSB Hearing on Truck and Bus 
Safety: The Highway Transportation Aspects of NAFTA, Oct. 20-22, 1999, 
Los Angeles, CA.
    \65\ ``Mexico-Domiciled Motor Carriers,'' Department of 
Transportation, Office of Inspector General Audit Report, Nov. 4, 1999.
    \66\ ``Motor Carrier Safety Program for Commercial Trucks at U.S. 
Borders,'' Department of Transportation, Office of Inspector General 
Audit Report, Dec. 28, 1998.
    \67\ ``Motor Carrier Safety Program for Commercial Trucks at U.S. 
Borders,'' Department of Transportation, Office of Inspector General 
Audit Report, Dec. 28, 1998.
    \68\ ``Motor Carrier Safety Program for Commercial Trucks at U.S. 
Borders,'' Department of Transportation, Office of Inspector General 
Audit Report, Dec. 28, 1998.
    \69\ ``Motor Carrier Safety Program for Commercial Trucks at U.S. 
Borders,'' Department of Transportation, Office of Inspector General 
Audit Report, Dec. 28, 1998.
    \70\ ``Background to New Entrant Safety Fitness Assurance 
Process,'' John A. Volpe Transportation Systems Center for Federal 
Motor Carrier Safety Administration, Mar. 2000.
    \71\ California and Baja California Border Indicators, San Diego 
State University, California Center for Border and Regional Economic 
Studies, based on U.S. customs data 1994-1999.
    \72\ California and Baja California Border Indicators, San Diego 
State University, California Center for Border and Regional Economic 
Studies, based on Bureau of Transportation Statistics.
    \73\ ``Delay Urged in Loosening Truck Limits,''Fort Worth Star-
Telegram, Oct. 23, 1999.
    \74\ ``Mexico-Domiciled Motor Carriers,'' Department of 
Transportation, Office of Inspector General Audit Report, Nov. 4, 1999.
    \75\ H.R. Res. 3419, 105th Cong. Sec. 219 (1999).
    \76\ Texas Department of Public Safety data, 1997, 1998, 1999, 
preliminary.
    \77\ ``Big Rig Driver Released From Jail; Police Have Not Charged 
the Man Arrested After a Chain-Reaction Accident that Killed Four,'' 
Orange County Register, Mar. 29, 1997.
    \78\ ``Tow Firm's Contract Suspended; It Gave Away a Big Rig's 
Tomatoes After a Crash,'' Orange County Register, Jul. 16, 1997.
    \79\ ``Survivors of Crash Victims File Lawsuit,'' orange County 
Register, Jul. 12, 1997.
    \80\ ``Officials Spar on Letting Mexican Trucks Beyond Border,'' 
San Antonio Express-News, Mar. 19, 2000.
    \81\ ``U.S.-Mexico Border: Issues and Challenges Confronting the 
U.S. and Mexico,'' General Accounting Office, Jul. 1999.
    \82\ Fiscal year 1999 Windows of Opportunity for Drug Smuggling 
(Southwest Border), U.S. Customs Service, Nov. 14, 1999.
    \83\ ``DAs Quit Checkpoint Cases: Soaring Border Drug Arrests Add 
Much to Local Workloads,'' Associated Press, May 11, 2000.
    \84\ ``U.S.-Mexico Border: Issues and Challenges Confronting the 
U.S. and Mexico,'' General Accounting Office, Jul. 1999.
    \85\ ``The NAFTA Trucker,'' The Teamster, Nov., 1999.
    \86\ ``Young Women Follow Journeys of Hope to Factories--and Then, 
to Violence; Bright Lights, Dark City,'' Washington Post, Jun. 25, 
2000; ``1 Killing but Many Victims; Ex-DEA Agent Phil Jordan Sees Drug 
Lords' Hand in his Brothers Slaying and Related Misfortunes,'' Los 
Angeles Times, Jul. 8, 2000.
    \87\ U.S.-Mexico Border: Better Planning, Coordination Needed to 
Handle Growing Commercial Traffic, GAO, Mar. 2000.
    \88\ ``U.S.-Mexico Border: Issues and Challenges Confronting the 
U.S. and Mexico,'' General Accounting Office, Jul. 1999.
    \89\ ``U.S.-Mexico Border: Issues and Challenges Confronting the 
U.S. and Mexico,'' General Accounting Office, Jul. 1999.
    \90\ ``Mexico-Domiciled Motor Carriers,'' Department of 
Transportation, Office of Inspector General Audit Report, Nov. 4, 1999.
                                 ______
                                 
                                             Public Citizen
                                                       July 6, 2001
U.S. Department of Transportation
Dockets Management Facility
Room PL-401
400 Seventh Street, SW.
Washington, DC.
Re:
        1. LDocket FMCSA-98-3297; 66 Fed. Reg. 22327 (May 3, 2001)
          LRevision of Regulations and Application Form for Mexican-
        Domiciled Motor Carriers to Operate in U.S. Municipalities and 
        Commercial Zones on the U.S.-Mexico Border

        2. LDocket FMCSA-98-3298; 66 Fed. Reg. 22371 (May 3, 2001)
          LApplication by Certain Mexican Motor Carriers to Operate 
        Beyond U.S. Municipalities and Commercial Zones on the U.S.-
        Mexico Border

        3. LDocket FMCSA-98-3299; 66 Fed. Reg. 22415 (May 3, 2001)

          LSafety Monitoring System and Compliance Initiative for 
        Mexican Motor Carriers Operating in the United States

    Public Citizen appreciates the opportunity to comment on the 
Federal Motor Carrier Safety Administration's (FMCSA) proposed new and 
revised applications and safety monitoring procedures for opening the 
border to Mexican-domiciled trucks under the North American Free Trade 
Agreement (NAFTA). We believe that the proposed rules fail to 
acknowledge the inadequacy of the existing enforcement structure and 
will not protect the public from unsafe trucks crossing into the United 
States.
    If the border opens by the January 1, 2002 deadline announced by 
President Bush, under these proposed rules, unsafe trucks will 
inevitably escape detection and travel freely throughout the United 
States, endangering motorists and risking a trade-related debacle. For 
these reasons, the issue has already triggered widespread and deep 
opposition. A group of ten senators who support NAFTA sent a letter to 
President Bush expressing reservations about the inadequate inspection 
force at the border and the proposed 18-month period in which carriers 
may operate without a safety review.\1\ A majority of House members 
have also indicated their concern about the safety of Mexican cross-
border traffic in a recent vote denying funding for the processing of 
applications on behalf of Mexican carriers.\2\
    Business interests argue that allowing long-haul trips from the 
interior of Mexico into the United States would be more efficient than 
the present system, but some Mexican truckers find that the present 
system of long-haul to short-haul transitions at the border is 
relatively quick and that the physical transfer of truck loads takes 
less time than it takes for customs officials to process cross-border 
paperwork.\3\ Congestion at the border will increase, not decrease, as 
more businesses take advantage of Mexico's network of cheaper trucking 
and warehouse labor to ship cargo to the interior United States.
    Little has changed since the Clinton Administration, prompted by 
safety concerns, refused to open the border in 1995. Mexico has not yet 
put in place a regulatory system comparable to those in the U.S. and 
Canada, as it is required to do under NAFTA. The out-of-service rate 
for Mexican-domiciled trucks crossing the border is still significantly 
higher than the out-of-service rate for trucks in the U.S. and Canada. 
The border is still woefully short on federal inspectors and resources 
to ensure that unsafe trucks are not admitted.
    The United States must limit access to Mexican-domiciled trucks 
until it can implement an effective system to ensure that these trucks 
comply with U.S. regulations. The proposed rules are inadequate to meet 
that objective in a number of respects. The agency evidently plans to 
grant operating authority based only on a paper application, without 
verifying the information submitted by applicants. To evaluate the 
safety fitness of Mexican carriers, the agency intends to rely heavily 
on an unpopulated database that currently lacks the basic information 
necessary to process applications or to perform a safety review. The 
agency permits itself an 18-month window before completing a safety 
review of a Mexican carrier after it has been granted a certificate of 
registration, but 18 months is far too long to wait to verify a 
company's regulatory compliance and safety record.
    The integrity of the application and review process is critical 
because information long available on the safety record of the Mexican 
trucking fleet shows that great improvement would be needed to meet 
U.S. safety standards. Border inspection facilities lack the resources 
and new inspectors necessary to pick up the slack created by weak 
enforcement of regulations on both sides of the border and inspect all 
Mexican trucks. The number of inspectors is not likely to increase this 
year. On June 27, 2001, the Washington Post reported that the money 
earmarked for the hiring of an additional 80 inspectors was ``struck 
from the spending bill on technical grounds yesterday.'' Juliet 
Eilperin, ``House Acts to Block Mexican Trucks,'' Washington Post, 6/
27/2001./ As our comments show, once a truck gets beyond the border, it 
is not likely to face inspection or verification of operating authority 
by either state or federal officials.
    The NAFTA arbitral panel ruling directing the U.S. to open the 
border expressly provided permission in its ruling for U.S. authorities 
to establish inspection and licensing requirements that are not 
``like'' those already in place for U.S. carriers, so long as their 
expectations are the result of legitimate safety concerns.\5\ Thus, the 
U.S. could establish a program which requires Mexican trucks to meet 
more stringent standards than is the case under current U.S. law. Such 
an accommodation is highly unusual in a trade ruling, and is an open 
invitation for the U.S. to act responsibly to fulfill its safety 
obligations to the American public.
    Despite such considerations by the panel, FMCSA has proposed rules 
which achieve the opposite of what is permitted under the ruling. The 
agency's proposals actually allow greater latitude in several key areas 
for Mexican-domiciled carriers and drivers than currently apply to U.S. 
and Canadian companies and drivers under U.S. law. In fact, the 
agency's proposed 18-month safety review process imposes far fewer and 
generally less serious consequences for safety violations than applies 
in its absence, thus creating a safe harbor for Mexican-domiciled 
entrants to the market and a competitive disadvantage for U.S. 
interests.
    NAFTA failed to link the development of a commercial carrier safety 
infrastructure in Mexico with the time-line for opening the U.S.-Mexico 
border to commercial trucks. The FMCSA is clearly struggling, in these 
rules, between the ``rock'' of the NAFTA-globalization juggernaut and 
``hard place'' of its assigned mission to assure the safety of 
commercial carriers in the U.S. The proposed rules, however, answer to 
trade at the expense of safety. Because the agency puts trade first, 
and because agency decision makers are all too aware of the practical 
impediments to reasonable enforcement, the proposed rules demonstrate 
far less concern with technical feasibility than is usual in the 
agency's history.
    The rules appear--although surely the FMCSA is not--to be almost 
entirely uninformed about the real risks that these dangerous proposals 
pose to the U.S. public, and to the image of ``free'' trade here at 
home. We are acting far too quickly, with far too little attention to 
the actual and potential costs, and at the risk of causing hazardous 
material spills, horrific truck crashes and other unnecessary suffering 
and death on U.S. highways. We urge the agency to reconsider its rules 
in light of the real risks to American motorists and its safety 
mission, and to formulate its future proposals with full awareness of 
the practical consequences and importance of its actions.
I. The push to open the border to Mexican trucks without assurance of 
        their safety is the result of a fatal flaw in the North 
        American Free Trade Agreement.
    The NAFTA agreement required the United States to open its border 
to Mexican trucks in phases beginning in 1995. The time-line laid down 
in the agreement was not linked in any way to Mexico's promise, also in 
the agreement, to improve its domestic level of safety for commercial 
carriers and to build up its oversight and safety inspection resources 
to levels commensurate with the U.S. and Canada.
    Without acting whatsoever on its domestic obligations, almost 3 
years ago the Mexican government brought a dispute before a NAFTA 
arbitral panel to open the southern U.S. border to cross-border 
commercial traffic. Last summer, the Mexican government, following work 
with trucking industry representatives, finally issued a fledgling set 
of basic rules for commercial carrier safety. The rules are voluntary 
for the first year and are phased in over 2 years. Public Citizen's 
analysis of the rules (see ``Recent Mexican Trucking Rules Do Not Solve 
Serious Safety Hazards,'' attached) shows the rules are deficient in 
many areas, and do not compare favorably to protections provided by 
U.S. standards and rules.
    Regardless of the lack of progress on safety standards in Mexico, 
the NAFTA panel ruled that the U.S. should open the border or face 
trade sanctions, thus demonstrating the untenability of the agreement's 
structure. Once the U.S. actually opens the border, it of course will 
have no leverage with Mexico to encourage it to continue or improve 
this regulation process.
    Moreover, the massive funding for the necessary inspection and 
border resources amounts to an in-kind subsidy of federal dollars to 
cross-border companies that will grease the wheels of trade and further 
erode border communities and infrastructure. In this case, public tax 
dollars must be spent to facilitate a trade agreement, which will in 
turn enable the flow of commercial traffic across the border and 
enhance of the profitability of private trucking companies. Because the 
agreement itself allows no operating room to control expenditures at 
the border, and because the border's opening was not linked to a safety 
time-line, NAFTA is a gun to the head of both FMCSA and the U.S. budget 
for federal border inspections.
II. Mexico's fledgling commercial carrier regulatory system has little 
        substance.
A. Mexico's new regulations are weak and not yet actively enforced.
    The Mexican government finally began to honor its obligations under 
NAFTA last summer with the passage of new, albeit weak, regulations for 
commercial carriers. The inspection standards adopted under the new 
laws have been voluntary since their enactment a year ago, and have not 
been in place long enough to generate data. Planned to be ``phased in'' 
over the next 2 years, they become compulsory this summer, but there is 
as yet little evidence of enforcement or new funding for roadside 
inspections or database development. According to the translated text 
of the Mexican statute, the standards were drafted by a panel that 
included a number of industry representatives.\6\
    The new Mexican inspection standards are far less stringent than 
U.S. standards, and have been written so as to work against a thorough 
inspection. While the inspections called for in the law include more 
than 143 actions to test components of the truck, inspectors must 
complete each inspection within an impossibly short time: 20 minutes 
maximum for a hazardous materials vehicle and 30 minutes maximum for a 
general cargo vehicle.\7\ Although the Mexican inspection standards are 
purported to be ``based'' on Commercial Vehicle Safety Alliance (CVSA) 
out-of-service criteria, CVSA does not set limits on the time necessary 
to make an inspection. The standard CVSA Level I inspection takes an 
estimated 45 to 60 minutes to complete, and the discovery of a serious 
violation may trigger a longer, more thorough inspection that can take 
hours. The Mexican standard also provides for inspection facilities to 
be run by non-governmental third parties, which are likely to generate 
fees that will trigger conflicts of interest.\8\ There is no reason to 
believe that the inspection process will be untouched by the corruption 
which, according to news reports, is a constant challenge for the 
government and people of Mexico.\9\
    The new Mexican inspection regulations allow unsafe vehicles to 
slip through the cracks. New vehicles are completely exempted from 
inspections for 2 years after the date of manufacture.\10\ Vehicles 
with multiple borderline infractions are not sanctioned because the 
inspection criteria are not cumulative. While the law allows for fines, 
it does not specify their amount, indicating that they may be so small 
that carriers can treat such fines as a cost of doing business. A 
number of safety defects that merely incur a fine and a request that 
the problem be fixed within 20 days in Mexico would be sufficient cause 
to remove a truck from the road in the U.S. These defects include 
improperly stored hazardous materials, missing fuses, worn or exposed 
wires, a lack of windshield wipers, a shattered windshield, damaged 
tires, broken wheel rims, leaky fuel lines, worn or cracked load 
securement chains, loose steering wheels, cracked brake drums and 
inoperative brake linings.\11\
B. The new Mexican regulatory system is not supported by a regulatory 
        infrastructure.
    There is little evidence of funding or administrative structure for 
enforcing these laws. The wildly optimistic report released last fall 
by the Land Transportation Standards Subcommittee (LTSS), a group 
established under NAFTA to serve as a liaison among the governments of 
Canada, Mexico, and the United States in establishing a shared safety 
program, fails to emphasize the following serious problems documented 
in the report:

  <bullet> Training for the road inspection program in Mexico fell 
        apart.\12\

  <bullet> Mexico has higher weight restrictions than the U.S., and no 
        operational weigh stations.\13\

  <bullet> Although Mexico has had a drug and alcohol testing 
        requirement stemming from a 1998 Memorandum of Understanding 
        with the U.S., Mexico has no laboratories that are U.S.- 
        certified for drug testing.\14\

  <bullet> The Mexican safety regulations are to be enforced only by 
        Mexican federal officers, and only on Mexican federal highways, 
        which represent 10 percent of all the highways in Mexico.

  <bullet> There is no evidence to indicate the level of access that 
        Mexican authorities on the highway have to the safety database 
        they are developing or how regularly they are adding to it. 
        Currently, the lack of information in the database renders it 
        functionally inoperational.

  <bullet> Mexico has required hours of service logbooks for hazardous 
        materials drivers since 1993 and for all other commercial 
        vehicle drivers since March 29, 2000,\15\ but U.S. border 
        officials have yet to see a Mexican logbook.\16\
C. Mexico still has no hours of service rules.
    Unlike safety regulation in the U.S. and Canada, Mexican laws do 
not include hours of service rules. Mexican carriers often require 
their workers to drive for much longer periods per day than the U.S. 
statutory hours of service limit.\17\ In fact, the new Mexican 
regulations leave carriers to design logbooks for hours of service 
``according to its needs.'' \18\
D. Assuring the safety fitness of trucks must be a priority in Mexico 
        before they reach the border.
    A functioning road inspection system in Mexico will be crucial for 
assuring the fitness of Mexican trucks before they reach the border. 
The Mexican trucking fleet is older and receives more out-of-service 
orders than the U.S. fleet when trucks are inspected at the border.\19\ 
A recent report indicates that it would take some years and billions of 
dollars to bring the Mexican trucking fleet up to the quality of the 
U.S. fleet.\20\
III. Admission processes at the border will not filter out unsafe 
        trucks.
A. The proposed application process for Mexican-domiciled trucks will 
        not ensure compliance.
The proposed rules do not provide for verification of the information 
        submitted in the paper application.
    The application procedures for Mexican-domiciled carriers that are 
included in the proposed rules do not provide for verification of the 
claims and submitted information. They rely heavily on self-reporting 
and do not outline or mention any process by which the truth of this 
information will be ascertained. In fact, some of the application 
information requested by FMCSA may prove to be unverifiable.
    Under the proposals, registration is granted primarily on the basis 
of information supplied by the applicant on the application and on the 
applicant's reassurance that it has knowledge of, and will comply with, 
relevant U.S. safety regulations.\21\ All the applicant must do to 
demonstrate knowledge of applicable regulations is check ``yes.'' 
Interestingly, there is no box to check ``no.''
    The carrier also need only describe its ``plan'' for complying with 
drug testing and other programs, rather than submit proof that drug 
tests have been taken and results have been acceptable. Any inaccurate 
information supplied in an application likely will not be caught before 
a certificate of registration is issued.
The Department of Transportation Office of the Inspector General 
        investigated and reported on the failure of FMCSA and its 
        predecessor to verify information supplied by Mexican-domiciled 
        carriers.
    The Department of Transportation has never implemented a 
verification process for Mexican registration information, and as a 
result, much of the information that the DOT currently has in its 
databases regarding Mexican-domiciled carriers is outdated or 
unverified. A November 1999 Office of the Inspector General audit 
report found that ``there was too much reliance on the information 
contained in the application [of Mexican-domiciled motor carriers] 
without verification.'' \22\ The Inspector General found that there 
were no processes in place to confirm the claims.\23\
    Furthermore, the report pointed out that the application process 
did not require that documents to be submitted with the application be 
certified copies.\24\ The proposed rules present the same serious 
problems, but the negative effects of granting operating authority on 
the basis of inaccurate information will extend beyond the commercial 
zone to the entire United States, where such operating authority is 
granted.
The information requested may be distorted through error or fraud.
    Much of the information provided by applicants may not be 
verifiable under current practices. The applicant is asked to report 
whether it is ``affiliated'' with a carrier that has been disqualified 
from operating in the United States, but it does not define 
``affiliated'' and it is unclear whether FMCSA has the ability to track 
any of this information.
    Indeed, the instructions of the proposed applications imply that 
applicants' business information cannot be compared or cross-checked. 
The application forms instruct applicants to enter the name of the 
carrier exactly the same way each time a name is required, or the 
department will list two slightly different names as two different 
companies. The instruction suggests that the DOT has no way to cross-
check the owners, addresses, and other information of a company to 
ensure that a company is not counted twice. A simple typographical 
error in the name of a carrier for an entry of inspection or crash data 
into the database, then, could fail to match negative safety data with 
that carrier. In addition, carrier with a poor safety record could re-
register under a new name to get a second ``chance'' in the DOT 
database.
Information on drivers' safety records may not be available.
    While important safety information involves individual drivers' 
safety records, it is not clear that this information has been compiled 
in Mexico and would be included in the database. This omission presents 
another example of the problem in monitoring the Mexican trucking 
industry as opposed to the U.S. trucking industry. Information vital to 
determining the safety of drivers and carriers will inevitably be more 
accurate and more complete regarding U.S. drivers. As a result, danger 
signs that would be detected regarding U.S. carriers will not be 
detected in Mexican carriers, compromising the level of safety we have 
sought to achieve through regulation, and burdening only U.S. carriers 
while leaving Mexican carriers unaffected.
B. The database to be used in the safety review contains little data 
        and will be completely inadequate in evaluating the safety of 
        Mexican carriers.
Authorities have added little or no data to the database.
    A significant problem with the proposed rules is their dependence 
on a joint database to be maintained between the U.S. and Mexico. Under 
the agency's proposal, registration is conditional upon a satisfactory 
safety review, including an evaluation of the ``safety fitness'' of the 
carrier as reflected in its inclusion in the Motor Carrier Management 
Information System (MCMIS) database. According to Department of 
Transportation officials at the Land Transportation Standards 
Subcommittee briefing last November, the database has been set up for 
Mexican carriers, but it is not yet ``populated'' with information.\25\ 
Therefore, the database is likely to provide little or no data on a 
particular carrier.
    While the Land Transportation Standards Subcommittee (LTSS) 
declares that Mexican carriers are being added to the database,\26\ 
simple inclusion in the database is not nearly sufficient. Inspection 
data and crash data are necessary for any evaluation of the safety 
record of a carrier, and no evidence is available that Mexican 
authorities are entering this data. According to oral statements of a 
member of Congress at a recent press conference, very little has been 
added about Mexican carriers on the Mexican side.
Safety information from Mexico is not comparable to U.S. data.
    Even if data is entered into the database, the information gathered 
from Mexican reports, such as an out-of-service rate, is not likely to 
reflect the safety of the carrier by U.S. standards. The Mexican 
standards are weaker and the inspection standards remain voluntary 
until later this summer. Once the border is opened, the U.S. will 
retain little leverage with Mexico, and the FMCSA will have no way to 
improve any shortcomings that affect data or the lack of data on the 
Mexican side.
Difficulties that the U.S. has encountered in implementing MCMIS will 
        likely pose problems for Mexico as well.
    The MCMIS database, used to evaluate carrier and driver safety in 
the U.S. has presented a number of difficulties during use. It is 
foreseeable that Mexico will encounter similar problems. Discrepancies 
and deficiencies in the ways that different state enforcement agencies 
have entered or coded data in the database have affected the accuracy 
of the Safety Status Measurement System (SafeStat) scores of 
carriers.\27\ SafeStat scores are important in evaluating the safety 
fitness of carriers and detecting ``at risk'' carriers. Delays also 
present problems, because SafeStat weighs accidents that occurred 
within the last 6 months three times more than accidents that occurred 
in the last 18 months or longer.\28\ In fact, a significant proportion 
of the crashes reported in 1997 were reported after the period in which 
they would have been weighed the most heavily.\29\ U.S. law enforcement 
has been working on reducing the delay of information added to the 
database, but Mexico would likely experience similar problems with 
delays.
    If Mexican authorities do not enter complete information, the data 
will be extremely inadequate. The Inspector General's office found in 
an audit of MCMIS that less than 40 percent of the crashes entered into 
MCMIS for the U.S. in 1997 identified the carriers involved.\30\ The 
same IG report also found that MCMIS contains no information on cause 
or fault in its crash data; \31\ if this information is not supplied on 
the Mexican side, the FMCSA will have no way to recover it.
A new law will penalize U.S. commercial drivers for poor personal 
        driving records but will likely not be practically applicable 
        to Mexican drivers, reducing the effectiveness of the law and 
        allowing Mexican drivers a competitive advantage over their 
        American and Canadian counterparts.
    A rule recently proposed by FMCSA would disqualify the commercial 
drivers licenses of drivers who are convicted of violations like drunk 
driving, leaving the scene of an accident, violating railroad-highway 
grade crossing signs, excessive speeding, and reckless driving, 
regardless of whether the offense was committed while driving a 
personal vehicle or a commercial vehicle.\32\ However, the MCMIS 
database will not carry information regarding Mexican drivers' private 
driving records, making it impossible for FMCSA to enforce this law 
with respect to Mexican drivers. To enforce this law with respect to 
U.S. drivers but not Mexican drivers would be unfair to U.S. commercial 
drivers, creating a competitive disadvantage far beyond the foreseen 
consequences of NAFTA.
C. The proposed safety monitoring program is too weak to deter non-
        compliance. It also provides an 18-month safe harbor for 
        Mexican-domiciled carriers.
Administrative difficulties will greatly hamper enforcement.
    The proposed safety monitoring program is not likely to motivate 
carriers to comply with all regulations before the 18-month period 
expires. If the FMCSA is overwhelmed with applications, unable to 
conduct the number of safety reviews in a timely manner, or unable to 
keep track of suspended carriers, a carrier may operate indefinitely 
under hazardous conditions. Registration is so infrequently checked 
that finding a truck operating with suspended or revoked registration 
will be like finding a needle in a haystack. The consequences for 
carriers operating on a revoked or suspended license are neither 
certain nor serious.
The rules create an 18-month safe harbor for Mexican carriers and 
        drivers.
    In contrast to the NAFTA panel's ruling that Mexican-domiciled 
carriers could be subject to special provisions, the penalties for 
Mexican-domiciled carriers under the safety monitoring program are 
weaker than those that currently apply to U.S.-domiciled carriers.
    Proposed section 385.23 provides a list of violations that are 
likely to result in an expedited safety review or deficiency letter. 
These violations include serious infractions such as using drivers 
lacking proper qualifications,\33\ operating vehicles that have been 
placed out of service without correcting the fault, involvement in 
accidents leading to a hazardous materials incident, using drivers 
testing positive for drugs and alcohol, and operating a vehicle that is 
not insured.\34\ For any one of these serious violations, a carrier 
would receive a safety review--a review to which it would have to 
submit anyway--or a deficiency letter instructing the carrier to notify 
FMCSA in writing that the problem has been corrected.
    The consequences of violations such as these for U.S. carriers are 
considerably more severe, including civil and criminal fines or even 
jail time.\35\ Allowing Mexican carriers to receive weak penalties for 
serious violations fails to communicate the seriousness of these 
violations to carriers and will not prepare them to comply with these 
regulations at the end of the safety oversight program.
A number of serious violations were omitted from the proposed program, 
        compromising safety and placing U.S. carriers at a market 
        disadvantage.
    The FMCSA has also omitted some serious violations from the list of 
violations that would trigger an expedited safety review or deficiency 
letter. Under its proposal, an accident resulting in a hazardous 
materials incident prompts the expedited safety review or deficiency 
letter process, but an accident resulting in death does not. 
Furthermore, a violation of the hours of service limit is not on the 
list of violations that would result in an expedited safety review or 
deficiency letter. The hours of service limit is of particular concern 
because Mexican carriers often require their workers to drive for much 
longer periods per day than the U.S. statutory hours of service limit, 
and Mexican laws do not include hours of service rules.\36\ The FMCSA 
should add these infractions to the list, and publish its plan for 
enforcing hours of service limits for drivers crossing the border who 
are not subject to any time controls while in Mexico.
Enforcement of penalties for carriers in the safety oversight program 
        is weak and uncertain.
    The safety oversight provision has no teeth. The rule does not 
specify a time limit for the carrier to address the problem and respond 
to the deficiency letter. During that interval, the carrier would be 
operating in spite of documented safety concerns. A deficiency letter, 
or FMCSA's intention to conduct a safety review sooner, does nothing to 
keep an unfit carrier off the road and does not communicate to the 
carrier the severity of the violation. Is an uninsured carrier allowed 
to operate while the safety review or deficiency letter process is 
going on? The agency must clarify its plan for ensuring that non-
compliant carriers do not continue operating under hazardous 
conditions.
    If a carrier fails to respond to the agency's deficiency letter, 
that carrier's registration may be suspended until corrective action is 
taken. If a carrier fails the safety review, the carrier's registration 
will be suspended until it takes corrective action. If the carrier does 
not take corrective action, or if the carrier operates in violation of 
a suspension order, the carrier's registration may be revoked following 
notice and an opportunity for a proceeding.
    However, this rule does not specify a time limit for the carrier to 
respond to the deficiency letter before a suspension is issued. It is 
also unclear how soon after a violation an expedited safety review 
would take place. Without time limits, an unsafe carrier could operate 
indefinitely before any limitations are placed on it. The rule does not 
specify how long a carrier can be suspended without taking corrective 
action before its registration is revoked. The agency must clarify this 
rule and set definite time restrictions to ensure that non-compliant 
carriers do not slip through the cracks.
No system is in place at the border to enforce the suspension or 
        revocation of operating authority.
    The agency's suspension or revocation of a license will not change 
a carrier's ability to send trucks across the border. A November 1999 
IG report found that, while suspension and revocation notices were sent 
to carriers, the carriers nevertheless were able to retain their 
certificates in their vehicles and continue operating across the 
border.\37\ No information is available to inspectors to verify that a 
certificate of registration is valid, or to verify that a driver has a 
certificate of registration if he or she is not able to present it upon 
request.
D. Trucks crossing the border are not likely to be inspected because 
        border facilities lack the resources and inspectors to step up 
        inspections.
The vast majority of cross-border trucks are not inspected at the 
        border.
    About 1 percent of all trucks crossing the border are 
inspected.\38\ The overwhelming majority of these inspections are 
cursory ``walk-around'' inspections. Trucks that are not inspected at 
the border will not likely be checked for a certificate of 
registration. Even if a truck is inspected, there is no information 
available to an inspector to verify that a certificate of registration 
is valid, or to verify that a driver has a certificate of registration 
if he or she is not able to present it upon request.
Border officials do not routinely check the registration of cross-
        border trucks.
    Only federal inspectors and California state inspectors routinely 
check certificates of registration at the border. U.S. Customs 
officials and other state inspectors do not routinely check 
certificates of registration.\39\ Many border crossings do not have 
full-time federal inspectors or federal inspectors present during all 
hours of operation. If a truck is not inspected by a federal inspector, 
it is much less likely to have its certificate of registration checked.
A substantial inspection presence may deter non-compliance.
    Unsafe and non-compliant trucks that attempt to cross the border 
are not likely to be detected. There is a direct correlation between 
the lack of inspectors or full-time inspectors at a border crossing and 
the out of service rate of trucks that use that crossing.\40\
Border facilities still lack resources to inspect an adequate 
        proportion of trucks crossing the border.
    Currently, border crossings do not have the resources to inspect 
every truck at the border. In the absence of a comprehensive Mexican 
regulatory system, the border crossings present the only opportunity 
for the U.S. to filter out non-compliant, unregistered, uninsured, or 
unsafe trucks before they can travel U.S. highways.
Border crossings need many more federal inspectors.
    The number of federal inspectors at the border is less than half 
the 139 inspectors the IG called for in 1998.\41\ While 60 inspector 
positions have been authorized and funded, only 50 inspectors had been 
hired as of March 27, 2001.\42\ The estimate of 139 inspectors was 
based on 1998 numbers for truck crossings. The volume of NAFTA traffic 
has increased since 1998, however, and that estimate did not include 
the inspectors needed for the 18-month proposed safety reviews.\43\
The proposed safety oversight program will strain the inspection forces 
        at the border.
    The proposed rule creates the need for additional inspectors to 
perform the safety reviews of carriers either at a point within the 
U.S. or at the place of business of carriers in Mexico.\44\ The FMCSA 
is still short of the federal inspectors it needs to conduct truck 
inspections at the border, however, and the proposed rules do not 
include estimates as to how many additional inspectors are needed for 
the on-site safety reviews. The proposed rules do not estimate the 
amount of time each safety review would take, or the size of the 
workload attributed to a single inspector. Workloads would be 
exacerbated by the time and cost of traveling to places of business 
within Mexico. The greater the time and cost of each inspection, the 
longer carriers will operate without a thorough safety review.
Inspection facilities are sorely inadequate.
    While plans have been made, no new border inspection facilities 
have been built since 1998.\45\ A recent study has documented that 
border crossings lack Internet connections, inspection space, and space 
to park out-of-service vehicles. In a May 2001 IG report, investigators 
visited the 27 border crossings and found: at 20 crossings, FMCSA 
inspectors did not have dedicated phone lines to access databases, such 
as those for validating a CDL; at 19 crossings, FMCSA inspectors had 
space to inspect only 1 or 2 trucks at a time; and at 14 crossings, 
FMCSA inspectors had only 1 or 2 spaces to park vehicles placed out of 
service. Also, the out-of-service space was shared with the inspection 
space at the majority of these crossings.\46\ The FMCSA must address 
these serious shortcomings before the volume of cross-border traffic 
increases under the proposed rules.
E. Insurance and proof-of-insurance requirements are dangerously 
        inadequate to protect other drivers on public highways.
    The applicant need not submit proof of insurance with the 
application. Carriers operating in the border commercial zones need 
only carry proof of insurance with them when they cross the border. It 
is unclear whether U.S. Customs officials, state or federal inspectors 
will routinely check for proof of insurance. Carriers operating beyond 
the border zones must submit insurance forms only after notice of their 
applications appear in the federal register. This process does not do 
anything to guarantee that registration will not be granted to an 
uninsured carrier.
    While a Mexican carrier may have a general level of insurance, 
Mexican carriers sometimes transport a combination of freight and 
passengers, or freight and hazardous materials. These different 
shipping practices carry different required insurance levels, and a 
carrier may only meet the lower insurance level, thus creating a hazard 
for other drivers.
F. New problems will arise after completion of the 18-month safety 
        oversight program.
    Once the safety oversight program is completed, and a carrier's 
registration becomes permanent, the oversight of Mexican carriers is 
considerably reduced. Serious violations, such as using unqualified 
drivers or drivers testing positive for drugs or alcohol, operating 
vehicles that have been placed out of service without correcting the 
violation, and involvement in accidents involving hazardous materials 
will not prompt a safety review. It is unclear whether, or for what 
infraction, a Mexican-domiciled carrier's registration could be 
suspended or revoked after the safety oversight program is complete. 
The agency must clarify what circumstances would lead to the suspension 
or revocation after the 18 month period has expired.
Lawfully imposed U.S. penalties may trigger conflicts.
    When Mexican drivers and carriers encounter the full force of U.S. 
regulations, conflicts will result. Assuming that the normal statutory 
penalties would begin to apply once the registration is permanent, 
drivers and carriers would be subject to the same civil and criminal 
penalties to which U.S. drivers and truckers are subject.
    However, when the Nogales border inspectors began inspecting trucks 
crossing the border and fining Mexican drivers when the trucks failed 
to comply with safety regulations, a group of Mexican truckers 
protested, blocking the border crossing at Nogales for 8 hours.\47\ The 
drivers, who receive twenty to thirty dollars per border crossing, had 
been fined up to $1,400 each because their vehicles did not comply with 
safety regulations. The workers protested that they should not be fined 
for the condition of their vehicles, but U.S. law requires that truck 
drivers be responsible for inspecting their vehicles before they begin 
operations, and provides for the issuance of fines to both drivers and 
carriers when trucks are placed out of service.
    U.S. penalties will be particularly hard on Mexican drivers, who 
are typically compensated at lower rates than drivers in the U.S. This 
incident illustrates a conflict that could become more pronounced as 
far more Mexican drivers encounter the enforcement of U.S. safety 
regulations.
IV. Non-border states are completely unprepared for the influx of 
        Mexican trucks.
    Trucks that are not inspected at the border are unlikely to be 
checked at any point beyond the border for certificates of 
registration. A November 1999 Office of the Inspector General report 
noted that, in FY 1998, 202 Mexican-domiciled motor carriers were found 
operating outside of their authority beyond the commercial zones in the 
border states, and 52 motor carriers were found operating outside of 
their authority in 20 non-border states.\48\ The trucks, which were 
supposed to travel only within commercial zones at the border, were 
found in North and South Dakota, Washington state, New York, New 
Jersey, and Florida.\49\ These trucks were detected only because they 
had been selected for roadside inspections.
    Much of the data that the safety oversight program and safety 
review will depend on is the safety data gathered and entered into the 
database from roadside inspections in the U.S. However, the likelihood 
that a truck will be selected for a roadside inspection in the U.S. is 
small. Trucks are usually selected for roadside inspections on the 
basis of visual clues that they may not comply with safety standards or 
if their carrier has been selected for closer monitoring on the basis 
of its SafeStat score. The SafeStat scoring system is not generally 
accurate for small carriers because they do not generate enough data, 
and most Mexican carriers are small carriers.
    If a truck operating without authority or outside of its authority 
does not appear to have physical defects, it is unlikely to be stopped 
at all. Inspectors in non-border states are much less likely to check 
certificates of registration, because the non-border states lack state 
laws banning Mexican-domiciled trucks from operating without 
registration or operating outside of their authority.\50\ Roadside 
inspectors cannot place a Mexican-domiciled vehicle out of service 
simply because it is operating without registration or operating 
outside of its authority.\51\
    An inspector may issue an out-of-service order for other violations 
meeting the necessary criteria or issue a fine for operating outside of 
authority, but while the fine limits for operating outside of authority 
have been raised, the actual assessed fines have remained the same, in 
the range of $500-$1000, an amount that a carrier could view as a cost 
of doing business.\52\ There are few safeguards to monitor Mexican 
trucks operating beyond the border in the interior U.S.
V. The proposed rules present significant hidden economic costs for the 
        U.S., utilizing government funds to subsidize the private 
        sector.
    The opening of the border under this proposed rulemaking will be 
costly to the United States economy in that it increases the 
probability of costly accidents and places all the expense of insuring 
Mexican compliance on U.S. border and road inspection resources.
    Mexican drivers and commercial carriers can, under the proposed 
rules, procure a marketplace advantage under the 18-month safety 
monitoring program. While they are in this program, they need not 
follow hours of service laws, and penalties for drivers and carriers 
for violating other laws are only as costly as correcting the 
violation. U.S. carriers in the same circumstances face fines, 
disqualification, or even time in jail.
    According to Department of Transportation calculations on the costs 
of truck crashes, just an additional 1,000 truck crashes resulting from 
this proposal would cost over $100 million, in addition to the 
intangible costs of injury and death. Even if the administration 
increases inspectors and their facilities at the border in an effort to 
avert disaster, the measure would amount to the U.S. performing the 
enforcement function of the laws that Mexico put on the books and is 
obligated to enforce under NAFTA.
VI. Conclusion
    While the administration purports to require Mexican-domiciled 
carriers to adhere to the same safety standards as American carriers, 
the application process in the proposed rules indicates that its lofty 
goals are only accomplished on paper. Numerous failings in the current 
registration process for Mexican-domiciled carriers that were found and 
reported by the DOT Inspector General have not been addressed or even 
acknowledged in the proposed rules.
    The DOT is willing to do on paper what it is not willing to do in 
practice. Requiring only that carriers promise to know and follow 
regulations and failing to verify the information supplied by the 
carrier will place the public at risk. Under the proposed rules, FMCSA 
would evaluate carriers' fitness for registration on paper before 
granting them authority, not conducting an actual on-site safety 
fitness review until after operating authority has been granted and the 
carriers have begun cross-border operations.
    The effectiveness of the entire truck safety oversight program 
depends on the deterrent effect of suspension or revocation of 
certificates of registration, but certificates of registration are 
rarely checked and cannot be verified at the border. While FMCSA can 
suspend or revoke the registration on paper, it has no enforcement 
system in place to prevent carriers with suspended or revoked 
registration from operating across the border in practice. With the 
opening of the border, the impact of these failings will significantly 
increase.
    The evaluation of the safety records of Mexican-domiciled carriers 
will depend in large part on the completeness and reliability of 
information supplied to the safety database on the Mexican side. We 
have no evidence to indicate that data is being entered promptly, 
completely, or accurately on the Mexican side, and no way to insure 
that its database programs are or will be implemented or funded in the 
future. The DOT relies on the MCMIS to analyze safety information and 
raise red flags for dangerous carriers in the U.S. If the database is 
not administered as conscientiously on the Mexican side, these same 
safeguards will be rendered ineffective for Mexican-domiciled carriers.
    Opening the border under the proposed rules will seriously 
compromise the safety of the public on U.S. highways. The lax 
enforcement of U.S. regulations will give Mexican-domiciled carriers a 
competitive advantage over U.S.-domiciled carriers. If FMCSA does not 
address and correct the systemic problems outlined in a number of 
reports by the Office of the Inspector General, it need only wait until 
the inevitable crash occurs. Public safety must not suffer under NAFTA, 
and indeed the NAFTA dispute panel gives the U.S. full authority to 
firmly enforce U.S. law for any truck traveling in the U.S.
VII. Recommendations
    The proposed rules must be rejected in favor of a plan that 
provides for extensive verification of safely fitness and an 
enforcement infrastructure to ensure that Mexican-domiciled trucks meet 
U.S. safety regulations and to deter noncompliance. Such a plan should:

  <bullet> As a precondition for granting operating authority, provide 
        an application process in which statements made by carriers on 
        paper applications are verified and unannounced, on-site safety 
        inspections of the carriers occur;

  <bullet> As a precondition for granting operating authority, 
        establish a proficiency test for all foreign carriers through 
        which their knowledge of U.S. operating standards may be 
        verified;

  <bullet> As a precondition for granting operating authority, set 
        minimum amounts of inspection, crash and other performance and 
        enforcement data that must be in the database for a applicant 
        carrier, i.e., enough to allow a SafeStat score to be 
        calculated;

  <bullet> Clarify the consequences, time-line, and oversight resources 
        needed to monitor suspended and revoked registrations and 
        carrier responses to deficiency letters;

  <bullet> Strengthen inspection forces at the border. This should 
        include inspection facilities with adequate space to conduct 
        inspections and place vehicles out of service, drive-through 
        weigh-in-motion systems, and dedicated phone lines for access 
        to databases. This should also include a substantial increase 
        in the number of federal inspectors at the border--enough to 
        ensure that a significant proportion of trucks are inspected at 
        the border;

  <bullet> Increase coordination with state inspectors to facilitate 
        the enforcement of certificates of registration and operating 
        authority, and to ensure that border crossings are staffed with 
        adequate numbers of inspectors at all hours of operation.
ENDNOTES
    \1\ Letter to the President from Senators Kerry, Baucus, Bingaman, 
Harkin, Daschle, Wyden, Kennedy, Bayh, Lieberman, and Durbin, June 11, 
2001.
    \2\ A recent Wall Street Journal article reported: ``. . . 82 
Republicans joined 201 Democrats and two independents in voting to halt 
the safety permits. House leaders said one reason for the big margin 
was that lawmakers wanted to send a message to Mr. Bush to toughen 
regulations governing Mexican trucks.'' Helene Cooper,``Bush Wants to 
Reverse House Attempt to Keep Mexican Trucks Off U.S. Roads,'' Wall 
Street Journal, 6/28/2001.
    \3\ The Associated Press interviewed Mexican truck drivers who 
oppose the opening of the border to long-haul trucks: ``Gomez said that 
unhitching a trailer from a Mexican truck and hooking it to a U.S. one 
at the border usually occurs as the drivers wait for officials to 
process their border-crossing papers.
    `` `We're always much faster' than the officials, he said.'' 
Associated Press, ``Mexico Might Strike Against the United States,'' 6/
27/2001.
    \4\ The number of inspectors is not likely to increase this year. 
On June 27, 2001, the Washington Post reported that the money earmarked 
for the hiring of an additional 80 inspectors was ``struck from the 
spending bill on technical grounds yesterday.'' Juliet Eilperin, 
``House Acts to Block Mexican Trucks,'' Washington Post, 6/27/2001.
    \5\ Recommendations of the arbitral panel state:

    ``300. The panel notes that compliance by the United States with 
its NAFTA obligations would not necessarily require providing favorable 
consideration to all or to any specific number of applications from 
Mexican-owned trucking firms, when it is evident that a particular 
applicant or applicants may be unable to comply with U.S. trucking 
regulations when operating in the United States. Nor does it require 
that all Mexican-domiciled firms currently providing trucking services 
in the United States be allowed to continue to do so, if and when they 
fail to comply with U.S. safety regulations. The United States may not 
be required to treat applications from Mexican trucking firms in 
exactly the same manner as applications from U.S. or Canadian firms, as 
long as they are reviewed on a case by case basis. U.S. authorities are 
responsible for the safe operation of trucks within U.S. territory, 
whether ownership is U.S., Canadian or Mexican.
    ``301. Similarly, it may not be unreasonable for a NAFTA Party to 
conclude that to ensure compliance with its own local standards by 
service providers from another NAFTA country, it may be necessary to 
implement different procedures with respect to such service providers. 
Thus, to the extent that the inspection and licensing requirements for 
Mexican trucks and drivers wishing to operate in the United States may 
not be ``like'' those in place in the United States, different methods 
of ensuring compliance with the U.S. regulatory regime may be 
justifiable. However, if in order to satisfy its own legitimate safety 
concerns the United States decides, exceptionally, to impose 
requirements on Mexican carriers that differ from those imposed on U.S. 
or Canadian carriers, then any such decision must (a) be made in good 
faith with respect to a legitimate safety concern and (b) implement 
differing requirements that fully conform with all relevant NAFTA 
provisions.''
    North American Free Trade Agreement Arbitral Panel Established 
Pursuant to Chapter Twenty: In the Matter of Cross-Border Trucking 
Services, Secretariat File No. USA-MEX-98-2008-01, Final Report of the 
Panel, Feb 6, 2001, 81-82.
    \6\ Translation of ``Official Mexican standard NOM-068-SCT-2-2000, 
Ground Transportation--Federal motor transport service for passengers, 
tourism, hauling and private transportation--Mechanical and safety 
conditions for operating trucks on national roads and bridges,'' Diario 
Oficial, July 4, 2000. The preface lists over twenty companies and 
industry alliances.
    \7\ ``Official Mexican Standard MON-068-SCT-2-2000,'' section 
5.2.1.2.
    \8\ ``Official Mexican standard NOM-068-SCT-2-2000,'' section 
5.2.2.1.
    \9\ See Robert Collier, ``Mexico's Trucks on Horizon: Long-distance 
haulers are headed into U.S. once Bush opens borders,'' San Francisco 
Chronicle 3/4/2001 (describing a ride-along with a Mexican long-haul 
trucker; police asked the trucker for bribes twice on the 3-day trip). 
See also ``In Mexico, Graft Infects Every Aspect of Society,'' Chicago 
Tribune, 4/15/2001 (describing traffic stops in which motorists pay 
bribes to transit policemen to avoid the long process of being issued a 
formal ticket, and discussing what the Mexican government is doing to 
try to stop the graft).
    \10\ ``Official Mexican Standard MON-068-SCT-2-2000,'' section 
5.2.2.2.
    \11\ See attachment A: ``Recent Mexican Trucking Rules Do Not Solve 
Serious Safety Hazards.''
    \12\ ``Marquez said federal police appear to have abandoned a 
program of random highway inspections that was inaugurated with much 
fanfare last fall.'' Robert Collier, ``Mexico's Trucks on Horizon: 
Long-distance haulers are headed into U.S. once Bush opens borders,'' 
San Francisco Chronicle, 3/4/2001. See also statements made at Land 
Transportation Standards Subcommittee briefing, 11/28/2001.
    \13\ Robert Collier, ``Mexico's Trucks on Horizon: Long-distance 
haulers are headed into U.S. once Bush opens borders,'' San Francisco 
Chronicle, 3/4/2001.
    \14\ Department of Transportation Office of the Inspector General 
report MH-2001-059, ``Interim Report on Status of Implementing the 
North American Free Trade Agreement's Cross-Border Trucking 
Provisions,'' May 8, 2001, at 17.
    \15\ Ibid.
    \16\ Statements of Tom Kosloski, 11/28/2000.
    \17\ Robert Collier, ``Mexico's Trucks on Horizon: Long-distance 
haulers are headed into U.S. once Bush opens borders,'' San Francisco 
Chronicle, 3/4/2001.
    \18\ ``The logbook of driver's hours of service is designed by the 
company, according to its needs.'' Translation of ``Official Mexican 
Standard MON-068-SCT-2-2000,'' Appendix ``A'', Annex 1.
    \19\ ``FMCSA reports that in FY 2000, 36 percent of the Mexican 
trucks that were inspected were placed out of service. This contrasts 
with a 24 percent out-of-service rate for U.S. trucks nationwide in FY 
2000.'' Department of Transportation Office of the Inspector General 
report MH-2001-059, ``Interim Report on Status of Implementing the 
North American Free Trade Agreement's Cross-Border Trucking 
Provisions,'' May 8, 2001, at 7.
    \20\ ``Many of Mexico's 375,000 freight trucks have been in service 
for 15 to 20 years, compared with an average of 5 years in the United 
States. Industry leaders say it would cost billions of dollars over the 
next decade to bring the Mexican fleet to U.S. standards, though many 
defend the safety of their vehicles.'' ``Mexico Might Strike Against 
the United States,'' Associated Press, 6/27/2001.
    \21\ Registration for operating within the border zone is granted 
upon consideration of both the application information and the 
carrier's inclusion in Mexican databases. Registration for operating 
beyond the border zone is conditional upon the satisfactory completion 
of a safety review to be conducted within 18 months after the grant of 
registration, including an evaluation of the carrier's safety record as 
reflected in information from the MCMIS database.
    \22\ Office of the Inspector General Audit Report TR-2000-013: 
``Mexico-Domiciled Motor Carriers.'' Nov 4, 1999, at 9.
    \23\ Ibid. When the IG attempted to verify certain information 
about Mexican carriers in DOT records, it found that it could not 
confirm ownership or even the mailing addresses of some carriers.
    \24\ Ibid.
    \25\ Statements of Tom Kosloski, 11/28/2000.
    \26\ Department of Transportation Office of the Inspector General 
report MH-2001-059, ``Interim Report on Status of Implementing the 
North American Free Trade Agreement's Cross-Border Trucking 
Provisions,'' May 8, 2001, at 18.
    \27\ Department of Transportation Office of the Inspector General 
report TR-1999-091, ``Motor Carrier Safety Program,'' April 26, 1999, 
19-24.
    \28\ Id. at 25.
    \29\ ``During FY 1997, 31 percent of the crashes were uploaded more 
than 180 days after the crash date.'' Id. at 25.
    \30\ Id. at 21.
    \31\ Id. at 25-26.
    \32\ 66 Fed. Reg. 22499; ``The FMCSA estimates that nearly 500 CMV-
related crashes would be avoided annually as a result of these 
disqualifications.'' Department of Transportation press release, FMCSA 
9-01, May 4, 2001.
    \33\ Section 385.23(a)(1): ``Using drivers not possessing, or 
operating without, a valid Licencia Federal de Conductor (LFC) or 
Commercial Driver's License (CDL). A non-valid LFC or CDL includes one 
that is falsified, revoked, expired, or without a Hazardous Materials 
endorsement, when required.'' 66 Fed. Reg. 22415 (May 3, 2001) at 
22419.
    \34\ Section 385.23(a)(6): ``Operating within the United States a 
motor vehicle that is not insured as required by 49 CFR part 387.''
    \35\ Penalties for U.S. drivers and carriers are more severe: ``The 
Federal penalty to a driver who violates the CDL requirements is a 
civil penalty of up to $2,500 or, in aggravated cases, criminal 
penalties of up to $5,000 in fines and/or up to 90 days in prison. An 
employer is also subject to a penalty of up to $10,000, if he or she 
knowingly uses a driver to operate a CMV without a valid CDL.'' FMCSA 
website: <<http://www.fmcsa.dot.gov/safetyprogs/cdl.htm>>
    The corresponding regulation for insurance of U.S. carriers, 49 CFR 
387.17 states: ``Any person (except an employee who acts without 
knowledge) who knowingly violates the rules of this subpart shall be 
liable to the United States for civil penalty of no more than $10,000 
for each violation, and if any such violation is a continuing one, each 
day of violation will constitute a separate offense. The amount of any 
such penalty shall be assessed by the FHWA's Associate Administrator 
for the Office of Motor Carriers, by written notice. In determining the 
amount of such penalty, the Associate Administrator, or his/her 
authorized delegate shall take into account the nature, circumstances, 
extent, the gravity of the violation committed and, with respect to the 
person found to have committed such violation, the degree of 
culpability, any history of prior offenses, ability to pay, effect on 
ability to continue to do business, and such other matters as justice 
may require.''
    \36\ ``Almost all Mexican long-haul drivers are forced to work 
dangerously long hours.'' Also, ``Industry analysts say that after the 
ban is lifted, most of the two nations' trade will be done by Mexican 
drivers, who come much cheaper than American truckers because they earn 
only about one-third the salary and typically drive about 20 hours per 
day.'' Robert Collier, ``Mexico's Trucks on Horizon: Long-distance 
haulers are headed into U.S. once Bush opens borders,'' San Francisco 
Chronicle 3/4/2001.
    \37\ Office of the Inspector General Audit Report TR-2000-013: 
``Mexico-Domiciled Motor Carriers.'' Nov 4, 1999, at 9.
    \38\ Department of Transportation Office of the Inspector General 
audit report TR-2000-013, ``Mexico-Domiciled Motor Carriers,'' Nov 9, 
2000, at 10.
    \39\ ``State inspectors in Arizona, New Mexico, and Texas did not 
routinely review the certificates of registration because State laws 
are not compatible with Federal requirements regarding operating 
authority. According to State officials in these three border States, 
legislation has not been initiated to provide for enforcement against a 
motor carrier for operating without a certificate of registration or 
for operating beyond the authority granted. Consequently, unless the 
truck happens to be selected for a safety inspection by a Federal 
inspector at the border, the certificate of registration will probably 
not be reviewed.'' Id. at 16.
    \40\ ``A direct correlation exists between the condition of Mexican 
commercial trucks entering the United States and the level of 
inspection resources at the border. California has an inspection 
presence during all operating hours at its two major crossings and 
inspects each commercial truck that does not have a valid inspection 
sticker (Commercial Vehicle Safety Alliance sticker valid for 3 
months). The condition of the Mexican commercial trucks entering at the 
Mexico-California border is much better than those entering through all 
other border States.'' Id. at 7.
    \41\ ``FMCSA increased the authorized number of inspectors at the 
southern border from 13 in FY 1998 to 60 in FY 2001 and requested 80 
additional enforcement personnel in its FY 2002 budget request. . . . 
Deploying the additional 80 enforcement personnel at the border would 
bring the total number of authorized Federal inspectors there to 140, 
and be responsive to the recommendation in our 1998 report. If these 80 
enforcement personnel are not deployed onsite at the border in the near 
term, sufficient inspectors will not be in place at all border 
crossings during all hours of commercial vehicle operations except for 
California's two major crossings at Calexico and Otay Mesa.'' (emphasis 
in original). Department of Transportation Office of the Inspector 
General report MH-2001-059, ``Interim Report on Status of Implementing 
the North American Free Trade Agreement's Cross-Border Trucking 
Provisions,'' May 8, 2001, at 3.
    Funding for the additional 80 federal inspectors has been struck 
from the Transportation Spending bill, see note 2.
    \42\ ``As of March 27, 2001, FMCSA filled 10 of the 20 FY 2001 
inspector positions, resulting in a total of 50 Federal inspectors 
assigned to the southern border.'' Department of Transportation Office 
of the Inspector General report MH-2001-059, ``Interim Report on Status 
of Implementing the North American Free Trade Agreement's Cross-Border 
Trucking Provisions,'' May 8, 2001, at 9.
    \43\ ``Our 1998 estimate of 126 additional Federal inspectors for 
the U.S.-Mexico border is conservative because it was an estimate for 
the near term, and did not:

  <bullet> include the amount of time an inspector would be away from 
        work for training and approved absences,

  <bullet> allow for expanded hours for commercial port operations,

  <bullet> account for continued commercial traffic growth,

  <bullet> include providing inspectors to perform only visual 
        inspections of trucks or electronic verification of Commercial 
        Driver's Licenses (the capability to electronically verify 
        Mexican Commercial Driver's Licenses is now available to 
        Federal inspectors at the U.S.-Mexico border), and

  <bullet> include inspectors to perform visual inspections of 
        passenger buses and safety inspections for commercial bus 
        drivers. Four port cities accounted for 80 percent of about 
        269,000 passenger bus crossings at the U.S.-Mexico border in FY 
        2000 (Otay Mesa and San Ysidro, California; and Hidalgo and 
        Laredo, Texas).''

    Department of Transportation Office of the Inspector General report 
MH-2001-059, ``Interim Report on Status of Implementing the North 
American Free Trade Agreement's Cross-Border Trucking Provisions,'' May 
8, 2001, at 11.
    \44\ ``In addition to performing safety inspections, an FMCSA 
official said that the resources will be used to perform safety audits 
of motor carriers as proposed in the Motor Carrier Safety Improvement 
Act of 1999 and also to review applications requesting authority to 
operate in the United States. The FMCSA official further stated that, 
`as the Agency assesses the volume of applications for operating 
authority and begins to conduct safety reviews of Mexican carriers, 
flexibility will be required to deploy enforcement personnel to perform 
critical safety oversight tasks,' '' Department of Transportation 
Office of the Inspector General report MH-2001-059, ``Interim Report on 
Status of Implementing the North American Free Trade Agreement's Cross-
Border Trucking Provisions,'' May 8, 2001, at 10.
    \45\ Department of Transportation Office of the Inspector General 
report MH-2001-059, ``Interim Report on Status of Implementing the 
North American Free Trade Agreement's Cross-Border Trucking 
Provisions,'' May 8, 2001, at 12.
    \46\ Id. at 14.
    \47\ ``Truck driver threatening to block port again over fines,'' 
Associated Press, 4/11/2001. See also ``U.S. Strangling `Cruzadores,' 
Truckers say,'' Hernan Rozemberg, The Arizona Republic, 4/22/2001.
    \48\ Department of Transportation Office of the Inspector General 
Audit Report TR-2000-013, ``Mexico-Domiciled Motor Carriers,'' Nov 4, 
1999, at iii.
    \49\ Id. at iii.
    \50\ ``After foreign motor carriers go past the border in 
California, state inspectors review certificates of registration during 
roadside inspections throughout the state. We found no evidence to 
indicate that any other states review certificates of registration 
during roadside inspections. Consequently, unless the truck happens to 
be selected for a safety inspection by a Federal . . . inspector at the 
border, the certificate of registration will probably not be 
reviewed.'' Office of the Inspector General Audit Report TR-2000-013: 
``Mexico-Domiciled Motor Carriers.'' Nov 4, 1999, at 10.
    \51\ Office of the Inspector General Audit Report TR-2000-013: 
``Mexico-Domiciled Motor Carriers.'' Nov 4, 1999, at 11-12.
    \52\ ``The Motor Carrier Safety Improvement Act of 1999 
providesincreased fines for foreign motor carriers operating without 
authority. The increased fines are not more than $10,000 for an 
intentional operating authority violation and not more than $25,000 for 
a pattern of intentional operating authority violations. FMCSA's 
assessed fines have remained constant since 1998, averaging $500 to 
$1000 for operating authority violations.'' Department of 
Transportation Office of the Inspector General report MH-2001-059, 
``Interim Report on Status of Implementing the North American Free 
Trade Agreement's Cross-Border Trucking Provisions,'' May 8, 2001, at 
16.

    The Chairman. Thank you very much. Mr. Pantuso.

STATEMENT OF PETER J. PANTUSO, PRESIDENT AND CEO, AMERICAN BUS 
                          ASSOCIATION

    Mr. Pantuso. Thank you, Mr. Chairman. Members of the 
Committee. My name is Peter Pantuso, I am president and CEO of 
the American Bus Association and we appreciate the opportunity 
to testify before your Committee today.
    ABA is the trade organization of the intercity bus industry 
in the United States and Canada. Our members carry people, the 
most precious and important cargo. We do not carry melons, we 
do not carry freight. Our members represent nearly two-thirds 
of all motor coaches on the road today. In the United States, 
they transport more than 774 million passengers annually. That 
is 200 million more than the airlines and it is more than 
double the number of passengers Amtrak and commuter rail 
together move. We serve 4,000 communities across the United 
States and we log more than 2.6 billion miles annually.
    Intercity buses are the safest mode of commercial passenger 
transportation. ABA does support the timely, safe, and 
reciprocal provisions of NAFTA. For buses, NAFTA currently 
provides changes in access by lifting cross border restrictions 
on charter and tour buses, a provision that has already been 
implemented, and must yet implement reciprocal lifting of 
restrictions on regular route carriers.
    We are very concerned by gaps in recent DOT safety 
proposals, and of primary concern is a loophole of enforcement 
and oversight for United States domestic subsidiaries of 
Mexican carriers. I led an ABA delegation to Mexico City last 
month to learn more about the Mexican bus industry and about 
NAFTA, and I must say that we were very impressed with what we 
saw. The Mexican people have realized that bus service is an 
affordable and a common sense method of transportation. Buses 
connect the most rural towns with Mexico City, or with even the 
smallest villages in Mexico. Future partnerships make sense 
between United States carriers and Mexican bus companies, 
whereby their relative strengths and their market advantage can 
be combined to form strategic alliances and allow for growth in 
expanded service.
    However, there are important differences between the United 
States and Mexican motorcoach industry. Ninety-two percent of 
intercity trips are by bus in Mexico, with three billion 
passenger trips taken annually. That is versus the 774 million 
passenger trips in the United States. Small fleets are very 
common among United States bus operators, compared to very 
large fleets in Mexico. And perhaps the most significant 
differences are in vehicle safety standards.
    Cross border service in the United States works well along 
our northern border with Canada because Canada has adopted very 
similar, almost identical safety regulations for buses. But the 
rules between United States and Mexico are not identical. On 
our trip, ABA also visited Veteran's Bridge, one of four border 
crossing points in Brownsville, Texas. Over 350 buses cross 
that bridge every single week. Customs and INS inspects all of 
the buses daily for contraband and for passenger documentation. 
DOT inspects trucks daily at that border crossing point, but 
inspects buses only 1 day every month. This greatly concerns us 
and it must change.
    Authorities must be always mindful always that buses carry 
passengers, and not freight. We are not saying that buses in 
Mexico are inherently unsafe. In fact, Mexican buses are made 
by Dina, Volvo and Mercedes. These are companies which also 
manufacture buses for the U.S. market. But the buses they 
manufacture for the U.S. market are built to U.S. Federal Motor 
Vehical Safety Standards. In Mexico, these standards do not 
apply.
    Frequent border inspections will ensure the consistent 
application of U.S. standards. We urge DOT to create a specific 
plan to ensure motorcoach and passenger safety prior to 
finalizing their proposal. That plan should address some 
specific issues, including the creation of an effective 
mechanism for preventing entry by Mexican manufactured buses 
that do not comply with United States safety standards. It 
should include enforcement of rules relating to Mexican drivers 
providing passenger service in the United States and finally, 
it should include a clarification that the proposed rules apply 
both to motorcoaches and to commercial passenger vans engaged 
in intercity service.
    Market equity with Mexican bus operations is also very 
important to our industry. Mexico will grant cross border 
authority for United States carriers to serve only one point in 
Mexico. It will not allow United States bus carriers to own or 
operate bus terminals in Mexico. And, it will not authorize 
those carriers to provide package service in Mexico. DOT 
proposals contain no such limitations on Mexican bus companies, 
and these differences could cripple the United States bus 
industry.
    In conclusion, Mr. Chairman, we would like to say that 
NAFTA, we believe, can be implemented fairly and safely and in 
a way that provides opportunities for bus operators, and the 
customers we serve throughout North America. However, we do 
urge Congress and this Administration to work together with the 
Mexican Government to ensure that the highest level of safety 
exists for the traveling public. With that, Mr. Chairman, I 
thank you for the opportunity to testify before this Committee 
today.
    [The prepared statement of Mr. Pantuso follows:]

      Prepared Statement of Peter J. Pantuso, President and CEO, 
                        American Bus Association
Introduction
    Good morning Mr. Chairman and Members of the Committee. My name is 
Peter J. Pantuso and I am President and CEO of the American Bus 
Association. Thank you for the opportunity to testify on the impact of 
the North American Free Trade Agreement on motorcoach transportation.
    ABA is the trade organization of the intercity bus industry with 
more than 3,400 member motorcoach operator, tour and travel 
organizations and suppliers to the industry in the United States and 
Canada. We are currently celebrating our 75th year of service to the 
industry. Buses in the United States transport over 774 million 
passengers annually--over 200 million more than airlines and more than 
double Amtrak and commuter rail. We serve more than 4,000 communities 
and log more than 2.6 billion miles annually.
    We are the safest mode of commercial passenger transportation with 
the lowest fatality rate per 100 million passenger miles traveled. 
According to the National Safety Council's Injury Facts reporting on a 
period from 1995--1997, U.S. motorcoach travel averaged .01 passenger 
fatalities per 100 million passenger miles compared to .04 passenger 
fatalities for both rail and air travel for the same period and the 
same number of passenger miles. The industry strongly believes that 
even a single fatality is one too many and we continue to look for ways 
to further improve safety. Motorcoach operators and manufacturers 
themselves accomplished this safety record in large part through their 
own efforts to promote the highest standards of safe design and 
operation and vigilant compliance to stringent safety regulation.
NAFTA and Motorcoach Operations
    I am here today to make you aware of motorcoach issues related to 
the implementation of motor carrier provisions of the North American 
Free Trade Agreement, or NAFTA. Although most commentary focuses on 
trucks, the fact is that there are unique and important bus issues that 
must be addressed.
    ABA supports timely, safe and reciprocal implementation of NAFTA. 
However, we are concerned that the NAFTA implementation rules 
recentlyproposed by the Federal Motor Carrier Safety Administration of 
the Department of Transportation do not ensure reciprocity or safety in 
bus operations. Those proposals could open up U.S. markets to Mexican 
bus companies without limitation, notwithstanding the Mexican 
government's stated intent to limit U.S. bus companies' ability to own 
and operate Mexican terminals; to provide crossborder service to 
multiple points in Mexico and to carry incidental package express. Bus 
service is not viable with these limitations.
    We are equally concerned by the gaps in the safety proposals. 
Unlike trucks, NAFTA authorizes Mexican motorcoach companies to set up 
U.S. subsidiaries to provide domestic U.S. bus service. DOT recognized 
that special procedures must be in place to ensure the safety of 
Mexican bus and truck operations, but without explanation, declined to 
apply those procedures to subsidiaries of Mexican motorcoach companies 
providing domestic U.S. service. Furthermore, there is little 
indication of a DOT program to ensure the safety of Mexican buses and 
bus operations. Indeed, existing border scrutiny of motorcoaches is 
sadly lacking.
    The NAFTA surface transportation provisions are designed to 
eliminate restrictions in all three NAFTA countries that limit access 
for and investment in transportation companies. For buses, changes in 
access refer to lifting of crossborder restrictions on charter and tour 
buses, a provision that has already been implemented, and a reciprocal 
lifting of restrictions on regular route carriers which has yet to be 
implemented. In terms of new investment opportunities under NAFTA, the 
U.S. is to allow 100 percent investment in bus companies owned by 
Mexicans while Mexico is to allow 51 percent U.S. ownership of Mexican 
companies this year and 100 percent in January, 2004. Again, it is 
important to emphasize that unlike Mexican-owned U.S. trucking 
companies, which are limited to carrying international cargo, Mexican-
owned U.S. bus companies will be allowed to provide both domestic and 
international service in the U.S.
The Mexican Bus Industry
    An ABA delegation of members and staff visited Mexico last month in 
order to gain a better understanding of the opportunities and 
challenges facing our members under NAFTA. I must say, frankly, that we 
were impressed with what we saw. Perhaps most extraordinary was the 
information provided by the Mexican Bus Association, CANAPAT, that 
passengers in Mexico took more than 3 billion bus trips last year 
alone. Over 92 percent of the Mexican population rides the bus for 
intercity trips at least once per year. A number of companies operate 
more than 4,000 motorcoaches. This is no small business in Mexico.
    We were impressed with the facilities we visited in Mexico City. 
Mexican bus companies operate out of centralized bus terminals that 
compare favorably to many airports in the U.S. with comfortable waiting 
areas, well-established gates, electronic ticketing, pre-boarding 
security procedures, shopping, and friendly, convenient and abundant 
service. Again, this is a significant industry. Clearly people in 
Mexico have realized that bus service is an affordable and common-sense 
alternative when road congestion and environmental concerns are at 
issue. Bus service connects the most rural towns with Mexico City and 
other metropolitan areas and with other villages.
    Several things were made clear to us during that trip. Mexico 
represents a large market of people that rely heavily on bus service. 
Mexican bus companies pay lower wages to their workers than U.S. bus 
companies but have considerably less access to capital than their 
neighbors to the north. Partnerships make sense between U.S. and 
Mexican bus companies given these conditions as a backdrop and some of 
these partnerships are already in place.
    However, I must emphasize that we also learned that there are 
important differences between the U.S. motorcoach industry and the 
Mexican motorcoach industry. First, the magnitude of the difference in 
size of both the industry as a whole and the individual companies 
within the industry--3 billion passenger trips by bus annually in 
Mexico versus 774 million in the U.S.; small fleets in the U.S. 
compared to large fleets in Mexico. And, perhaps most significantly, 
differences in vehicle safety standards and the way in which industry 
is regulated. For all these reasons, we must be able to rely on strong 
enforcement in the United States to ensure safe highways and to ensure 
a level playing field for U.S. operators.
    We will work with the Mexican bus association in the months ahead 
to insure that they better understand the rules they must abide by in 
the U.S. in order to operate safely on our roads. We expect to learn 
from them, as well, regarding the rules of the road in Mexico. The 
reason that crossborder bus service works well along our northern 
border with Canada is because, to a large extent, Canada has adopted 
almost identical regulations for drivers, vehicles, hours of service 
and various other safety provisions.
    The rules between the U.S. and Mexico, however, are not identical. 
So, for now, while we are in Mexico, we will operate under their rules 
and when they are in the U.S., they will be expected to operate under 
U.S. rules. Eventually, given the proper authority and necessary 
resources, the NAFTA Land Transport Standards Subcommittee (a NAFTA 
working group including government regulators from all three NAFTA 
countries), working with groups like ABA and the Commercial Vehicle 
Safety Alliance, should be able to bring those rules into closer 
alignment to the benefit of us all. But in the meantime, it is of 
utmost importance that enforcement officials are vigilant in their 
efforts to ensure that all motorcoach companies operating on U.S. roads 
comply with U.S. highway safety rules.
Enforcement of Motorcoach Safety
    Following our visit to Mexico City, our group traveled to the U.S.-
Mexico border to see the Veteran's Bridge (one of four border crossing 
bridges in Brownsville) to meet with U.S. Customs officials. Over 350 
buses cross that border point every week over the Veterans Bridge. 
Customs inspects all of those buses for drugs or other forms of 
contraband and the Immigration and Naturalization Service (INS) reviews 
passenger documentation. However, we were told that although the U.S. 
Department of Transportation inspectors inspects trucks daily, they 
only inspect buses one day per month. That means that, on that one 
bridge alone, more than 1,300 of the over 1,400 buses crossing monthly 
go uninspected by DOT. This concerns us greatly.
    It seems that somewhere during the highly-charged debate on NAFTA 
and trucking, the authorities forgot that buses carry passengers--not 
freight--across the border. It seems to us that we have a much greater 
stake in fair and effective enforcement than has been reflected in the 
dialog to date. The current practices need to change to assure 
passenger safety and the safety of the traveling public on the roads.
    We are not suggesting that Mexican buses are unsafe, they are made 
by Dina, Volvo and Mercedes--all of whom supply the U.S. market. We are 
only suggesting that frequent inspections will assure compliance with 
U.S. Federal Motor Vehicle Safety Standards (FMVSS) and Federal Motor 
Carrier Safety Regulation (FMCSR) requirements and keep safety the 
number one priority.
    ABA has several specific concerns relating to the safety regulatory 
framework recently proposed by DOT relating to full implementation of 
NAFTA crossborder access rules. The proposals fail to take into account 
that, unlike for trucks, the NAFTA bus provisions allow for domestic 
operations by Mexican-owned bus operations
    In the recent rulemaking proposal, DOT proposes to establish a 
system of special application procedures and oversight for Mexican 
companies providing crossborder services. But they specifically exempt 
from those procedures and that oversight Mexican passenger carriers 
that establish U.S. subsidiaries to provide domestic service in the 
U.S. This creates a giant loophole--Mexican companies operating in 
crossborder service are subject to the special application procedures 
and oversight while Mexican companies operating domestically are not.
    We urge DOT to modify its proposal to apply its proposed special 
safety procedures for crossborder carriers to Mexican owned, U.S.-based 
companies applying to provide domestic U.S. bus service.
    We also urge DOT to create a specific plan to ensure the safety of 
Mexican passenger motor carriers prior to finalizing their proposed 
rules and include the details of that plan in its decision promulgating 
the final rules.
    The plan should address specific issues such as:

  <bullet> Creation of an effective mechanism for preventing Mexican-
        manufactured buses that do no comply with the Federal Motor 
        Vehicle Safety Standards or the Federal Motor Carrier Safety 
        Regulations from entering the United States.

  <bullet> Enforcement of rules relating to Mexican drivers providing 
        passenger service in the U.S. The law requires that only U.S. 
        citizens or resident aliens can provide domestic passenger 
        service in the U.S. We believe that Mexican officials 
        incorrectly interpret NAFTA as overturning this U.S. 
        immigration law. DOT should work with INS to develop mechanisms 
        to effectively enforce the immigration laws.

  <bullet> DOT should also make clear that the proposed rules apply to 
        both buses and commercial passenger vans carrying nine or more 
        people in intercity service, including the driver. The 
        department is expected to publish a final rule soon related to 
        these ``camioneta'' operations that would increase these 
        operators' safety compliance responsibilities--this should not 
        fall through the cracks as the Department plans for the border 
        opening.
Reciprocity with Mexican Bus Companies
    We also have a number of concerns in relation to market equity with 
Mexican bus operators. NAFTA requires that the implementation of the 
crossborder transportation provisions be executed in a reciprocal 
manner with both countries providing the same treatment to citizens of 
the other country. However, there are several ways in which Mexico 
appears to be taking positions contrary to that mandate.
    Mexico has taken the position that it will grant cross-border 
service authority for U.S. carriers to serve only one point in Mexico; 
it will not allow U.S. carriers to own or operate bus terminals in 
Mexico; and it will not authorize those carriers to provide incidental 
package express service as part of its crossborder trips. DOT's 
proposals contain no such limitations. Mexican companies would be free 
to serve multiple U.S. points; could own and operate bus terminals 
wherever they like; and would be able to carry incidental package 
express on any of their schedules.
    If DOT implements its crossborder service proposals without 
ensuring reciprocal treatment of U.S. companies in Mexico, it could 
devastate the U.S. bus industry, which is much smaller than the Mexican 
bus industry. We urge DOT to engage in discussions with its counterpart 
in Mexico to determine what the terms and conditions of crossborder 
authority should be. Whatever terms and conditions are mutually agreed 
upon during those discussions should be implemented in the final rules.
Conclusion
    We believe that NAFTA can be implemented fairly, safely and in a 
way that provides opportunities for bus operators and the customers we 
serve throughout North America. However, in order for this opportunity 
to be recognized, we are urging Congress and the Administration to work 
together with the Mexican government to ensure that the requests we 
have made which, we believe, will ensure the highest level of safety 
for the traveling public, are implemented with all due haste.
    Thank you for the opportunity to testify today Mr. Chairman.

    The Chairman. Very good. We thank you, sir. Mr. Acklie.

            STATEMENT OF DUANE W. ACKLIE, CHAIRMAN, 
                 AMERICAN TRUCKING ASSOCIATIONS

    Mr. Acklie. Mr. Chairman, Committee members, my name is 
Duane Acklie. I am Chairman of the American Trucking 
Associations or ATA, the national trade association of the 
trucking industry. Through our affiliated trucking 
associations, we have over 30,000 motor carrier members 
throughout the United States. I am also Chairman of Crete 
Carrier Corporation, a rather small trucking company based in 
Lincoln, Nebraska but serving customers in Canada, Mexico and 
the United States.
    ATA supports the North American Free Trade Agreement, 
because it means increasing business for trucking companies and 
more jobs. According to the numbers of the United States 
Department of Commerce since NAFTA was implemented, trade 
between the United States and Mexico has more than tripled from 
81 billion in 1993 to 246 billion in 2000. When measured by 
value, trucks move over 80 percent of the U.S.-Mexico trade and 
move 70 percent of the U.S.-Canada trade. In 1994, when NAFTA 
was implemented, there were about two and a half million truck 
crossings in the United States-Mexico border. In the year 2000, 
nearly five million truck crossings took place at the southern 
border.
    With that background, let me say that ATA has a stakeholder 
position based upon the growing volumes between United States 
and Mexico. ATA members have worked hard to improve safety on 
our highways, which can be seen in the reduced rates of truck 
accidents each year over the past 3 years. As truckers, we 
cannot afford to have our record blemished by unsafe trucks 
from either the United States, Canada, or Mexico.
    ATA supports the proposed process in which applications 
from Mexican carriers to get United States operating authority 
will be reviewed under the proposed Federal motor carrier 
safety rules on a case-to-case basis.
    The information being requested from the Mexican carrier 
goes beyond what is required from the new United States and 
Canadian carriers seeking United States operating authority. 
Let me also point out that when we started cross border with 
Canada, that they had no safety database, which they do today. 
They had no safety rating system, which they do today. And they 
had no alcohol and drug testing. In Canada, they still do not 
have, and it is prohibited, as I understand, by their 
constitution, a random testing on drugs and alcohol. But they 
must comply with all rules and regulations that we have in the 
United States.
    So what we are looking at here today implementing is not 
all that different than what was implemented in Canada. In 
order to get a better understanding of why NAFTA is good for 
trucking, it is important to look at a snapshot of trucking at 
the border today. Today cross border freight is handed off on 
the United States side of the border at one of the 27 truck 
border crossings, but predominantly in the commercial zones of 
California and Texas.
    Through interlying partnership, freight is handled on the 
United States side by the United States carrier and on the 
Mexican side by the Mexican carrier with a middleman or a 
cartage hauler in between, ferrying loads back and forth across 
the border to warehouses or freight yards to pick up and 
subsequent final delivery.
    Now, my own opinion is that there is so much congestion at 
the moment and, at the border, that the reason we are seeing 
the older trucks from Mexico doing a cartage is simply because 
there is really very little utilization because a lot of it is 
tied up. I don't think the long haul Mexican carrier at the 
moment or the United States carrier is that interested in 
having their trucks tied up the border. That is why they--older 
trucks--are being used. I think there will be a different 
standard and different kind of truck once NAFTA is truly 
implemented.
    In other words, one shipment from the United States and 
Mexico today generally requires three drivers, the United 
States carrier, the border carrier, or the, as I would call, 
the cartage carrier and the long haul or Mexican carrier. It 
takes three different pieces of equipment to move. Opening the 
border will allow a free interchange between the responsible 
United States carrier and the responsible Mexican carrier or 
allow the United States carrier to go into Mexico and the 
Mexican carrier to go into the United States
    Our company, for example, being a smaller company, will 
continue interchange at the border with a very limited number 
of carriers we now use. We use responsible Mexican carriers. We 
have not had a problem in hijacking. We have not had a problem 
in theft or damage. All of our trailers go into Mexico, but our 
tractors stop at the border.
    NAFTA's trucking provisions require all foreign carriers in 
the United States to abide by all United States standards. 
What's that mean? We had some talk here today about there 
wasn't going to be any laws. To be able to come into the United 
States, a Mexican carrier is going to have a week's logs when 
they arrive there or they do not get in. They are going to have 
to have a week's logs. We are going to have to do everything to 
check them in the very same manner as we check U.S. carriers.
    NAFTA's trucking provisions require all foreign carriers 
operating in the United States to abide by U.S. standards and 
regulations, including the ability to speak and read the 
English language. ATA supports that position 100 percent. We 
believe in safety. We believe that the Mexican carriers should 
have to do the very same thing as all U.S. carriers.
    In the opinion of ATA and its members, we believe that 
California has demonstrated the strong enforcement and proper 
inspection at the border works. The fact is that every trucking 
company and every driver entering the United States will be 
required to meet each and every safety requirement after 
undergoing a comprehensive review through the proposed Federal 
Motor Carrier Safety Administration application process to 
comply with United States safety standards.
    One of the things I have not heard here today is any 
discussion about insurance. Before a Mexican carrier or United 
States carrier can get liability and cargo insurance, the 
insurance company goes out and does a thorough inspection, when 
we have renewals each year. They come in. They look at our 
hiring procedures. They check our hiring records. They check 
our out-of-service rate. They do everything to decide whether 
or not they are going to insure. I will say to you that each 
Mexican carrier will have to obtain that insurance, and they 
will have a further safety check by the United States insurance 
carrier that is issuing the insurance.
    Such a review would include capturing information regarding 
hiring and training practices, maintenance practices and 
overall safety management. Thus the Mexican trucking companies 
will undergo not only a thorough application by the Federal 
Motor Carrier Safety Administration but also a far more 
thorough review by potential insurance carriers.
    As a practical matter now, I believe it is going to be a 
number of years before we see any substantial number of Mexican 
trucks operating on the United States highways. The larger 
carriers will use a driver to take that tractor and trailer to 
the Mexican border and the Mexican trucker will take the same 
tractor and trailer and proceed on to the destination. In other 
words, they will interchange drivers rather than equipment at 
the border.
    With carriers, like our company, that are smaller, we will 
merely exchange the trailer at the border with the responsible 
carrier and eliminate that cartage company that runs that old 
dilapidated piece of equipment.
    In conclusion, ATA strongly believes that motor carriers 
operating in the United States, no matter what nationality, 
must abide by United States safety standards. However, ATA is 
concerned that the discussion of our Mexican counterparts are 
based more on an incomplete understanding of motor safety and 
prejudice toward the Mexican carriers instead of being based on 
hard facts that relate to safety. Thank you, Mr. Chairman, 
thank you members of the Committee.
    [The prepared statement of Mr. Acklie follows:]

           Prepared Statement of Duane W. Acklie, Chairman, 
                     American Trucking Associations
    The American Trucking Associations, Inc. (ATA), with offices 
located at 2200 Mill Road, Alexandria, Virginia 22314-4677, is the 
national trade association of the trucking industry. Through our 
affiliated trucking associations, and their over 30,000 motor carrier 
members, affiliated conferences, and other organizations, ATA 
represents every type and class of motor carrier in the country.
    ATA has long viewed free trade as an important tool in improving 
our country's economic growth. Since the North American Free Trade 
Agreement (NAFTA) was implemented, trade between the United States and 
Mexico has more than tripled from $81 billion in 1993 to $246 billion 
in 2000.\1\
---------------------------------------------------------------------------
    \1\ Source: International Trade Administration, U.S. Department of 
Commerce
---------------------------------------------------------------------------
    The trucking industry plays a critical role in the success of 
NAFTA. Trucks transport over 80 percent of the value of U.S.-Mexico 
trade, and over 70 percent for U.S.-Canada trade. Trucking companies 
have benefited from the growing trade volumes among the NAFTA partners, 
considering that higher trade flows have resulted in more business for 
motor carriers in all three nations. Implementing NAFTA's trucking 
provisions will allow motor carriers to better meet the transportation 
demands of our growing trade flows, doing so in an efficient, 
effective, and safe manner.
    NAFTA and Trucking. The trucking industry has long supported NAFTA. 
Therefore, ATA firmly opposed the delay by the U.S. Government in 
implementing the essential cross-border trucking provisions of NAFTA. 
The delay has arbitrarily denied Canada, Mexico and the United States 
the full benefits of this important trade agreement, negatively 
impacting U.S. shippers and carriers engaged in NAFTA trade.
    Under NAFTA, beginning on December 18, 1995, U.S. and Mexican 
carriers were to have been allowed to pick up and deliver international 
freight into each other's states contiguous to the U.S.-Mexico border. 
By January 1, 2000, access would expand to all states on either side of 
the border. NAFTA's trucking provisions would enhance the 
competitiveness of U.S. goods in the Mexican market by providing U.S. 
exporters and importers an efficient cross-border trucking operation.
    When then Secretary of Transportation Federico Pe&ntilde;a 
announced that the implementation of NAFTA's motor carrier provisions 
were being postponed, he cited safety and security concerns regarding 
Mexican trucks operating in the United States as the reason for the 
delay. However, it is important to remember that NAFTA's trucking 
provisions require all foreign carriers operating in the United States 
to abide by U.S. standards and regulations, so only Mexican carriers 
who applied and then met U.S. standards would be given U.S. operating 
authority. ATA fully supports rigorous enforcement of all U.S. 
standards for all carriers operating in this country, U.S. and foreign. 
The current freeze on NAFTA, however, imposes a presumption of guilt 
based upon national origin: no matter how safe the Mexican trucking 
company, it cannot get permission to leave the border zone.
    The trucking provisions of NAFTA also allowed U.S. and Canadian 
carriers to improve their ability to invest in the Mexican market. 
Starting on December 18, 1995, U.S. and Canadian investors have been 
permitted to invest in up to 49 percent ownership of Mexican trucking 
companies or terminals providing exclusively international freight 
services. On January 1, 2001, the investment ceiling increased to 51 
percent, and, on January 1, 2004, the rights expand to 100 percent. In 
the United States, starting on December 18, 1995, Mexican investors 
were to be allowed to invest up to 100 percent in a U.S. trucking 
company providing international freight services. This commitment had 
also remained unfulfilled until President Bush lifted the moratorium on 
investment by Mexican nationals on June 6 of this year.
    Because the NAFTA trucking provisions have been delayed, trucking 
companies that have invested in equipment to provide a first rate 
freight service throughout North America, are left to operate in an 
outmoded and ineffective freight transfer system at the U.S.-Mexico 
border. A shipment traveling from the United States to Mexico, or vice-
versa, requires no less than three drivers and three tractors to 
perform a single international freight movement. Through interline 
partnerships, freight is handled on the U.S. side by a U.S. carrier and 
on the Mexican side by a Mexican carrier, with a ``drayage'' hauler in 
the middle. The drayage truck ferries loads back and forth across the 
border to warehouses or freight yards for pickup or subsequent final 
delivery.
    Congestion is compounded because trailers come back empty after 
delivering their freight across the border and because drayage 
``bobtails'' (tractors without trailers) deliver a trailer only one-way 
across the border and return solo. In addition to requiring two long-
haul carriers, one on either side of the border, and a drayage carrier 
to haul the shipment across the border, the process includes freight 
forwarders, customs brokers, as well as the official processing handled 
by government inspectors and enforcement officials. This process 
results in extra trucks on the road, congestion, delays and ``over 
handling'' of shipments that invariably leads to increased costs, and 
lost and damaged freight.
    Furthermore, the existing border infrastructure and human resources 
are seriously overburdened by the increased congestion generated by the 
growth in trade flows and the present outmoded cross-border trucking 
scheme. If, as anticipated, trade flows between Mexico and the United 
States continue to grow, the border facilities and personnel will only 
be further strained. To illustrate, according to a study by the 
International Association of Chiefs of Police (IACP), from 1994 to 
1999, northbound truck crossings increased from 2.7 million to over 4.5 
million. It is important to remind this Committee that these numbers 
reflect truck crossings and not the actual number of trucks crossing. 
According to the IACP, about 80,000 trucks accounted for the 4.5 
million truck crossings.\2\
---------------------------------------------------------------------------
    \2\ International Association of Chiefs of Police; Estimates of 
Commercial Motor Vehicles Using the Southwest Border Crossings, 
Economic Data Resources, Bethesda, Md, September 20, 2000, appendix A
---------------------------------------------------------------------------
    Drayage vs. Long-haul. The trucks presently crossing the border 
into the United States are drayage trucks. It is these drayage trucks 
that are being inspected when crossing the border into the United 
States and that have a high out of service rate as detailed in the U.S. 
Department of Transportation Inspector General's report (IG report) 
published in December 1998. (Report # TR-1999-034)
    However, the very same situation that occurs with drayage 
operations on the U.S.-Mexico occurs, regrettably, each day at 
intermodal terminals in the United States. For example, in Kansas City, 
Missouri, in the heart of America, drayage trucks perform transfer 
movements at the second busiest intermodal rail facility in the nation. 
According to the Kansas City Police Department, the out of service rate 
in Kansas City for drayage trucks is 45 -50 percent, about the same as 
drayage operations at the port of entry in Laredo, Texas.
    Drayage operations use older equipment because they are simply 
performing short transfers of freight from one side of the border to 
the other side, or from one end of the intermodal facility to the other 
end. Motor carriers, either on the U.S.-Mexico border, or in Kansas 
City, Missouri, do not invest $100,000.00 in equipment to perform short 
drayage operations. They simply cannot afford to do so. Motor carriers 
that buy new and expensive equipment do so for long-haul movements. 
Therefore, the trucks crossing the border today are not the same 
Mexican trucks that would operate in the United States once NAFTA's 
trucking provisions are implemented.
    The IG report states that of the Mexican trucks crossing the 
border, an inordinate percentage of them, 44 percent, are put out of 
service, compared to 25 percent for the U.S. and 17 percent for Canada. 
It is critical to note that these are not random inspections, but 
targeted inspections by trained inspectors who know what they are 
looking for. The report recognizes that this population of drayage 
trucks may not be ``statistically representative of the universe of 
Mexican trucks that are non-compliant.'' Furthermore, the study also 
raises that ``once the border is open to long-haul traffic, the number 
and percentage of safety compliant Mexican trucks will dramatically 
increase because long haul trucks will be different from, and in better 
condition, than the shorter haul trucks'' used for drayage in the 
commercial zones.
    It is important to note, however, that in a subsequent study of 
U.S.-Mexico cross-border trucking operations, the IG reported that the 
out of service rate for Mexican trucks entering the U.S. dropped from 
44 percent in 1998 to 36 percent in 2000.\3\
---------------------------------------------------------------------------
    \3\ Interim Rerport on Status of Implementing the North American 
Free Trade Agreement's Cross Border Trucking Provisions,  U.S. DOT 
Inspector General Report # MH-2001-059, May 8, 2001, pg. 7
---------------------------------------------------------------------------
    In addition, the IG report stated that there is a strong 
correlation between the quality level of inspection procedures and 
facilities, and the out-of-service rate of Mexican trucks crossing the 
border into the U.S. In California, the out of service rate of Mexican 
trucks is 28 percent (nearly the same as the U.S. rate), compared to 
Texas at 50 percent. These out of service rates also changed in the 
2001 IG report, with California down to 26 percent and Texas at 40 
percent. According to both IG reports, the more rigorous inspection 
procedures in California encourage Mexican truckers to make sure their 
equipment is up to U.S. standards. The reports also stated that there 
is a need for increased funding to hire additional inspectors and to 
build adequate border inspection facilities. ATA agrees with this 
assessment, and therefore believes it is critical that the resources 
requested by the President for FY 2002 to hire more inspectors and to 
build inspection facilities be fully funded.
    The IG report concluded that too few trucks ``are being inspected 
at the U.S.-Mexico border, and that too few inspected trucks comply 
with U.S. standards.'' Considering that the present trucks are the pre-
NAFTA drayage trucks, this is no surprise. Once NAFTA's trucking 
provisions are implemented, safety and congestion will be improved at 
the border by reducing the dependency on drayage operators to transfer 
trailers across the border, and therefore reducing the number of empty 
trailers and bobtail tractors operating at the border.
    Motor Carrier Safety Encompasses More Than Equipment Condition. ATA 
believes it is important for the Committee and the public to recognize 
that motor carrier safety is a much broader issue than just the 
condition of the truck that is being operated on the highway. In fact, 
a more important component of truck safety is the licensing and 
qualification of the driver operating the truck. This statement is 
supported by the fact that general vehicle crash causation studies 
consistently indicate that approximately 90 percent of vehicle crashes 
are caused by actions or mistakes on the part of the driver. This is 
true whether the issue is passenger car crashes, or truck-involved 
crashes. Conversely, only a very small percentage of vehicle crashes 
are caused by defects in the vehicle being operated. Given these facts, 
it is curious why so much attention in the Mexican truck safety debate 
has been placed on the out-of-service rates of Mexican trucks.
    In ATA's view, the overall safety of the Mexican trucking industry 
has been inappropriately labeled as less than satisfactory based 
primarily on the condition of Mexican drayage trucks operating in the 
U.S. commercial zones. This is unfortunate, and it seems unwise from a 
motor carrier safety and a general highway safety perspective, to put 
so much emphasis on the equipment and pay so little attention to what 
systems are in place regarding the driver.
    The Committee should be aware that the Mexican federal government 
has had an effective commercial driver licensing program in place for 
years. In fact, in 1991 the standards and procedures for issuing a 
Mexican Licencia de Federal were recognized by the U.S. Department of 
Transportation as equivalent to their own Commercial Driver's License 
(CDL) standards and procedures. The reciprocity agreement recognizing 
this fact was signed by both countries in 1991, despite the fact that 
the CDL program in the U.S. was not fully operational until a year 
later.
    Additionally in 1991, the U.S. Department of Transportation 
recognized the Mexican government's medical requirements for truck 
drivers as equivalent to those in place in the U.S. A reciprocity 
agreement is in place between both countries on this important driver-
related issue as well. The Mexican government has also had in place 
since 1993 hours of service and logbook regulations for truck drivers 
hauling hazardous materials. These requirements were recently extended 
to all Mexican truck drivers.
    It is true that the Mexican regulatory regime is not identical to 
that which is in place in the U.S. However, the same statement can be 
made for the regulatory system in place in Canada. The fact is that 
every truck and truck driver from Mexico that will operate in the U.S. 
must abide by all U.S. safety requirements when operating in this 
country. The U.S. Department of Transportation should be allowed to 
assess during the application process a Mexican trucking company's 
ability to meet the standards, and those carriers and drivers that can 
pass the test, should be allowed to operate in the U.S.
    Language requirements. NAFTA's Land Transportation Standards 
Subcommittee (LTSS) has determined that there are minimal differences 
among the three NAFTA member countries, which do not affect the safety 
of cross-border trucking services.
    Foreign drivers, be they from Mexico, French-speaking Quebec, 
Poland or Russia, are required to have sufficient ability to understand 
road signs and to have basic proficiency levels to communicate in 
English when driving in the U.S. The Code of Federal Regulations, CFR 
49, Section 391.11 (b)(2) states that a person is qualified to drive a 
commercial vehicle if he/she ``can read and speak the English language 
sufficiently to converse with the general public, to understand highway 
traffic signs and signals in the English language, to respond to 
official inquiries, and to make entries on reports and records.''
    It is important to note that the ability to fluently speak the 
language of the host country in which a truck driver is operating does 
not represent an essential safety concern. Proof of this is the 
European Union where truck drivers from member countries operate freely 
throughout the region.
    Labor requirements. Mexican drivers entering the U.S. for the 
purpose of delivering and picking up international cargo are considered 
as temporary business visitors, and therefore not subject to U.S. 
domestic labor laws. This definition is included in the NAFTA text in 
Chapter XVI, Annex 1603, Section A, Business Visitors, 1, which states: 
``Transportation operators transporting goods or passengers to the 
territory of a Party from the territory of another Party, or loading 
and transporting goods or passengers from a territory of a Party, with 
no unloading in that territory, to the territory of another Party.''
    Since a Mexican driver receives compensation in Mexico, and has an 
employment relationship with a Mexican-based company, the driver is 
covered by Mexico's labor laws, not U.S. labor laws. These are the same 
requirements that cover Canadian drivers driving in the United States.
    Recent developments. ATA strongly supported the final finding 
released on February 6, 2001 by the NAFTA Arbitration Panel. The panel 
ruled that the U.S. had not met its commitments as established under 
NAFTA, and therefore should begin processing the applications of 
Mexican carriers. The arbitration panel also ruled that:

        L``The United States may not be required to treat applications 
        from Mexican trucking firms in exactly the same manner as 
        applications from U.S. or Canadian firms, as long as they are 
        reviewed on a case by case basis. (Emphasis added) U.S. 
        authorities are responsible for the safe operation of trucks 
        within U.S. territory, whether ownership is U.S., Canadian or 
        Mexican . . . Thus, to the extent that the inspection and 
        licensing requirements for Mexican trucks and drivers wishing 
        to operate in the United States may not be ``like'' those in 
        place in the United States, different methods of ensuring 
        compliance with the U.S. regulatory regime may be justifiable. 
        However, if in order to satisfy its own legitimate safety 
        concerns the United States decides, exceptionally, to impose 
        requirements on Mexican carriers that differ from those imposed 
        on U.S. or Canadian carriers, then any such decision must (a) 
        be made in good faith with respect to a legitimate safety 
        concern and (b) implement differing requirements that fully 
        conform with all relevant NAFTA provisions.'' (Emphasis added)

    Following the guidance of the Arbitration Panel, on May 3, 2001, 
FMCSA published three notices of proposed rulemaking (NPRM) in the 
Federal Register. These proposed rules relate to the process by which 
Mexican motor carriers will have to complete to obtain U.S. operating 
authority. The three proposed rules are as follow:

  <bullet> Revision of regulations and a new application form to be 
        filled by Mexican motor carriers that intend to operate in U.S. 
        commercial zones contiguous to the U.S.-Mexico border (Form OP-
        2);

  <bullet> A new application form for Mexican motor carriers that 
        intend to operate in U.S. territory beyond the commercial zones 
        (Form OP-1(MX); and,

  <bullet> A new safety audit review mandated by the 1999 Motor Carrier 
        Safety Improvement Act (MCSIA), which would be required of all 
        new motor carriers recently granted operating authority by the 
        U.S. Department of Transportation within an eighteen month 
        period.

    In its comments to FMCSA in relation to the proposed rules, ATA 
recognized the Arbitration Panel's objective stated above granting the 
U.S. government the ability to request information from Mexican motor 
carriers above and beyond what is requested from new U.S. or Canadian 
carriers. Although the proposed rules do raise questions about 
violating the ``national treatment'' and ``most favored nation'' 
clauses established under NAFTA, ATA expects FMCSA's final rules to 
still require Mexican carriers to provide far more information on their 
ability to meet U.S. safety standards than carriers from the United 
States or Canada. Any concerns over safety of these carriers from 
Mexico and their trucks and drivers can and will be addressed in the 
rules for implementing the NAFTA agreement. The bottom line is that 
every trucking company, every truck and every driver entering the 
United States will be required to meet each and every U.S. safety 
requirement only after undergoing a comprehensive review through the 
proposed FMCSA applications, of their ability to meet those standards.
    Conclusion. ATA continues to encourage the United States and Mexico 
to agree on comprehensive safety standards through the work of the 
LTSS, establish and test effective enforcement programs, and staff 
border facilities with full time inspectors as they move forward in 
implementing NAFTA's trucking provisions. In 1999, ATA worked 
aggressively to include language in the legislation that created the 
FMCSA requiring that all trucks entering the U.S. from Mexico under 
NAFTA must meet U.S. truck safety standards.
    ATA strongly believes that motor carriers operating in the United 
States, no matter what their nationality, must abide by U.S. safety 
standards. However, ATA is concerned that attacks on our Mexican 
counterparts are more based on an incomplete understanding of motor 
carrier safety and prejudice towards Mexican carriers, instead of being 
based on hard facts related to safety.
    The U.S. trucking industry, shippers and the American consumers 
that we serve have already seen considerable benefits from NAFTA, i.e. 
job creation, opening of new markets for U.S. goods and services, 
business expansion opportunities, reduction in tariffs, and increased 
production efficiencies. Although NAFTA has proven beneficial to U.S. 
industries and consumers, the U.S. Government's decision to delay 
cross-border trucking service has unduly penalized not only the 
transportation industry, but also U.S. exporters and importers alike.
    Implementation of NAFTA's trucking provisions will eliminate a 
cumbersome, outdated and costly system of moving freight across the 
border, and replace it with an efficient, transparent and safe cross-
border trucking process. It is essential that public officials remember 
that implementing NAFTA's trucking provisions will also allow for U.S. 
carriers to increase to further improve their ability to provide cross-
border freight services between the U.S. and Mexico. Once the border is 
opened, our countries can begin to recognize the full benefits of NAFTA 
and increased trade between the United States and Mexico. Then, we can 
focus our efforts on the many business and practical issues that will 
arise from the cross-border integration process, which can only be 
tackled with the goodwill of committed trading partners.

    The Chairman. Thank you very much. The statement is made 
that the trade has increased three times, but we have 
unfortunately had to look at what really has tripled, and not 
the trade of products, but the trade of jobs. My little state 
has lost 43,200 textile jobs. The textile industry and the 
berry industry has lost over 400,000 since NAFTA, and right to 
the point with respect to going down there, the statement made 
by Ms. Claybrook relative to an actual onsite audit rather than 
a paper audit, Mr. Hoffa, I hope your Teamsters do not move to 
Mexico. I can see----
    Mr. Hoffa. I don't think they will do that.
    The Chairman. I can see Hollings Manufacturing or General 
Motors putting a subsidiary down there, one of their trucking 
lines and if they organize them, you got to look not just at 
the fact that they do have a union, but the composition of the 
union itself. In Tijuana a few years ago, I went down to look 
at the situation there and it so happened that the previous, 
they had a heavy rain, mud and everything. Came up around San 
Diego with the settlement, I guess it was 100,000 in a hard, 
crusted, no roads, no real development.
    They just--housing was 5 garage doors put together, for 
example. Well, with that heavy rain, everything just washed out 
and people trying to get their belongings together, they missed 
3 days of work and under the labor rules in Mexico, they were 
docked an additional one so they lost 4 days. And in February, 
they had someone have his eye knocked out and they did not like 
that, the particular workers and then of course, the first week 
in May, their very favorite supervisor, she was expecting.
    She went to the front office midday and said I have got to 
go home to work. She says no, no. You are being required and 
you got to continue to work. And as a result, she miscarried, 
so the workers in that particular plant said we are going up to 
California and we are going to organize, and they went up to 
Los Angeles, and you know what they found out? They had a 
union.
    When that plant had moved from Santa Angelo down to Mexico, 
they filled out the papers between the lawyers. Down at the 
plant, they had never seen a steward or anybody from the union 
or whatever it was. They just swapped the paper and swapped the 
money, but that there was a compliance of having a paper union. 
And under the law in Mexico, if you try to organize a union, 
whereby you have a union, you file--and it was the mayor of 
Tijuana that invited Senator Hollings to come in and listen to 
these 12 workers who had been fired.
    Now, I wrote an article about NAFTA for the foreign policy 
edition, and they gave me $500. I sent it to the little lady 
who showed me around, I said go down there and organize. I am 
trying to organize in Mexico because it is really, we got to 
look closely at these things. I can tell from the testimony, 
and this is one of the best hearings that we have ever had, it 
has come out that we are in trouble, namely the United States, 
not Mexico.
    I think the fact that you have met with President Fox, Mr. 
Hoffa, and you have both gotten along and understand each other 
and can talk candidly and everything else gets past all of the 
politics about the NAFTA and the diplomacy and about enforcing 
the agreement.
    Specifically, let me just ask one question, Captain Vaughn. 
You went into details about all the things that had to be 
checked. Knowing from your experience all of those things that 
have to be complied with and everything else like that, do you 
think we are on course to really getting that done by January 
1st?
    Captain Vaughn. To do the CVSA plan, I believe there is an 
opportunity. If we do case studies rather than compliance 
reviews, what we are offering is to use state inspectors as 
part of a team that will also include a Federal representative 
and Mexican representative. That team will go in and we can 
look at each of the carriers that are applying for authority. 
Under that----
    The Chairman. Have they put too much of the responsibility 
on the state?
    Captain Vaughn. It does fall back on the state but as the 
Commercial Vehicle Safety Alliance, our focus is on the safety 
of the nation's highways. And if we can get the support of our 
individual states, we are willing to do that, to go down and 
assure that those companies are, and should be accredited to 
operate in the United States. I believe we can do so. Yes, sir.
    The Chairman. Let me yield to our distinguished chairman of 
the Transportation Subcommittee because he had to be earlier at 
another hearing. Senator Breaux.
    Ms. Claybrook. Could I just ask a question about what he 
just said? He said do case studies and look at each carrier. Is 
he referring to occasional case studies or is he referring to 
looking at in fact every carrier with a full case study?
    Captain Vaughn. What we would look at is each--currently we 
have been advised there are approximately 200 carriers in 
Mexico that are going to apply for authority to operate in the 
United States. If questions go to those 200 carriers, do the 
initial, so that they can have the authority to operate, it 
would be a conditional authority to operate, then it would fall 
back upon the Federal Motor Carrier Safety Administration to 
follow up and do the subsequent compliance reviews. That that 
is the direction this Committee, or rulemaking takes us.
    Ms. Claybrook. So you are talking about doing an on-site 
type of audit or just advising the company?
    Captain Vaughn. No. On-site in Mexico at the carrier's 
place of business.
    Ms. Claybrook. But not a full compliance review.
    Captain Vaughn. Not a full compliance review.
    The Chairman. Senator Breaux.

                STATEMENT OF HON. JOHN BREAUX, 
                  U.S. SENATOR FROM LOUISIANA

    Senator Breaux. Thank you, Mr. Chairman. I did not mean to 
jump in front of our colleagues. I was chairing the aging 
hearing this morning and we had a great hearing. I think this 
is a subject matter that the Committee should act on, I mean, 
not just be subject to an appropriations amendment, but this is 
real policy, and I think that Surface Transportation 
Subcommittee with the chairmen's cooperation really needs to 
move into codifying these new rules, whatever we decide is an 
appropriate standard. They ought to be part of the law and not 
just subject to an appropriation rider.
    Having said that, I think that Senator Murray and her team 
worked on putting together this proposal. She has really done a 
very credible job and helpful job in setting out some standards 
that I think make some sense. If we had $103 million more in 
the appropriations bill for border safety activity, that is 
more than the administration was requesting by about $15 
million.
    That is a significant amount of money to be used that is 
not there today to improve the ability to conduct inspections 
and to assure safety which we all think is appropriate. I am 
impressed with two particular aspects of the Murray amendment, 
and I think it goes a long way.
    Number one is that they would be prohibited from opening up 
the border until the Department of Transportation is able to 
certify that there is an adequate capacity to conduct a 
significant number of meaningful inspections. It is one thing 
to have an inspection program, but if you do not have enough 
people to conduct it, it is not worth the paper that it is 
written on. So the $103 million hopefully will be able to show 
that this in fact has adequate people to do the job with 
inspecting vehicles that come across. They cannot come across 
openly until that is certified.
    The second thing I think is a good feature of it is the 
question of insurance. I think Mr. Acklie or someone spoke to 
that question. If the Murray amendment, as I understand it, 
says that they have to provide proof of valid insurance with an 
insurance company that is licensed and based in the United 
States. I mean, there is no insurance company worth its salt 
that is going to insure vehicles that are not safe. It is an 
economic loss to them.
    My colleague, Senator Boxer mentioned to me that they only 
buy insurance for 1 day. Well the insurance should cover the 
time that they are in the United States. If it is 1 day or 1 
week, it should be within that period. You cannot provide 
insurance for a whole year if you are only going to be here for 
7 days, it should cover the time that you are here, and I think 
that is going to be a real enforcement mechanism in addition to 
the government. I don't think any insurance company is going to 
risk insuring a vehicle that does not meet standards which is 
an incredible potential liability they would have if in fact an 
accident occurred and resulted from the negligence of the 
carrier.
    So my simple question is with the Murray amendment, does 
anyone think that that is something we should not do? Either 
for the sake of it being too stringent or for the point that it 
is not stringent enough?
    Ms. Claybrook. We support the Murray amendment.
    Mr. Hoffa. Teamsters do, too.
    Mr. Acklie. I think Secretary Mineta said that it needed 
some fine tuning. With that, it just seems that it should be 
supported.
    Senator Breaux. The bus thing. We had some terrible bus 
tragedies in Louisiana, and I think the industry has moved 
toward correcting some of those problems. Not so much with the 
national carriers, but a lot of the private, smaller carriers 
were having drivers that should have been in jail instead of 
driving a bus.
    Mr. Pantuso. You are right, Senator. There is still a great 
deal to do. Much of this responsibility for change falls to 
FMCSA.
    Senator Breaux. I think we are moving in the right 
direction.
    Senator Dorgan. Thank you. I thank the panel for their 
testimony. I guess I am missing something here. We have got 
people who say yes, the Federal Government can get this done by 
January 1st. I mean, am I missing, have you all worked with 
Federal agencies? Have you all worked with Federal agencies? 
Has anybody here had any experience in working with Federal 
agencies. This is a huge job. A huge job.
    I am willing to bet you it is not going to get done in the 
next 5 years, let alone the next 5 months but we have got this 
fiction going on here. There is an old saying never buy 
something from someone who is out of breath. There is kind of a 
breathless quality about this notion that you can put something 
together by January 1st, assure the safety of the American 
people with the trucking industry that is allowed into this 
country that has such radically different standards.
    With respect to Mr. Acklie's statements, I understand the 
point that they have logbook requirements, do not carry 
logbooks, they do not use logbooks. They have no hours of 
service requirements generally that are at all respected. All 
one has to do is look at the facts. We have radically different 
systems that we have to fuse together. It is going to take a 
good, long while.
    I want to ask Mr. Hoffa and Ms. Claybrook a question. I 
think the testimony demonstrates that we are not anywhere near 
ready to do this. And I think by far the best approach is to 
take the House amendment, the Sabo language which shuts this 
down for a year and fuse it to the Murray language which then 
establishes a process.
    I guess I would ask Mr. Hoffa, you indicated support for 
the House language. Would you indicate support for an amendment 
that adds the House language to the Senate bill?
    Mr. Hoffa. Yes, I will. I think it is good. It is strong. I 
think we have to have verification. It is like one of those 
nuclear tests. We have to verify what we are doing here. The 
problem is they talk about all these things. I heard the 
Secretary's testimony this morning. I am amazed that he could 
think he could hire 80 people, that he could train 80 people, 
and that he could acquire the land, build the facilities in 6 
months.
    I mean, that is just so incredible that it is not going to 
happen, and we all know that. And I just think that we are 
dealing with something that is very important, to put a 
deadline on something so vital as American highway safety. It 
is a great mistake and I just do not understand why the 
administration is in such a rush. I think it is better to do it 
the other way. Let us deny it and make them get the job done.
    They have had 7 years to do this, and they have not done 
anything, and Mexico hasn't done it. Mexico knows that this 
deadline is coming up. They have not done the proper things 
with regard to making sure that their trucks are ready, making 
sure their drivers are trained, changing the way they operate 
to make sure they have a database, they have logbooks, they 
have driver training, they did CDLs, drug testing. Canada does 
it. We do not have any problem with Canada.
    The Chairman. Mr. Hoffa, did you discuss that with 
President Fox?
    Mr. Hoffa. We talked briefly. I said we have problems with 
the trucks, we have problems with the training of the drivers 
and he indicated that he knows that and I think that is one of 
the reasons why you do not see Canada enforcing any billion-
dollar fine on us with regard to these things. I think it 
should be negotiated and this administration I think should be 
negotiating with the Mexican Government to set up something 
that is reasonable, that has a timeline where we can verify 
what they are doing, that we can get our act together with 
regard to 80 inspectors. 80 inspectors is such a small amount.
    I do not see anybody talking about drugs, I do not hear 
anybody talking about law enforcement problems of the drugs 
that are pouring across. NAFTA was the greatest thing for the 
drug dealers that ever happened, and now that we are 
implementing this, they are going to be, if you are inspecting 
1 percent of the trucks and somebody was a drug dealer, I mean 
they would know, they will give up 1 percent if the chances of 
getting caught are almost impossible.
    I think that there is a lot of work to be done. I think the 
more pressure we put on the administration, we put on the 
Mexican Government to get something that is reasonable like 
Canada where they have compliance, where they have facilities 
where they inspect these trucks, where we have all the things 
we talked about, then we have got something we can bring back 
and we can all agree on and make sure that we have safe 
highways here.
    Senator Dorgan. Mr. Hoffa, let me be clear on my question. 
My question was about the Sabo amendment as added by the House. 
The Sabo amendment is an amendment that simply prohibits the 
use of funds for issuing those licenses in the coming year. 
That effectively shuts us down for a year. My question was 
would you support that?
    Mr. Hoffa. We support that.
    Senator Dorgan. Let me ask another question if I might. The 
Inspector General showed us a map of where Mexican trucks are 
now moving. North Dakota is one of those states. My assumption 
is we know very little about what's going on here. Frankly, we 
are not really keeping track of what's coming across our 
border.
    We inspect a relatively small percentage of trucks. We are 
finding serious safety violations in a rather large percentage 
but we are missing most of them that are coming across. While 
they are restricted to a 20-mile limit, the map shown by the 
Inspector General suggests that they are moving in many states 
across the country and in many cases moving well beyond the 20-
mile limit in the border states. Ms. Claybrook, do you agree 
with that?
    Ms. Claybrook. I do, Mr. Chairman. The reason that I 
support authorization legislation or legislation out of this 
Committee in addition to legislation out of the Appropriations 
Committee is because I think that this is going to take more 
than a year to accomplish. That is, to have in place sufficient 
facilities for inspection, sufficient inspectors to do the job, 
and onsite audits of the companies that want to come across the 
border. This takes a lot of time.
    I think that the appropriations bill merged between the 
House bill and the Senate Appropriations Committee bill is a 
very effective first step, but I think that this Committee, as 
Senator Breaux suggested, needs to act as well. When you look 
at the likelihood of any truck today getting caught if it goes 
beyond the 20-mile area, it is virtually nil, virtually nil.
    Senator Dorgan. I support that. I, in fact, mentioned it to 
Senator Breaux that I would support efforts of his and the 
chairman of the full Committee. I think it is necessary for us 
to proceed as an authorizing Committee.
    Let me make one final comment, Mr. Emmett, to you. I hope 
you will not do in the future what you did today on this issue 
where you describe racial profiling. The fact is I support the 
shutdown of Canadian wheat coming into this country until they 
can begin to comply with NAFTA with respect to wheat shipments. 
No one would suggest that is racial profiling on my part with 
respect to Canada, and I don't believe a serious discussion 
about truck safety dealing with the question of Mexico ought to 
be related to that either and your testimony--I was profoundly 
disappointed.
    I think it ill-serves your cause to do that. That is not 
the motivation of those of us involved in a serious discussion 
about truck safety.
    Mr. Emmett. Senator Dorgan, I appreciate your comment. I 
would ask you to consider that this is more than government to 
government. Consider if you were the owner of a Mexican 
trucking company, and you voluntarily came to the United States 
and said ``I will comply with anything you want me to comply 
with. I am based in Monterey. I have a customer in Kansas City 
and I will go back and forth.'' Yet, they hear for year after 
year after year that the only reason they are not able to be 
admitted is because they are Mexican. And, there have been 
questionable things raised throughout this debate.
    One of the other witnesses commented on the fact that 
Mexican trucks have a different weight limit. So do Canadian 
trucks. But she has not raised that issue with regard to the 
Canadians. She only raises it with regard to the Mexicans. I 
will be the first--having worked with you, Senator Dorgan, and 
almost everybody on this panel, to say that was not in any way 
aimed at the Senate.
    In fact, our testimony today is totally supportive of the 
direction the Senate is going, particularly Senator Breaux. We 
think that, absolutely, the appropriate jurisdiction needs to 
be exercised here, but the blanket comments that were coming 
out not even by the members of the House, but by some of the 
witnesses, and the things that went on were, and are, 
unacceptable. Of course part of my feeling stems from the fact 
that I am from Texas and I have had a long working relationship 
with Mexicans.
    I am hearing more and more from people who do business 
there that that is the way it is being taken. And that is the 
reason I raised it, and that is why I said it is akin to it, 
without any personal comment. So, I do not know what you would 
tell the owner of that Mexican trucking firm who is willing to 
fully comply when the only reason he cannot come in is because 
he is Mexican.
    Senator Dorgan. I just ask you to be very careful when you 
move into those areas on page 3 of your testimony, it is not a 
discussion about some unnamed witnesses at some other venue. I 
just--look, this is a very serious issue for this country. It 
is very serious. And I want our roads, I want expanded trade 
opportunities.
    While I did not support NAFTA, I did not support it for 
good reasons. The fact is NAFTA has taken a very small surplus 
with the country of Mexico and turned it into a very, very 
large deficit and it has been a colossal failure with respect 
to Canada and Mexico. But I still believe that proper trade 
agreements properly negotiated can be beneficial to expand 
opportunities for all, but this issue of safety is a very 
important and compelling issue, needs to be discussed 
seriously, and we need to find a method by which we can 
transition under this trade agreement to a circumstance where 
we have international trucking firms with all of the safeguards 
moving on America's highways.
    But I do not want, whether in North Dakota or South 
Carolina, some family looking into the rearview mirror with an 
18 wheel 80,000 pound truck that came across the border because 
it wasn't inspected. That is not racial profiling. Read the San 
Francisco Chronicle and lots of other reports that I have read 
about a guy that traveled 3 days in Mexico with a long haul 
trucker and the guy slept 7 hours in 3 days, had no logbook. 
Read it and ask, is that someone you want to drive next to on 
an American interstate? I don't think so. Let us make sure when 
we do this, we do it right. There isn't any way we will be 
ready in January to do this.
    The Chairman. Senator Boxer.
    Senator Boxer. Let me just add to that. In my state, the 
Latinos in my state, just as everyone else, want safe roads and 
want to be able to take their kids to a soccer game and know 
they are not going to be hit by a truck that doesn't pass 
inspection. I want to say, Mr. Chairman, this hearing came not 
a minute too soon, given what we are facing.
    Before Senator Dorgan may leave, I just want to express to 
him how much I support his approach if he chooses to go down 
that path. I think we ought to--of melding the two approaches, 
the Murray approach, along with the House approach because I 
believe strongly that this January 1st date was, as Mr. Hoffa 
implied, sort of plucked out as I will do this by January 1. 
And it doesn't have any connection to reality.
    I know Mr. Mineta very well. And I have not, how do I put 
this, I don't feel comfortable with the amount of preparation 
that he exhibited here for this challenge. Nor do I feel 
comfortable, nor do I feel comfortable that the Inspector 
General knows exactly what he is going to do. I think after 
thinking about what came out of this hearing, Mr. Chairman, I 
do believe both Mr. Mineta and the Inspector General will look 
at this, will pay more attention to this, will try to get 
ready, but January 1st is just not real.
    And I just want to say to my friends on all sides of this 
issue, and I think my colleagues will agree, one tragedy or two 
tragedies on the road, that is what it will take to shut down 
the border. We do not want that to happen. But I have been 
around politics a long time. And I see what happens when there 
is such a tragedy. So we want to avert it, and my friend, 
Senator Breaux, is right. We need to take action in this 
Committee and I will support him and my chairman in coming up 
with a good bill to do that.
    But it is well and good to say that everyone needs to have 
insurance. Yes, of course, Mr. Acklie, and insurance is, I 
agree with my colleague from Louisiana, a very good hedge. That 
is why I always say on nuclear power, which is another issue, 
when the insurance companies are ready to insure--nuclear power 
plants, talk to me about it because it's a check on safety and 
if a company does go in and insure a carrier, it makes me feel 
a lot better.
    But remember our problem is the inspections. In California, 
where we are doing, we have put so much money and it has come 
out of this hearing. We are only getting 2 percent of the 
trucks, only 2 percent of the trucks. And out of that 2 
percent, about how many, 26 percent are failing inspection. So 
think about the other 98 percent we are not getting. So even if 
we make tough laws on insurance, but they do not have it, it is 
too late, once an accident occurs.
    I want to put into the record the fact that I am very 
concerned, Mr. Chairman, and I need you to help me look into 
this, about the answer that was given to a question that I 
asked about the penalties that would be waged on Mexican 
drivers compared to American drivers if the law is broken. 
Because I got an answer that says it is identical all the way. 
I have the ruling here. And I have searched this rule. And Mr. 
Chairman, it says a Mexican motor carrier committing any of the 
following violations identified through roadside inspections or 
by any other means may be subjected to an expedited safety 
review or issued a deficiency letter identifying the 
violations, including, and then it goes into driver violations. 
I can't find anything in here that talks about the drivers.
    Now, I am very concerned about the answer that I got, so I 
would ask you, Mr. Chairman, if you would join with me in 
writing a letter to the Transportation Secretary asking him to 
please point out chapter and verse where is it written that 
there is in fact a level playing field with United States 
drivers because I do not see it. Would you do that?
    The Chairman. I would definitely join with you on that. We 
are going to leave this record open for questions by other 
members of all the witnesses here.
    Senator Boxer. Good. Because I want them to show me where 
this equality is in this rule.
    Ms. Claybrook. Senator Boxer, I can answer that question 
very quickly. And that is that for the 18-month period or 
whatever period it is going to be, the Mexican companies would 
be given a deficiency letter. A similar violation by a United 
States carrier would be, would involve a penalty. So in fact 
the Mexican companies would have a lesser penalty, that is a 
deficiency letter, than a United States carrier, who could be 
penalized.
    Senator Boxer. Good. I would like to see whether Mr. Mineta 
agrees with that. I have a question for Mr. Hoffa, and that is 
all I have is one question here.
    Truck drivers employed by companies domiciled in Mexico 
that enter and operate both within and outside the current 
commercial zones are not subject to United States minimum wage 
laws and we know that is the case. The DOT proposed rules would 
require the Mexican carrier to certify that it will comply with 
United States labor laws. The instructions, however, state that 
registration will not be withheld if the applicant refuses to 
certify such compliance. So they do not have to certify 
compliance with our, with our labor laws.
    Why do you think the United States provided this out for 
these NAFTA carriers, and second, do you think the Labor 
Department could enforce wage and hour standards on Mexican 
drivers?
    Mr. Hoffa. Starting with your last question, I have 
discussed this with the Secretary of Labor and they have no 
mechanism to do this. Driver comes across and drives a thousand 
miles from the heart of Mexico to the border, comes across the 
border, operates for 2 or 3 days back and forth. Who is going 
to make sure that during that period of time, he is paid the 
minimum wage? There is no mechanism to do that. It would be 
incredibly complicated to pick up Social Security. I have--they 
have not even thought about how they would even do that.
    Senator Boxer. What do they get paid at this time in 
Mexico?
    Mr. Hoffa. I have no idea. Somebody said they were paid at 
a rate--what was that rate, $7 a day. And could you imagine, 
and you think one of these companies is going to say okay, we 
are going to monitor the number of hours, we are going to give 
them at least minimum wage. It is not going to happen.
    I have raised this issue with Secretary Mineta and I have 
raised it with the Secretary of Labor which would fall under 
her jurisdiction. They have not even thought about it. They 
said they are going to look into it. Thousands and thousands of 
drivers coming across, how would they go about that? There is 
no computer to pick up how long they are here. How long would 
you monitor when they go back and who is going to compute it 
and where do you send the bill? It is not going to happen. It 
is impractical.
    And no one is thinking about some of these issues. Like I 
said, I thought that the presentation today was that they have 
not thought through the thing. They are just trying very 
quickly to throw something together. This is a big issue about, 
they have to comply with these--with the American labor laws 
and they are not going to. Just like those trucks that we found 
up in North Dakota, you think those people were being paid the 
minimum wage? They are not. Everybody knows that. We shouldn't 
kid ourselves about it.
    This is a major problem and until somebody comes up with a 
mechanism where we are going to have some kind of a computer 
base or give them an identification number and we are going to 
monitor it with regard to when trucks come through, do they go 
through, there is some kind of a pass, like a speed pass, they 
monitor the truck, it has a number. Driver has a number. They 
monitor the number of hours they were here and it goes back the 
same way and there is a computer printout as to the hours he 
spent in the United States, then it can be done. But it is a 
tremendous program to set that up. That is what has to be done 
to make sure we get compliance.
    Right now the administration isn't even thinking about that 
so we are going to have literally thousands of people operating 
here being paid $7 a day for driving a truck who knows how many 
hours.
    Senator Boxer. This is a rule that says a lot of words, but 
it is not backed up. It says we require a Mexican carrier to 
certify it will comply with United States labor laws but as Mr. 
Hoffa has stated and I think frankly he has been extremely 
reasonable. I am not so sure I could be quite as contained.
    I compliment you on this because I know you fight hard for 
working people to have a decent life, and the fact of the 
matter is it is a sham. Because they say we require the Mexican 
carriers who are certified as complying with United States 
labor laws--my friend whispers to me what about health 
insurance and all the other things that we think are important?
    The bottom line is how can it be done, No. 1, and if it can 
be done, can it be done by January 1? No. So there is a 
loophole in this deal that says well, you don't have to 
certify. You have to do it, but we do not require that you 
certify. So this is a sham deal. It is not right. And I hope--
and that is why I was so happy when you agreed to do this 
hearing, Mr. Chairman. I want to applaud you and thank you. 
This is on our plate today, tomorrow, next day. We have got to 
confer and hopefully do something that will enable us to face 
this challenge, to do the right thing for people on both sides 
of the border. That is what I want to do, and I thank you very 
much, the whole panel. I thank you, Mr. Chairman.
    Senator Breaux. Mr. Chairman, a comment with regard to the 
point that my colleague, Senator Dorgan made, and others have 
made, including Senator Boxer, about not being able to have 
this in place by January. That is probably correct. But as I 
read the Murray amendment, almost every paragraph says that 
they are not going to open the border until the DOT Inspector 
certifies that there is a policy they ensure compliance, until 
the Inspector General certifies that information infrastructure 
is in place, until the DOT Inspector has certified there is 
adequate capacity to do inspections, until the proof of license 
is made available, until DOT has equipped all of the border 
crossings with the weigh in motion systems, and until the DOT 
Inspector certifies it as an accessible database.
    So I think the premise of the Murray amendment is that this 
really has to be done and until it is done and until it is 
certified that it is done and in place, we will not open the 
border. So they do not make this deadline by January. The 
border is not automatically opened under the Murray amendment. 
She says it cannot be opened until this is completed. If that 
is done in January, fine. But if it is not until January of 
next year, that is when the border would be opened.
    The Chairman. It is worded that way, Senator, but we didn't 
want to go in a confrontational arbitrary way with some thought 
of the Sabo amendment, this ipso facto here in July we are 
going to cut out any chance for another year and a half because 
we know government. If they get another year and a half, then 
it won't happen for another year and a half. And we did not 
want a veto.
    If we had it in that fashion, the President will say well 
you just cutoff your funds and you are against the policy and 
he may thereby veto. But the language and it is Shelby, too. It 
is Murray-Shelby, bipartisan. I think we could override.
    Senator Breaux. Under the Murray language, as I understand 
it, the time could be even longer if this would happen, than 
the House-passed language, which is a 1-year delay. If this 
takes more than 1 year, then it will be more than 1 year, so I 
think that is a good policy.
    Ms. Claybrook. Could I make one comment on the labor issue? 
For 15 years, safety groups have been trying to get an 
electronic box in trucks so they could enforce the hours of 
service rules and if you had an electronic box in the trucks, 
both in the United States, as well as in trucks coming into 
this country, you would be able to at least do a better job, 
albeit maybe not a perfect job, of enforcing those minimum wage 
requirements and you would also be able to enforce the hours of 
service rules.
    And we have not been able to get the United States 
Department of Transportation through thick and thin to propose 
this and to issue it. They finally did propose it about a year 
and a half ago. The likelihood that they will ever issue a rule 
is small. I would urge, in your consideration of this 
legislation, that you consider requiring that because I don't 
think it is ever going to happen any other way.
    The Chairman. Very good. Let me thank you on behalf of the 
Committee, each of the six. You all have made a very valuable 
contribution, and the record will stay open subject to 
questions and the Committee will be in recess subject to the 
call of the chair.
    [Whereupon, at 1:05 p.m., the Committee adjourned.]
                                Appendix

               Prepared Statement of Thomas J. Donohue, 
              President and CEO, U.S. Chamber of Commerce
    Mr. Chairman, thank you for allowing the U.S. Chamber of Commerce 
and the American Chamber of Commerce of Mexico to submit this statement 
to this panel today. I am Thomas J. Donohue, President and CEO of the 
U.S. Chamber of Commerce. I appreciate this opportunity to comment on 
behalf of the Chamber on the spectacular success of the U.S.-Mexico 
trade partnership and the costs imposed by our nation's failure to 
implement the cross-border trucking provisions of the North American 
Free Trade Agreement (NAFTA).
    Free trade has played a key role in our nation's economic growth 
and development since it was founded, and the NAFTA played an important 
role in the accelerated income gains our nation enjoyed in the 1990s. 
Since the NAFTA came into force in 1994, trade between the United 
States and Mexico has tripled from $81 billion in 1993 to $246 billion 
in 2000. And the trucking industry is critical to this trade 
partnership since trucks transport over 80 percent of the value of our 
trade with Mexico.
    However, beginning in 1995, the Clinton Administration refused to 
abide by America's commitment under the NAFTA to open the U.S.-Mexico 
border to cross-border trucking. The difficulties that stem from this 
barrier to trade should not be underestimated. Current rules maintain a 
cumbersome, environmentally damaging, and costly system that represents 
a brake on further growth in trade. The time has come for our countries 
to open our borders to a modern cargo transportation system that will 
allow our economic partnership to reach the next level of success.
The Story So Far
    The NAFTA gave U.S. and Mexican carriers the right to pick up and 
deliver international freight into the neighboring country's border 
states beginning in December 1995. This market access was scheduled to 
expand to the entire territory of the United States and Mexico by 
January 2000.
    The NAFTA also included measures to permit U.S. and Mexican 
carriers to invest across the Rio Grande. Starting in December 1995, 
U.S. and Canadian investors were supposed to be allowed to invest in 
Mexican trucking companies or terminals providing exclusively 
international freight services up to a 49 percent ownership cap. The 
NAFTA laid out a schedule to raise this cap to 51 percent in 2001 and 
100 percent in 2004.
    By the same token, Mexican carriers were to be allowed to invest 
and fully own U.S. trucking companies for the purpose of transporting 
international cargo within the United States beginning in 1995. This 
provision was finally implemented on June 5, 2001, when President 
George W. Bush issued a memorandum instructing the U.S. Department of 
Transportation to begin accepting and processing applications by 
Mexican nationals for the purpose of establishing U.S. trucking 
companies.
    In a long anticipated ruling, a NAFTA dispute settlement panel in 
February 2001 determined that the United States had violated its 
obligations on cross-border trucking, and analysts calculate that the 
United States will be slapped with retaliatory duties totaling between 
$1 billion and $2 billion for every year Washington refuses to allow 
cross-border trucking. More recently, the U.S. House of Representatives 
moved to bar funding for agencies charged by President Bush with 
processing applications by Mexican carriers to operate outside U.S. 
commercial zones; it also significantly reduced needed funding for 
truck inspections and border facilities.
    This dispute is flaring up at a difficult time. With over 700,000 
manufacturing jobs lost in the past 12 months, the sanctions mentioned 
above would hit the U.S. economy at a moment when it is already weak. 
Mexico's recently launched free trade agreement with the European Union 
means that Mexican importers have a wide range of choices when they 
seek suppliers, and this dispute could drive many Mexican firms to look 
for partners in countries other than the United States. After all, 
Mexico has free trade agreements with 32 nations, and if retaliatory 
duties drive up the price of U.S. goods, Mexican consumers have plenty 
of options.
Cross-Border Trucking
    Experts agree that the dispute over cross-border trucking threatens 
our relationship with our second largest trading partner. However, it 
is bizarre to hear apparently reasonable people try to defend the 
trucking system that currently exists on the U.S.-Mexico border.
    Cross-border trucking today was described in a recent coalition 
letter signed by the U.S. Chamber of Commerce and nine other business 
organizations as ``archaic and convoluted. . . . Currently, a shipment 
traveling from the United States to Mexico, or vice versa, requires no 
less than three drivers and three tractors to perform a single 
international freight movement. Through interline partnerships, a U.S. 
motor carrier handles freight on the U.S. side, and a Mexican carrier 
handles the freight on the Mexican side, with a `middleman' or drayage 
hauler in the middle. The drayage driver ferries loads back and forth 
across the border to warehouses or freight yards for pickup or 
subsequent final delivery within the designated border commercial 
zone.''
    The upshot is congestion, air pollution, and higher prices for both 
consumers and business. The fraught logistics of the existing system 
often compel trucks to return home with empty trailers or with no 
trailer at all. Our border infrastructure is seriously overburdened, 
and the entire system is quickly becoming a real brake on further 
growth in trade.
    These problems are particularly severe for U.S. companies that 
operate ``just-in-time'' manufacturing facilities in Mexico. These 
operations were established with a clear expectation that 
transportation services would be able to deliver inputs from the United 
States or elsewhere to facilities in Mexico according to schedule. Our 
mutually beneficial trading relationship with Mexico will plainly 
suffer--with costly effects for U.S. business--if we fail to ensure the 
expeditious delivery of materials to these manufacturing facilities by 
modernizing the cumbersome transportation system upon which our trade 
with Mexico depends.
Safety: A Vital Issue
    Safety is plainly one of the most important issues at play in this 
dispute. It should come as no surprise that ensuring the safety of all 
trucks on American roads was a top priority of the U.S. trade officials 
who negotiated the NAFTA. The Congress approved the NAFTA because it 
was broadly satisfied with the fruits of their labors.
    And why shouldn't we be? Under the NAFTA, every truck entering the 
United States is required to meet each and every U.S. safety 
requirement. In fact, Mexican motor carriers applying for U.S. permits 
will be required to provide far more detailed information regarding 
their ability to meet U.S. safety requirements than their American or 
Canadian counterparts. Any lingering concerns over the safety of these 
carriers from Mexico and their trucks and drivers can surely be 
addressed in the proposed rules for implementing the NAFTA.
    While safety is an overriding concern, we can certainly address 
this issue while keeping our international obligations and expanding 
upon our mutually beneficial trading relationship with Mexico. Failure 
to try would send a troubling message about the difference in our 
treatment of Canada and Mexico, our two closest neighbors and largest 
trading partners.
    Finally, it is imperative that Congress make available the required 
funds to ensure that safety enforcement inspections of trucks on the 
U.S.-Mexico border are carried out with all due seriousness. The U.S. 
Chamber strongly supports providing necessary funding to hire 
additional safety inspectors to be stationed at the border and to build 
and maintain adequate border inspection facilities.
Conclusion
    Because the NAFTA has already eliminated most tariffs and other 
barriers to trade with Mexico, improving our transportation 
infrastructure is the best thing we can do to keep this partnership on 
track. Implementing the NAFTA's trucking provisions offers the 
opportunity to fix the cumbersome, environmentally damaging, and costly 
transportation system upon which our trade with Mexico depends. With 
added and improved resources, inspection capabilities at the U.S.-
Mexico border should ensure that trucks will be able to operate on both 
sides of the U.S.-Mexico border with safety and efficiency.
    In the final analysis, this issue revolves around whether the 
United States will keep its word. We should be mindful that the United 
States made a commitment under the NAFTA to work with Mexico to 
modernize our cross-border transportation system. I urge the Congress 
to implement the NAFTA's cross-border trucking provisions and show the 
world that America keeps its commitments.
                                 ______
                                 
              Prepared Statement of Susan G. Pikrallidas, 
                  Vice President, Public Affairs, AAA
    AAA submits the following statement for the record to convey our 
views on the safety implications of opening the U.S. border to 
commercial trucks from Mexico.
    As the largest association in America dedicated to the safety of 
the traveling public, AAA is acutely aware of the need to ensure the 
safest possible operation of commercial motor vehicles. AAA members 
consistently rate driving with large trucks as one of their greatest 
fears. Opening the border and adding trucks from Mexico to the mix of 
vehicles traveling the nation's roads will only intensify motorists' 
concerns.
    While NAFTA requires that the border be open to ensure the smooth 
flow of traffic between both countries, the treaty also requires that 
trucks from Mexico meet all U.S. safety standards. To achieve that 
goal, the Administration and Congress must work together to ensure that 
all safety measures are in place and the processes and systems to 
monitor and enforce commercial traffic from Mexico are fully 
functioning.
    In formal comments filed in response to the Department of 
Transportation's proposed rulemaking on NAFTA implementation, AAA 
expressed concern that the safety oversight plan unveiled by FMCSA 
falls short of providing motorists with necessary assurances to permit 
the opening of the border as the agency proposes. Motorists cannot 
accept a proposal that could allow carriers from Mexico to traverse 
U.S. roadways for up to 18 months before undergoing a safety audit. 
More intensive discussions and work must occur with representatives of 
both governments, enforcement authorities, and industry officials 
before the border is ready to be safely opened.
    What do we know about the carriers, vehicles and drivers from 
Mexico who will make application to cross the border?
    The answer is: very little. Until recently there have been few 
safety regulations placed on industry in Mexico, and the infrastructure 
to capture data is in an infant stage. In addition, we do not know the 
extent to which companies from Mexico will apply to cross the border or 
the types of operations and vehicles that will make such crossings. 
Vehicles and drivers currently traveling from Mexico to U.S. commercial 
zones are not necessarily indicative of the type of operations that may 
engage in long haul travel to the U.S. once the border is open.
Safety Audits Should Occur Before Trucks Cross The Border
    AAA supports the Commercial Vehicle Safety Alliance's 
recommendation that the safety inspection process should begin before 
trucks cross the border, with carrier audits being done even earlier. 
U.S. enforcement officials should be permitted to inspect truck company 
base operations in Mexico, a practice that is already followed with 
Canadian companies. These visits should include the evaluation of 
company safety management practices, knowledge of and compliance with 
U.S. regulations, vehicle inspections, and education of drivers, 
dispatchers, mechanics and management.
    Because U.S. enforcement authorities have had many years of 
experience with Canada, the database and knowledge of the Canadian 
trucking industry has developed over time. There is uniformity and 
reciprocity between Canada and the U.S. on enforcement standards and 
procedures. A similar relationship with Mexico is evolving, which is 
the goal of NAFTA.
    Under current CVSA practice, when a truck operating in the U.S. 
undergoes and passes an inspection, a 3-month sticker is issued. Many 
(but not all) truck inspectors honor this sticker during its 3-month 
period of validity and do not re-inspect the vehicle. As a minimum, 
trucks from Mexico that wish to enter the U.S. should be required to 
display a valid CVSA inspection sticker. If a truck does not have one, 
it should undergo the most rigorous CVSA (or equivalent) inspection 
immediately upon crossing the border. If it fails inspection, it should 
be either repaired on the spot and reinspected, or prevented from 
crossing the border until defects have been repaired.
    AAA is confident that Mexican authorities expect no less of their 
companies and drivers than to adhere to practices already followed by 
U.S. and Canadian companies. Many firms operating in Mexico maintain 
high safety standards for their trucks and drivers. AAA's concern is 
that the highest safety standards be applied to all trucks and drivers 
operating in the U.S. regardless of where they are domiciled.
Licensing Issues
    AAA is also concerned that drivers from Mexico may not be licensed 
to U.S. standards, and in some cases testing procedures may fall 
woefully short. The databases of both countries need to be synchronized 
so that enforcement authorities for both countries can easily check 
driver records. AAA has encouraged FMCSA to work closely with 
representatives of the American Association of Motor Vehicle 
Administrators (AAMVA) and CVSA to ensure that proper licensing 
procedures are in place and enforceable.
Insurance Concerns Must Be Addressed
    Issues of insurance must also be addressed and steps taken to 
ensure that every vehicle in every fleet is adequately insured if it is 
operated in the U.S. Drivers must be required to carry an insurance 
document that is unique to their particular vehicle. Uninsured vehicles 
and drivers pose a threat to the economic well being of other road 
users and drive up the cost of insurance for everyone.
Weight Issues
    AAA is very concerned about the safety and infrastructure impacts 
of increasing the size and weight of trucks. Effective enforcement of 
current weight limitations is essential, and AAA has vigorously opposed 
efforts in Congress that would seek to increase the weight of trucks 
beyond currently allowed levels. Opening the border to trucks from 
Mexico may result in pressure to raise sizes and weights to Mexican 
(and/or Canadian) limits. AAA believes trucks should be weighed at the 
border before entering the U.S. to ensure that U.S. weight limits are 
enforced.
Sufficient Resources Necessary To Monitor The Border
    Much work remains to be done at major border crossings before we 
can be confident that the U.S. is prepared to handle the increased flow 
of commercial traffic across the border. The Department of 
Transportation's Inspector General report found a direct correlation 
between the conditions of trucks from Mexico entering the U.S. and the 
level of enforcement resources at the border. There are 27 southern 
border crossings, and AAA believes that every crossing point must have 
the resources and facilities in place to fully monitor and enforce U.S. 
safety regulations.
    It should also be noted that issues resulting from opening the 
border are not solely confined to those residents of border states. 
More trucks from Mexico will place new responsibilities on enforcement 
authorities across the country. That will require additional resources.
Conclusion
    To conclude, AAA believes the border should be opened to commercial 
vehicles from Mexico only when officials on both sides of the border 
are confident that all safety measures are in place. It is clear we are 
not ready today, and we are disappointed that these issues have not 
already been addressed in the intervening years since the adoption of 
NAFTA. It will take a concerted joint effort by officials from both 
countries to make it possible, but the safety of the motoring public on 
both sides of the border must be the primary concern.
                                 ______
                                 
Prepared Statement of Dr. James R. Giermanski, Professor and Director, 
         International Business Studies, Belmont Abbey College
Mexican Motor Carrier Access to the United States
    The Mexican motor carrier safety issue from the very beginning was 
suspect. For those of us who are involved in or study the trucking 
industry, the decision to deny Mexican truckers access to the United 
States was a deal between the White House and the Teamsters. As a 
result of the release of the 82-page NAFTA dispute-panel unanimous 
decision, we know the deal constituted a United States breach of its 
obligations under NAFTA. Alleged safety issues were contrived and 
false. Continued distortions of the Mexican threat by the Teamsters, 
and by some in Congress, do a disservice to the public. Therefore, it 
is time for some reasonable assessments of the reality of Mexican 
access and its potential impact on the U. S. trucking industry and the 
general public. My assessment will treat the magnitude of Mexican 
access to the U.S. motor-carrier market, the labor issues connected to 
it, the likelihood of successful market penetration by Mexican 
carriers, the genuineness of the safety issue, the likely impact on 
costs to U.S. shippers, and U.S. DOT's role in allowing an unnecessary 
loophole in operating authority requirements.
The Magnitude of a Mexican Presence
    According to the U.S. Bureau of Census figures, there are 733,900 
Class 7 and 8 motor carriers operating in the United States. Class 7 
and Class 8 include the heavy over-the-road motor carrier. That number 
does not include another 63,000 that failed to return a report, 
suggesting a total of 796,900 U.S. motor carriers. Of the carriers 
reporting, 538,700 are truck load (TL) and 195,200 are less than truck 
load (LTL). The number of requests for operating authority by Mexican 
motor carriers as of July 20, 1999, totaled 184 applications. Based on 
statements of CANACAR, the Mexican Trucking Association, denying an 
interest on the part of Mexican carriers to operate in the United 
States, and based on these numbers, we would see that the Mexicans 
would account for .0002 percent of the trucking industry. If one were 
to look only at the TL sector, the target market carved out by the 
Mexicans in the North American Free Trade Agreement (NAFTA) 
negotiations, Mexican applications for operating authority amount to 
only .0003 percent of the U.S. truck-load carriers. Mexican presence in 
the TL market will hardly be noticeable.
    Finally, the assumption that if Mexican truckers are allowed in, 
there will be more trucks than ever on U.S. highways is unsupportable. 
Since Mexican truckers are permitted to carry only international cargo 
(cargo with an origin or destination outside the territory of the 
nation in which the cargo is carried), truck volumes will not increase 
unless trade increases dramatically. There is also a limit on the 
availability of equipment (tractors and trailers) no matter how much 
trade might increase. Any carriage by Mexicans simply offsets what 
would have been carried by U.S. truckers. Given the minuscule number of 
Mexican operating authority applications (even assuming they were all 
approved), and assuming that all these carriers would somehow carry 
additional trade, the Mexican truckers would still not be noticed.
    The actual impact of Mexican operations is likely to be small and 
positive: small because of sheer numbers, and positive because their 
presence could enhance service to domestic shippers. The potential 
displacement of U.S. drivers ordinarily carrying international cargo by 
Mexican entrants into the international cargo market would allow U.S. 
drivers to carry domestic cargo often delayed because of the shortage 
of U.S. truck drivers. In short, Mexican carriage of some international 
cargo frees up more U.S. drivers to improve domestic carriage, a clear 
benefit for the U.S. shipper and consignee.
The Labor Issue
    Labor options under NAFTA severely limit the ability of Mexicans to 
capitalize on low wages paid to Mexican drivers operating in the United 
States. Only Chapter 12 (Cross-Border Services), and Chapter 16 
(Temporary Entry for Business Persons) address and define the extent of 
labor activity afforded to Mexican drivers operating in the United 
States. There are only two options for Mexican motor carriers. The 
Mexican carrier with operating authority in the United States may use a 
Mexican driver living in Mexico on a temporary cross-border basis with 
limited time allowed in the United States. The Immigration and 
Nationalization Service (INS) allows these temporary workers up to one-
year maximum and 6-months minimum in the United States. While some will 
claim that this is a threat to U.S. truck driver jobs, a closer 
examination suggests otherwise. A Mexican driver who lives and begins 
his work day in Mexico but subsequently enters the United States with 
cargo is subject to unique tax issues in some ways brought about by the 
time constraints contained in the INS regulations. Because of his 
cross-border status, the Mexican driver legally maintains his residence 
and principal place of employment in Mexico. Therefore, the Mexican 
driver is not provided the special U.S. tax treatment given to Mexicans 
who live in Mexico, or Canadians who live in Canada but enter to the 
United States for their normal work day. What this means is that a 
Mexican driver operating on a cross-border basis is obligated to pay 
Federal income tax to the United States, not just on earnings generated 
in the United States, but on all foreign earnings, including those 
generated in Mexico.
    Additionally, since under NAFTA and INS rules, the primary source 
of remuneration must be in Mexico in pesos, the Mexican motor-carrier 
firm must either augment the drivers' earnings or provide expense 
allowances to pay for the increased costs of doing business in the 
United States. These expenses include the costs of fuel, food, lodging, 
and incidentals in the United States.
    Restrictions on Mexican drivers such as primary source of 
remuneration; international character of work; and prohibition against 
entering the U.S. local labor market or shopping for international 
cargo or carrying U.S. domestic goods severely limit opportunities and 
increase costs to the Mexican trucking company. In short, the cross-
border Mexican carrier has few advantages except perhaps for operations 
solely restricted to nearby U.S. border states where there is, 
according to one scientific study, a TL market suited for Mexican motor 
carriers.
    Option two under Chapter 16 of NAFTA relates to professionals only. 
The chapter and 8 CFR 214 of INS regulations are so specific that they 
contain an all-inclusive list of what professional NAFTA covers. Truck 
drivers are NOT included. Of course, a Mexican motor carrier who 
establishes a firm in the United States could openly recruit Mexican 
drivers who qualify for H-1B Non-Immigrant status and use them up to 3 
years providing the Mexican-owned U.S. carrier could prove a driver 
shortage. In this scenario, the Mexican driver is an employee of a U.S. 
firm which is legally obligated to provide all the requirements that 
are given to U.S. drivers. These drivers working for a Mexican carrier 
established in the United States under NAFTA are still restricted to 
carrying only international cargo. However, once admitted to the U.S. 
as an H-1B, the Mexican driver could be recruited and hired away by a 
U.S.-owned and controlled motor carrier and be used to carry domestic 
cargo within the time period allowed under the H-1B Non-Immigrant 
classification. Therefore, the Mexican carrier operating a firm in the 
United States must pay a competitive wage.
    The implementation of NAFTA with respect to Mexican truck drivers 
operating in the United States seriously restricts driver use, protects 
the U.S. local labor market, and suggests labor costs to the Mexican 
firm operating in the United States that are equal to, or nearly equal 
to those of the U.S. motor carrier. Thus, it appears at this time that 
there may not be a significant labor advantage for Mexican motor 
carriers operating in the United States under NAFTA.
Competitive Constraints
    It is difficult to support the concept that Mexican motor carriers 
which will operate in the United States will successfully compete with 
U.S. carriers. First, Mexican carriers are limited to carrying 
international cargo. Second, they have to establish a system which 
provides cargo for their return trip, not an easy task. Third, given 
the likelihood of equipment and cargo imbalances, Mexican carriers will 
have to pool equipment in the United States at either terminals or lots 
and hire the personnel (U.S. jobs) necessary to operate and maintain 
their facilities in the United States. Fourth, they need sales offices, 
an adequate customer base, and a sophisticated information system to 
allow them a competitive advantage and interface with intermediaries, 
Customs, and customers at a level greater than or equal to that of 
their U.S. competitor. Fifth, Mexican carriers must meet all the 
federal and state requirements that every U.S. carrier must meet. 
Unlike their drayage counterparts on the border, Mexican long haulers 
must pay U.S. highway use tax. Mexican carriers operating in the United 
States must demonstrate financial responsibility, show proof of 
insurance or bond, or be self-insured. The insurance issue is a quite 
serious one for Mexican carriers. Their premiums to carry insurance 
sufficient to meet federal minimal liability standards will be 
exceptionally high because of the lack of actuary tables on Mexican 
motor carriers. Additionally, there is likely to be built into those 
high premiums, revenue to cover unfulfilled judgments should a Mexican 
carrier lose litigation in the United States. If not, the U.S. 
insurance industry by ``spreading the risk'' among all its customers 
would have to increase the costs of insurance to their U.S. motor 
carrier clients.
    Mexican carriers must also meet all U.S. motor carrier safety 
regulations and conform to all U.S. motor carrier obligations. Finally, 
they must break into or penetrate the strong U.S. market sufficiently 
to survive, let alone to realize a profit.
The Safety Issue
    At this time, enough has been disclosed and written to dispel the 
myth of inferior Mexican motor carrier safety. While there are many 
sources of evidence which demonstrate that the Mexican long-haul motor 
carrier is every bit as safe as U.S. and Canadian long haul carriers, 
three factual reports should be enough to demonstrate that safety is 
NOT an issue. The U.S. Department of Transportation (DOT) asked its 
Inspector General (IG) to investigate truck safety at the southern 
U.S.-Mexico border, presumably to support Clinton's decision not to 
admit Mexican carriers into the United States. In the DOT IG's 1998 
report, it was expressly stated by the Inspector General that views 
differ on whether the data used to support the claim of unsafe Mexican 
trucks are statistically representative of the universe of Mexican 
trucks. The report did make it clear that given there were no Mexican 
long haul carriers to inspect, the inspection was made of Mexican 
drayage or transfer trucks used to ferry goods from one side of the 
border to the other--the worst of motor carrier equipment. What 
followed, however, was the use of these data to compare U.S. and 
Canadian long haul trucking to Mexican drayage trucking. This was a 
blatant distortion of fact. And if the reader read it carefully, he or 
she would see that the Inspector General acknowledged the distorted and 
dishonest comparison. Publicly reported results of examinations of both 
Mexican and U.S. drayage trucks by federal and state officials over 
many years demonstrated that, in fact, ``out of service'' rates for 
Mexican and U.S. drayage were essentially the same.
    One year later in November 1999, DOT's Inspector General released 
another report, again presumably to support the Administration's 
contention that unsafe Mexican trucks were operating illegally in the 
United States through inventive lease agreements with U.S. carriers. In 
this report, the IG cited numerous interceptions of Mexican-long haul 
carriers found operating in the United States. What the IG did not 
highlight from that report was Exhibit D. An analysis of Exhibit D 
showed that of all the Mexican-long haul carriers inspected in the 
United States, only about 15 percent were put ``out of service.'' For 
the first time, the U.S. had empirical evidence on Mexican long-
haulers. However, what that evidence showed was that in comparison to 
the ``out of service'' rates of U.S. carriers (26%) and Canadian 
carriers (17%), the Mexican long-hauler was ALMOST TWICE as safe as the 
U.S. long-hauler.
    Finally, the most obvious evidence came by way of the NAFTA Dispute 
Panel's ruling. The panel's determinations included the following 
finding. Although the United States, through a loophole in the law, is 
allowing the operation of 150 Mexican-domiciled, U.S.-owned carriers; 5 
Mexican-domiciled, Mexican-owned carriers; and 1 Mexican-domiciled, 
Mexican-owned (Mexican-Canada transit, only) carrier in or through the 
United States, the United States could not provide the Dispute Panel 
one piece of evidence of a specific safety problem with these Mexican 
carriers.
Costs to the Shipper and/or Consignee
    Since December 18, 1995, the United States has breached its 
obligations under NAFTA. This breach has denied the opportunity for 
revenue to qualified Mexican long haulers and has helped to perpetuate 
an archaic and costly procedure along the southern border. That 
procedure is known as drayage or transfer carriage. The practice of 
drayage is not only expensive but also risky for carriers and shippers 
alike. The average dollar cost of drayage ranges between $75 to $125 
per crossing. There have been millions and millions of crossings since 
December 1995. In 1999 in Laredo, Texas, alone, a total of 2,793,166 
trucks crossed Laredo bridges over 12 months. If all these trucks were 
lined up bumper-to-bumper, they would form a line 34,386 miles long and 
would stretch from Laredo to the Canadian border 20.7 times. Assuming 
60 percent were carrying cargo for which there was a drayage charge of 
$100 dollars, that cost alone would amount to $167,589,960 of cost 
which would be unnecessary if opening the border for trucks had led to 
the opening of the border for cargo. It is difficult, if not 
impossible, to calculate the loss of time and money caused by 
maintaining an outdated transportation practice which is an essential 
condition for an outdated Mexican Customs Broker practice.
Nonfeasance and the U.S. Department of Transportation
    When the ICC Termination Act went into effect in January 1996, 
USDOT was given clear guidance in publishing rules. These rules were to 
insure that the distinction between common carrier and contract carrier 
was eliminated (Sections 14101 and 14706). The effect of eliminating 
this distinction would result in, among other changes, the removal of a 
loophole which would allow Mexican motor carriers to file for operating 
authority as contract carriers and therefore not be required to carry 
cargo insurance (49 CFR 387.303 (c)).
    In summary, the impact of Mexican trucking in the United States 
will be insignificant and likely limited by choice to the U.S. border 
states, providing a service to U.S. long-haulers. National treatment of 
Mexican carriers will benefit not only the U.S. trucking industry in 
the United States, it will benefit the U.S. trucking industry in 
Mexico. Opening the border is merely the first step in reducing costs 
for U.S. shippers, and providing faster service to them. The politics 
tied to this issue is not only distorting the truth, it also is 
jeopardizing the economy of the United States even further should 
Mexico be forced to retaliate justly to defend its rights as an equal 
party to the North American Free Trade Agreement.
                                 ______
                                 
      Prepared Statement of Jacqueline S. Gillan, Vice President, 
                 Advocates for Highway and Auto Safety
    My name is Jacqueline Gillan and I am Vice President of Advocates 
for Highway and Auto Safety (Advocates), a coalition of consumer, 
health, safety, law enforcement and insurance companies and 
organizations working together to advance highway and auto safety laws, 
regulations, and policies.
    While Advocates' individual board members hold different views on 
NAFTA, we hold a common view on safety. I am pleased to offer testimony 
today on several necessary and basic safeguards that must be in place 
before opening our southern border to unrestricted access by commercial 
carrier traffic on U.S. streets and roads. The proposed rules by the 
Federal Motor Carrier Safety Administration (FMCSA), an agency of the 
U.S. Department of Transportation (DOT), for the admittance of carriers 
from Mexico are totally inadequate and further actions are required in 
order to assure the safety of American motorists. My testimony will 
focus on deficiencies in the proposed rules and recommendations for 
further action. These recommendations do not conflict with meeting our 
treaty obligations, but instead will improve motor carrier safety as 
well as prevent unnecessary highway deaths and injuries.
    Advocates has a long history of working with this Committee on a 
broad range of highway safety issues and legislation to improve highway 
safety, including motor carrier safety. Motor vehicles crashes are the 
leading cause of death and injury for Americans between the ages of 5 
and 27 and result annually in more than 41,000 deaths and 3.5 million 
injuries.
    In 1999, almost 5,300 people died in crashes involving large 
trucks, according to the Insurance Institute for Highway Safety, and 
more than 60,000 were injured (National Highway Traffic Safety 
Administration, Traffic Safety Facts 1999.) When big trucks and small 
passenger vehicles collide, 98 percent of the people who die are 
occupants of the small vehicles. In fact, 23 percent--almost one in 
four--of all passenger vehicle fatalities in 1999 that occurred in 
multiple-vehicle crashes were the result of collisions involving big 
trucks with small vehicles.
    Large trucks, year after year, are dramatically over-represented in 
crash figures and disproportionately contribute to highway deaths, 
injuries, and property damage losses. A special study just completed 
for the FMCSA only a few months ago finally quantified the enormous 
losses we suffer as a nation each year because of truck crashes. The 
agency concluded that large truck crashes cost the U.S. over $24 
billion every year from loss of life, use of medical and emergency 
services, property damage, and reduced productivity.
    In recognition of the enormous personal and financial toll of 
deaths and injuries related to truck crashes, the Senate Commerce, 
Science and Transporation Committee advanced legislation in the 106th 
Congress to address the severity of the large truck crash problem. The 
Motor Carrier Safety Improvement Act of 1999 (the 1999 Act), created a 
new agency within the U.S. Department of Transportation, FMCSA, and 
gave the agency a clear mission and specific mandates intended to stem 
the tide of human losses attributed to truck crashes.
    The FMCSA was created by Congress with the express mission:

        Lto reduce the number and severity of large-truck involved 
        crashes through more commercial motor vehicle and operation 
        inspections and motor carrier compliance reviews, stronger 
        enforcement measures against violators, expedited completion of 
        rulemaking proceedings, scientifically sound research, and 
        effective driver's license testing, recordkeeping and 
        sanctions.

    Motor carrier Safety Improvement Act of 1999, Section 4.

    Furthermore, both the previous and the current Secretary of 
Transportation have endorsed a goal to reduce truck crash fatalities by 
as much as 50 percent by the end of 2009.
    Unfortunately, little progress has been made towards meeting this 
goal or fulfilling important mandates contained in the 1999 Act. Since 
1996, deaths from big truck crashes have been holding at above 5,000 
per year. Also, many of the congressionally-mandated responsibilities 
given to the agency have been met with insufficient actions while 
statutory deadlines have been delayed or completely ignored by FMCSA. 
The lack of preparedness by the FMCSA for opening the NAFTA borders is, 
in many cases, related to the agency's apparent indifference to several 
of these statutory mandates.
    Adequately preparing for opening the southern border is especially 
important in light of the numerous studies by the Inspector General of 
the U.S. DOT, the General Accounting Office (GAO), and public interest 
groups, as well as media stories that have documented serious, life-
threatening and pervasive deficiencies at the border crossings. These 
include insufficient federal and state enforcement personnel to staff 
the borders; too few inspections and too many trucks put out of 
service; no permanent inspection facilities at any border crossing 
outside of California; unreliable and unavailable data on the safety of 
motor carrier companies and drivers; and the absence of a basic system 
of motor carrier safety oversight in Mexico.
The Decision of the NAFTA Arbitral Panel Permits the United States to 
        Apply Different Standards to Uphold Safety
    While the NAFTA arbitration panel found the United States in 
violation of its treaty obligations, it also found that the United 
States may have different admission procedures for Mexican carriers to 
ensure that these carriers comply with U.S. regulations. The NAFTA 
arbitration panel indicated it was acceptable for the United States to 
individually assess each application submitted by a carrier from Mexico 
to operate in the interior United States and refuse to issue operating 
authority if a particular carrier will not be in compliance with U.S. 
safety regulations. Paragraphs 300 and 301 of the ruling clearly allow 
the U.S. to apply, if found necessary, different, more stringent safety 
standards to ensure that the U.S. interest in upholding the safety and 
welfare of its citizens is fulfilled in awarding operating authority to 
Mexican motor carriers. Moreover, the ruling explicitly states that the 
U.S. does not have to provide favorable operating authority 
consideration to all or even any specific number of applications from 
Mexico. Mexican motor carriers which fail to meet reasonable, case-by-
case examination of their safety condition may be barred from operating 
in the U.S. This panel ruling is a baseline legal interpretation of the 
rights and responsibilities of the U.S. in controlling cross-border 
motor carrier safety.
    It is clear why the NAFTA arbitration panel reached this decision 
to openly interpret NAFTA to allow the U.S. to uphold the safety of its 
citizens by applying more strenuous safety requirements to Mexican 
motor carriers applying for U.S. operating authority. The panel had 
been provided with information gathered by the U.S. government showing 
the continuing poor record of Mexican motor carriers operating in our 
country and the almost total lack of a safety oversight system put in 
place by the Mexican federal government to generate reliable 
information about the safety records of Mexican truck and bus 
companies. In back-to-back filings with the NAFTA Secretariat on June 8 
and 9, 2000, our government documented the lack of a government-
administered safety regime in Mexico. It emphasized that roadside 
inspections of trucks coming into the U.S. from Mexico were completely 
unequal to the task of identifying which carriers were dangerous. In 
fact, our country's statements for the record stressed that even a 
company using new trucks in U.S. operations, which are more likely to 
pass roadside inspections, nevertheless did not ensure that it would 
operate safely once it had free operating privileges. Instead, the U.S. 
government stated that only on-site inspections of the company's 
operations at their places of business, with direct evaluation of their 
crash experience and other carrier operating information, could provide 
the basis for judging the safety of any Mexican trucking firm. Most 
importantly, the U.S. asserted in its June 9, 2000, filing that:

        LNo review of a Mexican motor carrier based solely on an 
        unverifiable application for operating authority can give the 
        United States a sufficient level of confidence regarding the 
        safety of that carrier's vehicles, no matter how detailed an 
        application is required. Secretariat File No. USA-MEX-98-2008-
        01, June 9, 2000 (emphasis supplied).

FMCSA Is Following a Course of Action That Degrades Safety and Ignores 
        Procedures Permitted by the NAFTA Arbitral Panel
    Only a year after the U.S. made this statement in its filing, the 
FMCSA, charged with protecting the safety of the American people 
through policies and regulations designed to enhance motor carrier 
safety to the highest degree, as directed by Congress in Section 101 of 
the Motor Carrier Safety Improvement Act of 1999, ignored our own 
government's position on the unacceptability of paper applications for 
ensuring public safety and for making awards of operating authority.
    The FMCSA has proposed a dangerously flawed plan for granting new 
operating authority exclusively for motor carriers from Mexico. The 
plan asks only for uncorroborated responses from applicant companies 
that they understand and will comply with the entire range of driver, 
vehicle, insurance, hazardous material, and other legal and safety 
requirements for freight and passenger transportation in the U.S. The 
agency intends to accept applications that are checked ``yes'' in the 
appropriate places as the sole basis for awards of operating authority 
to Mexican truck and bus companies. In fact, there are more than five 
pages of questions in the Safety Certifications section of the 
application for both interstate and border zone motor carriers 
regarding an applicant's knowledge of, and intention to follow U.S. 
regulations. However, there is only an option to answer ``yes'' on the 
application. Regarding questions concerning safety practices, driver 
qualifications, hours of service, drug and alcohol testing, vehicle 
condition and hazardous materials training and operation procedures, 
there is no option to even respond ``no.''
Safety Compliance Reviews of Carriers from Mexico Will Be Conducted 
        after FMCSA Grants Operating Authority
    No initial safety compliance review will be conducted to determine 
whether these trucking and bus firms from Mexico actually understand 
and can comply with U.S. safety requirements before they operate on our 
streets and roads. During 18 months or more of U.S. operations, the 
FMCSA proposes to conduct safety compliance reviews. However, these 
safety audits will often not be conducted at the motor carrier's place 
of business and the agency will still rely almost entirely on a review 
of the records which the FMCSA will ask Mexican companies to bring to 
locations within the U.S. Advocates strongly opposes this approach and 
supports a meaningful audit system that relies on an on-site evaluation 
and inspection of the carrier at its place of business.
    FMCSA officials have stated that the purpose of the 18-month 
interval is to allow the agency to compile inspection and truck crash 
information on carriers during its operation in the United States. 
Using the American motoring public as a safety experiment with 
inexperienced foreign carriers would never be tolerated in any other 
mode of surface and air transportation or in any medical testing 
protocol. Yet, the FMCSA plans to go forward with this dangerous 
proposal.
    This is not a system of safety assurance. This proposed approach to 
the safety management of thousands of Mexican trucks and buses is 
instead an award of an 18-month safe harbor for potentially dangerous 
vehicles and drivers. Permitting many thousands of new entrants into 
the U.S. is not a zero-sum safety proposition. These trucks and buses 
will increase their annual travel in the U.S. by more than an order of 
magnitude over the current annual mileage accrued by trucks and buses 
operating only in our southern border zone. This means that the 
exposure of the American people to crashes with trucks and buses from 
Mexico will dramatically increase.
Comparisons Between Mexico and Canada Regarding Commercial Carrier 
        Safety Oversight Are Misleading
    Critics have argued that differential treatment has been accorded 
Canada for cross-border commercial transportation while disfavoring 
Mexican freight and passenger motor carrier services in U.S. interstate 
commerce. Mexico, to date, has operated under the terms of restricted 
motor carrier access rights because there is no functioning safety 
regime in Mexico implemented and enforced by the government.
    Canadian motor carrier safety standards are very similar to those 
in the U.S. unlike Mexico. For example, Canada and the U.S. recognize 
the same set of commercial vehicle safety inspection criteria which are 
applied on each side of the northern border. Moreover, safety 
compliance reviews using essentially the same standards for vehicle and 
driver safety are conducted by the other country in the host country at 
the place of business of the Canadian or U.S. domiciled carrier. Last, 
both countries have automated, reciprocal access to each other's 
databases of motor carrier registrations, roadside inspections results, 
safety ratings of motor carriers, driver license files, and violations/
convictions records.
    Currently, there are no databases comprising these areas of safety 
oversight in Mexico which could be used by U.S. safety auditors and 
inspectors to review the safety compliance records of motor carriers 
from Mexico. The effectiveness of the Canadian system of motor carrier 
oversight and regulation is demonstrated in the lower out-of-service 
rate for their trucks compared to the out-of-service rate for U.S. 
trucks.
Advocates' Recommendations
FMCSA must conduct an on-site safety review of carriers from Mexico 
        seeking interstate operating authority in the United States.
    Prior to granting operating authority to any Mexican carrier, the 
FMCSA must conduct an on-site safety compliance review. A safety 
compliance review should be conducted at the carrier's place of 
business with independent federal verification of driver license 
validity, equipment safety, inspection and repair facilities, safety 
management controls, and interviews with on-site company officials, in 
addition to other elements of a comprehensive safety compliance effort. 
A careful case-by-case review of motor carrier companies from Mexico as 
provided by the February 2001 NAFTA arbitration panel will help to 
ensure that only the safest companies and drivers will be permitted to 
share the road with American motorists.
    Advocates is not alone in calling for these up-front safety audits 
of Mexican motor carrier safety capabilities. Major national groups and 
even trucking organizations have called for initial, case-by-case 
safety compliance reviews of new entrant applicants or have opposed 
reliance on nothing more than a simple, unverifiable paper application 
for gaining operating authority. In addition to Advocates, these 
include the American Association of Motor Vehicle Administrators, the 
Commercial Vehicle Safety Alliance (CVSA), the Transportation Lawyers 
Association, the Transportation Consumer Protection Council, the 
International Brotherhood of Teamsters, the California Highway Patrol 
(CHP), the American Bus Association, the Amalgamated Transit Union, the 
Owner-Operator Independent Drivers Association, the AFL-CIO, AAA, 
Citizens for Reliable and Safe Highways, the Arizona Department of 
Public Safety, Public Citizen, and the American Insurance Association. 
All of these organizations agree with our own U.S. government's 
position taken in June 2000 that an unverified paper application cannot 
ensure the safety of the American people on their highways and streets. 
And hundreds of ordinary rank-and-file citizens have written to the 
U.S. Department of Transportation decrying the proposal of the FMCSA to 
allow cross-border trucking and passenger transportation operations 
without substantive safety compliance reviews. Without these initial 
safety compliance reviews conducted on-site in Mexico at a company's 
place of business, we are needlessly endangering the lives of both U.S. 
citizens on their own roads as well the lives of the drivers who will 
operate Mexican trucks and buses.
Strengthen Border Inspection Facilities.
    Most states, including the border states, are completely unprepared 
to address the increased traffic that will result from opening the 
border. Texas, which has the most border crossings and the highest 
traffic volume of carriers from Mexico, does not have permanent 
inspection facilities at any crossing point. The Texas Legislature 
recently passed a resolution asking Congress to recognize the 
tremendous impact of opening the border to unrestricted travel by 
Mexican carriers and requested funding to pay for the additional 
infrastructure costs at the border and on its roads.
    Of the current 27 recognized border crossing points, only two (2) 
have full inspection (Level One Inspection) facilities, both in 
California. All 27 border crossing points should have the facilities 
available for performing Level One inspections on a substantial 
percentage of Mexican-domiciled carriers seeking entry into the U.S. 
for either commercial zone or nationwide operation. Only a full 
inspection which intensively evaluates truck equipment and driver 
safety rather than only Level Two (simple ``walk-around'' or 
``eyeball'' inspections) or only Level Three (only driver 
qualifications evaluations) can both detect serious safety deficiencies 
and create a deterrent effect for other Mexican-domiciled carriers who 
attempt to evade U.S. safety, insurance, licensing, and operating 
authority requirements. No Mexico-domiciled motor carriers should be 
granted access to the U.S. when the border is fully open unless all 
U.S. border crossings have Level One inspection facilities in place.
Require Weight Scales at All U.S. Border Crossings to Confirm that Each 
        Mexico-Domiciled Truck or Bus Conforms to Federal Weight Limits 
        Pursuant to 23 U.S.C. Sec. 127.
    Mexico-domiciled trucks and buses are permitted to operate in 
Mexico at both axle and gross weights which are far higher, and with 
axle spacings which are more lenient, than permitted in the U.S. under 
federal law and regulation governing commercial vehicle travel on the 
Interstate system. Since ample research, including research sponsored 
by the Federal Highway Administration, has shown that heavier, 
overweight trucks have more crashes and crashes of greater severity, 
increased weight certification at the border of Mexico-domiciled trucks 
and buses can prevent crashes once motor carriers from Mexico operate 
throughout the U.S. It would be preferable if money appropriated and 
spent for installing weigh scales at all border crossing points would 
be Weigh-In-Motion (WIM) systems so that Mexico-domiciled truck and bus 
weight verification would be automatic and performed for each vehicle 
entering the U.S.
Direct the U.S. DOT Secretary to Implement Section 210(b) of the Motor 
        Carrier Safety Improvement Act of 1999 by Issuing a Final 
        Regulation After Notice-and-Comment Rulemaking that Establishes 
        a Proficiency Test of All New Foreign and Domestic Motor 
        Carriers Applying for U.S. Operating Authority.
    Currently, Section 210(b) directs the Secretary to conduct 
rulemaking to establish minimum requirements for new entrant applicant 
motor carriers, but it only suggests that the Secretary may consider 
adopting a proficiency test for new carriers to test their knowledge of 
U.S. federal safety standards. A safety proficiency test for all new 
foreign and domestic motor carriers applying for U.S. operating 
authority could supplant the Federal Motor Carrier Safety 
Administration's proposed reliance on uncorroborated certifying 
statements by new entrants that they are knowledgeable about and will 
conform to U.S. motor carrier safety law and regulation. Successful 
passage of a safety knowledge proficiency examination coupled with a 
preliminary safety audit could be the cornerstones
    of a federal program of safety evaluation to ensure that new motor 
carriers have safe equipment, use legally licensed drivers, implement 
acceptable blood and alcohol testing programs, provide adequate safety 
oversight and regulatory compliance mechanisms, and employ only 
managers and drivers who are knowledgeable about U.S. motor carrier 
safety standards.
Direct the U.S. DOT Secretary to Implement Section 211 of the Motor 
        Carrier Safety Improvement Act of 1999 by Providing for the 
        Training and Certification of Sufficient Private Contractors 
        for Conducting Safety Audits On the Mexico-U.S. Border.
    Even the addition of another 80 inspectors to southern border 
inspection points may not be sufficient to augment the number of border 
crossing safety inspections and of motor carrier safety audits 
performed at the business locations of Mexico-domiciled carriers in 
order to ensure detection of dangerous trucks and buses. A sufficient 
number of inspections and timely safety audits is necessary to create a 
substantial deterrent effect for carriers who are tempted to evade U.S. 
safety and other motor carrier laws and regulations. Amplifying the 
number of federal and state inspectors with private, third-party 
contractors will strengthen the overall U.S. motor carrier inspection 
and safety auditing program at the southern U.S. border. Currently, 
Section 211 directs the Secretary to complete rulemaking to improve 
training and provide for certification of safety auditors. The section 
also provides that some of these auditors can be private contractors. 
Adequate controls can be placed on the supplementary use of private 
contractors to avoid possible problems of fraud and abuse, such as 
allowing only federal inspectors to award an actual safety rating.
    Before the southern borders are opened, the Administration needs to 
certify that safety is not compromised. These recommendations cover the 
very basic safeguards that every American on our roads and highways 
deserves, and indeed, demands.
    That concludes my testimony. I would be pleased to answer any 
questions for the Committee.
                                 ______
                                 
            Prepared Statement of Jim Johnston, President, 
          Owner-Operator Independent Drivers Association, Inc.
Summary
    On behalf of 66,000 independent small business truckers who are 
members of the Owner-Operator Independent Drivers Association 
(``OOIDA'' or ``Association''), I am pleased to submit this testimony 
regarding the operation of Mexican commercial vehicles within the 
United States.
    OOIDA would like to first emphasize that the proposal at issue 
under the North American Free Trade Agreement (``NAFTA'') is not simply 
the opening of the border to Mexican trucks. At issue is the opening of 
all interstate highways and local roads throughout the United States to 
Mexican trucks. Only from this perspective do you begin to understand 
the great impact that Mexican trucks will have on our country. OOIDA 
believes that no matter how strong our border enforcement is, the 
majority of problems our country will face with Mexican trucks will 
occur within the interior of the states.
    It is well known that Mexican carriers and truckers are not 
required to meet, and frequently fail to meet, U.S. motor carrier 
safety standards. In response to these safety concerns, the Federal 
Motor Carrier Safety Administration has proposed that Mexican carriers 
undergo a ``safety review'' in the first 18 months of their operation 
in the United States. Some in Congress have suggested that this review 
must occur before a Mexican carrier begins its U.S. operation. Although 
useful and important, this exercise in paperwork would have little 
practical effect on the safety of Mexican trucks operating in the 
United States.
    The Senate Transportation Appropriations Subcommittee has 
recommended a much more stringent pre-qualification of Mexican carriers 
and drivers, a stronger enforcement presence at the border, better 
tools for enforcement personnel, and consequences for Mexican carrier 
violation of U.S. laws. These are very positive and necessary actions, 
but we recommend that more needs to be done.
    There are NAFTA trade rules that implicate Customs and Immigration 
issues which are just as important as the safety issues. Specific 
restrictions in the NAFTA agreement proscribe the activities and 
movements of Mexican trucks and drivers in the United States. 
Enforcement of these provisions will require the efforts of the Customs 
Service and the Immigration and Naturalization Service in coordination 
with state enforcement officials. No such effort has been proposed or 
contemplated.
    Another overlooked issue is the revenue from fuel taxes, heavy 
truck excise taxes, and highway user fees that the states and the 
federal government will lose. These are important revenue sources that 
go to build and maintain our highways and bridges. When Mexican trucks 
come into the United States fueled up with cheap Mexican diesel, they 
avoid paying those taxes and replace American trucker who used to pay 
those taxes. There is no plan in place to address this consequence of 
NAFTA.
    If these issues are not addressed, OOIDA members believe that we 
will see thousands of unsafe Mexican trucks operating virtually 
uninhibited on our highways. These trucks will not only endanger the 
safety of our highways but also create an issue of fairness to U.S. 
truckers who pay their fair share of taxes and comply with higher 
safety standards.
    The following is a more detailed discussion of these issues.
U.S. Enforcement Efforts at the Border are Inadequate.
    The DOT Office of the Inspector General recently published a report 
that detailed the inadequacy of our border enforcement efforts. [See 
Interim Report on Status of Implementing the North American Free Trade 
Agreement's Cross-Border Trucking Provisions. Report Number: MH-2001-
059, May 8, 2001]. It reported that during the fiscal year 1997, 
commercial trucks made 3.5 million crossings into the United States at 
the southern border. Federal and state inspectors performed inspections 
on less than 0.5 percent of those trucks. Furthermore, 44 percent of 
the trucks inspected were removed from service because of serious 
safety violations. These statistics demonstrate both our weak 
enforcement presence on the border and the poor physical condition of 
Mexican trucks.
    Currently, the only permanent inspection facilities at the U.S.-
Mexico border are the state run facilities in California. Of the other 
25 border crossings, the Inspector General's report observed that few 
have a dedicated telephone line to access transportation databases. 
Furthermore, a majority of border facilities lacked the physical space 
in which to inspect or place out of service more than two vehicles at a 
time.
    The DOT has proposed hiring 40 new inspectors and 40 new safety 
investigators. This would bring the number up to 140 total, the level 
that the Inspector General recommended were needed for Mexican truck 
traffic in 1998. More substantial inspection facilities and many more 
inspection personnel need to be in place before our highways are opened 
to more Mexican trucks.
U.S. Enforcement Efforts Within the United States is Nonexistent
    The individual states are on the front line of truck safety 
enforcement. Once a Mexican truck crosses the border, each state, not 
the federal government, will have the responsibility of inspecting 
Mexican trucks and verifying their compliance with U.S. regulations. In 
this role, it is the state enforcement personnel who must know whether 
a Mexican truck and driver is operating safely and within the bounds 
authorized by NAFTA.
    OOIDA is aware of no effort by any state, except perhaps 
California, to adequately take on the enforcement of the laws and 
regulations raised by Mexican trucks. California's effort is limited to 
the inspection of the vehicle. OOIDA is aware of no effort by any 
federal government agency to educate the states on these issues or to 
give them the authority to enforce these laws and regulations. Such 
efforts must be a part of any thorough plan to allow more Mexican 
trucks onto our highways.
Mexican Trucks Rarely Comply With U.S. Safety Law
There is no true equivalent of the U.S. Commercial Driver License 
        (``CDL'') system in place in Mexico.
    While both U.S. and Mexican government officials claim Mexico's 
commercial driver licensing requirements are equivalent to the U.S. 
rules, statistics from border checks indicate that significant problems 
exist. Lack of a valid license is the top reason for placing Mexican 
drivers out-of-service (``OOS'') according to the Office of the U.S. 
Trade Representative. A recent spot check by the Texas Department of 
Public Safety found 9 of 12 drivers lacked valid licenses. Even if the 
license is valid and legally obtained, little or no data exists in 
Mexico that can accurately confirm that information. Nor can U.S. 
inspectors identify the details of a driver's violation history or 
accident record. They may not even be able to tell whether the license 
presented belongs to the driver carrying it.
There is no viable truck safety inspection program in Mexico.
    There are few if any trained Mexican commercial motor vehicle 
inspectors that measure up to the U.S. standards. While the Mexican 
government insists it enforces very strict commercial vehicle and 
driver standards, Mexican truckers report that the main condition to 
compliance is the financial persuasion of enforcement officials.
    Although Mexico joined the Commercial Vehicle Safety Alliance 
(``CVSA'') and has agreed to adopt CVSA training, inspection and 
enforcement practices, the CVSA has failed, despite repeated attempts, 
to obtain inspection data from the Mexican government. There is no 
proof that Mexico is inspecting any vehicles or drivers. Unless Mexico 
quickly makes significant strides to ensure the safety of Mexican motor 
carrier equipment and drivers, the entire burden of safety compliance 
will fall squarely on U.S. enforcement efforts.
There is no drug and alcohol testing program comparable to that of the 
        U.S. program in Mexico
    U.S. drivers are extensively tested for use of controlled 
substances and alcohol. Although Mexico claims to have a program in 
place, the Association believes they have no means or will to enforce 
the rules. In fact, it is reported that Mexican drivers frequently use 
drugs in order to drive longer hours. Amazingly, sometimes the use of 
these drugs is encouraged by their trucking employer.
    It would be inherently inequitable to allow Mexican drivers to 
operate in the U.S. without being subject to the same stringent 
standards required of U.S. drivers. To permit a certain class of 
drivers to be largely and effectively ``exempt'' from these regulations 
would be a manifest injustice and place U.S. truck drivers at a 
distinct economic disadvantage and all drivers at a safety risk.
Mexico has no driver hours-of-service regulation.
    There is no way to begin to verify how many hours a Mexican driver 
has operated in any given day or week. It has been reported that 
Mexican drivers commonly operate 16 to 20 hours a day or more. 
Regardless of whether Mexican drivers adhere to the U.S. standard while 
operating in the U.S., there is no way of knowing how long the driver 
had been driving prior to entering our country.
Mexico Has No Viable Vehicle Size and Weight Enforcement
    Mexico has no effective weight enforcement for its vehicles. There 
are no fixed weigh station facilities in Mexico, and none on the U.S. 
side at the border. OOIDA fears that an influx of overweight Mexican 
trucks will cause a significant degradation in U.S. highway safety and 
the infrastructure.
    Mexican truckers who know or learn their way around state scales 
could conceivably travel throughout the United States and back into 
Mexico without ever being weighed. Fixed weigh stations at border 
crossings must be established in the United States to assure that 
Mexican trucks meet federal weight restrictions. FMCSA did not consider 
the additional costs of these facilities in their budget proposal. 
Millions of dollars in additional funds will be required to erect these 
weigh station facilities.
Mexican Trucks Avoid State and Federal Fuel Taxes and Highway User Fees
    Mexican carriers have in the past installed additional fuel tanks 
to carry extra high sulfur fuel purchased at a much lower cost in 
Mexico. These vehicles can travel hundreds and even thousands of miles 
during each trip on U.S. highways without ever buying fuel in the U.S. 
In doing so, these Mexican trucks avoid paying any state and federal 
fuel taxes. Furthermore, they take the place of U.S. trucks and drivers 
that currently do pay those taxes and every other tax levied on us as 
citizens, including state and federal income and payroll taxes.
    The principal way that highways and bridges are financed in the 
U.S. is through taxes assessed on the trucking industry. Fees and taxes 
on highway use are primarily collected through registration fees and 
through taxes on fuel consumed under the International Registration 
Plan (``IRP'') and the International Fuel Tax Agreement (``IFTA''), 
respectively. Since Mexico does not participate in either plan, the 
fees and taxes cannot be collected under the agreements, and U.S. truck 
owners bear the entire cost of highway repair and new highway 
construction.
Mexican Trucks Already Violate NAFTA Rules
    Once a Mexican truck passes through the border, the United States 
has no plan to ensure that they only perform the limited operations 
allowed by NAFTA. Under NAFTA, a Mexican truck can only deliver a 
cross-border shipment to a destination in the United States, pick up 
another shipment for return to Mexico, or drive through the United 
States on the way to Canada. We have no system in place to ensure they 
adhere to these restrictions.
    When a Mexican truck driver begins to violate NAFTA by hauling 
between two points within the United States, he or she has begun to 
perform domestic work within the U.S. and must have proper 
documentation (such as a green card) to do so. When a Mexican truck 
begins to haul between two points within the United States, 
``technically'' that truck has been imported into the U.S. and all 
applicable duties and tariffs must be paid on it.
    The INS and Customs Service are unprepared to supervise Mexican 
truck compliance with these rules. As the Inspector General of the 
Department of Transportation has reported, Mexican trucks, ostensibly 
allowed into the country for shipments to the commercial border zones, 
are already flaunting this NAFTA rule by operating throughout the 
United States.
    Aside from the initial contact when a truck enters the United 
States at the border, U.S. Customs and INS personnel rarely, if ever, 
come in contact with a foreign-based motor carrier's vehicles and 
drivers. Most state motor carrier enforcement personnel, those who 
regularly encounter commercial vehicles in the interior of the country, 
are trained only to enforce federal and state vehicle and driver safety 
regulations. Few consider the origin and destination of a load, and how 
the movement may relate to the motor carrier's country of domicile. 
Furthermore, state enforcement agencies appear unwilling at this point 
to take on the task of enforcing cabotage restrictions. Even if state 
CMV enforcement agencies received the necessary funding, and inspectors 
were properly trained and had the requisite authority, there is simply 
not enough staff to catch more than a token number of violators.
There Will Be No Reciprocal Benefit From Mexico To the United States
    Under NAFTA each country has promised the others to give equal 
access to its markets. Practically speaking, however, Mexico is not 
prepared to give American trucking companies the same kind of safe and 
secure highways as their trucks will find in the United States. The 
reputation of the crime rate in Mexico and of Mexican law enforcement 
inspires few U.S. truckers to risk their own safety and security by 
trucking south of the border. We have attached an article that 
describes the routine danger of truck shipments being hijacked in 
Mexico.
    In terms of trucking, the benefits of opening the border all flow 
toward Mexico. Mexican truckers gain access to new markets and 
customers on the safest and most open highway system in the world. In 
return, the U.S. truckers are invited to travel more dangerous highways 
while the U.S. government gets the burden of performing safety 
enforcement for both countries.
Conclusion
    Allowing Mexican trucks into the United States at this time is not 
in the best interest of the American public or U.S. drivers and small 
business truckers. Truck safety and highway conditions will suffer 
greatly. Mexican motor carrier and driver safety regulations are either 
inadequate or non-existent. Allowing the border to open without 
correcting these inadequacies will result in a substantial decline in 
truck safety.
    Border enforcement capabilities will need to be strengthened prior 
to allowing Mexican trucks into the U.S. Unless adequate personnel are 
deployed at border zones and additional funding is committed to provide 
permanent border weight and inspection facilities, there will be no way 
to ensure that Mexican carriers comply with United States laws and 
regulations. The U.S. Senate Appropriations Committee has recommended 
some strong, realistic rules to address these safety issues.
    It is OOIDA's belief that few Mexican carriers are educated in the 
numerous federal and state laws they will encounter. While many of 
these regulations and laws are within the control of the FMCSA, 
implementation of the entry provisions of NAFTA will require a 
cooperative effort among members of the FMCSA, INS, U.S. Customs 
Service and state enforcement officials. Coordination between the 
federal and state governments will also be necessary to recover the 
fuel taxes and user fees not paid by Mexican trucks.
    Allowing Mexican trucks into the U.S. should not compromise the 
safety of our highways. Until measures are put in place to ensure that 
Mexican trucks and drivers entering the U.S. are in compliance with 
NAFTA trade rules and all United States transportation laws and 
regulations, OOIDA remains adamant that the United States-Mexico border 
remain closed. Thank you for the opportunity to present these comments.
                                 ______
                                 
     Prepared Statement of James La Sala, International President, 
                   Amalgamated Transit Union, AFL-CIO
    Mr. Chairman and Members of the Committee:
    On behalf of the Amalgamated Transit Union (ATU), which represents 
over 175,000 members maintaining and operating bus, light rail, ferry, 
intercity bus, school bus and paratransit vehicles in the United States 
and Canada, including over 5,000 Greyhound employees operating from 88 
cities throughout the United States, I am pleased to submit this 
testimony on whether Mexican-domiciled motor carriers should be allowed 
to operate throughout the United States. In addition, I thank you for 
holding a hearing on this crucial safety and fairness issue.
    Initially, I take this opportunity to affirm our longstanding 
commitment to the safety and security of U.S. bus passengers and 
operators, as well as the rest of the traveling public. As such, we 
welcome the opportunity to work with this Committee, Congress and the 
Administration, toward a safe, effective and fair implementation of the 
cross-border passenger motor carrier provisions of the North American 
Free Trade Agreement (NAFTA). At this time, however, the ATU is firmly 
opposed to the proposed opening of the U.S.-Mexico border to cross-
border passenger motor carrier operations.
    As you know, the Senate Appropriations Committee reported out the 
FY 2002 Transportation Appropriations bill (S. 1178) last week, 
including in the bill several provisions drafted by Senator Patty 
Murray, Chair of the Transportation Appropriations Subcommittee, to 
address the issue of motor carrier safety with respect to Mexican 
cross-border truck and bus operations. These provisions are similar to 
those included in House Resolution 152. In addition to these pending 
bills, the House Transportation Appropriations bill (H.R. 2299) that 
passed the House of Representatives a few weeks ago includes language 
barring the U.S. from granting operating authority to any Mexican motor 
carriers. The ATU supports all of these bills which address many of the 
ATU's safety concerns. However, the ATU does have several concerns, 
specific to the intercity bus industry, that may require separate 
legislative action. These concerns are discussed below.
    Specifically, it is the position of the ATU that:

        (1) LMexican buses should not be authorized to operate in the 
        U.S. absent reciprocal treatment of U.S. buses by Mexico;
        (2) LMexican buses must be certified as safe before the first 
        day they are authorized to operate in the U.S.;
        (3) LThe U.S. border crossing must be adequately equipped and 
        staffed and inspectors must be fully trained before operating 
        authority can be granted to any Mexican bus operation; and
        (4) LU.S. subsidiaries of Mexican companies must be subject to 
        the same standards and reviews as their Mexican parent company.

Mexican Buses Should Not be Authorized to Operate in the U.S. Absent 
        Reciprocal Treatment of U.S. Buses by Mexico
    As you know, on February 6, 2001, a NAFTA dispute resolution panel 
ruled that the U.S. violated its NAFTA obligations by not implementing 
the NAFTA cross-border trucking provisions. As a result, the 
Administration has moved forward with a plan, as evidenced by the 
implementation rules recently proposed by the Federal Motor Carrier 
Safety Administration (FMCSA), to fully open the border to both Mexican 
trucks and buses by January 2002.
    It is important to note that the NAFTA panel decision concerned 
only the implementation of NAFTA's cross-border trucking provisions and 
no similar ruling has been issued with respect to the cross-border 
passenger motor carrier provisions. As such, there is no need to 
hastily open the border to Mexican buses without first ensuring not 
only their safe and legal operation, but also a level playing field for 
U.S. competition.
    In fact, granting operating authority to Mexican-owned buses at 
this time is premature under the terms of NAFTA, which provides that, 
upon opening the border, Mexico is obligated to provide the ``same 
treatment'' to U.S. bus firms as the U.S. provides to Mexican firms. 
However, the Mexican and U.S. governments have taken different 
positions on several important operational issues that would result in 
vastly different treatment of the foreign bus operations in each 
country, involving access to bus terminals and the ability to provide 
service to multiple points within each country.
    Specifically, the Mexican government has taken the position that it 
would only authorize U.S. bus companies to provide cross-border service 
to one point in Mexico. In contrast, the position of the U.S. 
government, made evident by the FMCSA's proposed implementation rules, 
is to authorize Mexican operators to provide cross-border service to 
multiple points in the U.S. Additionally, while the U.S. has not 
proposed to place any restrictions on the ability of Mexican companies 
to own or operate bus terminals in the U.S., Mexico's position has been 
to strictly prohibit foreign ownership or operation of Mexican bus 
terminals. 
    The different treatment accorded foreign bus companies by the two 
countries would result in unfair competition and would be a violation 
of the ``same treatment'' requirement imposed by NAFTA. As such, the 
U.S. should not open the border to Mexican buses until Mexico has 
agreed to provide reciprocal authority to U.S. owned or controlled 
passenger motor carriers operating in Mexico.
    H.R. 2299 addresses this issue by simply prohibiting the opening of 
the border. Likewise, H. Res. 152 addresses the issue by requiring that 
a reciprocity agreement be reached by Mexico and the United States 
before operating authority can be granted to Mexican bus operations. S. 
1178, however, does not address this important issue of reciprocity.
Mexican Buses Must be Certified as Safe Before the First Day They 
        Operate in the U.S.
    The Administration is proposing to authorize Mexican passenger 
motor carriers to operate in the U.S. for up to 18 months before 
receiving a safety review. Further, under the FMCSA's proposed rules, 
those carriers who do not receive a review within the 18 month time 
frame, will be allowed to operate in the U.S. for an indefinite period 
until a safety review is conducted. At the same time, the FMCSA 
recognizes that ``Mexican carriers have, for the most part, little or 
no experience operating under regulations comparable to the [Federal 
Motor Carrier Safety Regulations (FMCSRs)]'' (66 FR 22372).
    The results of an audit conducted by the Department of 
Transportation's (DOT) Inspector General (IG), released in May of this 
year, back up the FMCSA's observation. Specifically, the report stated 
that the percentage of Mexican trucks found to have safety deficiencies 
is 50 percent higher than that of U.S. trucks. (Report No. MH-2000-059, 
May 8, 2001). Like Mexican trucks, Mexican buses fail to comply with 
U.S. safety requirements for critical safety items such as brakes, fuel 
systems, windows and emergency exits. Currently, there is only one 
Mexican-manufactured bus model that is known to meet the Federal Motor 
Vehicle Safety Standards (FMVSS) and the FMCSRs.
    Mexican buses must be safe on the first day they are authorized to 
operate in the U.S. Given the evidence from the IG audit and the 
observation of the FMCSA that these carriers do not and are not 
prepared to conform their operations to U.S. standards, we cannot allow 
these buses to operate on our roads and highways for 18 months, or 
possibly longer, without first determining that they meet our drug and 
alcohol testing, driver, equipment, hours of service, fatigue and other 
safety standards. Failure to do so will seriously threaten the safety 
of U.S. bus passengers and others traveling our nation's roads. All 
three bills, H.R. 2299, H. Res. 152 and S. 1178, adequately address 
these safety concerns.
The U.S. Border Crossing Must be Adequately Equipped and Staffed and 
        Inspectors Must be Fully Trained Before Operating Authority Can 
        be Granted to Any Mexican Bus Operation
    As the above-referenced IG study has shown, the U.S. is ill-
prepared to handle the inspection and enforcement needs that will 
result from the increase in Mexican motor carrier traffic entering the 
U.S. when the border is fully opened. According to the IG, there are 
only two permanent inspection facilities on the U.S.-Mexico border, 
both of which are state facilities in California. Of the 25 remaining 
border crossings, 20 do not have dedicated telephone phone lines to 
access safety databases, such as those for validating a commercial 
driver's license. Further, almost all of these inspection facilities 
lack adequate space to inspect vehicles and/or place dangerous vehicles 
out of service. In addition, there are not currently enough inspectors 
to adequately staff border operations.
    Despite these obvious deficiencies at our border, the 
Administration has not proposed a safety enforcement and compliance 
program that will ensure the safe operation of Mexican carriers 
authorized to provide cross-border services into the U.S. Such a 
program must be in place and must be adequately funded before operating 
authority is granted to any Mexican bus or truck operation.
    In addition to being able to stop unsafe vehicles from crossing the 
border, the U.S. must be prepared to ensure that the drivers of 
Mexican-owned passenger motor carriers are legally allowed to operate 
the authorized service. While the Administration has proposed to allow 
Mexican drivers possessing a valid Licencia Federal de Conductor (LFC) 
to operate cross-border bus service into the U.S., it is well 
established law that passenger motor carriers must use U.S. citizens or 
resident aliens to provide domestic point-to-point passenger service in 
the U.S., even if that service is part of an international operation. 
The U.S. must takes steps to ensure that Mexican carriers are not only 
aware of this restriction, but that they are also in compliance with 
this important immigration law. To accomplish this, FMCSA must work 
with the Immigration and Naturalization Service (INS) to develop 
mechanisms that effectively enforce this law, which protects the safety 
of U.S. travelers and U.S. worker jobs. Such an enforcement system must 
be in place, and publicized, before any operating authority, domestic 
or cross-border, is granted to Mexican-owned carriers.
    Again, H.R. 2299 addresses this issue by completely prohibiting the 
granting of operating authority to Mexican buses and trucks and both H. 
Res. 152 and S. 1178 would ensure that the U.S. border crossing is 
adequately equipped and staffed and that inspectors are fully trained 
before operating authority is granted to any Mexican bus or truck 
operation.
U.S. Subsidiaries of Mexican Companies Must be Subject to the Same 
        Standards and Reviews as Their Mexican Parent Company
    In its proposed rule makings, FMCSA has specifically exempted from 
the special application procedures and oversight, U.S. subsidiaries of 
Mexican companies that provide domestic point-to-point service in the 
U.S. These are the carriers that will have the most impact on U.S. 
travelers since they will be providing both domestic and cross-border 
service to those passengers. As such, their operations should, at a 
very minimum, be subject to the same level of scrutiny and review, with 
respect to safety concerns, as their parent company and other cross-
border carriers.
    In fact, equal application of these rules to Mexican-owned 
subsidiaries in the U.S. is necessitated by the recent Memorandum from 
President Bush to the Secretary of Transportation lifting the 
moratorium on Mexican owned and controlled companies providing domestic 
bus service in the U.S. In his letter, President Bush stated that all 
such entities ``will be subject to the same Federal and State 
regulations and procedures that apply to all other U.S. carriers.'' 
Unless these Mexican-owned subsidiaries are subject to the same 
application and review procedures proposed for other Mexican carriers, 
there will be no way to ensure that these Mexican bus companies, 
carrying U.S. passengers, are conforming their operations to U.S. 
standards.
    Further, this exemption would result in a loophole through which 
Mexican passenger motor carriers could bypass entirely safety fitness 
evaluations by setting up a U.S. subsidiary that can combine its U.S. 
domestic bus authority with its Mexican parent's domestic and cross-
border Mexican authority to provide an integrated domestic and cross-
border service. Again, given the observations of the FMCSA that Mexican 
operators are unfamiliar with U.S. safety regulations, and therefore 
must be subject to special safety scrutiny, we cannot allow these 
Mexican-owned U.S. subsidiaries to operate without the thorough safety 
evaluation that the FMCSA says is needed. None of the pending bills, 
H.R. 2299, H. Res. 152 or S. 1178 address this issue.
Conclusion
    In closing, I again emphasize the unyielding commitment of the ATU 
to the safety and well-being of the traveling public. It is for that 
reason, as well as those discussed above, that the ATU is opposed to 
the proposed opening of the U.S.-Mexico border to Mexican-owned bus 
operations until such time as our government can ensure to the American 
people that buses traveling into the U.S. from Mexico, as well as 
Mexican-owned buses operating throughout the U.S., comply with all 
safety, health and labor requirements as mandated under U.S. laws and 
regulations, and until the U.S. and Mexico have come to an agreement 
with respect to ensuring that the two countries provide the ``same 
treatment'' to foreign bus companies operating in each country.
    Again, we express our thanks to the Committee for the opportunity 
to testify on this matter and we look forward to working closely with 
this Committee, Congress and the Administration to ensure a safe and 
fair implementation of the NAFTA cross-border passenger motor carrier 
provisions.
                                 ______
                                 
       Prepared Statement of Edward Wytkind, Executive Director, 
               Transportation Trades Department, AFL-CIO
    My name is Edward Wytkind. I am the Executive Director of the 
Transportation Trades Department, AFL-CIO (TTD). On behalf of the TTD 
and our 33 affiliated unions,\1\ I want to thank you Chairman Hollings 
for holding this hearing and for giving transportation labor an 
opportunity to share our views on the current proposals to allow 
Mexican commercial trucks and buses to operate in the U.S.
---------------------------------------------------------------------------
    \1\ A complete list of TTD affiliates is attached.
---------------------------------------------------------------------------
    TTD affiliates represent hundreds of thousands of truck and bus 
drivers employed in all areas of our nation's transportation system. As 
such, our collective interest in this issue and in promoting 
transportation safety is substantial. Let me state up front our 
continuing opposition to opening up the U.S.-Mexico border to 
unencumbered cross-border traffic. We remain concerned that the U.S. 
government cannot ensure that Mexico-domiciled motor carriers will 
comply with all safety and health requirements as mandated under U.S. 
laws and regulations. We urge that the border remain closed until 
Mexico fully brings its safety regime to an acceptable standard and the 
U.S. substantially improves its border inspection capabilities and 
infrastructure.
    With that said, I think it is important that we review how we got 
to this point under the North American Free Trade Agreement (NAFTA) 
process. NAFTA went into effect in 1994 with provisions allowing 
Mexico-domiciled motor carriers increasing access to U.S. highways. 
These NAFTA provisions required the U.S. to open access to all U.S.-
Mexico border states in December 1995 and to permit Mexico-domiciled 
motor carriers to travel throughout the entire United States as of 
January 1,200. Until these provisions are implemented Mexico-domiciled 
carriers may operate in a border commercial zone ranging from 3 to 20 
miles into the U.S. to drop off loads destined for U.S. interior 
states.
    In 1995, due to a number of unresolved safety concerns, President 
Clinton maintained limited access to the border commercial zones and 
did not allow any greater access to the rest of the U.S. In 1998, 
Mexico challenged the President's decision before a NAFTA tribunal, 
demanding that the U.S. abide by its NAFTA commitments and open its 
highways. On February 6, 2001, the final NAFTA panel report ruled that 
the safety of Mexico-domiciled trucks was a legitimate concern and 
provided that the U.S. could, consistent with NAFTA, promulgate 
stricter requirements for registration of Mexico-domiciled carriers 
than are used for the registration of U.S. carriers. It also held that 
the U.S. was required to start processing foreign motor carrier 
applications on a case-by-case basis. Although this particular case 
only concerned the trucking provisions of NAFTA, it is expected that 
the DOT will conclude bilateral bus passenger carrier negotiations at 
the same time as the trucking negotiations.
    The United States is under no legal obligation to implement the 
findings of the NAFTA panel. Under U.S. law, to the extent NAFTA 
conflicts with any U.S. law dealing with health, environment and worker 
safety, U.S. laws prevails.\2\ Even under the terms of NAFTA, the U.S. 
is entitled to disregard the panel's recommendation. Under NAFTA 
dispute settlement provisions, if the U.S. does not agree to open the 
border to Mexican motor carriers, it can offer to compensate Mexico 
with new trade benefits and cash payments. However, if Mexico refuses 
to negotiate terms of compensation, NAFTA permits Mexico to take 
compensation in the form of levying reciprocal trade sanctions against 
the U.S. Despite the fact that the U.S. is not required to open the 
southern border to unsafe motor carrier traffic, the Bush 
Administration seems poised to open the border by the end of the year.
---------------------------------------------------------------------------
    \2\ 19 U.S.C. Sec. 3312(a).
---------------------------------------------------------------------------
    This apparent decision by the Bush Administration goes against the 
enormous body of evidence that far too many safety hazards remain 
unresolved and that the U.S. is ill-prepared to handle the massive 
influx of foreign traffic that would result from the opening of the 
border. In the late 1990s, studies by the Department of 
Transportation's Inspector General (``IG'') and the General Accounting 
Office (``GAO'') established that Mexican transportation companies were 
ill-prepared to comply with all U.S. laws and regulations. These same 
studies have also exposed the fact that our government is not prepared 
to carry out its enforcement and inspection responsibilities at the 
border and on American highways. These facts were recently reconfirmed 
by a new IG report that found that while some improvements have been 
made since the IG last investigated the safety of Mexico-domiciled 
motor carriers in 1998, Mexico-domiciled motor carriers are still not 
as safe as U.S. carriers, and U.S. border inspection facilities are 
still inadequate to investigate the safety of Mexico-domiciled motor 
carriers as they cross the border.
    Mr. Chairman, these are troubling facts in light of Mexico's 
commitment to harmonize its safety standards to the level of the United 
States and Canada. In 1994, the three NAFTA countries established a 
Land Transportation Standards Subcommittee (``LTSS'') to address the 
different rules and standards between the NAFTA countries. At the time, 
transportation labor was concerned that the LTSS had the potential of 
lowering U.S. highway and other transportation safety standards. Our 
goal has been the adoption of a common set of standards that raises 
each trading partner's existing transportation safety standards to the 
highest common denominator found in any of three countries. In doing 
so, strong safety standards guarantee the fair trade necessary to 
protect and promote the well-being of citizens in each of the signatory 
countries.
    However, to date this committee has not completed its work and 
certainly has not accomplished a leveling-up of the Mexican highway 
standards. Mexico has no hours-of-service restrictions, roadside 
inspections are now voluntary, driver's licensing requirements are 
brand-new and permit commercial drivers under age 21, has no accurate 
database to track safety violations of its carriers and drivers, and 
has new and untested logbook requirements. Without needed improvements 
in Mexican standards and the necessary resources to enforce these 
upgraded standards, any opening of our southern border is grossly 
premature, and is doomed to sacrifice safety and labor standards.
    Against the backdrop of all these developments, an overwhelming 
majority of the U.S. House of Representatives and a majority of the 
U.S. Senate has continued to endorse comprehensive safety standards 
before opening the U.S.- Mexico border to commercial motor vehicles. In 
1999, 258 members of the House of Representatives, led by Reps. James 
Oberstar (D-MN) and Jack Quinn (R-NY), joined together to urge 
President Clinton to maintain the cross-border restrictions until both 
countries agree on comprehensive safety standards, establish and 
successfully test effective enforcement programs, and staff border 
facilities with full-time inspectors. In the same year, 48 U.S. 
Senators, led by Senators Ron Wyden (D-OR) and Ben Nighthorse Campbell 
(R-CO), sent the same clear message to the President.
    More recently, the Congress has again gone on record supporting 
comprehensive safety standards before allowing Mexico-domiciled motor 
carriers to the enter the United States. On June 26, 2001, the House of 
Representatives, by an overwhelmingly vote of 285 to143, adopted an 
amendment to the Department of Transportation Appropriations bill (H.R. 
2299) prohibiting any funds from being used to process applications by 
Mexico-domiciled motor carriers for conditional or permanent authority 
to operate beyond the commercial border zone. During debate on the 
House floor, the amendment's primary sponsor, Rep. Martin Sabo (D-MN), 
made clear that it was unacceptable to permit 18 months to elapse 
between the time that a Mexico-domiciled carrier is granted U.S. 
operating authority and the completion of a thorough Federal Motor 
Carrier Safety Administration (FMCSA) safety review of the applicants. 
He further asserted that the proposed FMCSA paper review is not 
sufficient, and that FMCSA officials should be able to conduct a more 
thorough review, including audits of Mexico-domiciled carriers' home 
offices, prior to granting even conditional operating authority. TTD 
strongly agrees with Representative Sabo's measure, and we believe that 
the debate on this amendment clearly demonstrated again that a 
substantial majority in the House of Representatives remains committed 
to the highest safety standards at our border.
    On the Senate side, the Senate Appropriations Committee reported 
out the FY 2002 Transportation Appropriations bill (S. 1178) last week, 
including in the bill several provisions drafted by Senator Patty 
Murray, Chair of the Transportation Appropriations Subcommittee, and 
ranking member Senator Richard Shelby, to address the issue of motor 
carrier safety with respect to Mexican cross-border truck and bus 
operations. TTD supports the Murray-Shelby measures which address most 
of our safety concerns.
    At this point, I would like to address some of our safety concerns 
with the cross border policy of this Administration. It is this 
Committee's responsibility to address safety on our nations roads and 
highways. Anything that might have a negative impact on safety ought to 
be addressed in an immediate and responsive way by the Congress and the 
Department of Transportation. The admittance of Mexico-domiciled motor 
carriers will change the landscape of our highways and we need to be 
prepared to integrate them into our system safely and without 
sacrificing the safety of the traveling public.
    In May of this year, the FMCSA published three notices of proposed 
rulemaking and requests for comments concerning procedures for the 
registration and safety monitoring of Mexico-domiciled carriers. Two of 
the rulemakings propose new forms for Mexico-domiciled motor carriers 
applying for operating authority in the commercial border zones and 
nationwide. The third rulemaking addresses the establishment of a 
safety oversight program. Without going into all the specifics of these 
rulemakings, suffice it to say these rulemaking are inconsistent with 
our long held views that Mexico-domiciled motor carriers should have to 
meet the same comprehensive safety standards that U.S. carriers must 
meet and should demonstrate compliance before being granted operating 
authority.
    Two years ago this committee held hearings on motor carrier safety 
and how to improve it. Those hearings led this committee to create the 
FMCSA to protect the safety of U.S. highways. At the time, TTD 
affiliates strongly supported strengthening the legislative and 
regulatory framework supporting the Department of Transportation's 
(DOT) safety programs which, prior to the FMCSA's creation, drew 
criticism from the Congress regarding its effectiveness. Today, the 
newly created FMCSA is still under pressure to increase resources to 
support a proper level of safety oversight and inspection and bring 
greater focus to issues such as the safety hazards posed by Mexico-
domiciled motor carriers entering our southern borders.
    Under statutory requirements,\3\ the agency is required to register 
only those motor carriers that can demonstrate that they are fit, 
willing, and able to comply with U.S. safety and financial 
responsibility requirements. Furthermore, the FMCSA is required to 
consider all available evidence and make a determination that the 
carrier is fit prior to issuing registration to operate in the United 
States. With these standards in mind, we believe the FMCSA does not 
have an adequate implementation plan in place to ensure that all 
Mexico-domiciled carriers meet these legal requirements.
---------------------------------------------------------------------------
    \3\ 49 U.S.C. Sec. 13902
---------------------------------------------------------------------------
    Moreover, the proposed safety monitoring rulemaking is supposed to 
enhance safety oversight but provides no indication as to how this is 
going to be accomplished and with what resources. Needless to say, 
without specific procedures outlined or any credible plan for a 
substantial increase of enforcement personnel along the border, these 
proposed new rules will fail to raise the bar on safety. It is also not 
clear when these rules would be implemented and whether they could be 
accomplished in the short time frame established by the Bush 
Administration for liberalizing cross-border truck and bus operations 
between the U.S. and Mexico.
    We also believe that the safety inspection process should occur 
even before motor carriers cross the border, with carrier audits being 
done even earlier. U.S. enforcement officials should be permitted to 
inspect truck and bus companies base operations in Mexico. These visits 
should include the evaluation of company safety management practices, 
knowledge of and compliance with U.S. regulations, vehicle inspections, 
and education of drivers, dispatchers, mechanics and management. These 
procedures would not be without precedent. The Federal Aviation 
Administration (FAA) safety authorities routinely inspect foreign 
airlines in the United States and abroad, to ensure these carriers are 
complying with safety regulations.
    Another deficient area in the proposed rules is the failure to deal 
effectively with bus issues. As detailed in the testimony of 
Amalgamated Transit Union (ATU) President Jim LaSala, the proposed 
rules fail to establish any plan or meaningful mechanism for monitoring 
the unique safety issues that exist for Mexico-domiciled passenger 
motor carrier operations. Mexican buses and passenger vans have safety 
problems similar to those of Mexican trucks. Very few are inspected and 
those that are have a much higher out-of-service rate compared to U.S. 
vehicles. Because buses and vans carry people, the Department of 
Transportation has always held these passenger motor carriers to the 
highest safety standards. We believe the same must be true for Mexican-
owned bus and van operations. There are a variety of unique and 
important passenger carrier issues that must be addressed including the 
threat to U.S. passengers from Mexican-owned or controlled passenger 
motor carrier companies operating buses domestically in the U.S., 
developing a clear system that ensures that all Mexican-manufactured 
buses entering the U.S. comply with relevant safety standards, and the 
increasing use of unsafe camioneta vans on our highways.
    These real unresolved safety concerns in the Administration's plans 
to the open the border are only compounded by an inadequate inspection 
force at the border that is completely unprepared for the influx of 
newly admitted carriers. Currently, less than one percent of the 4.5 
million motor carriers that enter the U.S. at our southern borders are 
inspected. Additionally, the number of federal inspectors at the border 
is less than half of the number that was estimated to be necessary in 
1998, and that number did not include the investigators that will be 
necessary for the agency to conduct its 18-month safety reviews. Also, 
only 2 of 27 border crossings have permanent inspection facilities, 
both of which are state facilities in California which is nationally 
recognized as already having a good inspection program. We believe that 
this situation along the border is inexcusable and gives a very clear 
indication that in no way will our government be prepared to open the 
border by the first of next year. Our position is that we must increase 
inspection resources to ensure every motor carrier entering the United 
States is inspected.
Conclusion
    Based on all the evidence that exists, it is clear that the U.S. is 
not prepared to step up to the myriad inspection and enforcement duties 
associated with permitting uninspected Mexican commercial traffic on 
our highways. The current bilateral process being employed by the U.S. 
and Mexico for the purpose of harmonizing standards and regulations is 
failing to produce satisfactory solutions to the many serious 
unresolved safety hazards along the border. Additionally, our 
government cannot ensure that Mexico-domiciled carriers will comply 
with all safety and health regulations, nor has it developed a safety 
enforcement implementation plan for safely opening the border. For 
these reasons, we believe it would be irresponsible for our government 
to expose U.S. highway users, including truck and bus drivers, to the 
safety threats posed by giving Mexico-domiciled carriers uninhibited 
access onto U.S. highways. We urge you to insist that the 
Administration reconsider its proposal to open the U.S.-Mexico border 
and work with TTD and our affiliated unions including the International 
Brotherhood of Teamsters and Amalgamated Transit Union to keep our 
border closed to unsafe motor carrier operations.
    Thank you again for giving us an opportunity to share our views on 
this important matter.
                                 ______
                                 
    Attachment 1
                             TTD AFFILIATES
    The following labor organizations are members of and represented by 
the TTD:

    Air Line Pilots Association
    Amalgamated Transit Union
    American Federation of State, County and Municipal Employees
    American Federation of Teachers
    Association of Flight Attendants
    American Train Dispatchers Department
    Brotherhood of Locomotive Engineers
    Brotherhood of Maintenance of Way Employes
    Brotherhood of Railroad Signalmen
    Communications Workers of America
    Hotel Employees and Restaurant Employees Union
    International Association of Fire Fighters
    International Association of Machinists and Aerospace Workers
    International Brotherhood of Boilermakers, Blacksmiths, Forgers and 
Helpers
    International Brotherhood of Electrical Workers
    International Brotherhood of Teamsters
    International Longshoremen's Association
    International Longshoremen's and Warehousemen's Union
    International Organization of Masters, Mates and Pilots, ILA
    International Union of Operating Engineers
    Marine Engineers Beneficial Association
    National Air Traffic Controllers Association
    National Association of Letter Carriers
    National Federation of Public and Private Employees
    Office and Professional Employees International Union
    Professional Airways Systems Specialists
    Retail, Wholesale and Department Store Union
    Service Employees International Union
    Sheet Metal Workers International Association
    Transportation
    Communications International Union
    Transport Workers Union of America
    United Mine Workers of America
    United Steelworkers of America

                                <greek-d>

</pre></body></html>
